<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR 2011</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



             DEPARTMENT OF DEFENSE APPROPRIATIONS FOR 2011

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED ELEVENTH CONGRESS
                             SECOND SESSION
                                ________
                         SUBCOMMITTEE ON DEFENSE
                  NORMAN D. DICKS, Washington, Chairman

 PETER J. VISCLOSKY, Indiana        C. W. BILL YOUNG, Florida
 JAMES P. MORAN, Virginia           RODNEY P. FRELINGHUYSEN, New Jersey
 MARCY KAPTUR, Ohio                 TODD TIAHRT, Kansas
 ALLEN BOYD, Florida                JACK KINGSTON, Georgia
 STEVEN R. ROTHMAN, New Jersey      KAY GRANGER, Texas
 SANFORD D. BISHOP, Jr., Georgia    HAROLD ROGERS, Kentucky             
 MAURICE D. HINCHEY, New York       
 CAROLYN C. KILPATRICK, Michigan    
 TIM RYAN, Ohio                     

 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
 Paul Juola, Greg Lankler, Sarah Young, Paul Terry, Kris Mallard, Adam 
                                Harris,
      Ann Reese, Brooke Boyer, Tim Prince, B G Wright, Chris White,
           Celes Hughes, and Adrienne Ramsay, Staff Assistants
       Sherry L. Young, and Tracey LaTurner, Administrative Aides
                                ________
                                 PART 3
                                                                   Page
 Department of Defense Budget Overview for Fiscal Year 2011.......    1
 Army and Marine Corps Ground Equipment...........................   75
 National Guard and U.S. Army Reserve Readiness...................  153
 National Capital Region..........................................  201
                                ________

         Printed for the use of the Committee on Appropriations
         PART 3--DEPARTMENT OF DEFENSE APPROPRIATIONS FOR 2011
                                                                      ?

             DEPARTMENT OF DEFENSE APPROPRIATIONS FOR 2011

_______________________________________________________________________

                                HEARINGS

                                BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED ELEVENTH CONGRESS
                             SECOND SESSION
                                ________
                         SUBCOMMITTEE ON DEFENSE
                  NORMAN D. DICKS, Washington, Chairman

 PETER J. VISCLOSKY, Indiana        C. W. BILL YOUNG, Florida
 JAMES P. MORAN, Virginia           RODNEY P. FRELINGHUYSEN, New Jersey
 MARCY KAPTUR, Ohio                 TODD TIAHRT, Kansas
 ALLEN BOYD, Florida                JACK KINGSTON, Georgia
 STEVEN R. ROTHMAN, New Jersey      KAY GRANGER, Texas
 SANFORD D. BISHOP, Jr., Georgia    HAROLD ROGERS, Kentucky            
 MAURICE D. HINCHEY, New York       
 CAROLYN C. KILPATRICK, Michigan    
 TIM RYAN, Ohio                     
                                    

 NOTE: Under Committee Rules, Mr. Obey, as Chairman of the Full 
Committee, and Mr. Lewis, as Ranking Minority Member of the Full 
Committee, are authorized to sit as Members of all Subcommittees.
 Paul Juola, Greg Lankler, Sarah Young, Paul Terry, Kris Mallard, Adam 
                                Harris,
      Ann Reese, Brooke Boyer, Tim Prince, B G Wright, Chris White,
           Celes Hughes, and Adrienne Ramsay, Staff Assistants
       Sherry L. Young, and Tracey LaTurner, Administrative Aides
                                ________
                                 PART 3
                                                                   Page
 Department of Defense Budget Overview for Fiscal Year 2011.......    1
 Army and Marine Corps Ground Equipment...........................   75
 National Guard and U.S. Army Reserve Readiness...................  153
 National Capital Region..........................................  201
                                ________

                     U.S. GOVERNMENT PRINTING OFFICE
 65-009                     WASHINGTON : 2011

                                  COMMITTEE ON APPROPRIATIONS

                   DAVID R. OBEY, Wisconsin, Chairman

 NORMAN D. DICKS, Washington        JERRY LEWIS, California
 ALAN B. MOLLOHAN, West Virginia    C. W. BILL YOUNG, Florida
 MARCY KAPTUR, Ohio                 HAROLD ROGERS, Kentucky
 PETER J. VISCLOSKY, Indiana        FRANK R. WOLF, Virginia
 NITA M. LOWEY, New York            JACK KINGSTON, Georgia
 JOSE E. SERRANO, New York          RODNEY P. FRELINGHUYSEN, New  
 ROSA L. DeLAURO, Connecticut       Jersey
 JAMES P. MORAN, Virginia           TODD TIAHRT, Kansas
 JOHN W. OLVER, Massachusetts       ZACH WAMP, Tennessee
 ED PASTOR, Arizona                 TOM LATHAM, Iowa
 DAVID E. PRICE, North Carolina     ROBERT B. ADERHOLT, Alabama
 CHET EDWARDS, Texas                JO ANN EMERSON, Missouri
 PATRICK J. KENNEDY, Rhode Island   KAY GRANGER, Texas
 MAURICE D. HINCHEY, New York       MICHAEL K. SIMPSON, Idaho
 LUCILLE ROYBAL-ALLARD, California  JOHN ABNEY CULBERSON, Texas
 SAM FARR, California               MARK STEVEN KIRK, Illinois
 JESSE L. JACKSON, Jr., Illinois    ANDER CRENSHAW, Florida
 CAROLYN C. KILPATRICK, Michigan    DENNIS R. REHBERG, Montana
 ALLEN BOYD, Florida                JOHN R. CARTER, Texas
 CHAKA FATTAH, Pennsylvania         RODNEY ALEXANDER, Louisiana
 STEVEN R. ROTHMAN, New Jersey      KEN CALVERT, California
 SANFORD D. BISHOP, Jr., Georgia    JO BONNER, Alabama
 MARION BERRY, Arkansas             STEVEN C. LaTOURETTE, Ohio
 BARBARA LEE, California            TOM COLE, Oklahoma            
 ADAM SCHIFF, California            
 MICHAEL HONDA, California          
 BETTY McCOLLUM, Minnesota          
 STEVE ISRAEL, New York             
 TIM RYAN, Ohio                     
 C.A. ``DUTCH'' RUPPERSBERGER,      
Maryland                            
 BEN CHANDLER, Kentucky             
 DEBBIE WASSERMAN SCHULTZ, Florida  
 CIRO RODRIGUEZ, Texas              
 LINCOLN DAVIS, Tennessee           
 JOHN T. SALAZAR, Colorado          
 PATRICK J. MURPHY, Pennsylvania    
                                    
                 Beverly Pheto, Clerk and Staff Director

                                  (ii)

 
             DEPARTMENT OF DEFENSE APPROPRIATIONS FOR 2011

                              ----------                              

                                         Wednesday, March 24, 2010.

       DEPARTMENT OF DEFENSE BUDGET OVERVIEW FOR FISCAL YEAR 2011

                               WITNESSES

HON. ROBERT GATES, SECRETARY OF DEFENSE
ADMIRAL MICHAEL MULLEN, USN, CHAIRMAN, JOINT CHIEFS OF STAFF
HON. ROBERT HALE, UNDER SECRETARY OF DEFENSE (COMPTROLLER)

                     Opening Statement of Mr. Dicks

    Mr. Dicks. The committee will come to order. This morning 
the committee will hold an open hearing on the fiscal year 2011 
Department of Defense budget request. We are pleased to welcome 
Secretary of Defense Robert Gates, Chairman of the Joint Chiefs 
of Staff Admiral Michael Mullen, and the Under Secretary of 
Defense, Comptroller, Robert Hale.
    More than anyone else, this group of people is qualified to 
speak for the Department regarding the content of the 
Department's budget request for fiscal year 2011. Secretary 
Gates has taken on a leading role in the budget formulation for 
his Department and has employed an extremely inclusive process 
in the development of the 2011 budget.
    Secretary Gates, Admiral Mullen, Mr. Hale, thank you all 
for being here this morning. Our soldiers, sailors, airmen, and 
Marines are performing very well in Iraq, Afghanistan, and in 
many other hot spots around the globe. In typical United States 
Armed Forces fashion, despite the conditions they operate 
under, we hear very few complaints from these exceptional 
personnel.
    However, the members of this committee are very concerned 
about providing the resources and equipment that these men and 
women require to continue to defend our great Nation. As the 
elected representatives of the citizens of the Nation, we owe 
it to our fellow citizens to ensure that our fathers, mothers, 
sons, and daughters are properly outfitted and cared for as 
they carry out their orders willingly and without question.
    We are looking forward to hearing about how you have chosen 
to recommend allocating the Nation's precious resources to 
ensure the national security of the United States. From 
personnel and daily operations to equipment procurement and 
health care, you are all charged with an incredible 
responsibility while serving as the caretakers of the Nation's 
Armed Forces. Gentlemen, we look forward to your testimony and 
to an informative question-and-answer session.
    Now, before we hear your testimony, I would like to call on 
the Ranking Member and former Chairman of this subcommittee, my 
good friend Bill Young, for his comments.
    Mr. Young.

                          Remarks of Mr. Young

    Mr. Young. Mr. Chairman, thank you very much. And I want to 
add my welcome to the Secretary and the Chairman and Under 
Secretary Hale.
    We have a major challenge this year in that there are so 
many things that need to be done. The budget request does not 
really, in my opinion, provide enough to do all of the things 
that we need to do. The budget request could be amended by the 
time it gets to the subcommittee. When the 302(a) allocations 
are handed down to the 302(b) levels, we are not exactly sure 
where we will be, but I am satisfied that my friend Mr. Obey 
will see to it that the necessary funds for national defense is 
made available to the subcommittee.
    We have talked so many, many times, but it is my opinion, 
and I think you all share that, that our defense needs should 
be based on threat; on the missions that we have to perform; on 
what our soldiers, sailors, airmen, Marines need in order to 
conduct the battle; and be based on threat rather than anything 
political. This subcommittee, since I have been a member of it, 
and that has been many, many years, has never been political.
    Mr. Dicks. That is correct.
    Mr. Young. Mr. Dicks and I have worked together for many 
years on a lot of very important issues, as did Mr. Murtha and 
I. Mr. Murtha--he was Chairman, then I was Chairman, then he 
was Chairman, then I was Chairman, then he was Chairman again--
and we always had just a tremendous working relationship where 
the needs of our military, the needs of our Nation were the 
priority in our minds.
    So we are anxious to hear what you have to say to us today. 
We follow your activities, your visits to the troops on a 
regular basis, and we just appreciate the really good job that 
you do. As Mr. Dicks said, it is important that we make sure 
that our military, that our troops have whatever training they 
need to do their job, whatever equipment that they need to 
accomplish their mission, and whatever the best we can provide 
them for force protection to make sure that they stay as 
healthy as possible while they are conducting these important 
missions.
    So, Mr. Chairman, thank you very much, and I look forward 
to the witnesses today.
    Mr. Dicks. Well, I appreciate your comments. And I think 
that Secretary Gates has also been at the forefront of trying 
to meet every need and requirement that the troops have. I 
think of MRAPs and body armor and other things. So, Mr. 
Secretary, Admiral Mullen, we appreciate your continued 
leadership and stewardship.
    I would like to call on the Ranking Member of the full 
committee Mr. Obey for any comments he would like to make.
    Mr. Obey. Did we lose the election?
    Mr. Dicks. Excuse me, the Chairman of the committee Mr. 
Obey. We have not lost it yet.

                          Remarks of Mr. Obey

    Mr. Obey. We are not going to either. I am used to this 
kind of calumny from the other side of the aisle.
    First of all, I simply would like to take a moment to note 
that this is the first overview hearing with DOD that is 
chaired by our new Chairman Norm Dicks. We are operating at 
somewhat of a disadvantage because he is very inexperienced. He 
has only been on this subcommittee 31 years, so he has a 
shortage of knowledge in terms of the issues at hand. But in 
all seriousness, I think people understand him to be a serious, 
dedicated, and tenacious Member of Congress, and I for one have 
a great deal of confidence in him.
    I also have a great deal of confidence in Mr. Young. There 
is not a finer human being in Congress than Bill Young. I am 
looking forward to watching both of them work together.
    Let me say, since I am going to have to leave in about 20 
minutes for another problem-resolving session, I do just want 
to make one point. When the House approved the administration's 
request for Afghan funding last year, we focused on two things 
when Mr. Murtha was still subcommittee Chairman. We were both 
hugely concerned not so much about the policy that you were 
trying to follow in Pakistan and Afghanistan, but we were 
concerned about the adequacy of the tools that you had to 
implement that policy, the two tools being the Afghan 
Government and the Pakistani Government. While we seem to have 
made some progress on the Pakistani side, the government seems 
to have a new-found determination to actually focus on the 
right threat, nonetheless we have some problems.
    Since I will not be here during the question period, I just 
want to put a series of questions to you now that I hope you 
will answer during the hearing. And then I would appreciate it 
if you would expand on those answers for the record before we 
deal with the supplemental.
    We have a request for a significant amount of increased 
funding for the Afghan Police for the training program. We are 
making a lot more progress, it appears to me, on the army side 
than we are on the police side in providing that training. So I 
would simply appreciate it if you would describe the program 
that the Department of Defense has in place to train the Afghan 
Army and the police. Would you describe the training program as 
successful to this point? Why or why not? Does the low literacy 
rate among Afghans significantly affect the content of the 
training? And how do we overcome that? To what extent do Afghan 
Security Forces participate in military operations? To what 
extent do they lead these operations?
    A September 2009 report by DOD inspector general found that 
the NATO training mission in Afghanistan led by General 
Caldwell only had about 51 percent of the field trainers needed 
to meet current requirements. Is that still the case? 
Commanders in theater indicate that developing indigenous 
leadership is key to foster unit cohesion, and maintaining 
discipline, and reducing corruption and promoting the 
operational success of Afghan Security Forces. What leadership 
development training is available for ANA and ANP? How long do 
you anticipate it will take to develop a self-sustaining 
leadership cadre for Afghan Security Forces? And several other 
questions that I do not want to take the time to read right 
now.
    But we have a serious decision to make coming up very 
shortly, and I think we need to have a full and detailed 
understanding of those issues before we move ahead on the 
supplemental.
    With that, Mr. Chairman, thank you for yielding the time. 
And again, I congratulate you on chairing your first hearing.
    Gentlemen, glad you are here.
    Mr. Dicks. Thank you, Mr. Chairman.
    Secretary Gates.

                  Summary Statement of Secretary Gates

    Secretary Gates. Thank you, Mr. Chairman.
    First of all, Mr. Chairman, Mr. Young, members of the 
committee, first let me offer the committee my condolences with 
respect to Chairman Murtha. I first started working with 
Chairman Murtha in 1984, 1985, and always had a great working 
relationship with him.
    I would like to congratulate you, Mr. Chairman, on your 
selection. I suppose I should note, as an aside, that virtually 
all of my very many in-laws all live in the Chairman's 
district.
    Mr. Dicks. We will treat them very respectfully.
    Secretary Gates. Thank you for the opportunity to appear 
before you to discuss the President's budget request for fiscal 
year 2011. I first want to thank you for your support of the 
men and women of the United States military these many years. 
These troops are part of an extraordinary generation of young 
Americans who have answered their country's call. They have 
fought our wars, protected our interests and allies around the 
globe, and, as we have seen recently in Haiti, they have also 
demonstrated compassion and decency in the face of 
incomprehensible loss.
    I have a brief opening statement to provide an overview of 
the budget requests. My submitted statement includes many more 
details that I know are of interest to the committee. The 
requests being presented today include $549 billion for the 
base budget, a 3.4 percent increase over last year, or a 1.8 
percent real increase after adjusting for inflation, reflecting 
the administration's commitment to modest, steady, and 
sustainable real growth in defense spending. We are also 
requesting $159 billion in 2011 to support overseas contingency 
operations, primarily in Afghanistan and Iraq, plus $33 billion 
for the remainder of this fiscal year to support the added 
financial costs of the President's new approach in Afghanistan.
    The base budget request reflects the following 
institutional priorities: first, reaffirming and strengthening 
the Nation's commitment to care for the All-Volunteer Force, 
our greatest strategic asset; second, rebalancing America's 
defense posture by emphasizing capabilities needed to prevail 
in current conflicts while enhancing capabilities that may be 
needed in the future; and third, continuing the Department's 
commitment to reforming how DOD does business, especially in 
the area of acquisitions.
    Finally, the commitments made and the programs funded in 
the OCO and supplemental requests demonstrate the 
administration's determination to support our troops and 
commanders in combat so they can accomplish their critical 
missions and come home safely.
    The budget continues the Department's policy of shifting 
money to the base budget for enduring programs that directly 
support our warfighters and their families, whether on the 
battlefield, recovering from wounds, or on the home front, to 
ensure that they have steady, long-term funding and 
institutional support.
    The base budget request was accompanied and informed by the 
2010 Quadrennial Defense Review, which establishes strategic 
priorities and identifies key areas for needed investment. The 
2010 QDR and fiscal year 2011 budget build upon the substantial 
changes the President made in the fiscal year 2010 budget 
request to allocate defense dollars more wisely and reform the 
Department's processes. The fiscal year 2010 budget proposals 
cut, curtailed, or ended a number of programs that were either 
performing poorly or in excess of real-world needs. Conversely, 
future-oriented programs where the U.S. was relatively 
underinvested were accelerated or received more funding.
    The fiscal year 2011 budget submissions and QDR are 
suffused with two major themes. The first is continued reform, 
fundamentally changing the way this Department does business, 
the priorities we set, the programs we fund, the weapons we 
buy, and how we buy them. Building on the reforms of last 
year's budget, the fiscal year 2011 request takes additional 
steps aimed at programs that were excess or performing poorly. 
They include terminating the Navy EP(X) intelligence aircraft; 
ending the Third Generation Infrared Surveillance program; 
canceling the Next Generation Cruiser; terminating the Net 
Enabled Command and Control program; ending the Defense 
Integrated Military Human Resources System, due to cost 
overruns and performance concerns; completing the C-17 program 
and closing the production line, as multiple studies in recent 
years show the Air Force already has more of these aircraft 
than it needs; and ending the alternate engine for the F-35 
Joint Strike Fighter, as whatever benefits might accrue are 
more than offset by excess costs, complexity, and associated 
risks.
    I am fully aware of the political pressure to continue 
building C-17s and proceed with an alternate engine for the F-
35, so let me be very clear. I will strongly recommend that the 
President veto any legislation that sustains the unnecessary 
continuation of these two programs.
    Before closing, I would like to provide an update on the F-
35 fighter program, which I know is of great interest and 
concern to this committee. In response to what I consider to be 
unacceptable delays and cost overruns over the past year, this 
Department has taken a number of steps to fundamentally 
restructure this program.
    First, the program is now based on numbers, costs, and 
schedules estimates from Joint Estimating Team, an independent 
body known for its rigorous and skeptical assessments. Based on 
the new JET estimates, we reduced the number of aircraft being 
purchased concurrent with testing and development. While 
delaying full-scale production was not a welcome development, 
to put it mildly, it was important to avoid a situation where a 
problem discovered in testing would lead to expensive retrofits 
of aircraft, the most common reason for delays and cost 
overruns in these kinds of programs. Correspondingly, we have 
added more aircraft to the testing program, which we believe 
will reduce the projected delay from 30 months to 13. These 
changes amount to a brutally realistic assessment of cost and 
schedule, one that I believe should stand the test of time and 
the legitimate scrutiny of the Congress and the taxpayer.
    Furthermore, with respect to accountability, I have 
replaced the Joint Strike Fighter program manager and elevated 
that position to a three-star billet, while withholding more 
than $600 million in performance fees from the lead contractor. 
It is important to remember that the F-35's cost and schedule-
related issues, and I regard them as serious to be sure, are 
problems primarily related to program administration and 
management, not the technology or capabilities of the aircraft. 
The Joint Strike Fighter will do everything the military 
services need it to do, and it will become the backbone of U.S. 
air combat for the next generation.
    In closing, I would like to offer two thoughts to consider 
when assessing the U.S. investment in national defense. First, 
the requests submitted this week total more than $700 billion, 
a massive number to be sure. But at 4.7 percent of gross 
domestic product, it represents a significantly smaller portion 
of national wealth going to defense than was spent during most 
of America's previous wars. And the base budget represents 
about 3.5 percent of GDP.
    Second, as you recently read, the President has exempted 
the defense budget from spending freezes being applied to other 
parts of the government. It is important to remember, however, 
that, as I mentioned earlier, this Department undertook a 
painstaking review of our priorities last year, and as a result 
cut or curtailed a number of major programs. These programs, 
had they been pursued to completion, would have cost the 
American taxpayer about $330 billion.
    In closing, Mr. Chairman, my thanks to you and members of 
this committee again for all that you have done to support our 
troops and their families, especially in light of unprecedented 
demands that have been placed upon them. I believe the choices 
made and priorities set in these budget requests reflect 
America's commitment to see that our forces have the tools they 
need to prevail in the wars we are in while making the 
investments necessary to prepare for threats on or beyond the 
horizon.
    Thank you.
    [The statement of Secretary Gates follows:]

    [GRAPHIC] [TIFF OMITTED] T5009A.001
    
    [GRAPHIC] [TIFF OMITTED] T5009A.002
    
    [GRAPHIC] [TIFF OMITTED] T5009A.003
    
    [GRAPHIC] [TIFF OMITTED] T5009A.004
    
    [GRAPHIC] [TIFF OMITTED] T5009A.005
    
    [GRAPHIC] [TIFF OMITTED] T5009A.006
    
    [GRAPHIC] [TIFF OMITTED] T5009A.007
    
    [GRAPHIC] [TIFF OMITTED] T5009A.008
    
    [GRAPHIC] [TIFF OMITTED] T5009A.009
    
    [GRAPHIC] [TIFF OMITTED] T5009A.010
    
    [GRAPHIC] [TIFF OMITTED] T5009A.011
    
    Mr. Dicks. Admiral Mullen.

                  Summary Statement of Admiral Mullen

    Admiral Mullen. Thank you, Mr. Chairman. I, too, would like 
to add my congratulations for your assumption of the chair of 
this critical committee.
    Distinguished members of the committee, thank you for the 
chance to appear before you and discuss the state of our 
military as well as the President's fiscal year 2011 budget 
submission. I also thank you all for the extraordinary support 
you provide each and every day to our men and women in uniform 
as well as their families. That they are well equipped, well 
trained, well paid and enjoy the finest medical care anywhere 
in the world is testament in no small part to your dedication 
and your stewardship.
    It is also, and I know you will agree, a testament to 
Chairman Murtha's leadership in this committee over the course 
of many years. In him our troops had no greater champion. For 
him and his family we still grieve, and we offer our 
condolences to all of you. We know you share his great concern 
and his profound respect for those who serve.
    Speaking on their behalf, I can tell you that all they want 
right now is guidance on the mission before them and the tools 
to accomplish it. That is why I am here today, to talk about 
the guidance they are getting from this Department and to 
secure your continued support for the tools we want to give 
them.
    Secretary Gates has already walked you through the major 
components of the Quadrennial Defense Review and the 
President's fiscal year 2011 defense budget submission, both of 
which, when combined with the new Ballistic Missile Defense 
Review and our Overseas Contingency Operations Fund requests, 
build upon the reform effort of last year and represent as 
comprehensive a look at the state of our military as I have 
seen in my more than 40 years of service. I will not endeavor 
to repeat his excellent summation, and I would ask you to 
accept without further comment my endorsement of the findings 
contained in each of these documents.
    Let me leave you, rather, with three overarching things to 
consider as you prepare to debate this budget request. First, 
there is a real sense of urgency here. We have more than 
190,000 troops deployed in harm's way right now, and that 
number includes only those in Operations Iraqi Freedom and 
Enduring Freedom. Another 150,000 or so are meeting our 
security commitments elsewhere around the globe, and many of 
those missions are no less dangerous, certainly no less 
significant.
    I am sure you have stayed abreast of our relief efforts in 
Haiti, where more than 4,000 of your soldiers, sailors, 
Marines, airmen, and coastguardsmen are still pitching in to 
help alleviate the suffering of the Haitian people. It has been 
a truly interagency and an international mission. And as the 
capabilities of our partners increase, we would expect to 
continue assessing the need for U.S. forces on the ground. 
Decisions to redeploy will be made on a case-by-case basis, but 
we remain committed to doing what is required where and when it 
is required to support the Government of Haiti, USAID and the 
United Nations mission there.
    We also continue to do what is required to win the wars we 
fight, and the one that needs fighting the most right now is in 
Afghanistan. You have seen the reports out of Marjah, where 
coalition and Afghan troops have made real headway against a 
stiffening Taliban resistance, and where General McChrystal has 
been steadfastly applying a populationcentric strategy of 
counterinsurgency warfare with great effect. We have also moved 
nearly 10,000 troops to Afghanistan in accordance with the 
President's strategy, and expect that about 18,000 of his 
December 1st commitment will be there by late spring. The 
remainder of the 30,000 will arrive as rapidly as possible over 
the summer and early fall, making a major contribution to 
reversing Taliban momentum in 2010. Indeed, by the middle of 
this year, Afghanistan will surpass Iraq for the first time 
since 2003 as the location with the most deployed American 
forces.
    Right now the Taliban still believe they are winning. 
Eighteen months from now, if we have executed our strategy, we 
will know they are not, and they will know that they cannot. 
Getting there will demand discipline and hard work. It will 
require ever more cooperation with Pakistan, with whose leaders 
we are meeting this week. And it will more assuredly demand 
more sacrifice and more bloodshed. But the stakes are too high 
for failure. That is why we are asking you to fully fund our 
fiscal year 2010 supplemental and the fiscal year 2011 overseas 
contingency operations request. It is why we want a 6 percent 
increase for Special Operations Command. And it is why we need 
your support to develop and field a next-generation ground 
combat vehicle, to allow us to grow two more Army combat 
aviation brigades, and to continue rotary wing production, 
including nearly $3 billion for the V-22 Osprey program.
    In keeping with the Secretary's strong emphasis on ISR, an 
emphasis more than justified by our long experience in Iraq and 
Afghanistan, we are asking for more capability in unmanned 
aircraft and ground-based collection systems, including nearly 
$3 billion to double the procurement rate of the MQ-9 Reaper by 
fiscal year 2012.
    Our future security is greatly imperiled if we do not win 
the wars we are in. As the QDR makes clear, the outcome of 
today's conflicts will shape the global security environment 
for decades to come. I am very comfortable that we can and will 
finish well in Iraq, remaining on pace to draw down American 
forces to roughly 50,000, ending our combat mission there and 
transitioning to an advise-and-assist role. But without your 
continued support, we will not be able to show the meaningful 
progress in Afghanistan that the Commander in Chief has 
ordered, the American people expect, and the Afghan people so 
desperately need.
    This is no mission of mercy; this is the place from which 
we were attacked in 2001, the place from which al Qaeda still 
plots and plans. The security of a great Nation, ours and 
theirs, rests not on good intentions, but on what ought to be a 
cold and unfeeling appraisal of self-interest and an equally 
cold and unfeeling pursuit of the tools to protect that 
interest, ours and theirs.
    That leads me to the second thing I would like you to 
consider, proper balance. Winning our current wars means 
investment in hard-won irregular warfare expertise, a core 
competency that should be institutionalized and supported in 
coming years, and we are certainly moving in that direction. 
But we must also maintain conventional advantages. We still 
face traditional threats from regional powers who possess 
robust regular and in some cases nuclear capabilities. These 
cannot be ignored.
    The freedom to conduct operations in support of joint, 
allied, and coalition efforts, assuring access and projecting 
combat power can only be preserved through enduring warfighting 
competencies. In the air, this means sufficient strike aircraft 
and munitions capable of assuring air superiority. At sea, it 
means having enough ships and enough sailors to stay engaged 
globally and keep the sea lanes open. On the ground, it means 
accelerating the modernization of our combat brigades and 
regiments. On the whole, it means never having to fight a fair 
fight.
    Thus, the President's budget requests will buy another 42 
F-35s. It will maintain a healthy bomber industrial base, and 
will fund development of a prompt global strike system, as well 
as efforts to upgrade our B-2s and B-52s. For ship 
construction, the spending plan totals some $16 billion, 
procuring nine new ships in 2011, including two Arleigh Burke 
destroyers, two Virginia Class submarines, two Littoral Combat 
Ships, and a brand new Amphibious Assault Ship. It puts the 
Navy on track to maintain aircraft carrier production on a 5-
year build cycle, resulting in a long-term force structure of 
10 carriers by 2040.
    Our budget requests also seek $10 billion for ballistic 
missile defense programs, including 8.4 for the Missile Defense 
Agency. And it devotes ample resources to improving our 
cyberdefense capabilities.
    Again, it is about balance, it is about deterring and 
winning the big and the small wars, the conventional and the 
unconventional; two challenges, one military. But where balance 
is probably most needed is in the programs and policies 
concerning our most important resource, our people. And that is 
my final point.
    This QDR and this budget builds upon superb support you and 
this Department have provided our troops and their families for 
much of the last 8 years. Stressed and strained by nearly 
constant combat, many of them on their fifth, sixth and some 
even their seventh deployments, our men and women are without 
question, and almost inexplicably, the most resilient and 
battle-ready force in our history. On the one hand, we keep 
turning away potential recruits, so good is our attention and 
so attractive is our career opportunities. On the other hand, 
we keep seeing an alarming rise in suicides, marital problems, 
prescription drug addictions, and mental health problems.
    Debra and I meet regularly with young troops and their 
spouses, and, though proud of the difference they know they are 
making, they are tired. Quite frankly, many of them are worried 
about their futures, their livelihoods, their children. And so 
you will see in this budget nearly $9 billion for family 
support and advocacy programs. You will see child care and 
youth programs increased by $87 million over the last year. And 
you will see a boost in warfighter and family services to 
include counseling to the tune of $37 million. Military spouse 
employment will get a $12 million plus-up, and we will increase 
the budget to $2.2 billion for wounded, ill, and injured 
members. In fact, the health care funding level for fiscal year 
2011 is projected to provide high-quality health care for 9.5 
million eligible beneficiaries.
    Lastly, we are pushing to dramatically increase the number 
of mental health professionals on staff and advance our 
research in traumatic brain injuries and post-traumatic stress. 
We know the strain of frequent deployments causes many 
problems, but we do not yet fully understand how or what or to 
what extent. So even as we work hard to increase dwell time, 
aided by the additional temporary end strength you approved 
last year for the Army, we will work equally hard to decrease 
the stress of modern military service. Indeed, I believe over 
time when these wars are behind us, we will need to look 
closely at the competing fiscal pressures that will dominate 
discussions of proper end strength and weapons systems. A force 
well suited for long-term challenges and not necessarily 
married to any current force planning construct will remain 
vital to our national security.
    Mr. Chairman, members of this committee, thank you again 
for your time and long-standing support to the men and women of 
the United States Armed Forces. They and their families are the 
best I have ever seen. On their behalf, I stand ready to answer 
your questions.
    Mr. Dicks. Admiral, thank you for that comprehensive 
opening statement.
    [The statement of Admiral Mullen follows:]

    [GRAPHIC] [TIFF OMITTED] T5009A.012
    
    [GRAPHIC] [TIFF OMITTED] T5009A.013
    
    [GRAPHIC] [TIFF OMITTED] T5009A.014
    
    [GRAPHIC] [TIFF OMITTED] T5009A.015
    
    [GRAPHIC] [TIFF OMITTED] T5009A.016
    
    [GRAPHIC] [TIFF OMITTED] T5009A.017
    
    [GRAPHIC] [TIFF OMITTED] T5009A.018
    
    [GRAPHIC] [TIFF OMITTED] T5009A.019
    
    [GRAPHIC] [TIFF OMITTED] T5009A.020
    
    [GRAPHIC] [TIFF OMITTED] T5009A.021
    
    [GRAPHIC] [TIFF OMITTED] T5009A.022
    
    [GRAPHIC] [TIFF OMITTED] T5009A.023
    
    [GRAPHIC] [TIFF OMITTED] T5009A.024
    
    [GRAPHIC] [TIFF OMITTED] T5009A.025
    
    [GRAPHIC] [TIFF OMITTED] T5009A.026
    
    [GRAPHIC] [TIFF OMITTED] T5009A.027
    
    [GRAPHIC] [TIFF OMITTED] T5009A.028
    
    [GRAPHIC] [TIFF OMITTED] T5009A.029
    
    [GRAPHIC] [TIFF OMITTED] T5009A.030
    
    Mr. Dicks. Mr. Hale, do you have any?
    Mr. Hale. I do not.

                          AFGHANISTAN THEATER

    Mr. Dicks. All right. Secretary Gates, several members of 
this committee were on a recent trip to Afghanistan and 
Pakistan. This was at the time of the Marines' deployment in 
Marjah. Our impression was that went very well. We were 
concerned about the governance and the assistance to the people 
there in that area. Can you tell us how that is going?
    Secretary Gates. I think that part of shaping the 
battlefield in the weeks and months before the operation began, 
a big part of the focus was on both our own civilian capacity 
and that of the Afghan Government to come in behind our troops 
in the hold and build phases of the operation. So I would say 
that this is one of those areas where first of all, we have a 
very good provincial governor in Helmand Province. And a lot of 
effort was made to bring in the right kind of people from Kabul 
and also from the provincial government so that they could 
follow in behind our troops. And my impression is that part of 
the operation has gone very well. I do not know if Admiral 
Mullen has anything to add.
    Admiral Mullen. I would reemphasize certainly the plan was 
to bring in--as it was actually last July to generate 
capability in another part of Helmand when the Marines went 
in--to bring in governance immediately behind the troops. That 
has happened in Marjah. I think we are still in the nascent 
stages of that. I know President Karzai has visited that area 
and has certainly heard the local people from Marjah and what 
they need from their government. And that has had a--from what 
I understand in discussions with General McChrystal--a very 
powerful impact on him. And we know that that is a very 
critical part of the long-term success here. So the people were 
ready to go. This was not just our military people, but on the 
civilian side there was a significant number of our civilians 
and international civilians who understand this and are 
pitching in to make this happen. I think it is early to really 
see how effective it is going to be.

                   AFGHANISTAN GOVERNMENT ASSISTANCE

    Mr. Dicks. In Iraq we had a great difficulty of getting 
nonmilitary people into positions of helping the government, 
working with the people. That seems to be going a lot better 
recently. Can you explain that, Secretary Gates?
    Secretary Gates. As I recall the statistics, a year or so 
ago, although we had a formal civilian contingent in 
Afghanistan and the embassy of about 350, in fact there were 
only about 250 people on the ground in the embassy. That number 
has now been almost quadrupled. There are somewhere between 900 
and 1,000 U.S. State Department, AID, Agriculture, other 
civilians in the embassy, in the PRTs now.
    So to be honest, there will never be as many civilians as 
we need, just as no commander will ever have all the troops he 
feels he needs or wants. But there has been a dramatic increase 
in the number of civilians, and those increases are continuing.

                          PAKISTAN GOVERNMENT

    Mr. Dicks. The other thing that I was impressed with is the 
commitment of the Pakistan Government and military in the last 
10 months and their military operations in Swat, in southern 
Waziristan. I was even impressed yesterday in a briefing from 
General Kiyani that they are doing a lot more in the northern 
part of Waziristan. I know that Admiral Mullen in particular 
has worked very closely with General Kiyani, and I know that 
McChrystal and Petraeus also have. But it seems like this is 
moving in the right direction. What is your take on that?
    Secretary Gates. Let me just comment briefly and then turn 
to Admiral Mullen, because he has, I think, at this point made 
16 or 17 trips to Pakistan in the last couple of years.
    It has really been extraordinary, in my view, seeing what 
Pakistan has done over the last really more than a year in 
terms of becoming engaged, in terms of their operations, in 
terms of understanding that they now face an existential threat 
in this area of people who want to destabilize that government 
and overthrow the Government of Pakistan and replace it with an 
Islamic fundamentalist radical regime. They understand this. 
Their civilian government understands this. And their troops 
have paid a heavy price for these operations. They have 
suffered thousands of casualties in recent years in taking on 
these guys.
    But the Pakistanis, in my view, in the last months not only 
have become much more aggressive and active on their side of 
the border, there is a developing partisanship or relationship 
with General McChrystal in terms of coordinating what is going 
on on both sides of that border that I think represents a 
hugely salutary development.
    Admiral Mullen. Sir, I would only add that the Pak military 
has worked hard, first of all, to get the support of the 
Pakistani people, and that was very low a couple of years ago, 
and now it is exceptionally high. By most counts they have 
taken on nine separate campaigns over the last 12 to 18 months, 
most recently through South Waziristan and Swat. I have been 
through Swat with General Kiyani, spent all day there, and they 
truly turned that place around, I mean literally rid them of 
the insurgents.
    The challenge now is to build. It is the same challenge you 
have in any counterinsurgency. His force is actually stationary 
there because he has got to hold until a government can come in 
behind him and start to build the institutions that will 
sustain the effort so far and meet the people's needs.
    The strategic dialogue--you took a briefing yesterday, many 
Members of Congress did--the strategic dialogue that we are 
having this week, led by their Foreign Minister, Foreign 
Minister Qureshi, is a huge step forward in terms of 
strengthening the partnership. And it is a partnership. General 
Kiyani has moved troops from east to west. He has trained his 
people in counterinsurgency. He has had a huge impact where 
they have fought. He has limits. He still has got an eastern 
front. They are very focused on India. Some of us may not think 
that is a priority. I assure you they do in Pakistan. And they 
get to choose; it is their country. So they changed 
dramatically in the last couple of years. Still an awful long 
way to go. And it is an existential threat, and they recognize 
that.
    And the only other thing I would emphasize is this 
synchronization across the border. When I have been asked 
historically, how do you eventually get at al Qaeda, it is this 
synchronization which Generals Kiyani and Petraeus and 
McChrystal have really started to move forward on. And we see 
the impact of that. It is not going to happen overnight, but it 
is a matter of us building trust in the relationship. We are 
working hard on that. It is coming back. And we have had an 
impact on that border area, and we will continue to do that.
    Mr. Dicks. I am going to call on Mr. Young, but I just make 
this one point. I also think that our Intelligence Community 
has played a big role in this, and the going after al Qaeda and 
the Taliban in the Federally Administered Tribal Area. I just 
hope we can carry that further to Quetta, where there are still 
a number of people, Afghan leaders of the Taliban, who live in 
Pakistan. It is something that I did not fully appreciate. But 
that is an area that we have to deal with as well.
    Mr. Young.

                     JOINT STRIKE FIGHTER SCHEDULE

    Mr. Young. Mr. Chairman, thank you very much.
    Mr. Secretary, I think you might have anticipated some of 
my questions when you talked about the F-35. And you preempted 
some of my questions because you answered already. But I 
remember one of the very first hearings that I ever sat through 
on this subcommittee, and a Marine told me and he told the 
committee that he said, look, we will go anywhere you want us 
to go, we will fight any battle you want us to fight. Just make 
sure that the airplane overhead is an American airplane. And I 
think that is a reasonable request. An F-35, of course, is a 
very, very important part of that plan.
    So I am curious. There have been delays and slips and IOC 
changes. How confident are you that the 2-year IOC we are 
talking about now, or the 1\1/2\ years for the Navy IOC, how 
confident are you that we will be able to maintain those 
projected dates?
    Secretary Gates. Let me first, Mr. Young, talk about where 
we are in terms of the dates with taking into account the slips 
that we have talked about. First, the training squadron for the 
F-35s will still show up at Eglin in 2011. The Marines will get 
their F-35s in 2012 and will have IOC in 2012. The Air Force 
will begin getting its F-35s in 2013, and the Navy in 2014. 
Both would tell you today that their full IOC will be in 2016.
    Mr. Young. How confident are you that we are going to meet 
this? See, that is my question. How confident are you that we 
are going to meet those dates?
    Secretary Gates. There are two things that I would say give 
me confidence. One is these cost estimates are now based on two 
successive Joint Estimating Team efforts. Frankly, part of the 
problem that we have faced in this program is overly rosy 
forecasts by the program office itself. So what our estimates 
are now based on is this independent estimating team that, in 
fact, that kind of independent costing role was part of the 
Acquisition Reform Act that the Congress passed last year. Now 
that is required. So I think these estimates are much more 
realistic.
    Second, the Under Secretary for Acquisition, Technology, 
and Logistics took a considerable amount of time, a number of 
weeks, to go through this program chapter and verse and to 
figure out what needed to be done in terms of restructuring. 
And to tell you the truth, there are some aspects of monitoring 
these contracts that we have not done very well on. One of the 
things that I was briefed on that just drove me nuts is that we 
have a factory in which about 6 percent of the floor space is 
used by the F-35 program compared to other aircraft programs, 
and we are paying 70 percent of the overhead for that factory. 
I think we can fix that.
    So I have confidence because of these estimates, but I also 
would say we have some history to go on here. With both the F-
22 and the C-17, these both were aircraft that had significant 
development problems at the beginning of those efforts. What 
happened eventually in those programs is exactly what we are 
doing now. We cut the number of aircraft that we were going to 
full production on before the development program was 
completed, and we extended the development program itself. Both 
of those programs, I think everybody would agree those are 
great aircraft, and they both had similar problems. That is 
what you have when you have high-tech combat aircraft programs 
like this.
    There are no guarantees in any of this, but based on 
everything that I have seen, I have confidence that the range 
of cost estimates and timing that is being described and 
presented to me today will, in fact, be executed.
    Admiral Mullen. Just one brief comment, sir. The individual 
who is nominated, or the name I know of to be nominated, to run 
that program is, at the three-star level--is an exceptional 
individual, one of the best program executives I have ever 
known. And from my perspective, there is additional confidence 
based upon his skill set.
    Secretary Gates. I would also say, Mr. Young, between 
firing the program manager and holding out $615 million from 
Lockheed, I think we got their attention.

                    TACTICAL AIRCRAFT LIFE EXTENSION

    Mr. Young. We did take note of that. I thought that was a 
constructive step.
    Now, with the extension of the IOCs, what about the F-15, 
F-16, F-18? Are we going to have to do anything on a service 
life extension program or any major changes other than regular 
maintenance for those aircraft?
    Secretary Gates. Let me just speak to the F-18s. We have 
quite a bit of money in this budget for additional F-18s, 
particularly the G model.
    Mr. Young. New aircraft.
    Secretary Gates. New aircraft. That line will remain open 
through 2013, and we will consistently be reassessing where we 
are in this. But with respect to the F-18s, we are continuing 
to buy. And my understanding is we are talking with the 
contractor.
    One of the questions I got back in January was about why we 
did not go to multiyear contracts as opposed to single-year 
contracts. And frankly, the costs were such that we did not see 
enough benefit from the long-term commitment of capital, if you 
will. The contractors come back to us with some interesting 
proposals, and we are now looking at a multiyear contract with 
respect to the F-18s.
    Admiral Mullen. We are very focused on what we can do to 
extend lives of airplanes in terms of modernization. On the F-
18 side, there was at one point in time a desire to extend them 
out to upwards of 10,000 flight hours. Essentially, the 
analysis showed we could not get there. So we are going to 
maximize the opportunity to extend those.
    The F-18 problem really does not get critical until 2015, 
2016, 2017 time frame. So we will know a lot more about JSF at 
that particular point in time and can adjust.
    As far as the F-16s are concerned, we are at a time where 
the Chief of the Air Force, General Schwartz, in order to 
recapitalize his fleet, he has really got to cash in, he has 
really got to decommission older airplanes, but also focus on 
getting as much out of the ones that we have as we possibly 
can. There is an extraordinary amount of attention being paid 
to this overall Strike Fighter issue across the Department.
    Mr. Dicks. Just briefly, there was a center barrel 
replacement program, right, on the Marine Corps aircraft at one 
point?
    Admiral Mullen. Yes, sir. Not early in the overall program, 
but a few years ago there was, yes, sir, for F-18s.
    Mr. Dicks. Is that still a problem?
    Admiral Mullen. Not to my knowledge. I mean, that program 
was done. It was done on the aircraft that we needed that had 
center barrel cracks, and those were replaced.
    Mr. Dicks. I think we have given you multiyear authority, 
too, by the way. I think Congress has.
    Admiral Mullen. As the Secretary said, it is this issue of 
what is the value of that? If you have a 5-year--historically, 
if you have a 5-year contract, you really can generate unit 
savings. But if you are just doing it 1 or 2 years out, there 
just is not much there. I think that is really where we were 
with a goal to, quite frankly, end this production line at a 
certain time in the near future. And yet now it is really left 
open as a hedge as we--and one of the reasons as we move 
through this critical time in the development of JSF.

                              SHIPBUILDING

    Mr. Young. Along the same lines of the discussion of the 
aircraft, shipbuilding. We are determined to go to a 313-ship 
Navy, but it requires 10 to 11 ships a year in order to reach 
that goal by a certain time. This year's budget request is a 
little short on that 10 to 11. I think you are only including 
nine ships in the budget request this year. If we only do 9 
ships compared to the 10 to 11 that are projected needed to get 
to the 313 ships, how long does that extend the time period 
before we achieve the 313-ship Navy?
    Admiral Mullen. In fact, when I was CNO, I did that study, 
and it was the floor. It was, in my view, the lowest number we 
need in our Navy to handle the global security interests that 
are out there. And I think today we are at 283. Actually, when 
we were doing that, we were on a glide slope to be around 240, 
depending upon what your assumptions were, 240 ships. So I am 
actually pleased that we have been able to reverse that.
    But this math, which you can do as you have done, Mr. 
Young, pretty clearly, you have got to have 10 to 11 a year if 
you are going to get to 300-plus. There is an awful lot of work 
to do that. In the end it is a matter of affordability and 
investment. And it is going to take--there is a significant 
amount of money, I think I said $16 billion this year, and it 
is going to take--and I have looked at many ways to do this 
over the years--but it is going to take a significant amount of 
investment to reach that. And on balance, while I have talked 
about the balance in the budget, this year that is where the 
money went.
    There is more production capacity in the industrial base, 
an industrial base that I have been concerned about for a long 
time, but to get to that it is going to take another 3- to 4- 
to $5 billion a year investment to really generate that Navy. 
And that is a huge challenge.
    Secretary Gates. I would just add one additional point, Mr. 
Young, because many of you will still be here in the latter 
part of this decade. But the Department of Defense and you and 
the Nation are going to face a very difficult choice toward the 
end of this decade. One of the new program starts in the fiscal 
year 2011 budget is for the next-generation ballistic missile 
submarine. And when that program really begins to ramp up in 
the latter part of this decade, it will suck all the air out of 
the Navy shipbuilding program. And so some tough choices are 
going to have to be made either in terms of more investment or 
choices between the size of surface fleet you want and the 
submarine fleet.
    Mr. Young. Mr. Chairman, just one more question, and that 
is are we still determined that a 313-ship Navy is necessary?
    Admiral Mullen. Yes, sir. We are. I mean, the analysis, 
extensive analysis, and Admiral Roughead after me, looked at 
this. And again, from my perspective that is the floor, that is 
the minimum to meet the security requirements that are out 
there.
    Mr. Young. We need to all work together to get ramped up to 
achieve that goal.
    Mr. Chairman, thank you very much.
    Mr. Dicks. Mr. Visclosky.

                BALLISTIC MISSILE SUBMARINE REPLACEMENT

    Mr. Visclosky. Chairman, thank you much.
    Gentlemen, thank you very much. If I could follow up on Mr. 
Young's line of questioning. Mr. Secretary, right at the end 
you said Congress is going to have to make a decision as to the 
type of Navy and number of ships we want. Admiral Mullen has 
said several times this morning that 313 is the floor. 
Anticipating that if it is $7 billion a copy that the boomers 
are going to suck the juice out of the Navy's budget, what is 
the administration doing this year to anticipate that and build 
that into their budget request for a 313-ship Navy?
    Secretary Gates. Well, what the plans that we have been 
working on with the Navy would, in fact--and I cannot remember 
the exact year, but around 2015 would ramp the Navy up to 10 or 
11 ships a year. But as I say, we are looking well beyond the 
Future Year Defense Program that goes out to 2015, and some 
difficult choices are going to have to be made at that point in 
terms of either more investment when we start building these 
SSBNs.
    Mr. Hale. We average 10 ships a year in the 5-year period 
in this budget, but as the Secretary said, the SSBN problem is 
really at the end of this decade.
    Mr. Visclosky. That is my question to the administration; 
are you anticipating that, how are you building that in? 
Because this year we are told we would hit our target in 2020. 
Two years ago we were told we would hit in 2019. The year 
before that, it was 2016. Now, you talk about whether any of us 
are going to be here at the end of the decade. I do not know 
the number in the administration's proposal in 2000, but I 
assume we were going to hit a 313-ship Navy sometime in this 
past decade. And my concern looking ahead, knowing that a sub 
is going to suck the air out of the Navy's budget and that we 
would have to ramp up, if the Navy believes they need--and I do 
not know what the right number is, but if the Navy--I am just 
very concerned that every year this subcommittee hears exactly 
the same testimony, and that chart keeps moving to the right 
every year.
    Admiral Mullen. I think, sir, you would see that not just 
in shipbuilding, but in a lot of other projections. It is 
always rosier in the outyears than the FYDP. In the end, and I 
think the Secretary laid it out very clearly, I think one way 
this budget starts to get at that is to lay in the money--the 
initial money for the SSBN. And I think that is really 
critical. I think doing that with this, literally, red flag, 
this warning, that should conditions sort of remain the same, 
it will end up eating a significant amount of the shipbuilding 
budget, and you trade--typically inside a fixed budget you 
trade that off against other submarines or other surface ships. 
You typically do not trade it off against the carriers and the 
big decks. So that is what we have done historically. And I 
think you pose a great question that we all have to figure out 
how we are going to answer. How big do we want our Navy to be? 
What do we want it to do? And we are a maritime power, have 
been for a long time. And then are we going to invest? And then 
the other piece of that that is important is this acquisition 
piece. Those shipbuilding programs have to perform as well.
    Mr. Visclosky. I see. All right.
    Secretary Gates. Could I just make two quick additional 
points? First of all, it is very important that the top-line 
number of the defense budget remain where it is. But with the 
cuts in the programs that we have made last year and have 
continued to propose this year, if we end up having to operate 
with a lower top-line number than we have now, I have no place 
to go but force structure.
    Over the longer term, the only way we can sustain the force 
structure we have today is to have growth, net growth, real 
growth in the defense budget of 2 to 3 percent. That is just a 
fact of life. And we can make this work because of the program 
changes that we made last year on their merits. We were not 
trying to cut to a specific number by any means. I just tell 
you that in all honesty. But we have been able to make this 
work, shift some of these programs for Warriors and others into 
the base budget. But over the long term, if the Nation wants to 
sustain the force structure that it has today, it will require 
a minimum investment of 2 to 3 percent real growth.
    Mr. Dicks. The lives of people are at stake, and it is the 
people who are in the military who have been stressed. And I 
completely concur with the Secretary's view on this, that if we 
do not find an answer to this, we are going to have to take 
force structure down. And this is the last time you would ever 
want to do that because we are in these two engagements. We 
have got to get through this.
    I am sorry, if we are going to get everybody in, the 
Secretary has a hard stop time at 11:30.

                         NUCLEAR INFRASTRUCTURE

    Mr. Visclosky. Can I ask one quick question on the Nuclear 
Posture Review? When is that going to be completed and 
released?
    Secretary Gates. I think, Mr. Visclosky, it will be out 
probably within about 2 to 3 weeks. We are very close.
    Mr. Visclosky. Just one quick question, because it is very 
important, because Mr. Frelinghuysen and I are on Energy, and 
we had this interchange last year. There is money built into 
the budget anticipating additional infrastructure investment at 
NNSA. And as a member of the Energy Subcommittee, I do not want 
to make that investment until we see what that strategy is.
    Secretary Gates. I hear you.
    Mr. Dicks. All right. Mr. Frelinghuysen. We have to keep 
this at 5 minutes, everybody, because to get everybody through, 
and the Secretary has got a hard 11:30 departure.

                          CONTINGENCY PLANNING

    Mr. Frelinghuysen. Let me thank you all for your 
extraordinary service and the men and women that you represent. 
I do not advertise it very often, but I spent a year in Vietnam 
in the Vietnam war. Of course, when I got back, they called it 
the Vietnam conflict.
    I think words are important, and when you start talking 
about overseas contingency operations, I think we need to 
recognize we are fighting two wars, I think, as you said, 
Admiral Mullen, at one time. And one of those wars we are 
fighting is in Iraq.
    We have today, as I can recount, about 96,000 troops, and 
that is going to be scaled down, I understand, Mr. Secretary, 
to 50,000, and then the President has said we will be out of 
any sort of a military posture by the end of 2011, by the end 
of December of 2011. I do not want to use the word 
``contingencies,'' but obviously the Defense Department is 
ready for every contingency. What if Prime Minister Maliki, 
while the election is somewhat unsettled and has not been 
determined, says to you, we need you here to provide, continue 
to provide, a degree of stability?
    Secretary Gates. Well, first of all, we do more contingency 
planning than probably anybody in the world. But I would say we 
are on track at this point. I think General Odierno is 
comfortable that we will meet the benchmarks that--not only the 
President's policy, but the security agreement that the Bush 
administration signed with the Iraqis pledging to have all of 
our troops out by the end of 2011.
    We have contingency planning, but at this point we think 
that we can meet these benchmarks and frankly we anticipated 
all along there would be a stressful period after the Iraqi 
election. I did a video conference with General Odierno a few 
days before the election and he said if we get 50 to 55 percent 
turnout, that will be great. If we get 55 to 60 percent, that 
would be exceptional. We ended up with 62 percent turnout. The 
Iraqis are trying to solve their problems politically instead 
of shooting at each other. And frankly, I think we are modestly 
optimistic that this thing is going to go forward without any 
need for changing the plans.
    Mr. Frelinghuysen. Obviously, if the request comes, you 
will be making recommendations to the President?
    Secretary Gates. Yes.
    Mr. Frelinghuysen. And react to that?
    Secretary Gates. Yes.

                                  IRAN

    Mr. Frelinghuysen. Would you focus for a minute--there is 
talk of potential Marine interdiction off of Iran. That is 
another potential decision that would be on your plate. Can you 
tell the committee what we might anticipate in that area?
    Secretary Gates. Well, we don't see the kind of behavior on 
the part of the Iranians that would make that necessary. But 
all of our Navy commanders who are operating in the Gulf have 
rules of engagement if they are attacked, if they are 
approached. So I think--I defer to Admiral Mullen, but I think 
we are pretty comfortable that we have both the capability and 
the rules of engagement that will allow us to protect our own 
forces.
    Mr. Frelinghuysen. Maybe to Admiral Mullen. Do we have the 
resources to do what we might need to do for interdiction 
purposes?
    Admiral Mullen. Yes, sir. They will.
    Mr. Dicks. Thank you. Mr. Moran.

                      AFGHANISTAN NATIONAL POLICE

    Mr. Moran. Thank you, Mr. Chairman. And let me say, I think 
that all three of you are the right people in the right place, 
and it is nice to be able to say that. For several years, in 
the past, I couldn't say that. Certainly if I had, I wouldn't 
mean it. But you are doing a great job and thank you. We can't 
discuss----
    Mr. Dicks. We are in an open session.
    Mr. Moran. That is the point. And since we are in an open 
session, we can't discuss anything that was discussed in closed 
session, let alone classified documents. So I am going to 
restrict my questions to this current issue of Newsweek and 
today's New York Times. The front page of The New York Times 
talks about a deal that President Karzai is putting together 
with Mr. Hekmatyar. As you know, Mr. Hekmatyar is a warlord. He 
is Pakistan's favorite warlord. And he is responsible for 
killing a whole lot of American and coalition forces, but they 
are working out a deal to withdraw within a year from 
Afghanistan. We gave him the green light to work out this deal 
a couple of years ago and so he is working it out with Mr. 
Karzai, and of course, his brother Wally, who is the principal 
opium drug lord in Afghanistan.
    The reason I bring that up is it is consistent with this 
article, it says a scandal in Afghanistan, the exclusive story 
of how we have wasted $6 billion on a corrupt and abusive 
police force that may cost us the war. I agree with your 
strategy. Obviously you capture a village, you hold it, you 
build. The problem is the transfer. And it is not a transfer to 
the Afghan national army, as deficient as they are, it is to 
the police. And as General Caldwell says in this article, and I 
repeat, in fact, when we met with him just a couple of weeks 
ago. It is inconceivable they are going to be ready. It is no 
reflection on our soldiers who are doing a phenomenal job. 
There has been 170,000 Afghans trained. There are only about 
30,000 that remain on the force. We know that much of the 
ammunition that the Taliban uses against us is coming from 
Afghan police.
    Mr. Dicks. Why don't we let them answer because you are 
going to use up your entire 5 minutes on your question.
    Mr. Moran. I know that. I am aware of that, Mr. Chairman. 
Thank you.
    Mr. Dicks. Then they are not going to have a chance to 
answer.
    Mr. Moran. I will give them a chance. The police are not 
ready, and in fact in Marja, the elders of the village said it 
wasn't you that really liberated us, it was the Taliban from a 
corrupt police chief. And if we were going to stay, it would be 
fine. But if we turn it back over to the corrupt police, 90 
percent of them--they are illiterate, they have got no where 
else to go and frankly they see it as an opportunity to extort 
money from local people, many of them.
    Mr. Dicks. Let them answer. Jim, I am asking you to let 
them answer.
    Mr. Moran. I am asking you how we are going to deal with 
the problem of transfer to these Afghan police who are not 
ready?
    Secretary Gates. We have known all along that the police 
were going to be a challenge. I think General McChrystal, if he 
were here, he would tell you that he was pretty satisfied with 
the progress of the Afghan national army and from being from a 
point a few months ago we were partnering eight or nine of us 
to one of them. In the current operation, it has been three of 
us to two of them. So we are getting to the place and 
partnering as more Afghans are trained that they are in the 
fight.
    The police are a challenge. We are increasing the number of 
trainers for the police. I think that the local situation will 
be a combination of local security forces that are put together 
in the communities themselves as well as the police. General 
Caldwell is working this problem with the Afghans. We have a 
number of international partners on this. But we have known all 
along that the Afghan police will be a challenge. And until the 
Afghans can, in fact, be responsible for their own security, we 
will not transfer security. Now, where we are headed is really 
changing the word transfer to transition, which is what we did 
in Iraq, which, if you say transfer, that means that on the 
30th of August, all of a sudden the support net and the safety 
net disappears and you are on your own if you are Afghan Army 
or the Afghan police.
    So what we are looking at now is the kind of thing we did 
in Iraq where we are in the lead, then they are partnered with 
us and then they are in the lead and then we withdraw to a 
tactical overwatch and then withdraw a little further. So they 
have got the support network and we will do that with the 
police. But clearly this is a problem we have got to work on.

                         TALIBAN RECONCILIATION

    Mr. Moran. Mr. Secretary, let me ask Admiral Mullen. Are 
you comfortable with the approach of a reconciliation with the 
Taliban, a type of collaborative government that they are 
working toward?
    Admiral Mullen. This is really to be an Afghan-led issue. 
So your comment on the first article is certainly one that has 
great relevance, and I just know that we and the international 
community are very engaged on that aspect of this thing. As far 
as I am concerned, our strategy still focuses on the security 
of the population, as well as--my view is we need to reconcile 
from a position of strength. We are not there yet.
    Mr. Moran. Do you think it will work?
    Mr. Dicks. The gentleman's time has expired.
    Mr. Tiahrt.

                        AERIAL REFUELING TANKER

    Mr. Tiahrt. Thank you, Mr. Chairman. Welcome to the 
committee. And I would note that even though your in-laws, Mr. 
Secretary, are from Washington, you were a graduate from 
Wichita East. So greetings from Wichita. I want to thank you 
and the Department for their staunch defense of the KC-X, the 
tanker requirements, consistently noting that the requirements 
were fair and balanced and focused on what the Air Force needs 
and not what benefits any particular company and I think we can 
all agree that military requirements ought to be specified by 
the warfighter, and it is up to protecting--it is up to 
prospective suppliers how best to meet those requirements. It 
appears that some Europeans disagree with this approach. There 
were some statements from European governments and their 
leaders and EADS that appear to suggest that the Pentagon 
should change the tanker requirements to fit what EADS is 
offering instead of changing what they have to offer to fit the 
valid requirements.
    I believe that we can all agree that international politics 
should never impact requirements. But there is currently a 
consideration on a request for a 90-day delay, a slide to the 
due date of the request for proposal. We have waited a long 
time for this replacement air refueling tanker. If Chairman 
Dicks and I had our way back in 2002 with the proposal we made, 
we would have 80 airplanes already delivered.
    So a further delay seems out of order. It has been around a 
long time. We know what the Air Force requirements are. And we 
know that a further delay is really unnecessary. Can you assure 
the committee that you and the Air Force plan to stick to the 
current requirements as defined by the final RFP?
    Secretary Gates. Yes.
    Mr. Tiahrt. Thank you. With the current ruling, the final 
decision on the World Trade Organization in its case against--
in our case, the USTRs case against the European Union 
regarding illegal subsidies provided to Airbus, these impacts 
of the subsidies has had a huge effect on U.S. industry. At one 
time, we had three major aircraft suppliers in America, 
Lockheed, McDonnell Douglas and the Boeing Company. Today, 
there is only the Boeing Company because the other two were run 
out of business I believe by illegal subsidies. Under the 
current ruling, it says that the proposed aircraft that EADS 
has considering proposing--excuse me--there was a $5 billion 
subsidy that has been ruled illegal.
    Now, the tanker program is not the lowest price contract. 
But price is an important part of this competition. If EADS 
decides to bid, how can a fair competition be held when EADS 
has benefited from the billions of dollars in illegal 
subsidies?
    Secretary Gates. First of all, my lawyers tell me that the 
WTO case, that it gives us no basis on which to make a 
judgment. As I indicated, we do not intend to change the 
requirements. I want to buy the aircraft that the Air Force 
thinks it needs and is convinced it needs. EADS has indicated 
an interest and has sent us a letter indicating that and we are 
considering it at this time.

                   PRESIDENTIAL AIRCRAFT REPLACEMENT

    Mr. Tiahrt. Thank you, Mr. Secretary. Mr. Secretary, Air 
Force One is one of the most recognizable symbols of America 
around the world. Regardless of how well these aircraft are 
maintained, they are still 20 years old. And there are fewer 
than 27 747-200s, which is the model that Air Force One is 
based on in commercial passenger service today. I understand 
the aircraft is nearing the point where the operation and 
support costs will exceed the cost to recapitalize with state 
of art more efficient aircraft. Given that these aircraft are 
the President's flying headquarters and travel the world, what 
are the Department's plans to--and schedule to recapitalize the 
presidential 747 aircraft fleet?
    Secretary Gates. We actually have some money in the budget 
in 2011 to begin looking at a new Air Force One. That money 
will clearly ramp up in the next few years as we move in that 
direction. There clearly is a need for a new presidential 
aircraft.
    Mr. Tiahrt. Thank you, Mr. Secretary.
    Mr. Dicks. Thank you. Ms. Kaptur.

                       CONTRACTORS VS. INSOURCING

    Ms. Kaptur. Thank you, Mr. Chairman. Welcome, gentlemen. 
Thank you for your service to our country and those under your 
command. Let me just express a general concern about our 
soldiers and the dwell time ratios that we have been given and 
the extraordinary burden on the force. I know you know that, 
but just know it is of deep concern to this Member. Number two, 
I wonder, Mr. Secretary, if you could provide for the record a 
listing of coalition forces. I believe there are at least 
30,000 that are assisting us in Afghanistan, and at least that 
is in the material we have, who they are, numbers and what 
roles they are performing and whether they are going up or 
going down and also money that is coming to assist us in these 
efforts from any other countries. That would be greatly 
appreciated.
    Let me say a $700 billion request is an extraordinary 
number by any measure of history, and I have to be concerned as 
a Member of the Congress on how we pay for this. And I was 
going to ask Mr. Hale if you could provide for the record in 
past wars means by which the people of the United States have 
paid for these rather than putting these costs on future 
generations.
    [The information follows:]

    The Administration is committed to returning the federal government 
to a sustainable fiscal path--including the costs of military 
operations in Iraq and Afghanistan. Further, the Administration 
believes that the costs for these operations should not be considered 
in isolation but rather in the context of the budget as a whole.
    That is why the Budget does not simply assume that the cost of such 
operations will unrealistically disappear, as was the case under the 
budgets of the previous Administration. Instead, it includes about $160 
billion of funding per year in 2010 and 2011 for overseas contingency 
operations, and, as a placeholder, assumes an average of $50 billion 
per year from 2012 through the end of the decade. Thus, the costs of 
ongoing operations in Iraq and Afghanistan are accounted for as part of 
the total spending in each fiscal year.
    The Budget takes us an important step toward achieving fiscal 
sustainability with these costs accounted for and includes more than 
$1.2 trillion in deficit reduction over the next ten years. As a share 
of the economy, this represents more deficit reduction than proposed in 
any President's budget in over a decade. Achieving this deficit 
reduction requires Congress to enact the Administration's proposals, 
including a fee on the largest financial institutions and the 
expiration of most of the 2001/2003 tax cuts for families making more 
than $250,000.

    I am very interested in your suggestions there. Because 
this will be added to our debt. And I think we spent over close 
to $1 trillion now in Iraq and moving up in Afghanistan now. 
And we have got to figure out how to pay for this. Let me ask 
about contractors.
    Mr. Secretary, I am very interested in what steps your 
Department is taking to understand the impact of contractors on 
our operations. For instance, I have figures that show that in 
the operation and maintenance account, about $100 billion is 
spent annually, $43 billion of that is on contractors. Only the 
Army has responded back to us based on a bill that was passed 
in 2008 as to how these dollars are being spent, and I am very 
concerned that we could save money by insourcing a lot of these 
activities. What guidance have you given to the service 
secretaries and defense agency directors to collect actual 
contracted labor hours, and to give us a sense of where this 
money is going for contractors. I understand there are over 
230,000 in theater now versus what we would be paying if we 
insourced those activities. What kind of guidance have you 
given to the services?
    Secretary Gates. Well, for one thing, the contingency 
operation, the wars that we are in, for example, we have 10,000 
Afghans----
    Mr. Dicks. Is your mic on, Mr. Secretary?
    Secretary Gates. We have 10,000 Afghans who will be 
performing security responsibilities guarding camps and 
equipment and things like that. If we insource, that would be 
10,000 more U.S. soldiers. So a lot of the contracting that we 
do in the theater are for functions that we think can be 
performed by somebody other than a soldier. On the first part 
of your question. Let me ask Mr. Hale.
    Mr. Hale. On the insourcing initiative in the base budget, 
Ms. Kaptur, we are on track. We have a goal, as I think you 
know, for 33,000 positions to be transferred from contractors 
to government personnel over the period fiscal year 2010 to 
2015. We are tracking that. We are on track with the goal. And 
we have issued guidance to----
    Ms. Kaptur. Over 5 years, sir?
    Mr. Hale. Yes.
    Ms. Kaptur. There are over 240,000?
    Mr. Hale. We never would anticipate running the Department 
of Defense without some substantial contractor assistance. But 
we will make a major change in the support services area from 
about 39 percent contractors 2 years ago to about 26 percent 
back to about where we were in fiscal year 2000 with this 
initiative. So it is a major one. We are tracking the data.
    Ms. Kaptur. We have been provided with an estimate of 
contracted services but not an actual inventory, and therefore 
I would question your seriousness in really getting at this 
insourcing versus outsourcing issue. Thank you, Mr. Chairman.
    Mr. Dicks. Thank you.
    Mr. Kingston.

                              COST OF WAR

    Mr. Kingston. Thank you, Mr. Chairman, Mr. Secretary, 
gentlemen of the panel. I wanted to ask something about 
funding. I will just throw out a couple of questions. In terms 
of histories of financing wars, I know that we have had revenue 
bonds, we have had lotteries and so forth. Have we looked at 
some sort of mechanism for paying for this war, either offsets 
in the existing budget? That is sort of the general question. 
But also perhaps a Grace type commission within the Department 
of Defense itself to figure out what works, what doesn't work? 
I had a small contractor come to me last week and he built some 
sort of memory board when he was an employee of a large defense 
contractor. This is a memory board that is used in submarines 
and it has got a technical term that I am not sure what it is.
    It was about this big. The technology has moved on though. 
And he said now your BlackBerry or cell phone has 10 times the 
memory of this memory board, but this is a multimillion dollar 
piece of property. This is several thousand dollars worth. If 
not for the earmarking process, the large defense contractors 
which, as you know, can work the Pentagon just as effectively 
as they can work Capitol Hill, the small contractor can't get 
in there, and what his point was not so much for himself, but 
in terms of this debate over procurement meets the earmarking 
process that the earmarking was a way for a small contractor to 
compete against the big guy, but also a way for the Pentagon to 
obtain better and more effective pieces of equipment and move 
quicker because you had the mandate from Congress to do it.
    So I guess my question in terms of maybe a Grace type 
commission, looking at things like that, another article that 
caught my eye recently, and I know I am jumping around, but 
with the 5 minutes, March 8th Stars and Stripes had an article 
about where reconstructive surgery meets optional plastic 
surgery and how difficult that is for the Department of Defense 
to have a good determination except at the hospital.
    Maybe sometimes this is vanity surgery, some of it is 
medically necessary and there was a big dust up about it. These 
sort of things that cost a lot of money and this committee 
certainly wants to be cooperative with you on the budget 
request. But we need to go back to the other Members of the 
Congress and the taxpayers to say there are a lot of reforms 
going on, and a lot of good things going on and in order to 
make sure we are getting the best dollar that we can for the 
$700 billion or whatever it is. I just want to talk to you 
about the big term philosophy on that.
    Secretary Gates. I will tell you that last year we made 
program cuts in acquisitions and for programs that weren't 
working or that we felt were a waste of the taxpayers' money 
that, as I said in my opening statement, if built to 
completion, would have cost $330 billion. I challenge anybody 
else in the government, proportionately to have that kind of 
record in terms of making changes. Congress passed acquisition 
reform last year. We are implementing that. We are enthusiastic 
about it. We are taking a much tougher view of the contracting 
that we are doing. I talked about the plant where we have 6 
percent of the floor space and paying 70 percent of the 
overhead. We can fix those things.
    I get 1,000 pages of advice from the authorizing committees 
every year, advice and direction. It is cumulative. I have lots 
of outside panels. Frankly, what it all boils down to is 
execution by the people who are given the responsibility for 
doing it. And if they won't execute or they can't execute then 
they should be replaced. I think I have a better record of 
doing that than just about anybody who has held this job. I 
think this is about management, it is about leadership, it is 
about acquisition reform. But at the end of the day, it is 
about execution and I think we do a better job of that. We 
always can do better. This business that has been on the front 
pages about information operations, I have got a group of 
people looking at that. So I think we can do this and I think 
we can do it inhouse.
    Mr. Dicks. All right. Thank you very much. Yes, Admiral 
Mullen.
    Admiral Mullen. For the record, I am not speaking about 
earmarks. But the issue that you raise, how do we get small, 
innovative companies to sustain themselves in this business is 
a critical issue. And my experience is the big contractors eat 
them alive. And I would urge, pressing those big contractors to 
show you exactly how they are doing it because that is 
possible, it is routinely possible in the commercial industry, 
as you have described, and we are paying too much money for 
some of the old stuff we can't get replaced.
    So I don't know what the right way to do that is, but I 
think continued review and pressure and inside this acquisition 
reform structure is absolutely critical because that technology 
is out there and it will help us a great deal. And the only 
other point I would make is on the medical side, this committee 
has led in so many ways for us as a military. And I would just 
urge you to keep doing that. And these young people who 
suffered so much and sacrificed so much, I am not on the 
cosmetic versus the reconstructive aspect of that. They ought 
to get everything that they deserve and you have supported that 
and we need to continue that. And we lead in many areas now 
because of these injuries and because of your support. And we 
need to continue to do that.
    Mr. Dicks. I just want to make one comment. The majority 
made a decision to end earmarking for private companies. One of 
the things I know that Mr. Obey and I discussed. And I have 
talked to Mr. Hale about this and Ash Carter about this. There 
is a small business innovation research program that exists 
already at the defense department. We would like to put some 
additional money in because we think that these companies after 
they get through phase one and phase two need still a little 
bit more help to take their idea and bring it to fruition. And 
over the years, many of the most important thing, I just think 
of Predator being one of them.
    Mr. Lewis wasn't here. He pushed us very hard. We have 
many, many innovations that came from the smaller companies. So 
we don't want to hurt the smaller companies. We want to work 
with you to figure out a way to do this and we will continue to 
do that. Mr. Rothman, I think you two are out of sync down 
there. Mr. Rothman.

                             SPACE PROGRAMS

    Mr. Rothman. Thank you, Mr. Chairman. Mr. Secretary, 
Admiral, Mr. Hale. Thank you for your service. I only have 5 
minutes. I am concerned about outer space and I would be 
interested in your gentlemen's view of the issues and risks to 
the United States that we presently face or that we might face 
in the near future in space or from space? Especially in light 
of NASA's retirement of the space shuttle program, the 
cancellation of the constellation Aries program.
    I know you are looking at the EELV, evolved expendable 
launch vehicle, et cetera. But what are the national security 
risks that we might face from space? How does NASA's decision 
affect the industrial base and institutional knowledge of those 
who you will be calling upon to defend against threats from 
space?
    Secretary Gates. I think that the biggest concern that I 
have with respect to our space systems is their vulnerability 
to anti-satellite capabilities as well as to potential 
electronic warfare, cyber warfare that would deny us access to 
those capabilities, both intelligence, communications, the 
whole array. We have a major space program review underway that 
will be done in a few months that from the standpoint at least 
of the Defense Department, looks at the full panoply of what is 
going on in space and what we need to do and the balance of 
programs that we need to have.
    I think we have known this budget is to begin addressing 
some of these anti-access concerns that we have. Frankly unless 
the Admiral has something, I am not sure quite what the impact 
of NASA's decisions will be in terms of our capabilities. All I 
will say is that no one has come to me and indicated that it 
creates a problem for us.
    Admiral Mullen. I would only add that I think it is an area 
of focus that we have to sustain. I talked about the 
shipbuilding industrial base, another industrial base that has 
badly weakened over the years is the space industrial base. I 
too, I am not familiar with NASA's decision in terms of its 
impact.
    Mr. Rothman. They may not be connected.
    Mr. Dicks. Would the gentleman yield just to make a point? 
General Carlson, who is the head of the NRO, has testified up 
here just recently about his concerns about the industrial 
base. And also the lack of number of people who are actually 
there to do the launches. And Boeing and Lockheed have created 
this new entity. They have had an incredible record of success. 
But what he, I think, is worried about, that we have a backlog 
of satellites that are going to be needed to launch. And we 
don't have the launchers to do it. And apparently, the NASA 
decision contributes to this. So I think this is something you 
ought--both ought to take a look at. Mr. Rothman.

                            MISSILE DEFENSE

    Mr. Rothman. Thank you, Mr. Chairman. I also want to--thank 
you for having it in the budget and focusing some of your 
attention--serious attention on that issue. I also want to talk 
about missile defense. I think what the Obama administration 
did in Israel with operation Juniper, Cobra in October of 2009 
in terms of coordination and integration of our missile defense 
forces was extraordinary and sent a tremendously powerful 
message to potential wrong doers in the region about what the 
U.S. and Israel are the strongest power in the region and our 
strongest most reliable ally in the region can accomplish 
together to defeat wrong doers in terms of missiles fired 
against our forces or our allies.
    So congratulations on that. And I do support the continued 
funding of the joint Israel program, the Arrow 3, which is the 
exo-atmosphere anti-ballistic missile system. So 
congratulations on that. But China, Russia, North Korea, Iran, 
they are all working on intercontinental ballistic missiles. I 
know this is an open session. I know we have a robust defense 
capability already. But can you comment on the efforts 
reflected in this budget in terms of U.S. missile defense?
    Secretary Gates. It has been the policy of several 
administrations now to try and defend the United States against 
rogue states, but acknowledging that we do not have the 
capability to defend ourselves against large-scale nuclear 
armed states such as either Russia or China, nor are we seeking 
that capability. We do have the capability to defend ourselves 
against North Korea and Iran. And this budget not only has 
significant increases as the Admiral talked about in terms of 
theater ballistic missile defenses, which I might add are 
growing in the Gulf area, but it also continues the ground-base 
intercepter program, both the 2 and 3 stage. We will build out 
this budget. It allows us to build out the second missile site 
at Fort Greely. It has in it a test program for the 2 stage 
ground based intercepter. And we will continue our development 
work on the 3 stage interceptor. Those would be used 
potentially against an Iranian threat. And frankly, the two 
will work together in ways that I think put us substantially 
ahead of where we were not too long ago.
    Mr. Dicks. Thank you. Ms. Granger.

                            BORDER SECURITY

    Ms. Granger. Yes. Secretary Gates, Admiral Mullen, I 
understand you just returned from Mexico and I am extremely 
concerned about the violence on the border as I know you are. 
This morning's press has an article about a town, a border town 
where the residents have been told by the cartels, we own this 
town. You are to get out or we will kill you and they are now 
showing up at the border asking for asylum. My question is 
several, and since I have got 5 minutes, I am going to ask them 
all at the same time and ask that you answer them. How the 
meetings went, any surprise, what you would say this Congress, 
and especially this committee as far as what we need to do and 
are we giving the help that Mexico needs? I know that Governor 
Perry in February of 2009 submitted a formal request to the 
U.S. Government to deploy 1,000 Texas National Guard troops to 
the Texas-Mexico border under Title 32. That request is now 
over a year old. I would ask what the status of that request 
is.
    Also as far as equipment, you know, Admiral Mullen, we 
worked together to break through the bureaucracy and ensure 
that key equipment after it is approved by this committee and 
this Congress is delivered, particularly to Mexico under the 
Merida Initiative. Unfortunately it has been brought to my 
attention that once again, AMCOM is--the contracting process is 
delaying delivery of helicopters to Mexico and now Pakistan.
    So my third question having to do with that is how do we 
keep this from happening so we don't keep having that 
conversation where we are saying yes, we approve the help and 
the equipment, but then we have to intercede to get it done. 
Those are my questions having to do with Mexico, Secretary 
Gates and Admiral Mullen.
    Secretary Gates. First of all, I would say the meetings 
went very well, and I don't think there has ever been as broad 
array of senior officials on both sides of the border from the 
Federal governments that have come together to talk about the 
full array of issues, not just the security issues. I would 
tell you I have the same concern over the length of time that 
it is taking to get the aircraft and the helicopters to Mexico, 
and what I committed to them right now the delivery dates are, 
like, in 2012, 2013 and the leaders of the Mexican military 
made the point that the house is on fire now, having the fire 
truck show up in 2012 is not going to be particularly helpful.
    So I committed to our counterparts that I would look at 
every possible option to give them some bridging capability to 
provide them that kind of capability as a temporary solution 
until these aircraft are delivered. Part of it is the kind of 
thing that they are after is in high demand and so the 
contractors are working full-time. I don't think there are any 
problems in the contracting. It is just that there is such a 
backlog because helicopters are in demand everywhere in the 
world, and we are obviously a big customer as Admiral Mullen 
pointed out, we are putting $10 billion into more helicopters 
in this budget.
    I would say that we are very sensitive to the need to get 
them capability just as quickly as possible. On National Guard 
equipment, I would say when I took this job, the equipment on 
hand was 40 percent across the Nation, it is now 77 percent. 
The historical norm is 70 percent. We are heading for 90 
percent by 2015. So I think even when we met with the Council 
of Governors, they acknowledged that there had been a 
significant improvement in getting the equipment to the 
National Guard that they needed.
    Admiral Mullen. I would only add that there has never been 
a stronger partnership, better relationship on the military 
side. And I would particularly commend NORTHCOM, General 
Renuart and his people who have worked very hard and very 
directly. I think what this committee can do can sustain the 
Merida Initiative. That really has been the oil that put in the 
machine that really opened up a lot of opportunities. It is not 
the only answer, but it has had a huge impact. They are in a 
very difficult fight.
    You described it as its own version of counterinsurgency, 
who is going to own this turf. They know that. And we are 
working with them to generate as much capability in that fight, 
in intelligence, it is the same thing. It is intelligence 
reconnaissance, surveillance. So more predators or global 
hawks. It is helicopters, it is how do you fuse the 
intelligence. What is the doctrine, the training, the 
leadership development. How do the Federal police work with the 
military? And the rest of their agencies and ours as well. 
Extraordinarily complex challenge, but one that everybody 
recognizes is deadly serious that has to continue to be 
addressed. We focus a great deal on the northern border. Their 
northern border, and I understand that.
    But I can tell you that the southern border is equally of 
concern because so many of the weapons and the drugs, the 
cocaine is coming through the southern border. So it is not 
just Mexico and it is not just U.S. and Mexico, it is a 
regional issue that we have really got to continue to focus on.
    Ms. Granger. Thank you. And I know you are focused.
    Mr. Dicks. Your time has expired.
    Ms. Granger. But he misunderstood one question. Secretary 
Gates, it wasn't the equipment. It was the troops of the 
National Guard that Governor Perry asked for a year ago and has 
not received a response.
    Secretary Gates. Let me get you an answer for the record.
    [The information follows:]

    Regarding Governor Perry's request for Federal funding of National 
Guard personnel for use on the Texas-Mexico border, for over a year DoD 
has been monitoring the situation along the Southwest Border closely, 
along with the Department of Homeland Security (DHS), the Department of 
Justice (DOJ), and the National Security Staff.
    The Federal Government also has developed options to respond when 
necessary. As I understand it, DHS and DOJ, in March 2009, launched 
several southwest border initiatives to crack down on Mexican drug 
cartels through enhanced border security, including additional law 
enforcement personnel, increased intelligence capability, and better 
coordination with Federal, State, local, and Mexican law enforcement 
authorities. Also last year, DoD worked with DHS to develop for the 
President an option for temporary, limited, and focused DoD support in 
the form of funding the use of National Guard personnel who would be 
operating at the direction of the Southwest Border State Governors.
    Although Governor Perry's initial requests for Federal assistance 
were not sent to DoD, on September 1, 2009, Governor Perry sent a 
letter to DoD regarding his earlier requests to the President and the 
Secretary of Homeland Security regarding the use of National Guard 
personnel on the border. I want to assure you that DoD did respond to 
this letter. On September 18, 2009, Under Secretary of Defense for 
Policy Michele Flournoy sent a letter to Governor Perry outlining DoD's 
work with DHS to prepare a plan for the President for his 
consideration.

    Ms. Granger. Thank you.
    Mr. Dicks. Mr. Bishop.

                           IRREGULAR WARFARE

    Mr. Bishop. Thank you very much, Mr. Chairman. And welcome 
to you, gentlemen. Secretary Gates, has the irregular warfare 
priority that was established in the directive of December 2008 
been reflected in your 2011 budget request? And for Admiral 
Mullen, tell me what has the joint staff done to revise 
doctrine, organization planning material, leadership, personnel 
and facilities to reflect the sharpened focus on irregular 
warfare and how has the training curriculum been revised to 
address tank miles or flying hours given the new irregular 
warfare policy. And if it has been done, when was it done? And 
has the training curriculum been revised, moved away from two 
simultaneous major combat operations as it was recommended in 
the QDR? Secretary.
    Secretary Gates. We mentioned four areas in which this 
budget, significant areas where this budget takes into account 
our needs in the irregular warfare area. First, rotary wing. We 
are increasing the budget this year by almost a billion dollars 
to $10 billion for more helicopters. That will provide for, 
among other things, two new combat aviation brigades for the 
Army. Second, in the intelligence surveillance and 
reconnaissance arena, we are increasing the money there from 
$4.3 to $4.7 billion and basically maximizing our buys of 
reapers, predators and other capabilities along those lines.
    Third, as the Admiral indicated in his opening statement, 
we have significant increase in the budget for special 
operations command and we are also increasing our capabilities 
to carry on electronic warfare in--both of the theaters we are 
in, but elsewhere as well. In these areas and in others we have 
manifested in this budget meeting the need for irregular 
warfare.
    Mr. Bishop. Mr. Secretary, in the fiscal year 2011 request 
for operation and maintenance, it doesn't seem to reflect those 
priorities and the tradeoffs. For example, the O&M request for 
the Air Force finances an additional 207 peacetime flying 
hours, along with the cost of fuel to fly these hours based on 
training curricula that have remained virtually unchanged since 
the Cold War.
    Secretary Gates. A lot of this stuff is dual purpose. If 
you break down our budget, it breaks down in the following way. 
Even with all of the reallocation of the dollars that we have 
made in the last few years for irregular warfare, in the base 
budget and one of my objectives in this job has been to 
institutionalize these capabilities so that when Afghanistan 
and Iraq are gone, we still have these capabilities. It is 
still about 10 percent of the budget. About 50 percent of the 
budget is on modernization of sophisticated systems, and about 
40 percent is dual use, things like C-17s. So a C-17 is going 
to be as applicable in a regular conventional conflict as like 
the first Gulf War as it is in irregular warfare. And that is a 
big chunk of the budget.
    Admiral Mullen. I would only add that as I have seen--and I 
will give two examples. One is specifically Adnilis. In my 
visits there, I have watched them, the Air Force--the airmen 
turn lessons that used to take years to get into the manuals 
and into the training in weeks and months from these fights 
both in Iraq and Afghanistan. So I would argue that that omen 
is very focused, I mean, I don't know specifically, but on both 
aspects of this, irregular and conventional. And we need to do 
both to keep the balance.
    And then secondly, on the ground side, special forces but 
also in the conventional forces, the Army and the Marine Corps. 
I have seen them incorporate lessons as rapidly, literally 
deployment to deployment. And, in fact, that training has been 
put in place over the recent years. So I am actually very 
encouraged by the speed with which we are learning and 
incorporating it into our doctrine and into our training 
support of what we need.
    Mr. Bishop. You have revised the curriculum?
    Admiral Mullen. Absolutely.
    Mr. Dicks. The gentleman's time has expired.
    Admiral Mullen. Just a target of opportunity. I really 
appreciate your leadership and standing up this military family 
caucus, which is a big deal. Those families are also absolutely 
critical in our ability to sustain these fights.
    Mr. Bishop. Thank you, sir.
    Mr. Dicks. Mr. Rogers.

                         TALIBAN RECONCILIATION

    Mr. Rogers. Thank you, Mr. Chairman. Welcome, gentlemen. 
The administration has cited that a key element of our 
political strategy in Afghanistan will be supporting Afghan led 
efforts to reintegrate the Taliban, at least those who renounce 
al Qaeda, disarm and enter the political process. President 
Karzai announced this week that he is planning to convene what 
he calls a jurga beginning April 29th, to develop a plan for 
reconciling with Taliban members who renounce ties to al Qaeda 
and embrace the Afghan constitution.
    General McChrystal recently told the chairman and members 
of the delegation that visited there, that he was open to that 
process but also concerned that President Karzai will make 
concessions to the Taliban that we and other coalition 
countries would be uncomfortable with. Am I accurate so far? 
And what are the concerns that we would have? Mr. Secretary.
    Secretary Gates. Well, first of all, in principle, I think 
we all agree, General McChrystal, General Petraeus, Admiral 
Mullen, myself and the President that ultimately reconciliation 
will be a part of the conclusion to the war in Afghanistan just 
as it was in Iraq. Our concern is that the reconciliation take 
place on the terms of the Afghan government and that it be done 
from a position of strength where those who are reconciling who 
have been opposed to the Afghan government agree to put down 
their weapons, agree to abide by the Afghan constitution and 
agree to participate in the political process.
    There are really two aspects of this. One is 
reconciliation, which is kind of at the top level if you will, 
the senior Taliban. And the other is reintegration. We believe 
that is a significant number. We don't know exactly what 
percentage, but a significant number of the foot soldiers of 
the Taliban fight for the Taliban either because they get paid 
and it provides a way for them to support their families or 
because they and their families have been intimidated.
    We think as the tide turns, as the momentum shifts back 
toward the Afghan government and the international coalition, 
that we will see increasing numbers of these foot soldiers who 
will be willing to come back across the line, if you will, back 
into their villages. And the key is protect them against 
retribution by the Taliban and also find some way for them to 
support their families. That is already happening.
    The numbers are relatively small, but we can already see 
increases in the number of those at that lower level. But I 
believe that for reconciliation to work, and it must be Afghan-
led, but it must be on the Afghan government's terms and it 
must be from a position of strength. And I think those were 
probably the concerns that General McChrystal was reflecting.
    Mr. Rogers. So can we draw from your answer that there are 
certainly indications that this process will bear fruit?
    Secretary Gates. I think at the reintegration level the 
evidence is already there. My personal opinion is that in terms 
of reconciliation with the larger groups, it is probably early 
yet or the more senior levels, that the shift of momentum is 
not yet strong enough to convince the Taliban leaders that they 
are in fact going to lose. And it is when they begin to have 
doubts about whether they can be successful that they may be 
willing to make a deal. And I don't think we are there yet.
    Mr. Rogers. Would the threat that we pose to the poppy crop 
in the countryside have any bearing on this process that we are 
talking of here?
    Secretary Gates. I don't know. I would be interested in 
Admiral Mullen's view on that. I mean, the reality is that 98 
percent of the poppy growth in Afghanistan is limited to seven 
provinces in the south and southwest. They happen to be where 
the Taliban is the strongest. But in terms of what impact it 
would have on reconciliation, frankly I hadn't thought about 
that. I don't know----
    Admiral Mullen. Just a couple of comments. First of all, I 
worry about the sort of hope that gets created immediately when 
you see a little light here that this is going to end rapidly. 
And I just don't see that. This is a very tough part of 
process.
    Second, the Taliban is still the most unpopular people in 
that country. This is something the Afghan government is going 
to have to figure out with its own people. And thirdly, I do 
think that the opium, in the longer term, the money coming from 
that which fuels a significant part of the insurgency would 
have an impact. They have got a bunch stored. So having an 
impact on one crop 1 year or 2 years, but over a long period of 
time, it clearly will have an impact on, I think, I think in 
terms of their ability to execute their own strategy.
    I just think it is going to take some time. I know there is 
a desire for this to work as rapidly as possible. It is an 
extraordinarily complex part of the process. And the Secretary, 
I think, has accurately reflected what General McChrystal was 
concerned about.
    Mr. Dicks. The gentleman's time has expired. I would like 
to make one comment on this. I think we are in a very difficult 
time right now with the operation in Marji and potentially in 
Kandahar. And I understand that there is a split of opinion on 
this poppy issue. I hope that we will, over time, be able to 
convince the people there that they have got to grow other 
crops. I know we have the Agriculture Department there. We are 
trying to work with them.
    I think it is even in their constitution that this is 
illegal. And I know maybe for the short term, we are not going 
to deal with eradication. But I do not see how just looking the 
other way is sustainable and I hope that we can deal with this 
over time.
    Secretary Gates. Let me just say, Mr. Dicks, first of all, 
it has been about 18 months since the coalition changed its 
rules of engagements so that not only U.S., but our allied 
partners could go after drug labs and drug lords and the major 
traffickers. The challenge of eradication is that you have to 
be there with a substitute crop and enough money for a farmer 
to support himself over the year or so it takes to get other 
crops going.
    This is basically an agriculture country. This is a company 
that exported agricultural products until the Soviets invaded. 
Last year, the price of wheat for a period of time was on par 
with the price of opium or the price of poppy. So there is a 
way through this and there is a strategy in place for how we 
deal with this. But particularly when you are dealing with the 
small farmer, you go in and eradicate his crop, you have just 
recruited a family to the Taliban.
    You have got to give them an alternative source of living 
and they are open to it as long as they are not being 
intimidated by the Taliban who, as the Admiral says, use this 
as a source of revenue and they make some of these farmers grow 
this stuff. So we give them security, we will also give them 
some alternatives.
    Mr. Rogers. Will the chairman yield briefly on this point? 
I would yield.
    I was over there 25 years ago, and we were trying to pay 
farmers to stop growing poppy and start growing something else, 
including tobacco. And they took our money and continued to 
grow the poppy. Frankly, I don't have too much confidence in 
this scheme because we have been doing it for 25 years without 
avail.
    Mr. Dicks. I think the gentleman has made his point. I want 
to get finished here. We have two more members left. Mr. 
Hinchey.

                        PRESIDENTIAL HELICOPTER

    Mr. Hinchey. Thank you very much, Mr. Chairman. Thank you, 
Secretary Gates, Admiral Mullen, Under Secretary Hale, for all 
of the excellent work that you are doing and all of the 
complicated issues that you are involved in. We deeply 
appreciate it. I wanted to ask a simple question about the 
presidential helicopter. As you know, we were deeply 
disappointed in that the existing program was not going to be 
followed through. We thought that there could be some kind of 
solution to that existing program and apparently it might have 
happened in the way that the joint strike fighter issue was 
being dealt with. But in any case, let us look at what is 
happening now in the future. Can you assure the committee that 
the new VXX program is going to move forward to an open and 
fair competition? And what is the status of the department's 
current efforts with regard to the VXX?
    Secretary Gates. I will answer the first part of your 
question yes and ask Mr. Hale to talk about----
    Mr. Hale. We are reviewing options right now, the 
acquisition community for follow on VXX. It is important to get 
the requirements right here. It is a part of what happened with 
the VH-71. So I think we need to take time to do that. And I 
will answer for the record as to the exact timing of that.
    [The information follows:]

    The Navy is conducting an Analysis of Alternatives (AoA), which 
will address all feasible material and non-material options with a 
holistic assessment of requirements, capabilities, cost drivers, 
schedule implications, and risks. The AoA process is an independent and 
objective look across the entire helicopter industrial base, which is 
not expected to be completed until the 4th quarter of FY 2010. The Navy 
is confident this approach will result in a program that will benefit 
from lessons learned and leverage prior work where it is appropriate as 
we move to a more affordable program to meet this critical mission.
    Mr. Hinchey. Okay. Great. We would like to stay in touch with you 
on this. We think it is a very important thing to do. One other brief 
question on this. Given the sum costs of the failed VH-71 program--and 
as I understand it, that sum cost was about $3.5 billion, can you give 
us an estimate--an estimation on what the total program costs of the 
VXX plus the VH-71 will be?
    Secretary Gates. Let us do that for the record.

    [The information follows:]

    The Navy is conducting an Analysis of Alternatives (AoA), which 
will address all feasible material and non-material options with a 
holistic assessment of requirements, capabilities, cost drivers, 
schedule implications, and risks. This approach will result in a 
program that will benefit from lessons learned and leverage prior work 
where it is appropriate as we move to a more affordable program to meet 
this critical mission. Preliminary cost estimates will be an output of 
the AoA process and are not expected to be completed until 4th quarter 
FY 2010. In addition, estimated termination costs for the VH-71 program 
are a matter of negotiations between the Government and Industry and 
cannot presently be released. The Department will make the termination 
cost estimate available to the Committee when that information is 
releasable.

                                  CERP

    Mr. Hinchey. Thank you very much. I would like to follow up 
on a question that was asked by Mr. Moran with regard to the 
circumstances that are going on in Afghanistan with regard to 
the Taliban. We see that President Karzai announced this week 
that he is going to convene a peace operation, a jurga, 
beginning the end of next month to develop a plan for the 
reconciliation with the Taliban. So this looks like something 
obviously that is going to happen very seriously and the 
situation there is very questionable with regard to its 
outcome. He is going to make concessions to the Taliban and----
    Mr. Dicks. Mr. Hinchey, we just went into this question in 
some detail. If you want to follow up----
    Mr. Hinchey. This is in a different detail, Mr. Chair. I am 
just curious what the situation is going to be like over there 
with regard to this. And the fiscal year 2010 National Defense 
Authorization Act authorized the use of CERP funds to support 
the Afghan reintegration and reconciliation process. How do you 
envision these funds being used and what do you think that they 
will be? What is the cite that will be used in determining who 
will be eligible to receive those funds and how much is going 
to be involved? Is there any understanding about that yet at 
this point?
    Admiral Mullen. I think there is--there was an 
authorization of upwards of $100 million to the specific 
effort. It would be used similar to how we have used it both 
there initially as well as in Iraq, and when you think about 
individuals who are reintegrating as we have discussed, it 
would be to provide them a way ahead so that they can actually 
put food on the table, if you will. And in terms of support and 
reintegration, there are also additional CERP funds--or CERP 
funds which are tied to projects--development projects to 
support the development aspect of the overall strategy as well, 
similar to what we did in Iraq. And the other is we are going 
to great pains to oversee this money to make sure it is spent 
well and where we want it to be spent.

                         AFGHAN NATIONAL POLICE

    Mr. Hinchey. One last question on this. With regard to the 
Afghan national police, I understand that the training program 
for them now has been stopped. And I am just curious to know 
what the situation is going to be, what the intention is 
because that seems to be a very important part to maintaining 
the security and the strategy of that country.
    Secretary Gates. It has not been stopped and, in fact, is 
being expanded.
    Mr. Hinchey. Is being expanded. We have information that it 
has been stopped. That is interesting.
    Mr. Dicks. Mr. Hinchey, we were just there. We met with 
General Caldwell. That is one of his highest priorities is 
dealing with the training of the national police. Mr. Boyd.

                           TACTICAL AIRCRAFT

    Mr. Boyd. Thank you, Mr. Chairman. And welcome, gentlemen. 
It is great to see all of you. I know that, Mr. Secretary, that 
Congressman Young earlier asked a question, you talked about 
the delivery time lines before I got here and I apologize for 
being late. But I would like to follow up on that and I know 
that the Department of Defense has reduced the F-35 procurement 
quantities by, I think, 122 aircraft over the next 5 years or 
so.
    And I know that the F-22 program has been capped at 187. 
You currently have plans being implemented to retire about 250 
combat air fighters, Air Force fighters, about 50 from Tyndall 
Air Force, by the way. And Secretary Donley and General 
Schwartz have been wonderful in working with us to help us 
understand how that is going to work in mitigation and so on 
and so forth. But all of this seems to me it places the Air 
Force at some moderate risk.
    Those are not my words. What are your reflections on those 
decisions now? And anticipating the JSF problems, do you think 
that the JSF will come on--be operational in time to fill this 
gap or do you have a contingency plan in case the F-35 slips to 
the right again?
    Secretary Gates. First of all, the Air Force will begin to 
get F-35 aircraft in 2013. I think these things need to be put 
in perspective. In 2020, the United States will have--the U.S. 
will have 2,700 combat aircraft. That is about thousand more 
than any potential competitor. Forty-two percent of our force 
will be fifth generation fighters. That is 20 times more fifth 
generation aircraft than the Chinese and 15 times more than the 
Russians we think will have by 2020. That doesn't count the 
investment that we are putting into capabilities like the 
reapers, that just as an example, it would take 36 F-16s to 
provide the 24-hour persistent coverage that eight reapers 
provide with the same armament and the capabilities of the F-35 
and the F-22 are significantly superior to the aircraft that 
they have replaced. So you don't have to replace them on a one-
for-one basis.
    So I am fairly comfortable with where we are with all these 
programs. If we carry out the buy of the F-35 which is 2,450 
aircraft roughly and we go forward with the programs that we 
have in place, I think that we will be in a significantly 
superior position to any potential competitor and the airmen 
that you referred to, Mr. Young, worried about whether that is 
going to be an American aircraft rather than somebody else's, 
that fellow on the ground is not going to have to worry.
    Mr. Boyd. Thank you, Mr. Secretary. And I think all of us 
certainly understand that you don't have to replace one for one 
because of the capability of these fifth generation aircraft. 
But what I hear you saying the bottom-line is that you do not 
consider that we are putting our Air Force at a moderate risk 
with these plans?
    Secretary Gates. The risk is the one the chairman alluded 
to before. And that is the Air Force, in order to be able to 
afford the modernization, is going to have to retire some older 
aircraft, and so that is just a fact of life. And so there will 
be some modest reductions. But when you take into account the 
overall capabilities of the F-22, the F-35 and the UAVs, I 
think we will have actually a significantly more powerful Air 
Force in the future than we do today.
    Mr. Boyd. Thank you, Mr. Secretary. Mr. Chairman.
    Mr. Dicks. We have one last question from Mr. Moran. I 
promised him that we would give him a chance to finish his 
thought.

                          SECURITY CONTRACTORS

    Mr. Moran. You are going to like this, Mr. Chairman. I will 
dispense with the pleasantries this time around. What I was 
getting at in the last series of questions, deals with the 
Afghan national police force, because that is the most critical 
aspect of being able to transfer, it has got to be transferred 
to the police, not the Army or anything else. They are the most 
visible representative of the government. And yet that is a 
contract, we contract out that responsibility. Now, General 
Caldwell is wonderful. Currently it is being done by a group 
called DynCorp, with State Department. Mr. Secretary, you took 
it over into the Defense Department. But in the process, you 
effectively made only two contractors eligible for that 
contract, Northrop and Blackwater. You know that Blackwater is 
responsible for wantonly killing a lot of Iraqi innocent 
civilians. You know it, the Iraqis know it, the Taliban know 
it, and al Qaeda knows it because they plan to use it as part 
of their propaganda program.
    What were you thinking in doing that, and can't we fix that 
so that there is no real possibility of Blackwater having that 
contract where it might very well erode public confidence in 
Afghanistan as to the Americans' mission?
    Secretary Gates. First of all, before the contract was 
implemented, it was protested. The protest was upheld by GAO. 
The contract is not being pursued at this time. DynCorp's 
execution of that contract is continuing. We are making some 
changes in the contract. I would also point out there are an 
awful lot of U.S. and international police trainers as well. It 
is not all being done by contract by any means, and in fact, 
one of the things that we have been out there working hard on 
with our allies is to get more police trainers from places like 
the Carabinieri and the Guardia Seville and so on.
    Mr. Moran. That is all good. But that protest was held 
against your decision, and that it is what troubled me because 
it seemed inconsistent with otherwise very thoughtful 
decisions. We can talk about it later.
    Mr. Dicks. All right. The committee is adjourned until 1:30 
tomorrow, at which time we will hold a hearing on the Army and 
Marine Corps ground equipment in room H-140.
    Mr. Secretary, Admiral Mullen, Mr. Hale, thank you very 
much.
    [Clerk's note.--Questions submitted by Mr. Obey and the 
answers thereto follow:]

                Training Afghan National Security Forces

    Question. The Afghan National Army has grown well in both size and 
capabilities, but the Afghan National Police has failed to keep pace. 
They lack discipline, are often ineffective and have failed to shake 
off their reputation for corruption. In addition, both the ANA and ANP 
are said to lack effective indigenous leadership.
    Please describe the program that the Department of Defense has in 
place to train the Afghan National Army (ANA) and the Afghan National 
Police (ANP).
    Answer.
    ANA: The Afghan National Army Training Command (ANATC) is the 
primary training institution for the ANA. ANATC contributes to force 
generation through multiple programs and institutions designed to 
contribute to the fielding and subsequent development of an army with 
the skills and competencies needed to conduct effective COIN 
operations. Within NATO Training Mission Afghanistan/Combined Security 
Transition Command-Afghanistan (NTM-A/CSTC-A), the Combined Training 
and Advisory Group-Army (CTAG-A) has the mission of advising, 
mentoring, and monitoring the ANATC in order to establish a doctrine, 
education and training system capable of supporting the development of 
a professional ANA in a timeframe that supports growth targets. Major 
training initiatives include:
    <bullet> Basic Warrior Training: This recruit training process 
begins at the Basic Warrior Training Course (BWT) at Kabul Military 
Training Center (KMTC) or at one of six remote BWT (RBWT) courses in 
the corps' areas. To ensure the ANA continues to meet its quality 
goals, NTM-A worked with the ANATC to add a U.S. Army marksmanship unit 
to instruct at KMTC and the remote training sites. This has increased 
the quality of the BWT program and improved operational readiness of 
fielded forces. In addition to this training, the extensive partnering 
between Afghanistan National Security Forces (ANSF) and International 
Security Assistance Force (ISAF) units in the field is critical to 
improvements in the quality of the total force.
    <bullet> Non-Commissioned Officers (NCO) Training: The ANA Bridmal 
Academy in Kabul conducts much of the training and development programs 
for the ANA NCO Corps. The academy teaches the Squad Leader Course, 
Platoon Sergeant Course, Senior Sergeant Course, First Sergeant Course, 
and Sergeant Major Course.
    <bullet> Officer Training: The ANA conducts officer training and 
professional military training courses in partnership with coalition 
mentors. The current courses taught in the officer Professional 
Military Education (PME) program include: the Basic Officer Training 
Course, which provides basic branch specialty training for new 
lieutenants; the Company Commanders' Course, which prepares captains 
for company level command; the Staff Officers' Course, which provides 
captains and majors with basic staff officer skills; the Command & 
General Staff Course for majors and lieutenant colonels, which is the 
first officer PME course; the Kandak (Battalion) Commanders' Course, 
which prepares lieutenant colonels for Kandak-level command 
assignments; and the Strategic Command & Staff Course, which is the 
culminating PME course taught to senior colonels and general officers.
    <bullet> Literacy and Language Training: NTM-A instituted a two-
week pilot literacy training program during pre-basic training for ANA 
soldiers. In addition, literacy training is an integral part of 
instruction at the Bridmal NCO Academy and the BWT course.
    Additionally, the ANA set up a Foreign Language Institute, which 
Luxembourg has expressed interest in funding via the ANA Trust Fund. 
This program emphasizes the instruction of non-English languages such 
as European and Asian languages and Dari/Pashto to strengthen 
international military education opportunities for the ANA.
    ANP: One of the key challenges to building the capacity of the ANP 
to achieve their mission is training. In past years, due to the lack of 
program resourcing, 60-70% of the force was hired and deployed with no 
formal training, the ``recruit-assign'' model. While working to 
increase the throughput of new recruits, NTM-A/CSTC-A has also had to 
implement plans, in coordination with the ISAF Joint Command (IJC) and 
the Ministry of Interior (MOI), to provide training to those already on 
the tashkiel (manning document). For basic recruit training, one of the 
major initiatives implemented in March 2010 is the establishment of a 
new model of ``recruit-train-assign'' rather than the previous model. 
``Recruit-train-assign'' will ensure all new police recruits receive 
necessary training before performing official duties. Other training 
initiatives are detailed below.
    <bullet> Afghan Police Training Teams (APTT): NTM-A is working with 
the IJC and the MOI to develop APTTs that can work alongside ISAF 
Police Operational Mentor and Liaison Teams (POMLTs) and Police 
Mentoring Teams (PMTs) to extend the reach of training and development 
capacity into districts that lack training support. This effort can 
accelerate the ANP reform program and raise the quality of deployed 
police units. APTTs, located mostly at the district level, will consist 
of one officer, two NCOs and a civilian literacy trainer. Teams will be 
responsible for police training, literacy training, mentoring, 
administration (drug testing and accountability for personnel, weapons 
and entitlements), and anti-corruption.
    <bullet> Basic Training: Currently basic training of the ANP occurs 
at 18 training centers. Training of the Afghan Border Police (ABP) 
occurs at four training facilities. Several partner countries also 
conduct police training at or near their Provincial Reconstruction Team 
(PRT) sites, including the Czechs in Logar, the Turkish in Wardak, the 
Dutch in Tarin Kowt, the British in Helmand, and the Germans in several 
areas throughout the north. In order to meet growth goals and train the 
current force, the MOI extended the length of the duty day at basic 
training and decreased course length from eight to six weeks to improve 
student throughput. The six-week course contains the same program of 
instruction (POI) and actually increases the number of student/
instructor contact hours compared to the eight week course with the 
addition of 64 hours of mandatory literacy training (actual POI hours 
thus increased from 265 to 329).
    <bullet> Leadership Training: The lack of trained and competent 
leadership is one of the largest problems within the MOI. NTM-A is 
working with the MOI to institute a competitive selection and promotion 
process that is transparent and merit-based. To further professional 
development, we are working with the international community to train 
ANP in specialized police schools and host talented ANP students in 
their own professional law enforcement academies. NTM-A is exploring 
ways to enable non-governmental organizations to provide training to 
the ANP in the areas of human rights and community relations.
    <bullet> Literacy: An important component of the revised POI is the 
inclusion of mandatory literacy training as it not only improves the 
quality of the force but has been shown as a recruiting tool. NTM-A/
CSTC-A added 64 hours of mandatory literacy training to the basic 
training POI at all police regional training centers. In addition, the 
MOI expanded follow-on literacy training throughout the country by 
adding literacy trainers in 221 locations.
    Question. Would you describe the training program as successful to 
this point? Why or why not?
    Answer. The training of the Afghanistan National Security Forces 
(ANSF) has been successful over the past several years and the Afghan 
National Army (ANA) and Afghan National Police (ANP) have greatly 
improved their capabilities since the Department of Defense (DoD) began 
training in 2002 (ANA) and 2005 (ANP). Despite successes, considerable 
gaps remain. Until recently, the ANSF development has been largely 
under-resourced in both funding and manpower.
    There have been a number of new initiatives that have reshaped the 
ANSF development program with the goal of being able to quickly grow 
the size of the ANSF while simultaneously improving the quality of the 
overall force. The two most significant changes to the ANSF program 
include improved unity of command through organizational changes to the 
NATO command structure--including the ISAF (International Security 
Assistance Force) Joint Command (IJC) and NATO Training Mission--
Afghanistan (NTM-A)--and the embedding of international forces to 
partner with the ANSF.
    One of the most significant challenges to successful execution of 
the ISAF plan for the growth and development of the ANSF is the 
shortage of NTM-A institutional trainers. Without sufficient mentors 
and trainers, our ability to effectively grow and develop the ANSF is 
at risk.
    The ANA continues to improve capacity and increase end-strength. 
The ANP currently is on track to meeting growth goals, but there is 
overall concern among the U.S. interagency and the international 
community regarding the ability of the ANP not only to grow but also to 
improve the quality of both basic police training and the quality of 
the fielded force.
    DoD will continue to work with the ANSF to grow and develop the 
force so they can eventually assume lead for security responsibility 
throughout Afghanistan. The Commander, ISAF will assess the new 
programs as they move forward, including a formal assessment this 
summer, to allow for course corrections and implementation of 
mitigation strategies.
    Question. Does the low literacy rate among Afghans significantly 
affect the content of training?
    Answer. The Afghanistan National Security Forces (ANSF) training 
program of instruction takes into account the literacy rates in 
Afghanistan and uses appropriate training mechanisms (hands-on training 
and other mechanisms) to counter the low literacy rate of recruits. 
Additionally, to improve the overall quality of the ANSF, the current 
curriculum of both the Afghan National Army (ANA) and Afghan National 
Police (ANP) basic training courses includes 64 hours of mandatory 
literacy training. Once the ANA and ANP personnel graduate, they will 
also have the opportunity to receive additional literacy training in 
the field with the goal of all ANSF achieving a 3rd grade literacy 
level. Combined Security Transition Command-Afghanistan (CSTC-A) has 
contracted with more than 200 literacy trainers in districts throughout 
Afghanistan to provide ongoing training for the ANP.
    Question. To what extent do Afghan security forces participate in 
military operations? To what extent do they lead these operations?
    Answer. All Afghan National Army (ANA) battalions are partnered 
with coalition forces. About 30% of Afghan National Police (ANP) units 
are partnered with Coalition forces and that number is increasing, 
especially in critical districts, as the U.S. force increase continues 
through August 2010. Recently, Afghan Army units have played a key role 
in nearly every dimension of the Central Helmand Campaign and, in many 
cases, though not the majority, led clearing efforts at battalion and 
company level. The trend of the ANA forces leading clearing operations 
has also increased in Regional Command (RC) East and is expected to 
increase throughout the country with increased coalition forces and 
partnering efforts. ANA Commando Battalions, partnered with U.S. 
Special Operations Forces, frequently lead special operations 
throughout the country. Afghan National Civil Order Police (ANCOP) are 
presently playing a mission essential role in Central Helmand as we 
transition to the hold and build phases, in which they have a leading 
role.
    Question. A September 2009 report by the Department of Defense 
Inspector General found that the NATO Training Mission-Afghanistan, led 
by General Caldwell, only had about 51% of the field trainers needed to 
meet current requirements. Is this still the case?
    Answer: Since the release of the September 2009 Department of 
Defense Inspector General (DoDIG) report, the field training 
requirement for the Afghan National Army has increased to a total need 
of 180 mentor teams to meet the training needs of a 134,000-strong 
force by October 2010. There are currently 142 teams deployed against 
this requirement and an additional 24 offers that have not yet been 
deployed. The field training requirement for the Afghan National Police 
has increased to a total need of 475 mentor teams to meet the training 
needs of a 96,000-strong force by December 2010. There are currently 
312 teams deployed against this requirement and an additional 20 offers 
that have not yet been deployed (only 14 more teams are needed within 
priority districts).
    Since September 2009, SHAPE has made significant progress in 
filling the institutional and field training requirements for the NATO 
Training Mission--Afghanistan (NTM-A). Ensuring that NTM-A has 
sufficient institutional and operational trainers remains a top 
priority. The Department of Defense (DoD) is currently working with 
NATO to provide sufficient resources for NTM-A. A series of SHAPE-led 
force generation efforts have resulted in a significant number of 
international commitments to help meet the institutional and 
operational trainer shortfall. The U.S. Government continues to be 
engaged in very active diplomatic efforts to urge our coalition 
partners to provide additional trainers and mentoring teams for the 
Afghanistan National Security Forces (ANSF). DoD is also examining its 
own contributions to ensure it is doing everything it can to fill the 
requirement.
    Question. Commanders in theater indicate that developing indigenous 
leadership is key to fostering unit cohesions, maintaining discipline, 
reducing corruption and promoting the operational success of 
Afghanistan's security forces. What leadership development training is 
available for ANA and ANP?
    Answer. For the Afghan National Army (ANA) and Air Corps (ANAAC), 
the capacity to train leaders is expanding in the officer and enlisted 
career tracks. Both Afghan Army officers and non-commissioned officers 
(NCOs) are working to professionalize their career fields based on 
institutionalized military training, civilian education opportunities, 
and experience gained from assignments of gradually increasing 
responsibilities and complexity. Courses to develop non-commissioned 
officers include the Tactical Leaders Course, the Non-Commissioned 
Officer Basic Course, the First Sergeant Course, and the Sergeant Major 
Course. Commissioning sources for the Afghan Army include the National 
Military Academy of Afghanistan, a four-year program similar to West 
Point that recently graduated 212 cadets as Afghan Second Lieutenants, 
and an Officer Candidate School. There is also a course of instruction 
that provides leadership instruction and re-integration training for 
former mujahedeen fighters desiring to join the ANA. Afghan officers 
attend the Officer Basic Course and the Counter-Insurgency (COIN) 
Course prior to deployment to the field units. Subsequent instruction 
includes the Junior Officer Command and Staff Course, the Operational 
Command and Staff Course, and the Strategic Command and Staff College. 
The Afghan Ministry of Defense is working to link the successful 
completion of leadership schools to promotion to key leadership 
positions. Another important component of the professional leadership 
development is the opportunity for literacy training and self-
improvement throughout a soldier's career.
    The Afghan National Police (ANP) is making progress toward 
establishing a professional development model for patrolmen and 
officers. Patrolmen can attend the Police Non-Commission Officer Course 
and the Senior Sergeant Course. Career police non-commissioned officers 
(NCOs) can attend functional training, including advanced shooting and 
survival, basic criminal investigations, and crime scene 
investigations. The Afghan Police Training Team (APTT) is an Afghan 
initiative where a small team of trainers, accompanied by a literacy 
trainer, travels to districts identified for poor police performance 
and provides leadership training for police leaders as well as literacy 
training for the local police force. Police officers are commissioned 
from Officer Candidate Schools or the National Police Academy, a three-
year commissioning program that recently produced 586 graduates. New 
police officers can expect to attend an Officer Basic Course in their 
career field, then attend specialty training like the APTT course or 
become an instructor after a field tour of duty. In order to reduce 
attrition, reduce casualties, attack corruption, and make commanders 
more capable as leaders in the field, the Afghan Ministry of the 
Interior initiated an Afghan Police Commanders' Course, a three-tier 
leadership training strategy to be instituted later this year. Police 
leaders at the district, provincial, and national levels will attend 
courses at their respective levels and will not be considered for 
promotion to the next higher assignment without completing the required 
level professional development course.
    The apex of the ANP leadership training program is the Afghan 
National Police Academy in Kabul. Currently a new National Police 
Training Center (NPTC) campus is being constructed in Wardak province 
that will become the new home of senior police officers and non-
commissioned officers. Courses are projected to start at this new 
facility in September 2010.
    The Afghan Defense University (ADU) is also under construction in 
Kabul and will serve as the ANA strategic-level campus for both Army 
officers and senior non-commissioned officers (similar to the U.S. Army 
War College and the Sergeants Major Academy). The cornerstone for ADU 
was laid on April 6, 2010, and initial courses are projected to begin 
at this new facility in March 2012. Both ADU and NPTC plan to conduct 
an exchange program where both institutions can provide senior police 
and army leaders the ability to conduct joint and combined operations.
    The way ahead for the professional leadership development of the 
ANSF includes building enduring institutions, including brick and 
mortar structures, a professional military education system, and a 
career management structure capable of managing the force. We must and 
will continue to provide appropriate partner elements with ANSF units 
for training and modeling what right looks like. We will continue to 
encourage the Afghan leadership to address quality of life issues that 
are affecting retention--housing, equipment, training, and 
survivability. Most important, as coalition partners we must create a 
culture of self-development within the ANSF. The emphasis is on 
education (literacy) and self-advancement opportunities throughout a 
soldier's or policeman's career.
    Question. How long do you anticipate it will take to develop a 
self-sustaining leadership cadre for Afghanistan's security forces?
    Answer. The current NATO Training Mission--Afghanistan (NTM-A) 
estimate is three to five years to develop a self-sustaining leadership 
cadre for Afghanistan's security forces.
    Building a ``self-sustaining cadre'' takes years because of the 
time needed to develop a professional cadre that leads by example and 
has seasoned veterans in its ranks; to establish enduring institutions 
such as the Afghan Defense University and the Afghan National Police 
Academy, to serve as the strategic level training centers for Afghan 
army and police senior leaders; and to build refined programs of 
instruction (curriculum) to support and facilitate learning.
    NTM-A is assisting the Afghan National Security Forces (ANSF) 
develop its institutional training base to include training courses 
from six weeks (basic training for Afghan policemen) to four years in 
length (National Military Academy of Afghanistan). There has been 
significant progress in the past few years, as highlighted by the 
recent National Military Academy of Afghanistan graduation of 212 
second lieutenants in what was only its second graduating class. In 
March 2010, NMAA inducted more than 600 young Afghans into the freshman 
class.
    Question. What level of capability will we need to see from ANA 
before we begin to transition responsibility for security in 
Afghanistan to their forces? How will we measure that capability?
    Answer. The International Security Assistance Force (ISAF) is 
currently working with the Afghan government and international 
community on the ground in Afghanistan to develop the appropriate 
concept for the transition to greater Afghan leadership, ownership, and 
responsibility. This concept must be approved by the Afghan government 
and the North Atlantic Council to ensure full agreement on the 
conditions, process, roles, and responsibilities of transition. The 
U.S. Government believes that for transition to be meaningful and 
sustainable, benchmarks for transition cannot be measured simply by the 
number of Afghan security forces, their operational capabilities, or 
even the threat level. Rather, governance and development criteria must 
also be established to ensure that the appropriate conditions exist to 
achieve and sustain security in Afghanistan. We will not transition to 
full Afghan responsibility until the Afghans have the capacity in a 
particular district or province to manage the security situation on 
their own, with U.S. forces and allied forces initially providing 
tactical and eventually strategic oversight. Although conditions and 
benchmarks will be set within a national framework, they will also be 
responsive to the particular circumstances of each district and 
province.
    Question. What is the implication for our Counter-insurgency (COIN) 
strategy if the Afghan people continue to perceive the National Police 
as ineffective and corrupt?
    Answer. It is essential to our COIN strategy to have the Afghan 
National Police (ANP) trusted by the people and perceived as effective 
and not corrupt. NATO Training Mission--Afghanistan (NTM-A) is working 
to increase accountability and transparency as well as institutionalize 
processes within the ANP to counter corruption.
    A major concern of the international community is the lack of 
personnel accountability in the ANP. There have been varying accounts 
of ``over-the-tashkil'' \1\ police in various districts performing 
police work while not being paid through the Law and Order Trust Fund 
Afghanistan (LOTFA), as well as accounts of ``ghost police'' who are on 
the payroll but are not actually present for duty. In October 2009, 
NTM-A/Combined Security Transition Command--Afghanistan (CSTC-A) and 
the Ministry of Interior (MOI) began conducting a Personnel Asset 
Inventory (PAI) to establish a database of all ANP, in an attempt to 
enhance accountability and transparency. The PAI will provide a 
baseline for the police force and help eliminate corruption. The 
process includes registration, drug-testing, vetting, weapons 
verification, and obtaining biometric data on all ANP personnel. The 
goal is to complete the PAI by early May 2010.
    Additionally, with the assistance of the Federal Bureau of 
Investigation (FBI) and the Department of Defense (DoD), a Major Crimes 
Task Force Afghanistan (MCTF-A) has been set up in the MoI. The MCTF-A 
will investigate corruption cases within the MoI and also will work 
closely with prosecutors and the judicial system to ensure that corrupt 
officials are brought to justice.

    [Clerk's note.--End of questions submitted by Mr. Obey. 
Questions submitted by Mr. Moran and the answers thereto 
follow:]

    Question. Recent congressional hearings focusing on a Xe 
subsidiary, Paravant, demonstrated that the Department of Defense 
continues to struggle with contractor oversight and management in 
Afghanistan. In the wake of the shooting death of two Afghan civilians 
by Paravant independent contractors in May 2009 what has the Department 
done to tighten its authority over armed contractors in Afghanistan and 
other theatres of operations?
    Answer. The individuals in question were hired by Paravant under a 
subcontract with Raytheon to train the Afghan National Army. They were 
not private security contractors (PSCs), nor were they authorized to be 
armed.
    Significant improvements have been made in the policy and 
management framework governing armed contractors employed by the 
Department of Defense (DoD) and their activities in both Iraq and 
Afghanistan. DoD Instructions, in particular, DoD Instruction 3020.50, 
``Private Security Contractors (PSCs) Operating in Contingency 
Operations,'' and associated theater directives has established core 
standards for vetting and training all U.S. Government PSC and other 
armed contractor personnel. The U.S. Government also has adopted common 
standards for Rules for the Use of Force (RUF) and escalation 
procedures, as well as a requirement that all U.S. Government PSCs use 
only authorized weapons and ammunition. Finally, all U.S. Government 
PSCs must be licensed to carry arms in accordance with host nation law 
and must receive U.S. Central Command (USCENTCOM)/Coalition Forces' 
approval to carry arms.
    DoD contractors remain accountable under the law and are subject to 
a number of statutes governing their behavior, including the Military 
Extraterritorial Jurisdiction Act and relevant provisions of the 
Uniform Code of Military Justice.
    Question. In a written response to Senator Levin's 25 February 2010 
letter, Secretary Gates pledged to investigate Blackwater subsidiary 
Paravant's activities in Afghanistan, including allegations of 
misappropriating government weapons, carrying weapons without approval 
and hiring staff with serious criminal records including larceny and 
substance abuse. Which office in DOD is leading this investigation? 
Will the contents of this investigation be publicly released? Will the 
results of this investigation be considered for future contracting 
decisions?
    Answer. As I stated in my March 25 letter to Senator Levin, the 
Department of Defense (DoD) takes very seriously the allegations 
concerning Xe Services (the company formerly known as Blackwater) as 
set forth in recent press articles and congressional hearings. As 
information develops, we will continue to monitor the potential impact 
of that information, as well as any ongoing investigations on the 
execution of any future source selections to satisfy DoD program 
requirements.
    Allegations of wrongdoing by Xe Services and its affiliated 
companies are currently being investigated by multiple Government 
agencies for their review and action. In order to protect the evidence, 
witnesses and agents, and to avoid serious compromise of the casework, 
DoD will not comment on or release any information about the probes at 
this time. Any evidence of wrongdoing will be forwarded to the 
appropriate agencies for their review and action as appropriate.
    With respect to the shooting incident at the intersection of 
Jalalabad Road and Mosque Road in Kabul, Afghanistan on May 5, 2009, 
the DoD Office of General Counsel (OGC) received the case file from 
U.S. Central Command on May 28, 2009. On May 29, 2009, OGC transmitted 
the case file to the Department of Justice (DOJ) with DoD's formal 
request that DOJ make its Military Extraterritorial Jurisdiction Act 
(MEJA) jurisdiction determination in the case. On June 1, 2009, DOJ 
advised DoD that it decided to take the case as a MEJA referral, and 
the case was assigned to the former DOJ Domestic Security Section (now 
DOJ Human Rights and Special Prosecution Section). The case was 
presented to the U.S. Attorney's Office for the Eastern District of 
Virginia. Two individuals employed by Paravant LLC alleged to be 
involved were indicted on January 6, 2010 on charges of second-degree 
murder, attempted murder, and firearm offenses, and they were 
subsequently arrested. The currently scheduled trial date is September 
14, 2010. I refer you to the Department of Justice for additional 
information.
    Question. Earlier this month the GAO sustained a protest by DynCorp 
International preventing the transfer of training for the Afghan 
National Police (ANP) from the Department of State to the Department of 
Defense. Prior to the GAO's sustainment. DOD was going to use an 
existing IDIQ contract with 5 companies to compete and award a new 
contract to train the ANP. One of the 5 companies was Xe Services, the 
successor company of Blackwater.
    What is DOD doing to ensure that it can legally transfer the 
training of the ANP from the State Dept. to DOD?
    Answer. In April 2005, the Department of Defense (DoD) took over 
responsibility of the ANP program due to the need to train large 
numbers of ANP in a counter-insurgency (COIN) environment. At the time, 
the Department of State (DOS) had a contract in place with DynCorp 
International LLC to provide the basic police training skills to the 
ANP. DoD and DOS believed it would be most economical and most 
efficient for DoD to continue to fund this contract by providing Afghan 
Security Forces Funding (ASFF) to DOS and for DOS to continue to 
execute the contract.
    As part of our effort to improve the police training process, the 
U.S. Ambassador to Afghanistan (Ambassador Karl Eikenberry) and the 
Commander, U.S. Forces--Afghanistan (General Stanley McChrystal) 
recommended that management of the DoD-funded and DOS-managed police 
training contract used to hire civilian police trainers should be 
shifted from DOS to DoD to provide unity of control and command. DOS 
and DoD subsequently approved this recommendation. The recommended 
effective date for the transition was January 2010, the date the 
existing DOS contract with DynCorp was scheduled to end.
    Due to the operational need to award a new contract quickly and the 
respective organizations' subject matter expertise and experience in 
support of Afghanistan operations, the Commander, Combined Security 
Transition Command--Afghanistan (CSTC-A) selected the Counter-
Narcoterrorism and Technology Program Office (CNTPO), through the U.S. 
Army Space and Missile Defense Command/Army Strategic Forces Command 
(USASMDC/ARSTRAT), to oversee the development of an appropriate 
acquisition strategy for the ANP program. The new strategy called for 
procuring the required services through the issuance of task orders 
under existing Multiple Award Indefinite Delivery/Indefinite Quantity 
(MAIDIQ) contracts with CNTPO. The task orders for the training of the 
ANP and ANP program logistics requirements were to be competed among 
the five existing MAIDIQ contractors.
    Before orders could be issued, on March 15, the Government 
Accountability Office (GAO) sustained a protest by DynCorp 
International LLC. The GAO determined that the task orders for the ANP 
program were outside the scope of the MAIDIQ contracts. As a result, 
the ANP training effort will not be awarded under the MAIDIQ contracts. 
DynCorp will continue performance under the current DOS contract while 
DoD weighs options to ensure the ANP program requirements are met in an 
expeditious manner in consideration of this recent development.
    DoD currently is planning to conduct a full and open competition 
over the coming months for the ANP training contract. In the interim, 
the ANP training program has not stopped. DOS extended the current 
DynCorp contract until July 31, 2010. DoD and the DOS are exploring 
options on a bridging solution for the period from July 31 until the 
competition is complete and a new contract is in place.
    Question. If the DOD holds a competition for the ANP training 
contract, what steps is the department taking to ensure that the new 
contract recipient docs not in any way harm the overall U.S. effort in 
Afghanistan?
    Answer. Significant improvements have been made in the policy and 
management framework governing contractors employed by the Department 
of Defense (DoD) and their activities in both Iraq and Afghanistan. 
Further, the number of contracting officer representatives (CORs) in 
Afghanistan continues to grow. DoD is ensuring that CORs are appointed 
in critical areas and that they are performing worthwhile and timely 
audits of contractor performance.
    Contractors overseas remain accountable under the law. The Military 
Extraterritorial Jurisdiction Act applies to certain contractors, and 
Congress amended the Uniform Code of Military Justice to subject 
certain contractors to relevant provisions of military law.
    Question. Mr. Secretary, during the hearing you mentioned that 
uniformed U.S. and international personnel arc also involved in 
training the Afghan Army and Police. Can you please provide a breakout 
of the number of U.S. military, international military and private 
contractor personnel involved in training Afghan security forces?
    Answer. As of April 11, 2010, there were 1,151 U.S. military 
personnel training the Afghan National Security Forces (ANSF). This 
number includes 607 who are providing an interim solution to a shortage 
of international instructors. There are 335 international military and 
police personnel training the ANSF. This number will increase as 
additional trainers arrive to fulfill pledges made by nations at 
various sourcing conferences held over the last five months. There are 
approximately 2,800 contractors training the ANSF in various 
capacities. These numbers apply only to the formal training and 
instructors in the ANSF institutional training base.

    [Clerk's note.--End of questions submitted by Mr. Moran.]
                                          Thursday, March 25, 2010.

                 ARMY AND MARINE CORPS GROUND EQUIPMENT

                               WITNESSES

LIEUTENANT GENERAL WILLIAM N. PHILLIPS, PRINCIPAL MILITARY DEPUTY TO 
    THE ASSISTANT SECRETARY OF THE ARMY (ACQUISITION, LOGISTICS, AND 
    TECHNOLOGY), UNITED STATES ARMY
LIEUTENANT GENERAL GEORGE J. FLYNN, DEPUTY COMMANDANT FOR COMBAT 
    DEVELOPMENT AND INTEGRATION, UNITED STATES MARINE CORPS

                              Introduction

    Mr. Dicks. The Committee will come to order. This afternoon 
the Committee will hold a hearing on the status of ground 
equipment in the Army and Marine Corps. We are pleased to 
welcome Lieutenant General William N. Phillips, United States 
Army, Military Deputy to the Assistant Secretary of the Army 
for Acquisition, Logistics and Technology; and Lieutenant 
General George J. Flynn, U.S. Marine Corps, Deputy Commandant 
for Combat Development and Integration.
    General Flynn, you have testified previously before this 
committee. Welcome back.
    General Phillips, this is your first time to appear before 
the Subcommittee on Defense. We are aware of your experience in 
acquisition and your recent tour of duty as Commanding General 
of Joint Contracting Command in Iraq and Afghanistan. You bring 
a wealth of knowledge to our discussions and we will benefit 
from your statement and your answers to the questions posed by 
the members of the committee.
    Let me just say to each of you, thank you for being here 
and thank you for your many years of service in the defense of 
our country.
    Today we will talk about fighting vehicles, support 
vehicles, communications gear, and other ground equipment. This 
is the equipment used by our soldiers and Marines in the ground 
fight, down in the dust and dirt of Afghanistan. It needs to be 
of first quality in terms of capability, maintainability, and 
reliability.
    The units of the Army and the Marine Corps have great 
equipment, the results of past careful, but sometimes lengthy 
development and production efforts. We look forward to an 
update on ongoing acquisition programs and the associated 
budget requirements for systems such as Strykers, Bradley 
Fighting Vehicles, MRAPs, trucks and communications equipment.
    In recent years, a number of programs have not achieved 
cost and schedule goals. And after extended periods of time and 
many billions of dollars spent, the programs have been canceled 
as nonproductive and, in some cases, irrelevant to the current 
and projected fight. The Army's Crusader Self-Propelled 
Howitzer, the Comanche Helicopter, Future Combat Systems and 
the Presidential Helicopter programs are examples of failed 
efforts.
    The Committee will be interested to hear about initiatives 
in the Army and Marine Corps acquisition offices to improve 
program management and thus deliver equipment that meets the 
needs of our Soldiers and Marines in a cost-effective manner.
    The canceled programs mentioned previously have yielded 
certain advances in technology and useful items of equipment. 
The Army and Marine Corps are incorporating the new technology 
and equipment as modernization upgrades in existing 
organizations. For example, the Class 1 Unmanned Aerial 
Vehicle, Tactical and Urban Sensors, and Non-Line-of-Sight 
Launch system, all of which were developed in the FCS program, 
will soon be fielded to Infantry Brigade Combat Teams.
    The Committee wants to hear about the progress of testing 
that will ensure that the equipment will work as advertised 
when placed in the hands of our Soldiers and Marines.
    The Army and Marine Corps continue to procure medium and 
heavy trucks. The Army budget request includes no funding for 
procurement of HMMWVs, but does include nearly $1 billion in 
recapitalization of older HMMWVs. Additionally, the Marine 
Corps budget provides for procurement of only 74 HMMWVs.
    The Committee will also want to hear the logic of recapping 
older vehicles versus purchasing new ones. Furthermore, the 
Committee would like to discuss the mix of HMMWVs, MRAPS, MRAP 
ATVs and Joint Light Tactical Vehicles that, in the future, 
will compromise the set of Light Tactical Vehicles in Army and 
Marine Corps units.
    We will proceed with your statements in just a minute, but 
before we do, I would like to ask the distinguished Ranking 
Member and former Chairman, the gentleman from Florida, Mr. 
Young, for any comments that he might have.

                          Remarks of Mr. Young

    Mr. Young. Mr. Chairman, thank you very much. And you have 
certainly adequately pointed out the interest that we have 
today.
    But I think the story you just told and the history of the 
HMMWV and the vulnerability to the IEDs, that this Committee 
moved quickly to provide funding for the MRAPs. And once we 
fielded the MRAPs, the enemy found a way to, with using the 
EFPs, to attack the MRAPs.
    We have to stay ahead of the enemy. We have to make sure 
our ground troops are able to be transferred, to be moved, to 
be in vehicles that will in fact give them protection. And that 
is a primary priority for this member and this Subcommittee.
    So we look forward to your testimony and want to do 
whatever we can to guarantee that our soldiers on the ground 
are going to have a safe way to travel around Afghanistan.
    Thank you, Mr. Chairman.
    Mr. Dicks. Thank you, Mr. Young.
    We also want to welcome Major General Tom Spoehr, Army 
Assistant G-3, Force Development. Thank you, General, for being 
here to help us better understand these important issues.
    General Phillips, you may proceed with--we will put both 
statements, and all your statements, in the record. And you may 
proceed as you wish.

                 Summary Statement of General Phillips

    General Phillips. Congressman Dicks and Congressman Young 
and distinguished members of the Subcommittee on Defense, thank 
you for this opportunity to discuss Army ground equipment and 
other acquisition programs.
    I am pleased to appear along with Lieutenant General George 
Flynn and also Major General Tom Spoehr. I am pleased to 
represent here today over 40,000 members of the Army 
acquisition workforce and the more than 1 million Soldiers who 
have deployed in combat over the last 8 years and who have 
trusted us to provide them with the best world-class equipment 
and weapons systems possible, so that that can ensure their 
success on the battlefield, so that one day they can return 
home safely to their families and friends.
    Sir, I respectfully request that my written statement be 
made a part of the record for today's hearing.
    Mr. Dicks. Without objection, so ordered.
    General Phillips. Mr. Chairman, the Army continues to meet 
the equipping demands of our soldiers in Afghanistan and Iraq 
and in the operations worldwide, as well as prepare for future 
challenges, because of the resources provided by this 
subcommittee and the Congress.
    And, sir, having spent almost the last year in Iraq and 
Afghanistan, I thank this Subcommittee for the work they have 
done to allow us the opportunity to build the systems, field 
them in Iraq, so that our soldiers--and watching our Marines as 
well on the field of battle--can execute the mission and return 
home safely to their families and their friends.
    We are grateful for what you do and we are grateful for the 
American taxpayer for what they have done to allow us the 
opportunity to build these systems.

                         ACQUISITION WORKFORCE

    Mr. Chairman, we appreciate your support as well as that 
for the acquisition and contracting workforce to handle the 
increased workload in managing our acquisition programs. We 
thank you for authorizing us five additional general officer 
billets for Afghanistan.
    Most recently, I served as a commanding general in Iraq and 
Afghanistan. Today we have Brigadier General Camille Nichols 
from the Army serving as that commander in that capacity. Sir, 
as we grow the acquisition workforce, the Weapons Systems 
Acquisition Reform Act that you referred to earlier, of 2009, 
is helping us to ensure that our programs are healthy and that 
any problems that are identified are identified early, and 
program adjustments are made to keep them healthy.

                         MODERNIZATION PROGRAM

    Sir, with regards to meeting the needs of our current and 
future warfighters, the Army has a comprehensive modernization 
program that leverages lessons learned from the last 8 years of 
war. At the center of our efforts are the Brigade Combat Team 
Modernization plan, which includes incrementally modernizing 
our networks over time to take advantage of rapid advances in 
technology, incrementally fielding capability packages to put 
the best equipment into the hands of our Soldiers as rapidly as 
it is available, and incorporating mine-resistant and ambush-
protected vehicles, or MRAPs, into our force, and rapidly 
developing and fielding a new Ground Combat Vehicle that meets 
the requirements of the 21st century.
    Network modernization uses two primary transport programs 
to incrementally move the Army to a single and expanded Army 
battle command network: Warfighter Network Tactical, or WIN-T, 
and the Joint Tactical Radio System. Capability packages 
provide the Army a regular and timely process to enable our 
deployed units with the best available technologies based upon 
the threats they are likely to face.
    Early Infantry Brigade Combat Team systems were approved by 
the Defense Acquisition Executive for low-rate initial 
production. Our warfighters have used these systems in combat, 
many of them, and we are working hard to get them combat-ready. 
The Army is incorporating MRAPs throughout our unit formations.

                         GROUND COMBAT VEHICLE

    Mr. Chairman, the Ground Combat Vehicle is the Army's next 
generation infantry fighting vehicle, designed from the ground 
up to operate in an improvised explosive device environment. 
The Army released the Request For Proposal (RFP) for technology 
development on the 25th of February. We intend to produce the 
first competitive prototype by 2015 with the first production 
vehicles by 2017.
    Our comprehensive modernization program includes our combat 
platforms and is focused on standardizing 31 heavy brigade 
combat teams with two variants of our dominant combat maneuver 
platforms, M1 Abrams and the M2 Bradley. In addition, we have 
Stryker vehicles that we continue to produce and, at the same 
time, we are looking at upgrades to the Stryker program, to 
include the double V hull.
    An important cornerstone of our modernization strategy is 
the Paladin Integrated Management program, better known as 
Paladin PIM. This is a key part of our Army modernization 
program and it will be the first upgrade to the Paladin 
Howitzer in many years.
    Providing our soldiers with the best possible protection, 
payload, and performance includes continued modernization of 
our tactical wheel vehicle fleet. At the heart of our plans is 
the Joint Light Tactical Vehicle, with the Marine Corps as our 
partner, to replace the HMMWVs. That will start in about 2015.
    Army unmanned aircraft systems are of vital capability to 
our deployed forces. They provide us tremendous intelligence, 
surveillance, and reconnaissance. Such platforms as Raven, 
Shadow, Constant Hawk and Persistent Threat Detection Systems 
are really combat multipliers for our warfighters on the field 
of battle, as well as the extended range multipurpose system.
    Mr. Chairman and distinguished members of the Subcommittee 
on Defense, on the field of battle today, we face a very 
adaptive, resourceful enemy. And I see it as my key role in the 
job that I now have to making sure that we develop programs, 
technology, drive those programs to a successful production, 
and field that capability to our soldiers in the quickest 
manner possible, so they once again--I will say it one more 
time--that they can perform on the field of battle efficiently, 
effectively, and then return home safely to their families and 
their friends.
    Sir, once again, thanks to your Subcommittee and Congress 
for what they do to allow us to execute our mission. Sir, that 
concludes my remarks.
    [The statement of General Phillips follows:]

    [GRAPHIC] [TIFF OMITTED] T5009A.031
    
    [GRAPHIC] [TIFF OMITTED] T5009A.032
    
    [GRAPHIC] [TIFF OMITTED] T5009A.033
    
    [GRAPHIC] [TIFF OMITTED] T5009A.034
    
    [GRAPHIC] [TIFF OMITTED] T5009A.035
    
    [GRAPHIC] [TIFF OMITTED] T5009A.036
    
    [GRAPHIC] [TIFF OMITTED] T5009A.037
    
    [GRAPHIC] [TIFF OMITTED] T5009A.038
    
    [GRAPHIC] [TIFF OMITTED] T5009A.039
    
    [GRAPHIC] [TIFF OMITTED] T5009A.040
    
    [GRAPHIC] [TIFF OMITTED] T5009A.041
    
    [GRAPHIC] [TIFF OMITTED] T5009A.042
    
    [GRAPHIC] [TIFF OMITTED] T5009A.043
    
    [GRAPHIC] [TIFF OMITTED] T5009A.044
    
    [GRAPHIC] [TIFF OMITTED] T5009A.045
    
    Mr. Dicks. General Flynn.

                   Summary Statement of General Flynn

    General Flynn. Sir, Chairman Dicks, Congressman Young, and 
distinguished members of the Committee. First it is a little 
bit different being in this committee room without the presence 
of Chairman Murtha, but I suspect that he is in overwatch, and 
I also suspect that he has inspired at least one hard question. 
So I will be prepared for that.
    Mr. Dicks. We will make sure of that.
    General Flynn. Second, I want to thank you for the support 
of our servicemen and -women, and in particular for your 
support of our Marines.
    I appreciate the opportunity to appear today to discuss 
with you your Corps ground equipment requirements. In 
developing the requirements for these programs, we consider 
several factors to properly balance our adaptable and versatile 
force. We consider the threat, our naval character, our Corps' 
competencies, and the need to be agile in order to respond and 
guard against surprise. Our view of the world is that we will 
need to have credible capabilities that assure access in time 
of crisis, that allow for the reinforcement of our allies, and 
provision of humanitarian assistance and disaster relief 
wherever needed.
    Compounding our response requirement is the reality that 
state and nonstate actors around the world will have 
increasingly sophisticated warfighting and anti-access 
capabilities.
    As both an expeditionary and sea-based force that is 
specifically designed to be an integrated combined arms force, 
we require equipment that enables us to execute and integrate 
the six warfighting functions across multiple domains: air, 
sea, land, and now cyber. We must also be able to execute a 
range of missions and swiftly respond among the four military 
tests and the capstone contest for joint operations: security, 
combat, engagement and relief, and reconstruction.
    In the development and validation of our equipment 
requirements, we are guided by our six corps competencies. 
These competencies are persistent naval engagement, integrated 
combined arms, service with the Navy, assured access from the 
sea, complex expeditionary operations, joint and multinational 
operations, and interagency activities.
    As recent events in Haiti and Afghanistan have proven, your 
soldiers of the sea are equally comfortable and capable of 
operating from a sea base or an austere expeditionary forward 
operating base. In these operations, we once again prove that 
we are no better friend or no worse enemy to those who wish us 
harm.
    The demonstrated agility of our general purpose amphibious 
force underscores the versatility of your Marines. Empowered by 
the education and training they receive, and enabled by the 
utility and flexibility of equipment sets that Congress has 
provided, your Marines continue to perform.
    The Marine Air Ground Task Force construct serves to 
amplify and highlight the effectiveness of task-organized 
Marine Corps units operating in vastly different environments 
across the spectrum of conflict.
    As we look to the future, we understand the increasingly 
complex, challenging, and dynamic security environment. We 
acknowledge the likelihood of increased fiscal constraint. The 
bottom line is that we explicitly understand the need for 
utility, flexibility, and versatility in equipment requirements 
development at affordable costs.
    Some of the challenges we see include properly balancing 
payload, performance, and protection with transportability 
costs and energy efficiency. This challenge is causing us to 
look at how we develop the basic requirements for equipping our 
warfighting units. In the future, we may have units with a 
basic table of equipment augmented by mission or operating 
environment specific equipment sets.
    In light of exponential cost increases for modernized 
equipment, we must also examine new ways of managing costs in 
order to provide the right capability with the right capacity 
to operate in every clime and place. In short, in an era of 
increasing access challenges, the ability to be flexible and 
adaptable across the full range of military operations, coupled 
with our unique ability to operate from the sea, will continue 
to make your Corps of Marines a valued tool in the joint 
warfighting tool kit.
    I am confident that with your continued support, we will 
remain able to provide the Nation with what it expects from our 
Corps of Marines.
    Again, thank you for the opportunity to be here today, 
along with General Phillips and General Spoehr. I look forward 
to answering your questions.
    [The statement of General Flynn follows:] 

    [GRAPHIC] [TIFF OMITTED] T5009A.046
    
    [GRAPHIC] [TIFF OMITTED] T5009A.047
    
    [GRAPHIC] [TIFF OMITTED] T5009A.048
    
    [GRAPHIC] [TIFF OMITTED] T5009A.049
    
    [GRAPHIC] [TIFF OMITTED] T5009A.050
    
    [GRAPHIC] [TIFF OMITTED] T5009A.051
    
    [GRAPHIC] [TIFF OMITTED] T5009A.052
    
    [GRAPHIC] [TIFF OMITTED] T5009A.053
    
    [GRAPHIC] [TIFF OMITTED] T5009A.054
    
    [GRAPHIC] [TIFF OMITTED] T5009A.055
    
    [GRAPHIC] [TIFF OMITTED] T5009A.056
    
    [GRAPHIC] [TIFF OMITTED] T5009A.057
    
    [GRAPHIC] [TIFF OMITTED] T5009A.058
    
    [GRAPHIC] [TIFF OMITTED] T5009A.059
    
                         GROUND COMBAT VEHICLE

    Mr. Dicks. General Phillips, after termination of the 
manned ground vehicles in the FCS program, the Army initiated a 
new program called the Ground Combat Vehicle program. The first 
vehicle planned for production in the Ground Combat Vehicle 
program is a new infantry fighting vehicle which would replace 
the Bradley Fighting Vehicle. How will the new Ground Combat 
Vehicle improve on the Bradley?
    General Phillips. Sir, thank you for your question. The 
Ground Combat Vehicle was developed after 8 years of learning 
about the war, our Army at war and lessons learned from FCS, as 
you just defined, sir. It is much different than what the 
Bradley provides us on the battlefield today.
    First and foremost and most obvious is the Bradley has a 
capacity for about nine soldiers today. The Ground Combat 
Vehicle will carry 12 soldiers. That is a requirement. And it 
would be a nine-person squad plus a three-person team that will 
operate inside that vehicle.
    Also we want this vehicle to be scalable in that we want it 
to be able to operate in all environments from low-threat 
permissive kinds of environment where you might even operate an 
HMMWV in, all the way up to major or full spectrum operations. 
We wanted it to be scalable to the point where you can add 
underbelly armor, that you can armor the sides of the vehicle 
as the threat increases, where you might want to operate 
within, much different than what the Bradley provides today.
    Mr. Dicks. Is the Bradley susceptible to IEDs? Does it have 
the same kind of defensive capabilities as the MRAP and the M-
ATV?
    General Phillips. Sir, it has less than the MRAP. Let me 
say this, any vehicle is susceptible to an IED or an EFP kind 
of event, to a certain extent, some better than others. The 
Ground Combat Vehicle is expected to be much better than the 
Bradley is today, sir, and have MRAP capability protection or 
better, as well as Abrams kind of mobility as well.

                           RAPID ACQUISITION

    Mr. Dicks. The Committee understands that the new Infantry 
Fighting Vehicle is scheduled for first fielding in 2017. Given 
all the work done under the FCS program, the lessons learned in 
Iraq and Afghanistan, nobody knows that better than you, and 
the experience of rapidly fielding the MRAP vehicles, isn't 7 
years a long time? I mean, why can't we use the model of the 
MRAP as a way to go forward on this manned ground vehicle?
    General Phillips. A couple of points. The MRAP was a rapid 
acquisition. It didn't go through all the testing that a normal 
acquisition program would, when you apply 5000.2, which is how 
we manage programs. It is a much different acquisition.
    We did limited testing. We simply went out to try to buy 
the best armored vehicle we could with the requirements as we 
knew them then. We made some mistakes along the way and we have 
seen that in Iraq and Afghanistan.
    Mr. Dicks. But you fixed those mistakes, didn't you, as you 
went along? ``Serial development,'' I remember that phrase.
    General Phillips. Yes, sir. We have done some of that with 
MRAP. That is a great response. Within the Army, this has been 
a great debate in my first 60 days on the job and we continue 
the debate. Some would want us to produce it quicker, some 
would think that is probably too quick.
    Mr. Dicks. You have done better on the quicker one, the 
ones that have taken--the ones that we have seen, the Crusader, 
Comanche and the--the ones where you have taken a long time to 
do it, the results haven't been as good as when you expedited 
it and just said, here is what we need and go do it.
    Do you think the industry--if you did that--this approach, 
do you think the industry could develop for you a capable 
Ground Combat Vehicle that meets your requirements without 
going through this long development and costly development 
phase? We will spend billions before we get a single vehicle.
    General Phillips. When you look at the requirements, we 
want this vehicle to have a network capability, mobility, 
efficiencies, force protection. It would be very difficult for 
industry to develop a vehicle that would meet all of those 
requirements. And the lessons learned from those 8 years of war 
and what we have learned through years of development from 
Future Combat Systems has led to us where we are today with 
this requirement.
    We think by 2015, we can have the initial prototypes ready 
for test and evaluation to make sure that we did get it right. 
And then 2017, the first production.

                          PROCUREMENT STRATEGY

    Mr. Dicks. Are you going to have a narrowing down of 
competitors or are you going to have two people develop these--
how many--tell us what your procurement strategy is.
    General Phillips. Sir, our strategy intent is doing the 
analysis of alternatives at the same time we have the RFP on 
the street. We will take up to three competitors, three 
industry partners, that will develop the vehicle. It could be 
two, it could be three, but we want at least two, potentially 
three.
    We will take them forward from September of this year for 
27 months for the technology demonstration phase. At that 
point, we would down select to two vendors for the engineering 
and manufacturing development. That is following weapons system 
acquisition reform of 2009 to carry competitive prototyping all 
the way through essentially to production.

                         SITUATIONAL AWARENESS

    Mr. Dicks. And again, you are going to have nine plus three 
and the networking. This is an important part of what you 
learned in Future Combat Systems, is where you are and where 
the enemy is. Can you tell us a little bit about that?
    General Phillips. Sir, situational awareness for our 
Soldiers on the battlefield is key to the effectiveness they 
have. It is like the Abrams tank that we have today, the 
digital tank that gives the commander the situational awareness 
to be able to see what is happening around the battlefield. We 
would want this vehicle to have even greater capability than we 
have today, with their network and situational awareness that 
reaches down to the soldier level as well as to the sensors 
that we put on the ground and the sensors we have in the sky, 
UAVs and other sensors. Sir, that is absolutely critical to our 
capability for the Ground Combat Vehicle.
    Mr. Dicks. As I recall on the Bradley, we started with 
aluminum and we found that there was a real bad fire problem 
there and we changed the Bradley; is that correct?
    General Phillips. Sir, I believe you are correct. I did not 
work that program, and I would have to do a little research. 
But I believe that is correct.
    Mr. Dicks. I believe that was finally changed, and I assume 
that would be a lesson learned in this development as well.
    General Phillips. Sir, absolutely. The lessons of the past, 
you defined them very well in your opening comments. We have to 
learn from those and we have to move forward and execute and 
deliver for Congress and for the American people, and 
especially our soldiers, that capability.
    Mr. Dicks. Because we can't afford to waste a lot of money. 
You add it all up, it is a lot of money we put into these other 
programs that didn't bear any fruit.
    Mr. Young.
    General Phillips. Sir, I completely agree.

             MINE RESISTANT AMBUSH PROTECTED (MRAP) VEHICLE

    Mr. Young. Thank you very much, Mr. Chairman. I share your 
concern about the length of time it takes to develop something. 
However, remember when Secretary Gates invited Mr. Murtha and I 
to sit with him and talk about the need for an MRAP-type 
vehicle? It seemed like once we agreed to fund, it was like 
within 2 or 3 weeks we heard they were being deployed. It 
wasn't that quick, but it seemed like it. But if I understand 
correctly, General, the MRAP-type vehicle had already been 
developed by other countries actually. So we didn't have too 
much developmental problem to go to the MRAP. Was that 
accurate?
    General Phillips. Sir, that is an accurate statement. It 
was essentially a commercial off-the-shelf vehicle that we went 
to industry partners who could build a vehicle and then armor 
it up. Sir, part of the difference is the MRAP did not go 
through the normal acquisition process that we have and that we 
have to follow. Much of that was waived and it was essentially 
a commercial vehicle adding some capability to it and deployed 
into theater.
    What we do today with the major acquisition program and the 
discipline and rigor that we put into that, it takes a length 
of time to make sure we have the testing right and we have the 
vehicle right to meet the standards.
    Mr. Young. Once the MRAP was very effective in being able 
to protect our soldiers in Iraq. Then when we began to use them 
in Afghanistan, we discovered that they were not the best 
vehicle for some of the areas in Afghanistan. So then comes the 
M-ATV, right?
    General Phillips. Yes, sir, correct.

                             M-ATV INGRESS

    Mr. Young. Why can't the soldiers get back in the M-ATV 
once they get out?
    General Phillips. I was not aware there is an issue with 
soldiers getting out and getting back into it, unless I 
misunderstood your question.
    Mr. Young. Well, let me ask it further. We are told that 
there is an entry problem; that if the soldier leaves the M-
ATV, oftentimes he cannot get the door open to reenter the 
vehicle.
    General Spoehr. Sir, you are correct. There is a problem 
with a sticking door that we have recently been made aware of. 
And we found 20 instances of sticking doors on the M-ATV. The 
program office has come up with a fix to that, and I can't tell 
you what that fix is. But it is in the process of being 
implemented in Afghanistan.
    Mr. Young. So it is not a generic problem that affects all 
the M-ATVs, about 20?
    General Spoehr. They have found 20 to this date that have a 
sticking-door problem. But there is already a solution that has 
been found.
    Mr. Dicks. Can they fix--they fix it in country, right?
    General Spoehr. It is a door misalignment. If your car door 
was a little misaligned, it would jam once you closed it.

                     EXPEDITIONARY FIGHTING VEHICLE

    Mr. Young. It sort of reminds me of the problem we had with 
the HMMWVs, where the soldier was having a difficult time to 
get his seat belt undone so he could exit the vehicle. 
Incidentally, the fix for that was created by a constituent in 
my district. So we are pretty excited about that, that they 
solved that problem.
    I want to ask you just about the Expeditionary Fighting 
Vehicle. When we talked about this last year and the year 
before, there were a lot of questions about whether or not this 
actually provided survivability because of the construction. We 
were getting really excited about the V hulls on the MRAPs and 
the heavy steel, and then I think this Expeditionary Fighting 
Vehicle has a flat bottom, an aluminum bottom. Is that correct?
    General Flynn. Yes, sir. The Expeditionary Fighting Vehicle 
is not designed to be an MRAP-like transporting vehicle. It is 
designed to be a fighting vehicle that can surf, can swim, and 
also conduct mechanized maneuvers on shore. And it is 
vulnerable, under the hull right now with the straight hull, to 
underbelly IED devices.
    We have just recently completed the testing for the EFV up 
at Aberdeen without the added applique armor, and it has tested 
vulnerable to the underbelly. In conjunction with the program, 
we are also developing applique armor to put underneath the 
vehicle. That, based on simulations, will probably give it at 
the bottom end of MRAP-like capabilities. But it is designed to 
be a maneuver vehicle. It is not designed to have the same use 
where we would use the MRAP in predictable transportation 
routes. And that is why we think, especially as we relook our 
ground tactical vehicle strategy, that we need different sets 
of vehicles to provide capabilities to allow us to do different 
things, to give us the flexibility to go where we need to go 
under a variety of conditions.
    Mr. Young. General Flynn, this vehicle is intended to bring 
Marines from the ship to the shore?
    General Flynn. Yes, sir. And to be fighting at the same 
time.
    Mr. Young. How far inland can that vehicle go?
    General Flynn. Sir, if it swims in from 25 miles out, has 
about a 200-mile range once it gets ashore.
    Mr. Young. What barricades would stop you from maneuvering 
or moving into an area? Can it go across a wall, for example, a 
stone wall?
    General Flynn. Not necessarily. It would depend on the 
height of the wall, sir. And I can get you the specifics of 
what heights it can climb. But that some obstacles could do it, 
sir. But one of the benefits of being able to come from the 
sea, sir, you are not necessarily locked into a certain 
location or a certain beach to be able to do it.
    [The information follows:]

    As a tracked combat vehicle, the EFV is required and capable of 
crossing a 3-foot-high wall, and an 8-foot-wide gap.

                  EXPEDITIONARY FIGHTING VEHICLE ARMOR

    Mr. Young. The Stryker will have a new hull that will be--
so additional protection similar to MRAP. Would this 
expeditionary fighting vehicle be eligible for a new bottom, a 
new hull, other than the applique armor you were talking about?
    General Flynn. Sir, I don't think that would be possible 
because of the ground clearance underneath the vehicle. I think 
if we added a hull to it, we are not going to have the ground 
clearance that we would need without raising the height of the 
overall vehicle. So I think that would be an engineering 
challenge.

                                 HMMWV

    Mr. Young. Just one last question, Mr. Chairman. The HMMWV 
seems to not have a lot of use any longer; is that correct?
    General Flynn. Sir, from the Marine Corps side, right now 
if, for example, in Afghanistan, even if you are an up-armored 
HMMWV, it takes the battalion commander to authorize that to 
leave the operating base. What we are seeing, though, is--
again, this goes to our overall tactical vehicle strategy--is 
we do need some light vehicles to go to places where you can't 
take heavier vehicles. We are experimenting right now with a 
way of possibly recapitalizing our HMMWV fleet. And we should 
have the results of that experimentation in May to see if we 
can--because we have 27,000 in the inventory right now. And if 
we could capitalize on that, give it some added protection, we 
may be able to save some money and provide that range and 
capabilities that we are looking for in an integrated ground 
tactical vehicle strategy.
    General Phillips. Sir, if I could answer also. You are 
referring to Afghanistan, and I would agree with your comments 
about the HMMWV. The Army has a requirement for about 152,000 
HMMWVs. We essentially already met that objective, but for 
other permissive environments and anywhere within CONUS, we 
have a great demand for the HMMWV that will remain in our 
inventory for some time.
    Mr. Young. And if I understand correctly, there are 
overseas foreign sales of the HMMWV that--the manufacturer 
would come on line for?
    General Phillips. Yes, sir. We will be buying HMMWVs over 
this year and through the next year, upwards to about 8,995, 
through Foreign Military Sales and supporting other services. 
You are exactly right.

                              MULE PROGRAM

    Mr. Young. General Flynn, how is the mule program going?
    General Flynn. Do you mean real mule program, sir?
    Mr. Young. Last year or the year before last, the Marine 
officer who testified was really excited about using the mules. 
And they thought it was really a modern way to go.
    General Flynn. Sir, out at Bridgeport, California, sir, 
using experience that we gained in the small wars in the 1920s, 
we actually do training with mules. And we use mules in areas 
of Afghanistan where it is hard to get to. We actually use pack 
trains. So we do teach a course in how to do a mule 
transportation and how to care for and feed a mule and how to 
load it. And in certain situations we actually do use mules, 
sir.
    Mr. Dicks. Does the Army have a--the Army mule----
    General Phillips. Sir, not a formal program. We do use 
mules for--or employ our canon artillery at Fort Sill where 
they demonstrate the caissons from the early 1800s, sir, but 
that is our only use of mules today at least.
    General Flynn. Sir, we are a joint organization and we have 
trained soldiers--the Marines have trained soldiers in 
Bridgeport, California on the proper use of a mule.
    Mr. Dicks. The gentleman's time has expired. Mr. Hinchey.

                  EXPERIMENTAL FORWARD OPERATING BASE

    Mr. Hinchey. Thank you very much, Mr. Chairman. And thank 
you, Generals. Thank you very much for your service.
    General Flynn, I want to ask you a question about something 
in your testimony that struck me as being very interesting. It 
is the creation of an experimental forward operating base in 
Quantico, Virginia. And the purpose of it is to test and 
develop alternative power, water, and shelter solutions.
    Can you tell us a little bit more about that, what the 
obstacles are, what are the principal areas that are being 
developed?
    General Flynn. Yes, sir. This is one of the major 
initiatives of General Conway and also the Secretary of the 
Navy. What we did in the last month, we created a forward 
operating base and we asked industry partners to come in and 
demonstrate existing technology that we could use to 
immediately apply in the battlefield. The idea is, we transport 
a lot of water in one area of the technology. So if we could 
find a way of purifying water at the point of origin, that 
would take trucks off the road, it would take Marines and 
Soldiers off the road in having to secure that, and it would 
also make us more efficient.
    On the energy side is, that we have so much power 
generating requirement; how could we generate power? We looked 
at everything from solar panels to modification of the truck 
transmissions to generate power to wind generation. We also 
looked at how we could better keep the environmentals in our 
shelters so that we are not using so much power to either keep 
them cool or keep them warm. And the other thing is how to 
design power grids.
    So we had an independent evaluator there. We actually 
contracted with the Army for them to do that. And then we are 
going to take the most promising technology and we are going to 
deploy them. One of the outcomes of this, one of the companies 
that came and demonstrated, donated eight solar-powered water 
purification pieces of equipment. And we sent them to 
Afghanistan. And one of our Marine units gave a couple of them 
to the local villages. And what they did is they initially 
weren't using it because it looked pretty high-tech sitting out 
in the open, and they asked the Marines to move it behind the 
wall and they did. So that village is creating purified water 
and they are trading it with another village for bread.
    Mr. Hinchey. What village is that?
    General Flynn. I will get you the name, sir. But that is 
ongoing. So we are trying to save money. We are trying to save 
equipment, and we are trying to save lives by becoming more 
energy efficient. And we think there are going to be some of 
these technologies that are going to prove themselves.
    [The information follows:]

    Answer. The village who received the unit is Naw-Abad. Please see 
attachment for further details.
[GRAPHIC] [TIFF OMITTED] T5009A.060

    Mr. Hinchey. Think that is a very effective thing to do. I 
think it is something that is very advanced and very necessary. 
We have a number of academic institutions, we have a number of 
colleges that have research in this. We have some companies 
that are engaged in this kind of activity. So I would like to 
know more about what you are doing and ways in which these 
operations might possibly be engaged with you, and maybe 
provide some things that could be useful.
    General Flynn. Yes, sir. As part of this energy initiative, 
General Conway set up an Energy Office. So I can actually link 
you up with the lead for this, and we are looking for whatever 
we can get from university research organizations, or anybody 
who has the technology. We are all ears and all eyes and we are 
open to anything, sir.
    Mr. Hinchey. Good. I would like to do that. Can you tell us 
beyond that what kind of technologies appear to be the most 
promising? Do you have any sense about that?
    General Flynn. Sir, I think how to manage a power grid is 
one example of technology that I think is promising. How to use 
less energy and lighting, that is another one that looks pretty 
good. And water purification. There are a number of ones that 
seem promising right now that we could probably field.
    And then the generation of electricity. Solar power could 
be used for small requirements, but you really need a lot of 
solar panels to create enough energy for some of the larger 
requirements. But this on-vehicle generation of power is 
probably one that I am kind of excited about, and I also think 
wind technology is another one that is a good one, sir.
    Mr. Hinchey. Thanks. Thank you very much.
    Mr. Dicks. Thank you, Mr. Hinchey. Mr. Frelinghuysen.

                        FCS ACQUISITION PROCESS

    Mr. Frelinghuysen. Thank you, Mr. Chairman. Gentlemen, 
thank you all for your service.
    In the interest of transparency, I would like to put a 
special pat on the back to General Phillips, who was base 
commander at Picatinny Arsenal in my congressional district, 
before he went over to Iraq and Afghanistan. And we are 
enormously proud of the work you did there. Thank you all for 
being here.
    We had the Army Chief of Staff in the other day and we had 
our new Secretary of the Army, John McHugh, and I admitted in 
public I was a strong supporter of the Future Combat Systems. 
We spent about $15 billion on the Future Combat Systems, and I 
understand that we have retained things that are critical 
masses within that system for the future.
    The expression is if we are building the new--and following 
along with Chairman Dicks' questions--if we are building a new 
Ground Combat Vehicle--we built the Future Combat Systems from 
the ground up too.
    I am sort of wondering here whether we--if it takes until 
2017--and I assume this is a debate that goes on within the 
military, the Army, we could be building something that 
potentially could be obsolete. I am wondering what we are doing 
here. I am supportive of what we are doing. But I worry--and I 
would like to see a little more reassurance when you talk about 
the Army acquisition process and how things work outside it to 
expedite things--that that is a comment on the Army acquisition 
process. I would like to know how we can expedite what we are 
going to do here.
    General Phillips. Up front, let me just say thanks for your 
years of service to our Armed Forces and to our families, and 
thanks to all of the Members of Congress and members here today 
for your service to our Armed Forces.
    Sir, FCS initially was going to just provide a capability 
for about 15 brigades, not the entire Army. So from the very 
beginning it was sort of limited in nature.
    Mr. Frelinghuysen. It wasn't limited in nature, because it 
was to replace the Abrams and the Bradley which was that legacy 
for us. There certainly was a concentration by the Army in 
trying to, shall we say, excite Members of Congress in why it 
was an absolute necessity that we proceed with it. But that was 
my take on it. Excuse me for interrupting.
    General Phillips. Sir, you are correct. And through 
spinouts and other technologies that we would get through FCS, 
we would obviously spin that into the current force that we 
have today as we build toward the future force.
    The termination or cancellation of the Future Combat 
Systems gave us a great opportunity to leverage what we knew at 
that time. What was terminated was the ground vehicle systems 
within the FCS construct. All of the other items that were 
there, the Tactical and Urban Unattended Ground Sensors, the 
Class I UAV, and many other systems provide us an opportunity 
to really fix what I see as a gap today, which is the Infantry 
Brigade Combat Teams. Sometimes, in my view, we neglect them.
    Now, with what has happened with the Future Combat Systems, 
how can we spin out those technologies quickly to upgrade those 
40 or so IBCTs? Twenty-nine by the year 2015 or so, we want to 
upgrade with this technology and these capabilities, spin those 
systems out so we can leverage what FCS has provided us through 
today. Sir, that is part of our intent.
    The hardest one that you mention is the Ground Combat 
Vehicle and it is not just the Army's acquisition process, sir. 
It is really the Department of Defense acquisition process as 
we manage this system all the way through. We think that we 
have a program that is medium- to low-risk.

                         GROUND COMBAT VEHICLE

    Mr. Frelinghuysen. What will it look like? I saw a very 
good article in the Armed Forces Journal, entitled ``Mother 
Ship or Battle Ship: Competing Visions of the Army Ground 
Combat Vehicle.'' What is it going to be like? Is it going to 
be, as you said earlier, a troop deliverer, or is it going to 
be a battleship or is it going to be a combination of all of 
the above?
    General Phillips. Sir, really all of above. It will be a 
combat vehicle that we can use to transport troops, to 
soldiers, or to execute combat operations today. Which is a 
little bit different than what we use the MRAP or the M-ATV, 
which is essentially to get around the battlefield. And if 
those soldiers that are riding in an MRAP or an M-ATV today run 
into an IED, that would protect them; or if they are ambushed, 
that would protect them. It has limited capability to engage 
and defeat. This would be a Ground Combat Vehicle that will 
come into our inventory that will fight from day one.
    Mr. Frelinghuysen. And the scale of--the weight of these 
things--that is why we can't use the big MRAPs in Afghanistan, 
is because there is no road system to support them. Would we be 
able to support in the Afghan theater this new Ground Combat 
Vehicle?
    General Phillips. Sir, from what I have seen today and the 
analysis from the TRADOC Doctrine Command that we just went 
through this week, the answer in my opinion is ``yes.'' Not all 
areas, but certainly in many areas today.
    Mr. Frelinghuysen. And within that article by Daniel Goure, 
the new President of the Lexington Institute--there is a rather 
alarming quotation here. It refers to Major General Robert 
Scales. And I quote, The only requirement Scales doesn't 
include in the Ground Combat Vehicle that--Let me read this. 
``The only requirement Scales doesn't include is that the 
Ground Combat Vehicle be heavily armored. Survivability would 
be achieved not by being where the IEDs are, but would be where 
IEDs would be deployed, and using information, speed, and 
maneuver to outfox the enemy or the adversary,'' within quotes. 
I mean, we would be having a vehicle on the battlefield which 
would have an issue relative to survivability?
    General Phillips. Sir, we want this vehicle to give us 
scalable, armor, and survivability that you could, depending on 
the environment that you would operate this vehicle within, you 
could scale up to the threat that you would face.
    Mr. Frelinghuysen. So you would take issue with what I----
    General Phillips. Sir, I am not sure what context General 
Scales had said that article in. But I just know that what we 
are asking for within the request for proposal that industry 
has today, that they will soon propose against, it has 
scalability of protection and survivability requirements within 
it.
    Mr. Dicks. So it would survive an IED attack?
    General Phillips. Sir, that is our intent. And it would 
have scalability in terms of what you would put underneath the 
vehicle itself, depending on the threat that exists in that 
theater. You could put different armor solutions underneath. It 
could be a V hull. I don't know. That would be up to industry 
to propose their solutions for us as we look at what is in the 
art of doable.
    Mr. Frelinghuysen. We don't have much time, I think. That 
is sort of why 2017 is a long way away. So we are going to rely 
on other types of vehicles. Okay.
    Thank you, Mr. Chairman.
    Mr. Dicks. Thank you, Mr. Frelinghuysen. Mr. Visclosky.
    Mr. Visclosky. Thank you, Mr. Chairman. General Phillips, 
what was it like being represented in Congress by Congressman 
Frelinghuysen?
    General Phillips. Sir, it was absolutely incredible, and he 
gave us great support at Picatinny Arsenal, which is a great 
place to soldier, sir.

                          HMMWV REPROGRAMMING

    Mr. Visclosky. I would have anticipated that answer.
    General, I know that my good friend and colleague, 
Congressman Young, has asked a series of questions about the 
HMMWV. My only question would be to you as well as to General 
Flynn: Does the Army or Marine Corps have plans to reprogram 
2010 dollars for HMMWV purchases?
    I know the question has been addressed. It is only on the 
reprogramming. That is my question.
    General Phillips. Sir, there is a plan to reprogram 
dollars, still within the Army, I believe today, to reprogram 
to some extent for a recapitalization program for HMMWVs. And I 
will just restate this: The HMMWVs have a place in our Army and 
we have a requirement for 152,000, so many of those HMMWVs that 
we want to bring back into the inventory through 
recapitalization and utilize them.
    A recapped HMMWV for us costs around $90,000. If we were 
going to go and buy a new one, it would be somewhere between 
180, probably, to 215 because of the differences in variance. 
So it is cost-effective for us to recap HMMWVs, sir.
    More to come on the reprogramming. It hasn't left the Army 
yet, as far as I know, sir.
    General Flynn. Sir, I am not the Marine Corps programmer, 
but I do know--I have commented on some shift of money, and I 
would like to, for the record, get back to you whether we 
actually reprogrammed money in this case for 2010, sir.
    [The information follows:]

    Answer. Yes. An above threshold reprogramming request has been 
developed and is in the internal review and approval process. Based on 
recent decisions, the Marine Corps intends to cease procurement of new 
HMMWVs, so unexecuted funds are available to meet critical Urgent 
Universal Needs Statements (UUNS), emerging OCO requirements, and 
Marine Expeditionary Brigade (MEB) Equipment Density List (EDL) 
deficiencies based on what is determined to be a higher priority.

                             TOWED HOWITZER

    Mr. Visclosky. General Flynn, on the Towed Howitzer, moneys 
were appropriated in 2010. And it was, I believe, the 
committee's belief that there would be no further request for 
moneys for the Howitzer. But there is money in the Marine Corps 
2011. Could you explain what that is for and how your needs 
have changed?
    General Flynn. Sir, some of that money is being requested 
to replace some of the Howitzers that have been damaged, and 
also through utilization, and also to allow us to buy to the 
complete authorized allowance levels, sir.
    Mr. Visclosky. Would you assume, barring changes, that that 
would be it for the purchases at this point?
    General Flynn. My understanding is that what money is in 
2011 will buy out the whole authorized allowance of that, sir.

                               M4 CARBINE

    Mr. Visclosky. General Phillips, on the M4 Carbine, my 
understanding is the Army is looking for a replacement weapon. 
What are the significant drawbacks of the M4? And what are you 
looking to do with the next generation, if you would?
    General Phillips. Sir, I must state up front that the M4 is 
an extraordinary weapon system for our soldiers. It is 
performing extremely well. We have about 400,000 of them. We 
have another 38,000 with our special operators.
    Soldiers give us great feedback on the M4, but it is still 
not without its shortcomings. We executed 62 enhancements to 
the M4 to date. If you look at the mean rounds between failure 
for an M4, the requirement is 600. We are five times that today 
on the field of battle.
    But soldiers still complain somewhat. The last complaint I 
heard before I left theater was the magazine sometimes jams, 
and it jams because soldiers might leave the rounds in a 
magazine for 5 or 6 days, and after that period of time the 
spring--something happens inside and it may jam in the weapon 
itself. We are fixing that. That will be the next series.
    So we have a dual strategy. We are going to continue to 
upgrade the M4. We expect to have an RFP in about 60 days. Then 
we are going to go out and ask for the next generation of 
carbine that may not, in fact, be a replacement, but it may be 
an additive to the M4 today on the battlefield, sir.
    Mr. Visclosky. Is part of it keeping the weapon clean? Do I 
understand----
    General Phillips. Yes, sir. I carried an M9 myself in Iraq, 
and I fired it often in training. And I cleaned my weapon very 
often to make sure that it was ready. Every soldier is taught 
to clean their weapon. And some of the things we find is when 
they don't clean their weapon, sand and grit get inside there. 
It is a very dusty environment in Iraq and Afghanistan. They 
have to do that, sir, you are exactly right.
    Mr. Visclosky. Gentlemen, thank you very much for your 
service. Thank you, Mr. Chairman.
    Mr. Dicks. Mr. Kingston.

                            RIFLE AMMUNITION

    Mr. Kingston. Thank you, Mr. Chairman.
    General, I wanted to ask a follow-up question to that. I 
understand there is a new green ammo. It is M855A1. When is 
that going to be available to test out in individual weapons?
    General Phillips. Sir, that is currently undergoing product 
qualification test. It is a very good round in terms of 
lethality. I have seen the performance results of it, and 
against the current M885 round, it is vastly superior to what 
that round will provide us. It is also lead free. It has no 
lead inside the bullet itself; a little bit inside the primer.
    To answer your question, in June of this year we expect to 
have about a million rounds off the production line available 
to the Army, and they will tell us where they want to put it. 
My hopes will be that we can get this round into combat 
quickly, sir.
    Mr. Kingston. Is that part of the improvement initiative?
    General Phillips. Yes, sir. Actually when we looked at this 
lead-free round green ammo, we looked at the complete weapons 
system. Soldiers have told us when we fired the M4, the flash, 
especially at night, could give them night blindness. We 
perfected the powder along with the round itself, so when they 
fire at night they won't get that flash. Yes, sir.

                                FORKLIFT

    Mr. Kingston. Thank you. I want to ask you a question about 
the K5 forklift programs, the light capacity, rough terrain 
forklift. And I understand that the Marines put out the 
operational requirements document--well, actually both of you 
all did. But the Marines have stuck with a shield, I guess a 
bullet-proof shield, but the Army has taken that out of their 
requirements. And there have been three of these ORDs that have 
kept that requirement in, but the Army has taken it out and the 
Marines have left it in. And I was wondering--maybe both of you 
could comment on that.
    General Phillips. Sir, I believe----
    Mr. Kingston. And the concern that I have, General, you 
know back in the first part of the war when we had to go back 
and up-armor all of the HMMWVs--it would appear to me that we 
have learned the value of the up-armoring at the factory rather 
than going to a logistics center in Albany, Georgia or wherever 
and----
    General Flynn. Sir, our requirement is, we have the 
requirement for it to be shielded, sir. And it is just because 
of the expeditionary environment that we expect it to operate 
in. So that is why we are sticking with that requirement, sir.
    General Phillips. Sir, I will take your question for the 
record, if I could, and review the program and make sure we get 
back with you on the exact status of where we are on that 
piece. I think part of it, though, as I recall, had to do with 
operations in a permissive environment and how we would utilize 
it. But, sir, I owe you a better answer than that.
    [Clerk's note.--An answer was not provided by the Army.]

                    HIGH MOBILITY ENGINEER EXCAVATOR

    Mr. Kingston. From a cost standpoint, or maybe you would 
want to split half of them or something like that.
    Another question, General, that has to do with--I guess 
this is for General Flynn. But on the HMEE, the High Mobility 
Engineer Excavator system, on the Army's Web site, May 29, 
2009, a soldier hit an anti-tank mine and exploded, but he 
walked away from it. Sergeant Adam Smith, Jr., the 9th Engineer 
Battalion, 172nd Infantry Brigade. He walked away and said, I 
am thankful it was a HMEE and not a SEE, a small excavator. And 
so my question is, the Marine Corps does not have the 
requirement for a HMEE, I don't believe, but the Army is 
utilizing them. And I have driven one, it is a high speed 
backhoe, basically. It can really move equipment, lots of 
equipment very quickly. I think the Army is very happy with it 
in Iraq. I don't know how many you have in Afghanistan, but the 
Marines I don't think have a requirement for one yet, and I was 
just wondering about it.
    General Flynn. Sir, if I could, I would like to get back to 
you on the record on that because I am not familiar with the 
vehicle, or I haven't seen a requirement for that, sir, but I 
will get back to you.
    Mr. Kingston. Okay. Mr. Chairman, that is it for me right 
now. Thank you.
    [The information follows:]

    Answer. No, the Marine Corps does not have a requirement for the 
HEMTT. The Marine Corps' medium lift capability is provided by the 
Medium Tactical Vehicle Replacement (MTVR), which has a 7-ton off-road/
15-ton on-road payload; and the heavy lift capability is provided by 
the Logistics Vehicle System Replacement (LVSR), which has a 16.5-ton 
off-road/22.5-ton on-road capability. These vehicles also meet unique 
Marine Corps capabilities such as shipboard compatibility and increased 
fording depth (60-inch).

    Mr. Dicks. Mr. Rogers.

                        UNMANNED AERIAL VEHICLES

    Mr. Rogers. Thank you, Mr. Chairman.
    Gentlemen, welcome. Let me ask you, General Phillips, about 
the Unmanned Aerial Vehicle program. You are asking for $707 
million for air vehicles, modifications and payloads. The UAV 
program has evolved rather rapidly, has it not? And now there 
is an eclectic variety of sizes and missions and the like. 
Could you give us a brief description of the UAV program that 
the Army has?
    General Phillips. Sir, absolutely. In May of this year, we 
think that we will surpass 1 million combat hours for UAVs. And 
the variants that we have, the Raven UAV, which is a very 
small, about three-feet wingspan, there are, I think, over 
1,300 of those systems fielded. They are used by platoons and 
companies and sometimes battalions for FOB security and when 
they are actually conducting operations. That is inside a 
brigade. Also inside a brigade is the Shadow UAV system as 
well. There is about, I think, 75 of those systems fielded 
today, going up to about 102 systems. Each system has three air 
vehicles. It provides a brigade commander and battalion 
commander on the field of battle intelligence, surveillance and 
reconnaissance capability through electro-optical and IR 
sensors and camera sensors onboard.
    Above that, sir, we have the extended range multipurpose 
UAVs that fly normally at corps and division level, that is 
like the Predator, but it is used tactically rather than 
strategically and operationally, which is how the Air Force 
uses it. So it is used by the Combat Aviation Brigade, flown by 
enlisted UAV pilots actually in the Army, to give intelligence, 
surveillance and reconnaissance capability to our warfighters, 
brigade commanders and division commanders.
    And, sir, there are some other systems I could talk about, 
like Hunter, which there are very few of those, but that is 
military intelligence. Constant Hawk is not a UAV system, but 
it flies in support of them to give counter-IED defeat 
capability.
    Mr. Rogers. Well, the Air Force obviously has missiles as 
well as UAVs. How are you able to deconflict the operation that 
you have with Air Force UAVs?

                          AIR TRAFFIC CONTROL

    General Phillips. Sir, we actually have a very disciplined 
and rigorous aircraft control capability, aircraft traffic 
control capability that deconflicts UAVs, fixed wing, rotary 
wing aircraft, and they have certain corridors and altitudes 
that they fly within. The Air Force obviously is flying at very 
high altitudes with their Predator and other aircraft systems. 
They are almost constantly on watch in Afghanistan to provide 
support for our Soldiers and our Marines. We have that ATC 
capability all the way down to the lowest level of UAVs.
    In the time that I have watched aviation operate in 
theater, I am only aware of one incident that was actually a 
collision between a UAV and a manned aircraft, and it was a 
Raven aircraft that actually ran into the back of an OH58D 
Kiowa Warrior, and that was many years ago. I share that with 
you because our ATC capability today that exists in Iraq and 
Afghanistan is very good to deconflict air, sir.
    Mr. Rogers. So are you now using UAVs in Afghanistan?
    General Phillips. Yes, sir, very much so.
    Mr. Rogers. Now, the Air Force operates their UAVs by 
reachback from overseas operating areas with pilots and 
intelligence specialists at crew stations in the U.S. The Air 
Force pilots are rated, they are officer aviators. You train 
enlisted personnel. What is your assessment of the performance 
of your UAVs compared with Air Force pilots?
    General Phillips. Sir, I will speak from my perspective in 
the job I have, but also from 32 years of being an Army 
aviator. I have been out to where we train our UAV pilots at 
Fort Huachuca, I have watched them, I have watched the 
training. I have been to Creech Air Force Base and actually 
have sat with an Air Force pilot flying the Predator, and I 
have great respect for how they execute that capability, which 
is extraordinary.
    Our UAV pilots, our enlisted pilots and aviators, are very 
well trained through 34 weeks of rigorous training where they 
learn ATC procedures. Their safety record is phenomenal. I 
spoke yesterday to our safety officer for aviation, Brigadier 
General Bill Wolf and I asked him how our UAV pilots were 
doing. He, as a safety officer, is very impressed with the 
record of our young enlisted UAV pilots. And I am very high on 
what they are doing for our Army and the capability they are 
providing, sir.
    Mr. Rogers. In Afghanistan, are you using the UAVs as a 
weapon as opposed to surveillance?
    General Phillips. Sir, it is both, using them as a weapon 
and also in surveillance. I would say today in Afghanistan for 
the Army, a lot of what we do is intelligence, surveillance and 
reconnaissance as opposed to actually using them to attack, 
even though they do have that capability. That ISR information 
gives our commanders on the ground great situational awareness 
so they can engage with various weapons and defeat the enemy.
    Mr. Rogers. Thank you.
    General Phillips. Thank you, sir.
    Mr. Dicks. Mr. Moran.

                            SNIPER DETECTION

    Mr. Moran. Thanks very much, Mr. Chairman.
    I am going to ask about two topics, one, sniper detection; 
the other, the Joint Light Tactical Vehicle.
    First of all, with regard to sniper detection. This 
Committee put language in both the supplemental--I will 
continue on for a couple of minutes so you can check your notes 
there, I didn't give Gates enough time, though, apparently 
yesterday--the language in the supplemental and in this past 
full appropriations bill regarding sniper detection. We wanted 
to know what your plan was, what is your procurement plan, and 
how you are planning to equip both Marines and Army.
    So we are wondering whether counter sniper equipment should 
be standard issue for Army units in Afghanistan and 
Afghanistan, and likewise for Marine Corps units, because as we 
go into these Taliban strongholds, in addition to IEDs, of 
course, land mines, they really are subject to sniper fire, and 
it is an increasing threat. Do you think the soldiers ought to 
wear it as standard equipment or vehicle mounted? I should 
probably hear from both sources.
    General Phillips. Sir, that really is a good question. In 
my view, I think we need that capability for our soldiers, but 
it depends on the threat that you might face. If there is a 
sniper threat in that theater where you go, we should field a 
capability to our soldiers, my view. But I am not sure every 
soldier needs one. What you really need is the capability to 
detect where that sniper is actually firing from. We have 
vehicle manned systems, and we have tested some individual 
gunner or sniper detection systems on the individual. I think 
we fielded about 2,100 of those.
    The $50 million that I believe you authorized for us to 
spend, we spent about $15 million of that already. We fielded, 
I believe, up to about 2,100 systems. And we are going through 
a formal process to determine what is the exact requirement we 
would want for the next generation, and we expect to have that 
on contract sometime this year, sir, but I can't give you a 
specific date. I think that we need the capability for counter 
sniper.
    Mr. Moran. But it should be up to the individual unit, 
depending upon where they are being deployed and what their 
mission is.
    General Phillips. Yes, sir. And they would have the 
operation, through the Operational Needs Statement, to actually 
tell us I need this capability and I need it along these 
timelines, and then we could get them the best we could get at 
that time.
    Mr. Moran. Does that apply to both services?
    General Flynn. Sir, we are doing a number of different 
approaches, first of all, the technology. But one of the best 
counter-sniper pieces of equipment is a better sniper. So we 
are investing heavily in making sure that our snipers have the 
latest in optics equipment and also in sniper rifles to counter 
a sniper. Normally, the best weapon against an enemy sniper is 
our own sniper.
    Mr. Moran. I understand that. But we do have the technology 
that has been refined to identify where the sniper is located.
    General Flynn. Yes, sir. And where that technology has 
proven itself, we are employing it, sir.
    Mr. Dicks. All right. Good. So I guess that is a yes 
response in both, and you are going to use that money as fast 
as you can responsibly use it.
    Joint Light Tactical Vehicle. We seem to have a different 
attitude, if you will, perspective on the part of the Marines 
and the Army. The commandant suggested that the Marines ought 
to go back to their expeditionary roots rather than replicate a 
ground Army. He felt that several years of fighting in Iraq 
encumbered the Marines with too many heavy and cumbersome 
vehicles that were designed of course to survive IEDs. But this 
past December, he indicated that he felt that a planned Joint 
Light Tactical Vehicle that would weigh nearly 22,000 pounds is 
too heavy for strategically mobile troops and that the Corps is 
actively considering a lighter version. Well, that is the kind 
of thing we need to understand, particularly in this hearing 
that is focused specifically on combatant vehicles, ground 
combatant vehicles.
    The JLTV is supposed to be a joint program. The Deputy 
Chief of Armor Capability says there is more work to be done in 
developing the concepts behind this vehicle. Is there a 
conflict between the commandant's assessment and what the Army 
sees as the appropriate vehicle?
    General Flynn. Sir, we see the requirement for a Joint 
Light Tactical Vehicle with the operative word being on 
``light'' because we are finding in many cases that we do not 
have the transportability and mobility to go everywhere that we 
need to go. And we do understand the need to partner with the 
Army. The key elements of that, though, is it is part of us 
taking a comprehensive look at all our ground tactical vehicle 
requirements.
    And one of the things that General Conway told me to do by 
next month is to have a new ground tactical vehicle strategy 
that is affordable, that actually goes to creating a family of 
capabilities that will allow us to do different things. Part of 
that family of vehicles will be a giant light tactical vehicle.
    I work all the time with my Army counterparts at TRADOC, 
and they have a need for a Joint Light Tactical Vehicle in some 
of their airborne and air assault forces. So we are linked on 
the requirement. The key thing is, for lack of a better term, 
those capability sets that I think we need families of vehicles 
in the right numbers that would give us a range of capabilities 
to allow us to go everywhere. One of the challenges we are 
having now as a sea-base force is we could weigh down a ship 
before we cube out a ship, and we have never done that in the 
past.
    Mr. Moran. You could weigh down a ship before you----
    General Flynn. We could have so much weight on it that 
there is actually more room to load it, but because of the 
weight of the vehicles, we are not becoming the ability to go 
to all the areas around the world where we need to go. So we 
are looking for a mix of capabilities in our Ground Tactical 
Vehicle Strategy. And as I told the chairman earlier, we will 
be willing to brief you on that strategy as soon as we get it 
done in the next month or two.
    Mr. Moran. Well, this was an issue with the Stryker, but 
22,000 pounds is too heavy you feel, but it will be a jointly 
developed program.
    General Flynn. Yes, sir.
    Mr. Moran. Thanks, Mr. Chairman.
    Mr. Dicks. Mr. Young.

                     CRUSADER AND PALADIN HOWITZERS

    Mr. Young. Mr. Chairman, I would like to ask, what is the 
difference, General Phillips, between Paladin and the system 
that we spent an awful lot of time before it was canceled, 
Crusader.
    General Phillips. Sir, great question. I would like to just 
go back to the previous question from Congressman Moran. We 
clearly are in sync with our Marine Corps brothers on going 
forward with JLTV.
    Sir, the Paladin is a howitzer that goes back to probably 
late 1960s, early 1970s. It has been improved for very many 
years. And with the termination of the Crusader and now the 
NLOS Cannon, it is important that we improve our self-propelled 
howitzer capability.
    As a young artillery officer, I served on the M109, the 
first version of the howitzer--it was just called an M109 then, 
it evolved into the Paladin. It is very important that our Army 
move forward to be able to fund a strategy to upgrade the 
current Paladin utilizing some of what we learned from NLOS 
cannon, like the electric turret and other items, and put that 
into the Paladin PIM upgrade. And sir, that is exactly what we 
are pursuing.
    Another piece that is very difficult with that is 
obsolescence inside that platform that does date back to the 
late 1960s, early 1970s, sir.
    Mr. Young. Isn't that what Crusader was supposed to do 
before we canceled it?
    General Phillips. Sir, Crusader, I am not sure if I have 
the data right, but was very heavy, many tons and very 
expensive as well, sir, and obviously canceled. NLOS cannon was 
canceled. We will simply take the Paladin howitzer as it is 
today, identify the upgrades that we want to incorporate into 
it, and it will be a new self-propelled howitzer that our heavy 
brigade combat teams need for the future fight.
    Mr. Young. Thank you very much, sir. Thank you, Mr. 
Chairman.

                        PALADIN BRADLEY CHASSIS

    Mr. Dicks. Would you yield on that just a second?
    Mr. Young. Sure.
    Mr. Dicks. However, the Army is proceeding with the Paladin 
Integrated Management Program which mounts a howitzer on a 
chassis that is derived from the Bradley. Please explain this 
apparent contradiction. In other words, why are we saying that 
Bradley is no good, but here we are going to use the chassis 
for this particular purpose?
    General Phillips. Sir, I will let Major General Spoehr 
weigh in here, but my quick response is, obsolescence of all 
the parts, to include the engine, the transmission, and some of 
the torque converters that go into driving the tracks and so 
forth, obsolescence has driven us to try to get commonality 
with something that we have inside the Army today.
    Tom Spoehr.
    General Spoehr. Sir, I would just add that there is a 
slightly mission set difference there, and that, normally 
speaking, a track howitzer would not be at the front pushing 
out into areas where you would expect to find IEDs. So the 
threat from an IED is a little bit lower for a track howitzer.
    Mr. Dicks. Okay. Going back to the new ground vehicle, is 
this going to be a tracked vehicle or a wheeled vehicle?
    General Phillips. Sir, we are not sure yet.
    Mr. Dicks. That is going to be up to the alternative 
analysis and contractor development?
    General Phillips. Roger, sir, exactly. The analysis of 
alternatives, AOA, in July will inform us, as will the 
proposals that we get back from industry. And we will probably 
have a host of solutions that we will propose again, sir.

                              ABRAMS TANK

    Mr. Dicks. Tell us what you are doing with the M1 tank.
    General Spoehr. Sir, we have been moving towards a two-
fleet strategy, and so we are seeking a strategy that has the 
M1A2 SEP and the M1A1 AIM SA tank. It is a two-fleet balance 
mix. It is a wonderful tank.
    We also have a program for some modest improvements over 
the course of the years to keep this platform relevant with 
digital upgrades and other things. As we have added more 
things, the platform has become burdened in terms of its 
ability to generate the necessary power and to communicate with 
the other vehicles in a heavy brigade combat team. So some of 
the modest improvements that we want to put on the M1 tank will 
keep it relevant for the foreseeable future because it will be 
part of our fleet at least until 2025, and probably further.
    Mr. Dicks. What are the key advantages of each tank and 
what are the key differences?
    General Spoehr. Sir, we have two primary types of tank, the 
M1A2 SEP and the M1A1 AIM SA. They are very similar, they are 
both great tanks. The M1A2 SEP is a fully digital tank and so 
it is able to communicate through all the modern technology and 
has a digital backbone. So as you add new black boxes to that 
tank, it can fully accept them.
    The M1A1 AIM SA tank is an analog tank. It is older 
technology, and so it doesn't accept as readily a digital-type 
system that you would find today.
    The other major difference, sir, is that the newer tank, 
the SEP tank, has a commanders' independent thermal reviewer, 
which gives the commander an ability to look separately from 
the gunner for other targets and other threats to his tank 
using a thermal site, which is a huge advantage.
    Mr. Dicks. The Army budget justification material indicates 
that the M1A1 situational awareness tank are for the Army 
National Guard and the M1A2 system enhancement package tanks 
are for the active Army. What is the rationale in providing one 
type of M1 tank to the Guard and another to active units?
    General Spoehr. Sir, we are providing both. The newest tank 
is going to both of our components, the Army National Guard and 
the active components. So shortly, it is the Idaho National 
Guard, their brigade combat team will be getting the SEP tank, 
which is the newest tank in our inventory.
    Mr. Dicks. So both the active force and the Guard and 
Reserve will get both tanks.
    General Spoehr. Yes, sir.
    Mr. Dicks. Well, maybe we ought to check your budget 
justification material and we can get that straightened out.
    General Spoehr. It could be a matter, sir, that the new 
tanks are not going directly to them; it could be a cascade, so 
it may not be----
    Mr. Dicks. I see. What variety of Abrams tanks is the most 
capable, and what would be the cost to upgrade all Abrams tanks 
to the most capable model?
    General Spoehr. Sir, the most capable tank is the M1A2 SEP 
tank. I do not have the cost, but I can get it to upgrade the 
entire fleet to that configuration.
    Mr. Dicks. Give us an estimate for the record.
    I voted, so I intend to keep going here.
    [The information follows:]

    The aggregate cost to convert all existing Abrams tanks for which 
we have requirements to M1A2 SEPs is $5.9B. The current cost to 
produce an M1A2SEP v2 is $8.4M. Currently 700 M1A2SEP v2 tanks are 
required to ``pure fleet'' the Army's Active, National Guard Modular 
HBCTs, and prepositioned stocks.
    The Abrams M1A2SEP v2 is designed to operate in close partnership 
with the Bradley M2A3. In order to optimize platform interoperability 
and communication, the Bradley fleet would need to be upgraded as well. 
The cost to modernize the Bradley fleet is $7.3B. Based on source 
vehicle, the current cost to produce an M2A3 Bradley ranges from $2.3M 
to $4.2M. 1,966 M2A3 Bradleys are required to ``pure fleet'' the Army's 
Active, National Guard Modular HBCTs, and prepositioned stocks.

    Mr. Frelinghuysen.
    Mr. Frelinghuysen. I just want to get a little clarity. 
While the Non-Line-of-Sight Cannon has been canceled, that 
program, we are using that technology, that is not escaping 
here.
    General Phillips. Yes, sir, we are using that technology. 
Some of it inside the Paladin PIM improvement, yes, sir.

                         PALADIN SCHEDULE DELAY

    Mr. Frelinghuysen. How about the schedule for the Paladin?
    General Phillips. Sir, it is currently being reviewed. And 
we will brief our Chief of Staff on Tuesday on the strategy 
going forward for the Paladin PIM.
    Mr. Frelinghuysen. There is a delay?
    General Phillips. Yes, sir.
    Mr. Frelinghuysen. And that is not a signal of anything?
    General Phillips. Sir, the funding is still necessary for 
the Paladin pin program. We originally had a Milestone C 
scheduled in May, and we know that that milestone will slip 
some, I just can't tell you the date that it will slip. Once we 
brief our strategy and get it through the Army, sir, we can 
certainly come back to you and this Committee and inform you on 
our strategy.
    Mr. Frelinghuysen. Just getting back to the ground combat 
vehicle, I know it is in the future, how would it be 
transported? Will it be transportable, in your mind, in a C-
130?
    General Phillips. No, sir.
    Mr. Frelinghuysen. So it would be C-17, or----
    General Phillips. Sir, it would be C-17.
    Mr. Frelinghuysen. That tells us a little bit about the 
weight issue.
    General Phillips. Sir, to transport inside a C-130--I am 
going back to my Stryker days--about 40,000 pounds, depending 
on the variant of C-130 that you are flying in. That was about 
the tip of a spear where you could get a vehicle inside the C-
130. The Air Force can provide specifics, but that was our 
target originally for the Stryker program. With this vehicle, 
it will certainly fly onboard a C-17 or go on shipment via the 
U.S. Navy.

                         ELECTRICITY GENERATION

    Mr. Frelinghuysen. I have a question for General Flynn. I 
deliberately didn't ask about the Expeditionary Fighting 
Vehicle, I left you alone, I am going to let others do that.
    I understand you were using some low-cost generators on 
your logistics line for vehicles to sort of keep them running. 
Are you familiar with that, on your convoys?
    General Flynn. Do you mean power generators?
    Mr. Frelinghuysen. Yes, power generators.
    General Flynn. Sir, that is one of the technologies we 
looked at at that energy FOB. We have a prototype that 
actually, when you drive the vehicle, it creates energy and we 
are able to store it and use it.
    Mr. Frelinghuysen. In the interest of full disclosure, I 
have a company in my district that is very much involved in 
that. I am glad that the Marines are looking at it, which is a 
nice way of saying I think the Army might look at. I mean, we 
are huge consumers of fuel. And God only knows, it costs 
millions of dollars just to get a gallon of fuel over there. 
But you are actually proceeding to take a look at that and 
incorporate it into your supply lines.
    General Flynn. Yes, sir. And exactly for the reason you say 
is one of the biggest things that we move in theater is fuel. 
And if we can reduce our fuel consumption, we can take vehicles 
off the road, convoys off the road, Marines off the road, 
soldiers off the road.
    Mr. Frelinghuysen. Well, in the absence of Ms. Kaptur, who 
would certainly drive that point home if she were here, I put 
in a plug for it, I think it is a pretty neat idea. They are 
small, but capable. So thank you very much.
    Thank you, gentlemen. Thank you, Mr. Chairman.
    Mr. Dicks. We are going to continue.
    Mr. Hinchey.
    Mr. Hinchey. Thank you very much. Mr. Chairman.
    It is very interesting to be here with you and listening to 
all the things that you are doing and saying. We know that 
historically a lot of technological innovation and creativity 
has come out of the military and then eventually made its way 
out to the general economy and the general public. So I am very 
interested in a number of things that you are doing, including 
this experimental forward-operating base that we talked about. 
I am wondering if there is anything in the context of that 
development that includes the development of a solar battery, a 
battery which would generate energy directly from the sun and 
hold on to it for a long period of time. Is there anything like 
that that is being done in the military anywhere?
    General Flynn. Sir, I did not see that technology 
demonstrated down at the FOB, but that doesn't mean that we are 
not looking at it, but I can get back to you on that.
    General Phillips. Sir, I am not aware of any either. We can 
do some research on that and get back to you.

                      JOINT TACTICAL RADIO SYSTEM

    Mr. Hinchey. Thanks. It just seemed interesting if 
something like that could be done, including for vehicles that 
would be conventional, but then run out of power and stuck 
someplace, if they could click that on, that would be something 
that would be very significant.
    Also, the Joint Tactical Radio System, those radios, this 
is another fascinating operation. It says they are software 
defined, high capacity, multichannel tactical radios. The 
program was launched in `97 based on a Mission Needs Statement. 
The Department of Defense is developing multiple variants, 
including ground mobile, handheld, ManPAC, small, airborne 
maritime fixed stations--a number of things like that which 
seem very, very interesting. Do you want to tell us more about 
it? Thank you.
    General Phillips. Sir, it is really a key component of our 
network strategy that we are implementing all across the Army, 
not just for certain brigades, but we want to take the network 
and expand it all across the Army. JTRS is part of the backbone 
of that system, along with the system WIN-T that I mentioned in 
my opening comments. It is a software programmable radio that 
provides really the network and Internet-like capability down 
to the soldier level. Some of those radios like the HNS that 
you just mentioned, connects us, the soldier, to sensors on the 
battlefield. So you can have a soldier that has a radio and 
also a sensor that has a small form-fit factor radio that would 
communicate back to the soldier, who could communicate back to 
his leadership platoons and provides incredible situational 
awareness on the battlefield. It is a centerpiece of our 
network strategy going forward for our brigade modernization, 
sir.
    Mr. Hinchey. That is very, very interesting. Can you tell 
us the timeline for fielding the JTRS, the ground mobile radio 
for the first three Army brigades combat teams?
    General Phillips. Sir, we are doing some testing now with 
ground mobile radio. We have some of the early versions in 
production. We have the--we call them EMD versions--
engineering, manufacturing and development versions--that were 
tested in the actual limited user test last September. We 
expect the GMR radio to go into production in fiscal year 2011 
so we can begin to field it in Brigades 2 and 3 down the path. 
It remains critical to our IBCT modernization strategy.
    If I could also add, we invested, all the services to date, 
about $5.5 billion into JTRS, and we want to leverage that 
investment. We are about 85 percent complete on development, 
and now we are ready to go into production, sir.
    Mr. Hinchey. Thank you very much.
    General Phillips. Thank you, sir.

                         ACQUISITION WORKFORCE

    Mr. Dicks. Let me ask you this; on the acquisition 
workforce, General Phillips, one of the tasks is to revitalize 
the Army acquisition workforce. What actions will you take to 
do this?
    General Phillips. Sir, that is a great question. In my 
years that I have in this job, that is going to be one of my 
top priorities is to continue to build our acquisition 
workforce. With your help, the help of this Committee, and 
Congress, we have the authority, through OSD, to hire 1,885 new 
workers into our acquisition workforce. That is on top of the 
already about 42,000 today. We are going to in-source another 
4,041 workers that used to be contractors that at some time we 
decided they weren't inherently government, and most of the 
work that we do in acquisition I believe is inherently 
government.
    So we are going to bring into the workforce almost 6,000 
new workers through in-sourcing and new capability.
    Now, sir, of that 1,885 that I mentioned--contracting 
desperately needs new workforce inside our formation--about 
1,650 of that are contracting officers that we will bring in. 
We have already promoted three generals, as I mentioned, sir, 
we will promote more. You gave us an allocation for a total of 
five, our work is not done in contracting. Sir, I hope that is 
helpful, but thanks to you and the Committee for what you have 
allowed us to do.

                            HIRING PERSONNEL

    Mr. Dicks. So how do you get these people? Is this off of a 
Web site, or do you just hire the way we used to hire people, 
you bring them in for an interview? How do you do it?
    General Phillips. Sir, it is a very disciplined process. We 
use Section 852 funding that goes along with this to recruit. 
And once we recruit them, we have to retain them. We have a lot 
of folks that go out and recruit among colleges and 
universities. When you talk about acquisitions, especially 
contracting, we have a requirement to have 24 business credits, 
we would like to for them to have a degree as well, that is 
helpful. If a degree in business, that is even more powerful.
    So we seek that kind of talent, and we do much of our 
recruiting for contracting and for acquisition in our 
universities and colleges around the United States, sir. It is 
a very disciplined program that we are following to go out and 
recruit these young men and women to join our ranks.
    Mr. Dicks. How many people have been brought on in the last 
year?
    General Phillips. Sir, I believe we brought on a little 
over 600. I will get you the exact figure, but it is around 650 
folks that have been brought on in the last several years.
    [The information follows:]

    The U.S. Army has hired 2087 civilian acquisition personnel during 
Fiscal Year 2010. Approximately 1800 of the personnel hired were as a 
result of growing the acquisition workforce. The rest were hired as 
part of the normal replenishment process.

    Mr. Dicks. General Flynn, what about the Marine Corps, is 
this a problem for you or not?
    General Flynn. Sir, in recent times, General Rogen, at our 
systems command, we are in the process of a significant hiring 
effort to bring on new acquisition professionals. And also, 
based on the guidance we received last year from the 
Department, we are also in the process of converting many of 
our contractor positions to government employees.
    Mr. Dicks. What were these contractors doing? Were they 
managing the acquisitions?
    General Flynn. They weren't managing the acquisitions, sir. 
I think in many cases, what the contractors were hired for was 
to help in the requirements--or the documentation that went 
along with the requirements process is where, in my 
organization, that is where a lot of them work is in the actual 
writing of the requirements document, not necessarily defining 
the requirement, but doing all the supporting documentation 
that goes along with defining the requirement, sir.
    General Phillips. Sir, that is true for the Army as well. 
They work some of the requirements generation pieces, and 
inside the Pentagon as well, they support some of our 
resourcing strategies as well. But some of that work, as I 
mentioned earlier, is inherently government; that is why we are 
going to in-source in the Army a little over 4,000 former 
contractor positions to be acquisition core.
    Mr. Dicks. Will the plan for improvement of the Army 
acquisition workforce include funding programs to the cost 
analysis improvement estimate, the CAIG estimate?
    General Phillips. Yes, sir. As we go forward with our 
programs, one of our strategies for ACAT1 and ACAT2 programs is 
to make sure that we fully fund to--depending on which level it 
is, to either the Army cost position or the OSD cost position. 
If it is an ACAT2 program, we will be using Army cost position. 
That is part of our strategy, sir, and part of acquisition 
reform.
    Mr. Dicks. Mr. Kingston.
    Mr. Kingston. I don't have any questions, Mr. Chairman.

                      MATERIAL HANDLING EQUIPMENT

    Mr. Dicks. I have a few more.
    Over the past year, the Corps has emphasized the need to 
recapitalize these products, we are here talking about material 
handling and construction equipment, but instead, the 2011 
budget request for material handling and construction 
equipment, including overseas contingencies operation, is only 
$83 million, $15 million less than last year's fiscal year 2010 
budget request, a 15 percent decrease for construction 
equipment, the request is a mere $18 million compared to $73 
million last year.
    At this rate, the material handling and equipment will 
deteriorate and the flow of goods and equipment to the war 
effort will be slow. The equipment can mean the difference 
between life and death to units in the field.
    General Flynn, do you have a plan for recapitalizing these 
lines of equipment?
    General Flynn. Sir, we have a plan for recapitalizing the 
lines of equipment, but the challenge that we have, sir, is 
making it all fit within the prioritization of the fiscal 
allocation that we do, sir. It is not that we don't recognize 
the requirement, it is the prioritization that takes place 
among competing requirements and the cost that each of those 
requirements has.
    Mr. Dicks. Is this a serious problem at this point?
    General Flynn. Sir, the serious problem right now is being 
able to afford everything that we need, sir, in light of the 
cost growth of individual pieces of equipment. And the best 
example I can give you, sir, is for the last 30 years, our 
average of funding that we have had for ground procurement 
equipment has always been between $2.5 and $3 billion, that is 
the 30-year average. But what we are seeing is an exponential 
increase in certain levels of equipment. For example, about 8 
years ago, it cost us about $1,000 to outfit a Marine; now it 
takes us about $7,500. That is a growth of seven times.
    So when we have to prioritize and we have to make choices, 
we are making choices, but we are making choices not to put the 
force that is at risk that is forward deployed. All our forces 
forward deployed have all the equipment that they need to do 
their job. And we have also expended our resources to 
recapitalize our maritime prepositioning ship program because 
we see that as a key part of the Nation's strategic reserve. 
And what we have done is we have consciously taken risks in our 
home stations, and that is where you will see some of our 
supply readiness has suffered. So we have had to make choices, 
we have made choices, but those choices have not been at the 
expense of the Marines forward deployed.
    Mr. Dicks. In looking at some of this equipment, it appears 
to me that in Karachi, or wherever you are on-loading it, do 
you have stevedores, are there people there that do this kind 
of work?
    General Flynn. Sir, we don't have stevedores in places like 
Karachi. Our location is more where it is offloaded when it 
gets to us, but most of that is done commercially and brought 
in the country that way. Or if it is done through APOEs, we 
offload and load either way, and we also do some of the loading 
in some of our ports, sir.
    Mr. Dicks. How does the Army handle this, General Phillips?
    General Phillips. Sir, for the MHE that you mentioned, we 
reset some of that equipment when it comes out. I am not sure 
about recapitalization, Major General Spoehr may be able to add 
some more to that. But the reset dollars that you allocate to 
us allow us to reset much of the equipment that does return to 
CONUS when those units rotate out. So I know we do reset some 
of the material handling equipment that comes back.
    Mr. Kingston. Mr. Chairman, did you discuss the radio 
issue?
    Mr. Dicks. Yes, we did, we got into that somewhat. If you 
want to----
    Mr. Kingston. No, if you asked it, I just was wondering.

                  ADVANCED DISTRIBUTED APERTURE SYSTEM

    Mr. Dicks. General Phillips, what is the status of the 
research and development effort going on for--I think it is 
ADAS?
    General Phillips. Yes, sir. That is a system that our 
Special Operations Command has been looking at, too. It is a 
Joint Capability Technology Development Program. It is still 
under review. We expect by the end of this fiscal year that 
SOCOM will have an analysis ready on how valuable that is to 
our pilots. Essentially, that is a capability that goes onboard 
the aircraft and allows our pilots to have 360 degree 
situational awareness in low light, nighttime situations.
    Sir, the jury is still out on this in terms of what value 
it might add to our pilots and our air crews. We owe you that 
answer when SOCOM comes back with the final analysis by the end 
of this year, sir.
    Mr. Dicks. All right. Well, I think we have had a good 
hearing. The committee stands adjourned until April 14 at 1:30 
p.m. in H-140, when we will hold a hearing on the National 
Guard readiness.
    Thank you, gentlemen, for a good job.
    [Clerk's note.--Questions submitted by Mr. Dicks and the 
answers thereto follow:]

                       Tactical Wheeled Vehicles


    Question. Army and Marine Corps units depend on fleets of trucks--
light, medium, and heavy--to transport Soldiers, Marines, supplies, and 
equipment. Prior to the conflicts in Iraq and Afghanistan trucks were 
rarely armored. As various insurgent forces in Iraq began using 
improvised explosive devices to attack unarmored trucks, the Army and 
Marine Corps began to add armor packages on light, medium and heavy 
trucks. The Committee is informed that the Army and Marine Corps may 
evolve to a mix of unarmored HMMWVs; armored HMMWVs; Joint Light 
Tactical Vehicles and various MRAP vehicles. General Phillips, please 
describe the Army's plan for a competitive, ``Open Market'' effort to 
Recap HMMWVs.
    a. General Phillips, what is the estimated cost of a recapped HMMWV 
versus the cost of a new vehicle?
    Answer. At this time, the Army has not made any decisions on a 
competitive Up-armored High Mobility Multi-purpose Wheeled Vehicle 
(HMMWV) recapitalization (RECAP) program. A Request for Proposal (RFP) 
and supporting Business and Technical case analysis are being developed 
based on responses to a Request for Information/Market Survey. The 
Army's goal is to use competition in order to provide the best value 
for the government. Competition also helps provide the Army access to a 
full range of industry (depot, private, or public private teaming) 
capabilities, processes and potential technical advances.
    Since planning is still in-process for a competitive Recap, 
validated cost estimates are not available to compare the cost between 
Competitive Recap and that of a new HMMWV. However, the unarmored and 
estimated UAH recapitalization costs are expected to be approximately 
31% and 66% of the cost of new production, respectively.
    Question. General Phillips, what would be the logic of Recapping a 
15 to 20 year old HMMWV if the cost is about 90% of the cost of a new 
HMMWV?
    Answer. The Army would not recapitalize a High Mobility 
Multipurpose Wheeled Vehicle (HMWWV) at a cost of 90 percent of the 
replacement vehicle cost. The recapitalization cost for an unarmored 
HMWWV is $55,000 and the estimated cost for an up armored HMMWV (UAH) 
is $105,000 to $130,000, which is variant dependent. The unarmored and 
UAH recapitalization costs are expected to be approximately 31 percent 
and 66 percent of the cost of new production, respectively.
    Question. General Phillips, Congress provided a total of $1.3 
billion for Army procurement of HMMWVs in the fiscal year 2010 Defense 
Appropriations. What is the Army's obligation plan for those funds?
    Answer. The Army has obligated $431 million of the $1.3 billion 
(FY) 2010 funding, by placing 2,122 High Mobility Multi-purpose Wheeled 
Vehicles (HMMWV) on contract. Of the remaining funding, approximately 
$913 million, the Army is planning to reprogram approximately $560 
million for the existing HMMWV Recap and use the remaining funds to 
support other Army priorities.
    Question. General Phillips, does the Army intend to reprogram 
fiscal year 2010 funds that were appropriated for the purchase of 
HMMWVs?
    Answer. Yes, though all actions associated with the (FY) 2010 High 
Mobility Multi-purpose Wheeled Vehicle (HMMWV) reprogramming are pre-
decisional at this time. The Army is in the process of requesting 
approval from Office of the Secretary of Defense and Congress to 
reprogram a portion of the FY 2010 procurement funding for the existing 
HMMWV recapitalization and other priority Army uses.

                       HMMWV Procurement Strategy

    Question. General Flynn, this year the Marine Corps requested only 
$17.8 million for HMMWVs ($4.8 million in the base, and $13 million in 
the OCO) for a total of 94 vehicles. Funding from last year's 
appropriation still remains open for obligation. What is the thinking 
behind the small number of HMMWVs to be purchased? Will funding from 
last year's appropriation be obligated soon?
    Answer. The Marine Corps is not procuring additional HMMWVs in 
their current configuration. However; we do procure Marine Corps 
Transparent Armor Gun Shields (MCTAGS) for all Tactical Wheeled 
Vehicles (TWV) using the HMMWV funding line. The Marine Corps requests 
that it receive the full $17.8M to fund Afghanistan MCTAGS requirements 
for Light Vehicle System Replacement (LVSR) and Medium Tactical Vehicle 
Replacement (MTVR).
    Fiscal Year 2010 HMMWV funding will be fully obligated within the 
next two to three months in support of Urgent Universal Need Statements 
(UUNS), MCTAGS and survivability upgrades to existing HMMWV vehicles. 
Because the Frag-Kit was not viable, $122M of FY09 OCO funding, 
originally intended for Frag-Kit 4, is in the process of being 
reprogrammed to meet other, high priority service needs.

                              JLTV Delays

    Question. General Flynn, the Committee understands that further 
delays of the JLTV have changed the forecasted need for tactical 
wheeled vehicles, but could you explain the path forward to fill the 
JLTV void?
    Answer. Review and update of the Marine Corps' ground vehicle 
strategy has underlined the critical need for about 5,500 light combat 
support vehicles that provide the payload and mobility of the original 
HMMWV, with all the protection we can get in an expeditionary, fully 
transportable and maneuverable, vehicle.
    To mitigate the risk of a JLTV delay, we're evaluating a modified 
Expanded Capacity Vehicle (ECV) design. This modified ECV is a 
lightweight highly protected system currently under development as part 
of experimentation activities at the Marine Corps Warfighting 
Laboratory (MCWL). This vehicle will replace existing 2 and 4 door 
vehicle cabins of the HMMWV ECV Fleet with a capsule cabin design, 
incorporating best practices survivability design concepts such as v-
shaped blast-deflecting hull forms. If the experimentation activities 
continue to produce positive results, a modified capsule-like 
recapitalization, along with other needed upgrades, could be used by 
the Marine Corps as a low-cost recapitalization ``bridge'' to JLTV-
level capabilities. The Marine Corps will focus our JLTV development 
efforts on the lightest JLTVs, the four and two passenger prototype's 
built for the current Technology Development phase. We are very active 
in this phase, focusing on modular protection, with the empty weight 
close to an empty Up-Armored ECV, but capable of full payload.

                        Wheeled Vehicle Strategy

    The Marine Corps's mix of wheeled vehicles appears to be in a state 
of flux. With many light tactical vehicles currently in the mix, to 
include, HMWWVs, MRAPs, MRAP-ATVs, and the R&D program to develop the 
Marine Corps Personnel Carrier--the Corps needs to develop an updated 
and more complete wheeled vehicle strategy.
    The Committee has asked for briefings on the current state of the 
wheeled vehicle strategy and is told that the documents will not be 
final until June 2010, possibly too late to affect the fiscal year 2011 
markup. 
    Question. General Flynn, given the increased mix of wheeled 
vehicles available to the Corps, surely you understand the difficulty 
in determining which mix of vehicles the Committee should fund. Will 
you be able to provide a wheeled vehicle strategy to the Committee 
prior to our markup of the fiscal year 2011 bill?
    Answer. The Marine Corps understands the time constraints for the 
FY11 markup, but also has an obligation to maximize the investments 
made in existing platforms and is looking at every available option 
that may meet the requirement. As we move forward in the formulation of 
this plan, it will be presented to Marine Corps and DoD leadership. 
When the plan is finalized, it will be provided to Congress.
    Question. General Flynn could you describe your thoughts regarding 
a possible wheeled vehicle strategy?
    Answer. Any strategy that addresses the mobility of our Marines 
will account for performance, payload, and protection, and focus on 
providing versatile equipment sets that allow for maximum operability 
without regard for geographic terrain and weather conditions. There are 
many potential courses of action at this point, and the Marine Corps is 
looking to capitalize on its previous investments.
    MRAPs and M-ATVs were not originally part of our strategy, but 
these assets provide for significant capability within specific mission 
sets. With this in mind, one way we are looking at accounting for the 
significant investment is to equip our units with standard training and 
garrison allowances, and depending on operational tasking, provide 
appropriate equipment sets to augment established equipment allowances.
    Other significant pieces to this strategy are weight and 
sustainability. Any technology pursued has to contribute to the Marine 
Corps ability to project force via the sea. It must be interoperable 
with amphibious shipping, capable of operating within the littorals, 
and be sustainable--with respect to fuel consumption and energy 
generation.
    As the Marine Corps develops our Ground Combat Tactical Vehicle 
Strategy, maximizing the utility of the equipment sets Congress has 
already provided remains in the forefront--as does remaining postured 
to be ``most ready when the nation is least.''

                           MRAP/M-ATV Balance

    With the shift of forces toward the conflict in Afghanistan, and 
because of the terrain--a lighter, smaller and more agile form of the 
MRAP was needed. This new MRAP is referred to as the MRAP All Terrain 
Vehicle, (M-ATV). The current requirement for M-ATVs is 8,104 vehicles.
    To date, Congress has appropriated $34.937 billion (plus an 
additional $5 billion reprogrammed from the within Overseas Contingency 
Operation (OCO funding) for MRAP vehicle procurement funding (nearly 
$40 billion in total). The FY 2010 Supplemental request includes 
another $1.123 billion, plus $3.415 billion in the FY 2011 OCO. This 
totals almost $45 billion. The total MRAP requirement is approaching 
27,000 vehicles. 
    Question. General Flynn, realizing the urgent need for a lighter, 
more agile form of mine resistant transportation required for the 
upcoming growth in our forces in Afghanistan, Congress acted and has 
steadily funded the M-ATV, as it did to fill the original MRAP 
requirement. However, recent reprogramming requests show that the 
Marine Corps Systems Command, on behalf of the services, including the 
Marine Corps, has contracted to purchase additional larger models, like 
those purchased for Iraq. Has the balance of MRAPs to M-ATVs been 
determined?
    Answer. Yes, the balance between MRAP and MATV has been determined 
by the Marine Corps. The recent reprogramming requests made by Marine 
Corps Systems Command for additional larger models have been on behalf 
of other Services and do not include any additional requirements for 
the Marine Corps. The Marine Corps' original requirements determination 
for both MRAP and MATV have actually been adjusted downward based on 
Tactics, Techniques and Procedures (TTP) and Lessons Learned (LL) post 
initial vehicle fielding. Since these initial adjustments the Marine 
Corps requirement numbers for the entire MRAP Family of Vehicles (FOV) 
(to include the MATV) have remained stable. The JROC has approved all 
changes to the Service vehicle requirements prior to MCSC action.
    Question. General Flynn. The Department was given authority by 
Congress to use up to $5 billion from the Overseas Contingency 
Operations Transfer Fund. This fund has been used solely to procure and 
fund additional MRAPs and M-ATVs--with little opportunity given to the 
Committee for oversight. Has the total revised quantity of MRAP and M-
ATV vehicles been determined? Will the Joint Requirements Oversight 
Counsel (JROC) update the current requirement in the near future?
    Answer. The Joint Requirements Oversight Counsel (JROC) Memorandum 
(JROCM) 001-10 dated 29 January 2010 approves the current quantity of 
MRAP and M-ATV vehicles requested by the services and SOCOM. The MRAP 
Joint Program Office (JPO) is not aware of any additional pending 
requests to revise the quantity of vehicles. The Joint Allocation 
Decision Board (JADB) is a governance body formed by the Joint Staff 
when the initial MRAP production/fielding began and remains in place. 
The JDAB has successfully worked the re-allocation between services of 
vehicles on occasion and in doing so, met all requirements without the 
need to increase the overall requirement.
    Question. General Flynn, these vehicles have been a life saver for 
our Service members in combat zones. Congress was, and is, willing to 
make this happen. But with nearly $40 billion previously appropriated 
for the MRAP fund, and an additional $5 billion requested, is there an 
end in sight?
    Answer. We believe we are nearing the end of production. The 
vehicle quantities are identified by the Services and the US Central 
Command (CENTCOM) and are approved by the Joint Requirements Oversight 
Council (JROC). The $1.123 billion requested in the Fiscal Year (FY) 
2010 Supplemental request completes requirements for the procurement of 
the current JROC acquisition objective for vehicles. It also provides 
transportation, sustainment, maintenance, repair, and engineering 
changes/safety enhancements for all previously procured vehicles. The 
$3.415 billion in the FY 2011 Overseas Contingency Operations (OCO) 
will provide transportation, sustainment, maintenance, repair, and 
engineering changes/safety enhancements for previously procured 
vehicles.
    The uncertainty of the duration of OCO may force the Services to 
buy additional vehicles, to replace combat and service life losses. It 
is also possible that the fleet will need engineering changes, 
modifications and upgrades to continue meeting the needs of the 
warfighter.

                    Medium and Heavy Tactical Trucks

    Question. The Army budget request proposes approximately $2.1 
billion for medium and heavy tactical trucks. The total amount 
requested for fiscal year 2010, including the pending 2010 supplemental 
is $2.9 billion. The Army contract for the production of the Family of 
Medium Tactical Trucks was recompeted and the award went to Oshkosh in 
Wisconsin in August 2009, with protests resolved in February 2010. The 
FMTVs had been assembled in Sealy, Texas since 1991. What is the 
acquisition objective for FMTVs?
    Answer. The Army Acquisition Objective (AAO) for the Family of 
Medium Tactical Vehicles (FMTV) is 83,185.
    Question. General Phillips, what is the on hand inventory of FMTVs?
    Answer. As of March 22, 2010, the on hand inventory of the most 
modern vehicles of the Family of Medium Tactical Vehicles fleet is 
42,525.
    Question. General Phillips, describe how the Army allocates the 
shortage of FMTVs?
    Answer. The Army allocates Family of Medium Tactical Vehicle (FMTV) 
shortages based on operational priorities. For example, units entering 
the Available Pool of the ARFORGEN model receive a higher level of fill 
of their authorized quantity of FMTVs.
    Question. General Phillips, what is the shortage of trucks in the 
Army National Guard, and the Army Reserve?
    Answer. Currently, the Army National Guard is short 13,017 Medium 
Tactical Vehicles (MTVs) counting both M939s and Family of Medium 
Tactical Vehicles (FMTVs) on hand. That is 38 percent of the Modified 
Table of Organization and Equipment (MTOE) authorization on hand. The 
Army Reserve is short 2,658 MTVs (22 percent of the MTOE 
authorization).
    The Army National Guard is short 1,344 Heavy Tactical Vehicles 
(HTVs) counting Heavy Expanded Mobility Tactical Trucks, Palletized 
Load System, Heavy Equipment Transporter and Line Hauls on hand (10 
percent of MTOE authorization). The Army Reserve is short 1,086 HTVs 
(17 percent of MTOE authorization).
    The shortages in each of the components are being addressed through 
the distribution of new production and programming in the future 
program.
    Question. General Phillips, what percentage of the medium and heavy 
truck fleets is armored?
    a. Are armored trucks assigned to units other than in Iraq and 
Afghanistan?
    Answer. Currently, 10 percent of the medium truck fleet is armored 
and 22 percent of the heavy truck fleet is armored. In the Army's 
Tactical Wheel Vehicle Investment Strategy, the modernization path 
forward is to acquire all armor-capable (or armor installed) vehicles, 
such as the new Long-Term Armoring Strategy vehicles currently being 
procured for the medium and heavy fleets and the Low Signature Armored 
Cab for the medium fleet.
    a. Yes. The Army also has Armored Medium Trucks in Kuwait, Army 
Prepositioned Stocks, and at various locations in the United States for 
training purposes.
    Question. General Phillips, should units in high threat areas, 
other than Iraq and Afghanistan have armored trucks?
    Answer. Yes. We intend to put armored and armor-capable vehicles in 
other theaters through the investment and modernization process. In the 
Army's Tactical Wheel Vehicle Investment Strategy, the modernization 
path forward is to acquire all armor-capable (or armor installed) 
vehicles. As the fleet is modernized with those vehicles, all theaters 
will become armor-capable.
    Question. General Phillips, very briefly, describe the Reset and 
Recap programs for tactical trucks?
    a. Is there a backlog?
    Answer. A Reset program restores vehicles that were deployed in 
Iraq or Afghanistan to their pre-deployment condition. No upgrades or 
product improvements are made. A recapitalization program upgrades an 
older model vehicle to a more modern configuration and capability. 
Currently both Medium and Heavy Tactical Vehicles go through a Recap or 
Reset program depending on the model and type of vehicle.
    a. No. There is no backlog in terms of being behind schedule for 
either the medium or heavy fleet.

               Joint Light Tactical Vehicle (JLTV) Weight

    In response to an operational need and an aging fleet of light 
tactical wheeled vehicles, the Defense Department developed a 
requirement for a new tactical wheeled vehicle platform that would 
provide increased force protection, survivability, and improved 
capacity over the existing up-armored HMMWV (UAI-I) while balancing 
mobility and transportability requirements with costs. Since the 
initiation of the JLTV program the military departments have procured 
nearly 27,000 Mine Resistant Ambush Protected (MRAP) vehicles and MRAP 
All Terrain Vehicles (M-ATVs) for duty in Afghanistan.
    Question. General Flynn, in recent press statements, the Commandant 
expressed his determination to return the Marines to their 
expeditionary roots, rather than replicate a ground Army. He commented 
that seven years of fighting in Iraq encumbered the Marines with too 
many heavy and cumbersome vehicles designed to survive IED blasts. In 
December, it was reported that he felt the planned Joint Light Tactical 
Vehicle (JLTV), projected to weigh nearly 22,000 pounds, is too heavy 
for strategically mobile troops, and that the Corps is actively 
considering a lighter version. Is this true?
    Answer. Yes. A 22,000 pound vehicle is not light. Yet, the JLTV is 
needed to preserve the Marine-Air Ground Task Force's (MAGTF) 
expeditionary capabilities while remaining responsive to missions 
across the spectrum of expeditionary operations. The JLTV must be 
expeditionary; light enough to be employed as part of an assault 
echelon, tough enough to fight when it gets there and mobile enough for 
austere environments. The Marine Corps Combat Development Command is 
working closely with the Army Joint Program Office (JPO) to continue to 
work JLTV weight down by identifying non-essential requirements, 
thereby reducing the vehicle weight without creating risk in the 
program. We are confident our efforts will provide the best balanced 
capability set for the MAGTF, providing a Light Vehicle liftable by 
both services Rotary Wing aircraft.
    Question. General Flynn, given that the JLTV is a ``joint'' 
program, the deputy chief of the Army Capabilities Integration Center, 
says ``there is more work to be done in developing the concepts behind 
the Joint Light Tactical Vehicle.'' Given his comments, and the 
Commandant's assessment, do you think the JLTV program should be 
continued on behalf of the Marine Corps?
    Answer. Yes. We understand the missions required by the vehicle and 
where it fits into our formations. We also appreciate the challenge of 
providing adequate protection and transportability in a light combat 
support vehicle, but it is necessary for our future Marine-Air Ground 
Task Force (MAGTF). At this point, we have the concepts and 
requirements correct and are confident that this will be accomplished, 
but we need the weight and cost of the vehicle to meet our 
requirements. We are pursuing a realistic Acquisition Program Baseline 
at Milestone (MS) B next fall that will obtain the right solution at an 
affordable cost.

         Marine Personnel Carrier (MPC) Schedule Shift Strategy

    The Marine Personnel Carrier (MPC) is envisioned as a new wheeled 
armored vehicle, medium weight personnel carrier. It will comprise a 
part of the Marine Corps' ground mobility portfolio and will have 
ballistic, mine, and IED protection. The vehicle will have the capacity 
for ten Marines and two crew members and be transportable by C-17 
aircraft. Additionally, it will have a fording capability. The fiscal 
year 2011 budget request for research and development for the MPC is 
$26.8 million. However, in April last year, the Marine Corps chose to 
delay the initial operating capability (IOC) by two years because the 
program was characterized as ``out- prioritized in the near years in 
terms of budget.'' The new IOC would move to beyond fiscal year 2017 
and with no forecast as to when the vehicle would reach full 
operational capability.
    Question. General Flynn, other than financial constraints, the 
Committee understands that the Marine Corps believes that a shift to 
the right for the Marine Personnel Carrier program could better 
synchronize it with the fielding of the Expeditionary Fighting Vehicle. 
Is this the real reason, and if so, how many years would you slide it 
to the right?
    Answer. As the Marine Corps modernizes its vehicle fleet, we are 
mindful of resources, the timeline involved to production and the 
impact of new equipment on operating units. The MPC will complement the 
Expeditionary Fighting Vehicle (EFV) in the future Assault Amphibian 
Battalions to accomplish their mission to provide maneuver support to 
combat units across the spectrum of operations in expeditionary 
environments. These vehicles will replace the current Amphibious 
Assault Vehicle (AAV). The 2017 IOC timeline stressed both our budget 
and the operating forces who will be faced with concurrent fielding of 
the two systems. Given the alternatives to phasing EFV and MPC, we 
concluded that the better approach is to equip an Assault Amphibian 
Battalion with EFVs first, and once EFV New Equipment Training is 
accomplished, begin introduction of the MPC into that Battalion. This 
method provides a resource informed approach to phasing new equipment 
within an affordable procurement profile for combat vehicles. It will 
result in the MPC IOC slipping three years to 2022.
    Question. General Flynn, General Brogan stated that ``The Marine 
Corps wants that vehicle, (referring to the MPC) the requirement is 
definitely there.'' What amount of time is reasonable for Congress to 
extend such programs?
    Answer. General Brogan was right, we understand the requirement, 
the concept of employment for the vehicle, and where it will fit in our 
Marine Air Ground Task Force (MAGTF). The 85-90% solution for a 
swimming, well protected, mobile APC is available today, and we believe 
it is appropriate to maintain a low level of funding to ensure we can 
procure the best solution for the MAGTF when conditions permit 
investment in that capability.
    Question. General Flynn, the Committee understands that in the 
interim, the Marines will continue to use MRAP vehicles and older 
assault amphibious vehicles. Realizing that the Marine Corps did an 
analysis of alternatives over a year ago, and considering the research 
and development costs, and by your admission, the MPC was ``out-
prioritized in . . . terms of budget,'' did the Marine Corps consider 
the Army's Interim Armored Vehicle, the Stryker, a vehicle with very 
similar requirements?
    Answer. Yes, the Stryker was evaluated in the MPC Analysis of 
Alternatives and we found it did not meet the protection or the 
mobility requirements of the MPC. We continue to monitor Army plans for 
Stryker upgrades and remain open to joint solutions that meet the 
required MPC capability.
    Question. This year's request for R&D for the Marine Corps 
Personnel Carrier is $26.8 million. Now that the program will move to 
the right, how much will be required in this account?
    Answer. The Marine Corps budget request of $26.8M for MPC R&D is 
consistent with the low level of funding required to ensure we can 
procure the best solution when conditions permit investment in that 
capability. Our relatively small R&D request is structured to ensure we 
continue system design and integration work to procure the most 
effective mobility, protection and payload combination available in a 
wheeled armored personnel carrier while mitigating cost and schedule 
risk.

             Expeditionary Fighting Vehicle (EFV) Schedule

    The Marine Corps has been developing the Expeditionary Fighting 
Vehicle (EFV) since the mid-1990s. According to the Government 
Accountability Office, total estimated research and development costs 
jumped from $1.5 billion in 2000 to $3.6 billion last year, and the 
vehicle unit cost has risen from $8 million to $23 million (given lower 
levels of production and including research costs).
    In an April 6, 2009 news briefing, Secretary Gates stated: ``In 
today's environment--for acquisition and contracting reform, 
maintaining our technological and conventional edge requires a dramatic 
change in the way we acquire military equipment. I believe this needed 
reform requires three fundamental steps. First, this Department must 
consistently demonstrate the commitment and leadership to stop programs 
that significantly exceed their budget or spend limited tax dollars to 
buy more capability then the nation needs. Our conventional 
modernization goals should be tied to the actual and prospective 
capabilities of known future adversaries--not by what might be 
technologically feasible for a potential adversary given unlimited time 
and resources.'' Since that time, the Department has cancelled many 
programs that meet these criteria, however, the EFV which appears to 
meet all of Secretary Gates' cancellation criteria, continues to be 
funded.
    Question. General Flynn, the budget submission shows that the 
Marine Corps made a decision, in coordination with the Secretary of the 
Navy and the Department of Defense, to slide procurement of the EFV one 
year. Since its inception, a major program review cut the number of 
EFVs to be purchased from 1,013 to 573--and there is a suggestion that 
a new reduction would take the numbers down to 480.
    The original cost estimate for program completion was $7.1 billion, 
and has now increased to a projected $16 billion. To date, the program 
has spent $3 billion, not including the FY 2011 request at an 
additional $243 million.
    The program was conceived in 1987 and the initial contract was 
awarded in 1996. The program incurred a Nunn-McCurdy breach in 2007, 
has been re-baselined numerous times, is at least eleven years behind 
schedule, and is not planned to fully field until 2026 (at the reduced 
quantity).
    Question. General, do you dispute any of these facts? Surely this 
isn't a typical development program?
    Answer. The reduction from 1013 EFV to 573 was implemented in 
response to 2008 Strategic Planning Guidance to maintain a 2 Marine 
Expeditionary Brigade (MEB) forcible entry capability and propose a set 
of vehicles better balanced to meet the Irregular Warfare (IW) 
environment demands. Likewise, suggestions to reduce the quantities 
below 573 are centered around changes to the Maritime Prepositioning 
Force Future (MPF(F)) program, not internally generated USMC 
modifications to needed capabilities.
    The technical challenges to assured access from 25 nm off a foreign 
coastline are significant, and the program has worked tirelessly to 
bring the capability for high water speed, lethality and protection to 
the MAGTF in a timeline commensurate with the MV-22.
    This is not a typical development program, as it must integrate 
aspects of marine architecture, combat vehicle design, lethality, 
survivability and long range C2 into a single platform, a platform that 
must be suitable to the maritime environment, but retain high 
reliability due to the distance it must travel from ship to shore. From 
our perspective, numerous analyses of alternatives, conducted through 
the history you've cited conclude the EFV concept is the most cost 
effective way to conduct the missions in the environments for which it 
is designed. We appreciate the support provided to our Marine Corps on 
the program to this point, and look forward to its completion and 
fielding. We remain confident the program will deliver the capability 
on cost and schedule as stated in the Acquisition Program Baseline 
Agreement (APBA) today.
    Question. General Flynn, the Commandant has been a consistent 
advocate of the EFV, even through some of its most difficult 
developmental challenges. Secretary Gates was extremely critical of the 
Department's acquisition process in general, in the budget statement he 
gave on April 6th last year. In the question and answer session that 
followed he stated that several programs had significantly exceeded 
their budgets and that program goals should be tied to actual and 
prospective capabilities of future adversaries. On May 1st, Secretary 
Gates was quoted as saying that the Expeditionary Fighting Vehicle in 
particular had not embraced combat lessons learned such as V shaped 
bottoms. After so much criticism, cut backs, and restarts, why does 
your budget still contain funding for the Expeditionary Fighting 
Vehicle? Should this program be continued at all costs?
    Answer. The Marine Corps has a commitment to our Nation and a Title 
X responsibility to execute amphibious operations. We live in a 
maritime world and amphibious capability will be more relevant tomorrow 
than it is today. Our Marine Corps has executed more than 100 such 
operations in the last 25 years alone and the recent Haiti earthquake 
reaffirmed our need to be most ready when others are least. The Joint 
Requirements Oversight Council (JROC) reviewed and affirmed the need 
for a high-speed amphibious assault capability that provides the Joint 
Commander with an effective amphibious assault capacity. The ability to 
rapidly employ combat-loaded Marines ashore from ships positioned 25 or 
more nautical miles off-shore provides increased force protection. The 
ability to conduct operations in the littoral using the sea area as a 
secure maneuver space will allow the optimized use of force against 
irregular/terrorist targets and maintain a strong presence in an area 
with minimal impact upon the local populace. The EFV's lethality, 
mobility, survivability, and robust command and control capabilities 
will make it an effective platform in any environment. We stand behind 
the success criteria for the Expeditionary Fighting Vehicle stated in 
previous testimony, the Program must pass the planned SDD-2 Operational 
Assessments, demonstrate the ability to meet Key Performance Parameters 
and stay on cost and schedule within regulatory guidelines.
    Question. General Flynn, do you believe this program will ever 
complete development and become operational?
    Answer. EFV is on track to demonstrate system reliability and 
growth potential for production decision in January 2011 which is 
Knowledge Point-2. Demonstration of all Milestone C (MS C) exit 
criteria will be met as projected in the program baseline. We remain 
committed to ensuring the EFV meet our requirements, as it provides the 
ground maneuver centerpiece of our future Marine Air Ground Task Force 
(MAGTF).

                       EFV Developmental History

    The Expeditionary Fighting Vehicle (EFV) is a keystone for both the 
Marine Corps Expeditionary Maneuver Warfare and Ship-to-Objective 
Maneuver watfighting concepts. The EFV represents the Marine Corps' 
primary means of tactical mobility for the Marine Rifle Squad during 
the conduct of amphibious operations and subsequent ground combat 
operations ashore, but is the program really justified?
    During the recent Navy rollout briefing, an inquiry was made 
regarding the slip in the EFV schedule. The response was, ``The Marine 
Corps made a decision, in coordination with the Secretary of the Navy 
and OSD, to slide procurement of the EFV one year so that we (the 
Marine Corps) can: (1) Receive delivery of the seven System Design and 
Development (SDD) test vehicles, which will be used to validate the 
reliability and mean times between failure of the vehicle, and (2) 
Conduct a series of QDR directed war games to look at trade-offs in 
alternative concept of operations for employment.''
    Further, the written response said, ``The EFV program is executing 
on time and on schedule but the Marine Corps wants to thoroughly assess 
the results of the R&D efforts before moving forward with full rate 
production. We believe the nation still requires a range of 
capabilities to gain access to contested areas, thereby ensuring 
theater access for the larger joint force. We feel the EFV is critical 
to this requirement--but we are committed to getting it right.''
    Question. General Flynn, if the EFV is on time and on schedule, how 
then is this possibly the longest systems development program in the 
history of the Department of Defense?
    Answer. There is no question; the EFV has taken far longer time to 
develop than was expected. However, the restructured EFV program 
continues to perform well technically as seven new prototypes prepare 
for operational testing at Camp Pendleton this summer. The design 
efforts and reliability growth planning efforts that have been put in 
place are for other programs. The contractor has continued to perform 
within the cost and schedule parameters. The performance of the program 
since 2007 has been very positive by any objective measure. We are 
asking a lot of the EFV. Over the last few years the Marine Corps has 
demonstrated our commitment and remain committed to getting it right.
    Question. General Flynn, given the many years and billions of 
dollars invested in the Expeditionary Fighting Vehicle, the Committee 
has serious reservations whether the program will ever meet a standard 
for completion. With initial operational capability now projected at 
2015, and full operational capability now projected at 2025--isn't this 
an excessive development cycle for a program of this magnitude?
    Answer. Although EFV reliability performance fell short resulting 
in an extended development period, many other vehicle performance 
capabilities have been demonstrated at their required values due to the 
significant amount of effort performed during the development phase. 
These capabilities include firepower, water speed, land speed, carrying 
capacity, and interoperability performance.
    Efforts during the development period include the complex 
engineering and design efforts associated with developing a combat 
vehicle that can not only match the M1 Al tank's land speed but can 
also launch from naval ships 25 nautical miles (nm) offshore and 
transition to the shore within one hour (at approximately 20 knots). In 
comparison, the currently-fielded vehicle, the Assault Amphibian 
Vehicle (AAV) launches from ships approximately 2 nm offshore and has a 
peak water speed of approximately 5 knots. The EFV program is required 
to meet a challenging requirement and demonstrate its suitability to 
the expeditionary environment. We are asking a lot of the EFV. Over the 
last few years the Marine Corps has demonstrated our commitment to this 
program and remains committed to getting it right.
    Question. General Flynn, it has been suggested that the fleet might 
need to operate at least 100 miles from shore, far beyond the EFV's 
range. What is the possibility of this occurrence?
    Answer. Marines and embarked Sailors in the amphibious force 
operate as part of a Naval and Joint force. Although the proliferation 
of longer range weapons is a growing concern to the fleet, we are 
confident that the 25 nm range provides our amphibious fleet the needed 
response time to counter such weapons. The reach and accuracy of rogue 
missiles will continue to improve and so must our counter measures to 
these threats. With the capabilities inherent in the rest of the force, 
we are reasonably assured that threats to the amphibious force will be 
manageable despite increased adversary capabilities
    Question. General Flynn, granted there are scenarios that would 
justify any program, but given that the United States has not conducted 
a beach assault landing in the past 59 years, is it possible that the 
EFV is no longer necessary?
    Answer. Since 1991 the Navy and Marine Corps have conducted 
amphibious operations twice as frequently as during the cold war. 
Amphibious forces are not required to only assault a defended beach. 
The withdrawal from Somalia and evacuation of non-combatants from 
Lebanon in 2006 are prime examples of the use of amphibious forces in 
an uncertain environment. Had the Hezbollah elected to threaten U.S. 
forces with cruise missiles--the evacuation of over 10,000 Americans 
from Lebanon would have been conducted very differently. When EFV 
becomes available we will regain the capability to conduct amphibious 
operations without placing ships at risk of loss by cruise missiles.

                         EFV Flat Bottom Design

    The Research and Development for this amphibious vehicle has 
advanced slowly and does not appear to address land mine and IED 
hazards. Its ability is far greater than the current Amphibious Assault 
Vehicle (AAV) introduced in 1972, but even with years of extensive 
research, the new vehicle has its liabilities. The program development 
has not incorporated changes to account for its inadequacy to address 
land mines and IEDs (the vehicle has a flat aluminum bottom) and some 
in Congress are concerned that the flat-bottomed EFV, with an 18-inch 
ground clearance, would be highly vulnerable to IEDs that detonate 
under vehicles. The House Armed Services Committee (HASC) has stated 
that they are ``concerned that the current EFV design does not provide 
adequate personnel protection against IED and mine threats.''
    Question. General Flynn, according to the EFV website: The EFV 
design mitigates the damage caused by IED and RPG threats similar to 
those encountered by U.S. forces in Iraq. The Commandant recently 
testified that the Expeditionary Fighting Vehicle in some ways 
outperformed Mine Resistant Ambush Protected Vehicles in blast tests at 
Aberdeen Proving Ground. This is still a flat bottom tracked vehicle 
with an 18" clearance. Please elaborate on the Commandant's testimony. 
How is this possible given the flat bottom design?
    Answer. The EFV outperformed the MRAP in a number of areas, 
including direct fire, and indirect fire. It met the side IED 
protection of the MRAP. The EFV Program Manager is pursuing the 
development of an applique armor kit that will be available when the 
EFV reaches IOC in 2015. While the applique armor panels have not yet 
been developed or tested, engineering analysis and design modeling 
predict the structure of the vehicle will accept the impulse of the 
underbelly IED shot and the applique panels will preclude penetration. 
So we are optimistic that the vehicle will have the structural strength 
to accept the underbelly applique and survive, even at the lower 
clearance, much as the M1A2 underbelly appliques. We do not yet know 
the impact of the applique on other performance attributes of the EFV. 
This will be the subject of future testing.
    Question. General Flynn, your plan proposes that once ashore, armor 
could be applied to the underside of the EFV. How will the armor get to 
a beach during landing? Who is going to stop, crawl under that narrow 
clearance and bolt on armor while under fire? Is this a realistic 
scenario?
    Answer. Each of the Services is organized differently to achieve 
different missions. The Navy, Army and Air Force are organized to 
dominate their respective domains (Sea, Land and Air) while the Marine 
Corps is optimized to respond quickly to the unknown across these 
domains. To achieve this capability the Marine Corps accepts risk in 
the capabilities needed for long duration operations.
    This trade-off is evident when comparing capabilities. Marines 
operating with the Expeditionary Fighting Vehicles (EFV) and the MV-22 
Osprey from amphibious ships allow the nation to rapidly respond to the 
unknown. Marines arrive quickly on the scene and will require 
reinforcement if the operation requires forces for a long duration.
    The concept underpinning the EFV is to prioritize speed in moving 
the Marines ashore to increase the survivability of our ships and this 
comes at the risk of sustained operations ashore. To ameliorate this 
risk, we complement the capabilities of the EFV with a mix of air and 
ground vehicles. If the EFV borne force becomes vulnerable to road side 
mines the commander has a number of options. Initially the force will 
move off the roads--using the increased off-road capability a tracked 
vehicle brings to mobility--and vary their routes to reduce the enemy's 
effectiveness in targeting the force with anti-vehicle mines (or IEDs). 
At the earliest opportunity and when operationally appropriate, the 
commander can call forward and install the additional armor for the 
EFVs--similar to successful armoring efforts conducted on numerous 
combat vehicles during the past years in Iraq and Afghanistan. 
Concurrently, the commander would also hold additional options to 
transfer the Marines to more mine/IED protected vehicles arriving from 
Maritime Prepositioned Forces (MPF), or choose to operate the EFV in 
waterways to counter mine threats. Most commanders will use a 
combination of these means to react to the new situation, but great 
commanders will use this mix of capabilities to place the enemy in a 
dilemma caused by our flexibility.
    Your Marine Corps manages tradeoffs to ensure we can challenge 
adversaries as part of the integrated joint force.

              Material Handling Equipment Recapitalization

    Material Handling Equipment is used for lifting and moving supplies 
with greater ease and economy. These items of equipment generally refer 
to but are not limited to forklifts, motorized pallet jacks (hand 
trucks), tractors, and other specialized industrial trucks. The Marine 
Corps is failing to invest appropriately in these types of Material 
Handling and Construction Equipment, thus putting the mobility of the 
force, at large, at risk.
    Question. Over the past year, the Corps has emphasized the need to 
recapitalize these products, but instead, the FY 2011 budget request 
for Material Handling Equipment, including Overseas Contingency 
Operations, is only $83 million, $15 million less than last year's FY 
2010 budget request--a 15 percent decrease. For Construction Equipment, 
the request is a mere $18 million, compared to $73 million last year. 
At this rate, the material handling equipment will deteriorate and the 
flow of goods and equipment to the war effort will be slowed. This 
equipment can mean the difference between life and death to units in 
the field. General Flynn, do you have a plan for recapitalizing these 
lines of equipment?
    Answer. The Marine Corps understands the importance of Material 
Handling Equipment (MHE) and Construction Equipment (CE) to successful 
operations. Unfortunately, we have had to make some difficult 
prioritization decisions within our budget requests. However, 
additional Light Rough Terrain Forklift and Extended Boom Forklifts 
will be procured to support readiness until new replacement programs 
are initiated beginning in FY 2012 and FY 2013.
    Question. The Marine Corps's fleet of Material Handling and 
Construction Equipment is not glamorous. When Material Handling 
Equipment is not available to unload, stack, load and distribute 
goods--repair parts, food, and services do not make it to Marines in 
the fight. For example, in Desert Storm the cranes, forklifts, and 
container handlers unloaded and distributed over 37,000 ISO 
(Independent System Operator) containers and 500 thousand tons of 
ammunition. General Flynn, where does the fleet of Material Handling 
and Construction Equipment fit in the Corps list of priorities?
    Answer. The criticality of Construction Equipment (CE) and Material 
Handling Equipment (MHE) is fully appreciated. The Marine Corps 
recognizes both of these investment components as a key element of our 
overall maneuver and sustainment capabilities, especially within the 
Ground Combat Element and Logistics Combat Element of our Marine Air 
Ground Task Force (MAGTF).
    The adequacy of the CE and MHE requirement has been adjusted upward 
based on lessons learned and modified tactics, techniques, and 
procedures. The Marine Corps is confident that we have accurately 
identified the total requirement and is taking appropriate action. The 
demands placed on these equipment items in theater are unprecedented, 
and have required a significant examination and planning effort to 
ensure an appropriate balance between the rehabilitation/
recapitalization of currently held assets and the procurement of new 
items. By carefully affecting this balance we are able to capitalize 
with the greatest result on current physical asset, as well as 
available fiscal resources.

                      Rapid Equipping Force (REF)

    Question. The Rapid Equipping Force process is designed to meet the 
warfighter's immediate needs. Key elements of the process are speed and 
flexibility. Funds are made available to the Army to provide for a 
rapid response to an adaptive enemy. The fiscal year 2009 funding for 
the Rapid Equipping Force was $212 million. As of the January report to 
congress, $38 million of the fiscal year 2009 funding remained to be 
obligated. What is the current status of fiscal year 2009 funding for 
the Rapid Equipping Force?
    a. Has there been a decline in requirements or requests for Rapid 
Equipping initiatives?
    Answer. The REF had FY09 Other Procurement Army (OPA) funding 
carryover of $36M and received $17M additional OPA funding for a total 
of $53M. Currently, the REF has committed $37M with $25M obligated. The 
remaining $27M unobligated OPA is projected to be committed by 3rd 
Quarter FY10 and obligated shortly thereafter. The REF had a FY09 
Research, Development, Test and Evaluation carryover of $1.2M. $1.1M 
has been committed and is projected to be obligated in 3rd Quarter 
FY10. The balance will be committed in 3rd Quarter for a projected 4th 
Quarter obligation.
    a. There has not been a decline; to the contrary, there has been a 
continuous increase in REF requirements from 2008 through the present. 
In 2008 REF received 115 requirements. In 2009 the number of 
requirements received by REF increased to 440. Year-to-date in Fiscal 
Year (FY) 2010 (reporting the first two quarters October 1, 2009-March 
31, 2010) REF has received 326 requirements; at this pace the REF will 
have over 650 requirements for this FY.
    Question. The fiscal year 2010 appropriation for the Rapid 
Equipping Force is $6 million in the base and $7 million for Overseas 
Contingency Operations, a total of $13 million. The fiscal year 2010 
supplemental request submitted to Congress with the fiscal year 2011 
budget request is $125 million. The fiscal year 2011 request is $42 
million in the base and $59 million for Overseas Contingency 
Operations. Key projected uses of funds include force protection, 
medical, intelligence, and logistics. General Phillips, what additional 
details can you provide to the Committee on the requirements for 
funding of the Rapid Equipping Force for the remainder of 2010 and for 
2011?
    Answer. FY10 Funding: As of April 7, 2010 the REF has $25M in (REF 
Director) validated requirements for projects that require Operations 
and Maintenance Army (OMA) funding; this figure will increase as the 
year continues. The REF submitted a $27.8M OMA Unfunded Requirements to 
the Army Staff for projected OMA shortfalls. The REF has $11M in 
validated requirements for projects that require Other Procurement Army 
(OPA) funding with a balance of $15M OPA remaining. The REF has $21M in 
validated requirements for projects that require Research, Development, 
Test and Evaluation (RDTE) funding with only $5.3M RDTE remaining. We 
expect requirements to increase between now and fiscal year end as we 
continue to support the Warfighter.
    FY11 Funding: Historically, REF funding has remained relatively 
constant at current level, between $185M and $200M during the past 5 
years and REF does not foresee any significant changes from FY10 to 
FY11. In an era of persistent conflict we will find ourselves employed 
globally against asymmetric threats (un-programmable in nature). The 
Operation Iraqi Freedom (OIF) drawdown will allow the REF to better 
meet urgent and evolving needs of commanders in Operation Enduring 
Freedom (OEF). A year ago the requirements received from OEF to OIF was 
a 2:1 ratio. Today the ratio is 5:1, OEF to OIF requirements. As the 
requirements and footprint in OIF have decreased, conversely there has 
been an increase in enemy attacks and the effectiveness of those 
attacks in OEF. This can be measured by increased casualties and a 
corresponding increase in REF 10 liners from OEF. Attacks in OEF have 
increased roughly 90% from this time last year. Comparing January-March 
2010 to the same time period in 2009, there has been a 105% increase in 
the number of US Killed In Action, and an increase of 315% for Wounded 
In Action. The REF has received 147 OEF requirements during the period 
from January through March 2010, as compared to only 31 OIF 
requirements during the same period. In the same three month period a 
year earlier, the REF received 56 OEF requirements to 25 OIF 
requirements. This represents a 260% increase in OEF requirements for 
the same three month period a year ago. OEF is a less mature theater 
than OIF and now the REF has a greater opportunity to focus efforts on 
OEF. Afghanistan has unique geographical and counterinsurgency 
challenges that present us with many new requirements.
    Question. Does the Army have a process to review the performance of 
equipment purchased under the Rapid Equipping Force program to 
determine if some items should be fielded Army wide?
    Answer. The Capabilities Development for Rapid Transition (CDRT) is 
a quarterly Army process that identifies the very best Non-Standard 
Equipment for consideration as Programs of Record and enduring 
throughout the force. The CDRT process is managed by the U.S. Army 
Training and Doctrine Command's (TRADOC) Army Capabilities Integration 
Center (ARCIC), in partnership with Headquarters, Department of the 
Army's (HQDA) G-3/5/7 Capabilities Integration Division (DAMO-CI). 
Equipment identified as enduring is accelerated in transitioning to a 
new or existing acquisition program within the Army Material Command.
    Question. Are unit commanders and supply personnel trained on the 
Operational Needs Statement process, and the Rapid Equipping Force?
    Answer. The Operational Needs Statement and Equipment Common 
Operating Picture (ECOP) application training is not formally conducted 
by, or directed to be conducted by subordinate commands down to the 
lower level unit commanders and supply personnel. Training is provided 
via online User's Guides, Training Slides and Computer Based Training 
materials. Furthermore, the ECOP Help Desk personnel are available to 
conduct Video Telephone Conference training sessions as requested.
    REF makes every effort to train units on the REF process. REF 
identifies units projected to deploy into Theater (currently Iraq and 
Afghanistan) six months out to arrange a pre-deployment visit with the 
Brigade Commander and Staff. The REF Director and Sergeant Major travel 
to the unit's location to give a REF overview briefing. This briefing 
covers all pertinent information including what the REF is, its mission 
and role, how to submit a requirement, the REF process, and contact 
information. Many of the Brigades appoint a Commissioned Officer or a 
senior Non Commissioned Officer to be the single point of contact with 
the REF. This individual travels to Fort Belvoir (REF location) where 
he/she receives training from the REF on its process and capabilities 
and meets key REF personnel. Units also receive a list of REF equipment 
that they will receive from the unit they are replacing. REF maintains 
forward deployed Operational Support Teams (OST) that interact with 
deployed units on a regular basis. OSTs assist deployed units as much 
as possible, assessing capability gaps, training on REF equipment and 
guiding them in the REF process. REF also maintains a website which 
Soldiers have access to. Soldiers have the opportunity on the website 
to offer ``good ideas'' as possible solutions for perceived capability 
gaps.

                            Stryker Vehicles

    Question. The Quadrennial Defense Review notes that the Army will 
convert one Heavy Brigade Combat Team to a Stryker Brigade Combat Team 
by 2013. Several more may be converted as resources are available. The 
Army has deployed one Stryker Brigade Combat Team to Afghanistan. 
Funding for Stryker vehicles in fiscal year 2010 is $513 million, 
including a congressional increase of $150 million, to procure 93 
vehicles plus survivability enhancements. The fiscal year 2011 request 
proposes $300 million to procure 83 vehicles. The budget request adds a 
new line for Stryker modification with proposed funding of $146 million 
for survivability enhancements. The Overseas Contingency Operations 
request includes $445 million for Stryker survivability kits referred 
to as ``Operation Enduring Freedom'' kits. General Phillips, please 
discuss in more detail the numbers of Stryker variants that will be 
purchased with the fiscal year 2010 and 2011 procurement funding, and 
the key points of the survivability enhancements.
    Answer. The current Army plan is to procure 17 Stryker 
Reconnaissance Vehicles (RV) and 76 Stryker Infantry Carrier Vehicles 
(ICV) in fiscal year 2010 (FY10). The Army plans to purchase 29 RVs and 
54 ICVs in FY11. Additionally, pending a successful test of the Double-
V Hull design, the Army may choose to reprioritize FY10 and FY11 
funding to procure Double-V Hulled Strykers for use in Afghanistan.
    Question. What is Army's concept of the proper number of Brigade 
Combat Teams, and what is the proper mix of Infantry; medium weight or 
Stryker; and Heavy Brigade combat teams?
    Answer. Our goal is to build a versatile mix of tailorable and 
networked organizations, operating on a rotational cycle, to provide a 
sustained flow of trained and ready forces for full spectrum operations 
and to hedge against unexpected contingencies at a sustainable tempo 
for our all-volunteer force. Army analysis balances the array of 
ongoing force requirements in support of OEF and OIF, extant war plans, 
contingency plans and future contingency requirements as reflected in 
Office of the Secretary of Defense's planning scenarios. The 45 Active 
Component (AC) and 28 Reserve Component (RC) Brigade Combat Teams 
(BCTs) meet the needs for sustained operations and potential surges. 
The 7 STRYKER BCTs (6 AC/1 RC), 26 Heavy BCTs (19 AC/7 RC) and 40 
Infantry BCTs (20 AC/20 RC) all possess great versatility which enables 
full spectrum operations. The ongoing force mix analysis has indicated 
the need to increase the number of STRYKER BCTs available to Combatant 
Commanders; the Army is converting one AC Heavy BCT to an AC STRYKER 
BCT beginning in FY11.
    Question. Have units in the field gradually changed the role of the 
Stryker from a troop carrier vehicle to a fighting vehicle?
    Answer. No, by design, variants within the Stryker Family of 
Vehicles are considered carriers (except MGS and ATGM) which enable 
rapid transport of the Stryker Brigade Combat Team (SBCT) formation on 
the battlefield. Several of the variants do have direct fire weapons; 
their primary purpose remains to provide direct support to the 108 
infantry squads and the twelve reconnaissance platoons in the execution 
of combat tasks. While the Anti-Tank Guided Missile (ATGM) and the 
Mobile Gun System (MGS) have long-range, direct fire weapons capable of 
destroying enemy armored vehicles, both variants are designed to 
support infantry combat operations and are not used as fighting 
vehicles for stand-alone long-range engagements. In fact, the Soldiers 
and leaders within the SBCT refer to the Stryker as trucks, 
acknowledging they do not consider them fighting vehicles like the 
Bradley or Abrams. The intent of providing more accurate and capable 
weapon systems on the various Strykers is to increase the overall force 
protection level of the formation by enabling SBCT Soldiers to be more 
lethal, capable and effective on the battlefield through more rapid 
identification and reduction of threats. The use of the Strykers in an 
SBCT in combat reflects Tactics, Techniques and Procedures developed 
during home station training and live fire qualification exercises. The 
capstone qualification event in an SBCT is a combined exercise that 
incorporates vehicles, weapons systems and dismounted squads, as 
opposed to vehicle-focused gunnery in the heavy formations.
    Question. Compare agility, mobility, and IED protection of the 
Strykers and MRAP-ATVs in use in Iraq. Please discuss the battle losses 
experienced by the 5th Brigade Combat Team, 2nd Infantry Division 
shortly after the Brigade arrived in Afghanistan in July 2009.
    Answer. The Mine Resistant Ambush Protected (MRAP) All Terrain 
Vehicle (M-ATV) and Stryker were acquired to provide unique 
capabilities. The M-ATV is designed to meet theater needs for a 
smaller, lighter MRAP and will be used in roles similar to the Up 
Armored High Mobility Multipurpose Wheeled Vehicle (HMMWV) in 
Afghanistan. The M-ATV is only designed to carry four passengers and 
one gunner. The Stryker is primarily an Infantry Combat Vehicle, 
designed to transport nine infantry Soldiers and their equipment 
quickly across the battlefield in relative security. In addition there 
are eight other Stryker variants that provide a Stryker Brigade Combat 
Team (SBCT) with an organic combined arms lethality and enhanced 
operational flexibility. Stryker variants include Medical, Engineer, 
Command and Control Vehicles, NBC Reconnaissance, Mobile Gun System, 
Mortar Carrier, Fire Support and TOW Anti-Tank variants. The services 
have only been fielding M-ATVs for a few months; therefore not enough 
data has been collected on the M-ATV to make a comparison between that 
vehicle and the Stryker Family of Vehicles. However, initial feedback 
indicates both vehicles are performing very well in their assigned 
roles.
    Stryker vehicles have continually improved survivability as the 
enemy threat has evolved. Examples include Hull Protection Kit, Mine 
Roller Adapter Kit and Blast Mitigation Kit. The Army is currently 
focusing this effort by enhancing fire suppression and mitigating lED 
blasts while strengthening suspension and drive line components and 
designing and testing an improved driver's seat allowing easier egress 
of the occupant.
    During the period 10 August to 27 November 2009, 5/2 SBCT reported 
61 engagements against Stryker vehicles during its deployment to 
Afghanistan in support of Operation Enduring Freedom. A review of 
reports from the theater revealed approximately 85% of the engagements 
involved improvised explosive devices and approximately 15% of the 
engagements involved complex attacks. Reporting on the 61 engagements 
revealed approximately 84% of the Strykers received some form of damage 
ranging from minor damage to catastrophic loss. A total of 9 Strykers 
were lost by 5/2 during this period.
    Question. The Committee is aware that a ``Double-V'' hull has been 
developed for the Stryker vehicles, which may offer blast protection 
against IEDs that is similar to that of an MRAP-ATV while maintaining 
speed and agility off-road. Please explain the advantages of the 
Stryker with the double-V hull.
    a. What are the plans for testing and potentially fielding Strykers 
with double-V hulls?
    b. What are the production plans; time lines and funding 
requirements for fiscal years 2010 and 2011?
    Answer. The Army has requested and received approval from OSD to 
build and test a limited number of prototype Stryker vehicles with an 
integrated Double-V Hull design. As these test vehicles become 
available, which is expected to begin in early 1st Quarter Fiscal Year 
2011, robust independent testing concentrating on Soldier survivability 
will occur, overseen by the Director, Operational Test and Evaluation. 
At the conclusion of this testing which is expected to take 
approximately 60 to 90 days, the Army Acquisition Executive will chair 
a Configuration Steering Board with appropriate Office of the Secretary 
of Defense and Joint staff participation to review test data and 
determine whether or not to recommend additional Stryker vehicle 
procurement with Double V hull. The Defense Acquisition Executive has 
informed the Army that if further procurement is requested, he would 
consider authorizing, with Congressional approval, production and 
limited fielding of up to 450 modified Stryker vehicles to support 
urgent operational needs in Afghanistan.
    a. The projected increase in protection against Improvised 
Explosive Devices (IED) is expected to double the current protection 
level available on Stryker vehicles currently operating in Afghanistan. 
This increased protection is expected to greatly increase 
survivability.
    b. Although initial testing of the Double-V Hull design has been 
promising, only independent testing of the design integrated onto the 
Stryker vehicle hull will determine how good it actually is compared to 
MRAP.

                      LW155 Remaining Requirement

    Congress has strongly supported the purchase of 155mm lightweight 
towed howitzers (155LW) to help transform the Marine Corps artillery 
into lighter, more mobile elements. 
    For fiscal year 2010 Congress supported the President's Budget 
request of $7.4 million in the base bill for the lightweight 155 mm 
howitzer, and added an additional $54 million for lightweight howitzers 
in the fiscal year 2010 Overseas Contingency Operations (OCO) 
appropriation for 155LW that were not formally requested by the Marine 
Corps. 
    The Committee understood that the fiscal year 2010 Congressional 
plus up would have purchased the remaining requirement and end the 
line. However, the fiscal year 2011 base request calls for $10.3 
million for 155LWs, and an additional $103.6 million in the request for 
Overseas Contingency Operations, for an additional 22 howitzers. 
    Question. General Flynn, what is the remaining requirement for 
155mm lightweight towed howitzers?
    Answer. The FY10 Congressional plus up has helped us close the gap 
in funding needed to attain our Authorized Acquisition Objective (AAO). 
The funding requested in the FY11 OCO will procure 22 additional, guns, 
aiding the Marine Corps in achieving its AAO of 511 howitzers. The 
funding requested in our FY11 Baseline ($10.3M) will provide Towed 
Artillery Digitization (TAD) Refresh & Upgrades.
    As for why OCO funding is appropriate, there are two reasons:
    (1) We have already seen some transportation accidents that have 
damaged guns in theater, and expect we may have to replace some for 
that reason.
    (2) More importantly, the LW-155 was projected to have a useful 
life of 20 years, firing a total of 15,000 rounds over that time. We 
currently have 20 howitzers in Afghanistan firing an average of 5,000 
rounds per year. At that rate, we can expect that these guns will be 
washouts by 2011. The FY11 OCO request provides for combat replacements 
and sustains the AAO.
    Question. Has the Marine Corps artillery requirements increased as 
a result of the mission in Afghanistan? The surge?
    Answer. No. The current Authorized Acquisition Objective (AAO) is 
511. The FY10 funding will get the Marine Corps to 489 of the 511 
howitzers. The funding requested in the FY11 OCO will procure 22 
additional guns, aiding the Marine Corps in achieving its AAO. The 
funding requested in our FY11 Baseline ($10.3M) will provide Towed 
Artillery Digitization (TAD) Refresh & Upgrades.

                2nd Infantry Division Equipment in Korea

    Question. The 2nd Infantry Division is forward-based in South 
Korea. It has one heavy brigade combat team in Korea, plus 
communications, logistical, intelligence, and other assets. That 
brigade has M1A1 Tanks, and M2A2 Operation Desert Storm series Bradley 
Fighting Vehicles. However, the Army has newer and more capable 
versions of the Abrams Tank and the Bradley Fighting vehicle. Why not 
provide the most capable variants of the Abrams Tank and the Bradley 
Fighting Vehicle, and other items to the U.S. Army forces in Korea?
    Answer. Currently, the Heavy Brigade Combat Team (HBCT) on the 
Korean peninsula is scheduled to receive the M1 Abrams AIM SA (Abrams 
Integrated Management--Situational Awareness) variant and M2 Bradley 
ODS (Operation Desert Storm) variant in the second quarter of fiscal 
year 2001.
    Based on potential force mix changes pursuant to the Quadrennial 
Defense Review and equipment available as other HBCTs undertake 
directed missions in Iraq and Afghanistan, the Army is assessing the 
feasibility of providing the newest M1 Abrams SEP (System Enhancement 
Program) and M2A3 Bradley to the HBCT forward-stationed in Korea.
    Question. Tactical wheeled vehicles operating in Iraq and 
Afghanistan were initially unarmored, but force protection efforts in 
response to enemy tactics have resulted in wheeled vehicle fleets that 
have fully armored passenger cabs. Many of them have remotely operated 
weapons stations. Should U.S. Army units in Korea be equipped in a 
similar fashion?
    Answer. Yes. We intend to put armor-capable vehicles in Korea and 
have already placed some armored vehicles in Army Prepositioned Stock 4 
(in Korea) through the investment and modernization process. In the 
Army's approved Tactical Wheel Vehicle Investment Strategy, the 
modernization path forward is to acquire all armor-capable (or armor 
installed) vehicles. As the fleet is modernized with those vehicles, 
Korea will be equipped with armor-capable vehicles.
    Question. Are you aware of other equipping upgrades that, based on 
lessons learned in Iraq or Afghanistan, should be applied in Korea or 
elsewhere?
    Answer. Yes. The Army has identified equipment upgrades and new 
capabilities battle tested in Iraq and/or Afghanistan that warrant 
inclusion in Army units deployed in other theaters and CONUS. Many have 
already been fielded to Korea and elsewhere such as improved helmets, 
body armor and individual weapons (M4 Carbine) for soldiers, enhanced 
command and control systems such as Command Post on the Move (CPOF) and 
Warfighter Information Network--Tactical (WIN-T) Inc 1, Raven Unmanned 
Aircraft Systems and Aircraft Survivability Equipment upgrades.
    Question. When will the brigade combat team in Korea receive 
Brigade Modernization spin outs from the FCS program?
    Answer. The Army has not yet determined when the brigade combat 
team (BCT) in Korea will receive Brigade Modernization spin outs from 
the Future Combat Systems program. While the Army will field these 
technologies in Capability Packages to all BCTs by fiscal year 2025, 
the unit fielding schedule for Capability Packages will be determined 
by multiple factors including deployment and procurement schedules.

          Magneto-Inductive Remote Activated Munitions System

    Question. The Magneto-Inductive Remote Activation Munition System 
(MI-RAMS) provides command and control of land based ordinance, 
including tactical demolition, for U.S. Army Combat Engineer Forces. It 
provides the ability to remotely initiate and/or control target 
neutralization through buildings, concrete, metal, subterranean 
structures, tunnels, caves, and under water which current radio 
frequency devices cannot accomplish. It provides Explosive Ordnance 
Device forces an unjammable remote firing device capability for 
clearance and IED neutralization operations. The system reduces the 
amount of time a Soldier is exposed while employing demolitions, and 
significantly lightens the load the Soldier has to carry. What is the 
status of the Army's MI-RAMs program?
    Answer. The MI-RAMS program (M156, XM40 and XM331) is currently 
unfunded after Fiscal Year 2010 (FY10). The M156 kit is in low rate 
initial production. A Type Classification Standard/Full Rate Production 
(TC/FRP) decision is planned for June 2010 and would be subsequently 
followed by a Full Materiel Release (FMR) in September 2010. The XM40 
and XM331 have successfully completed all developmental testing and are 
completing all necessary documentation required for a Milestone C 
production decision.
    Question. No funds are requested in the fiscal year 2011 budget for 
production of MI-RAMS system. What happens to the production line once 
IOC is achieved, if no production orders are placed by the Army?
    Answer. If no additional orders are placed, the Army anticipates 
that the vendor will evaluate its commercial opportunities, workload 
and strategic plans for this product and make a decision concerning the 
disposition of its production line.
    Question. What percent of Army Combat Engineer Force inventory 
objectives for MI-RAMS systems will be met by the end of fiscal year 
2010?
    Answer. By the end of fiscal year 2010, the Army inventory for the 
Magneto-Inductive Remote Activated Munitions System M156 kit will be 
310 systems, which is approximately 6 percent of the objective 
requirement.
    Question. What is the Army doing to ensure that now that all the 
R&D has been done the MI-RAMS system is fielded to combat forces to 
meet their need for a safer, lighter, and more capable detonation 
device which can contribute to our frontline forces in the fight 
against IED's?
    Answer. The existing systems will be fielded primarily to deploying 
Explosive Ordnance Disposal units. Any additional systems will be 
fielded in accordance with Army Force Generation Model and the Dynamic 
Army Resource Priority List.
    Question. Given the high priority of MI-RAMS on the Army Engineer 
Schools' priority list and the importance of providing the most capable 
equipment to out frontline Army EOD and special forces, does the Army 
intend to budget for MI-RAMS in its upcoming fiscal year 2012 internal 
(POM) budget as a common service item for the Army Combat Engineers, 
EOD, and Special Forces?
    Answer. This requirement will compete for funding along with other 
priority programs as the Army develops its Future Years Defense 
Program.

    [Clerk's note.--End of questions submitted by Mr. Dicks.]
                                       Wednesday, April 14, 2010.  

             NATIONAL GUARD AND U.S. ARMY RESERVE READINESS

                               WITNESSES

GENERAL CRAIG R. McKINLEY, CHIEF OF THE NATIONAL GUARD BUREAU
LIEUTENANT GENERAL HARRY M. WYATT, III, DIRECTOR, AIR NATIONAL GUARD
MAJOR GENERAL RAYMOND W. CARPENTER, ACTING DIRECTOR, ARMY NATIONAL 
    GUARD
LIEUTENANT GENERAL JACK C. STULTZ, CHIEF, U.S. ARMY RESERVE

                   Opening Remarks of Chairman Dicks

    Mr. Dicks. The committee will be in order. This afternoon 
the committee will hold a hearing on the National Guard and 
U.S. Army Reserve readiness. We will focus primarily on near-
term readiness issues related to personnel, training and 
equipment repair, reset and battle loss replacement.
    Because the senior services have consistently underfunded 
the Reserve components, Congress has provided funding for the 
National Guard and Reserve equipment account for over 30 years. 
And at times, this funding has made all of the difference in 
the ability of units to perform critical missions.
    We are pleased to welcome several distinguished general 
officers as witnesses.
    From the National Guard, General Craig R. McKinley, the 
Chief of the National Guard Bureau and the first four-star 
Chief of the National Guard. And he is accompanied by 
Lieutenant General Harry M. Wyatt III, Director of the Air 
National Guard; and Major Raymond W. Carpenter, the Acting 
Director of the Army National Guard.
    Additionally, we are pleased to welcome the Chief of the 
U.S. Army Reserve, Lieutenant General Jack C. Stultz.
    General Stultz, we will discuss Army Reserve requirements 
and help the committee to better determine their needs.
    Gentlemen, welcome. We are eager to hear your testimony on 
better determining the needs of guardsmen and reservists 
deployed around the world. These officers are very well 
qualified to answer the questions of the committee. Thank you 
all for testifying before this subcommittee.
    Gentlemen, the committee is concerned about the readiness 
of the National Guard and U.S. Army Reserve. Your soldiers and 
airmen are performing magnificently in Iraq, Afghanistan, and 
other hot spots around the globe. The committee would like to 
commend the soldiers and airmen of the Guard and Reserve for 
their dedication throughout these years in Iraq and 
Afghanistan. We look forward to your testimony.
    Now before we hear your testimony, I would like to call on 
the Ranking Member, my friend Bill Young and former Chairman of 
this subcommittee, for his comments.

                          Remarks of Mr. Young

    Mr. Young. Mr. Chairman, thank you very much. I want to add 
my welcome to yours to our very distinguished guests. I think 
no other committee in Congress understands the strain that is 
placed on our military, including our Guard and Reserve forces. 
It is good to have the leaders of those who manage and direct 
and control these very, very important segments of our overall 
national defense.
    In fact, the old ``weekend warrior'' saying I think has 
sort of faded from everybody's vocabulary when we see the 
amount of time that our Guard and Reserve forces are deployed 
to the region.
    So we appreciate what you do and understand the importance 
of your manpower and woman power, but we also understand that 
the best forces in the world really have a hard time doing 
their job if they don't have the proper equipment.
    Today we need to hear some of the heartburn issues that you 
might have on equipment that is absolutely necessary, number 
one, for you to train your troops; number two, for them to have 
the tools to perform their mission; and number three, to be 
able to protect themselves while they are doing that.
    So, small order, but we are looking forward to hearing from 
you just what it is you need to make sure that these three 
components are very well covered. You will have some 
interesting questions from the committee. This committee has 
always been a very strong supporter of our Guard and Reserve 
forces. Thank you for being here.
    Thank you, Mr. Chairman.
    Mr. Dicks. General McKinley.

                 Summary Statement of General McKinley

    General McKinley. Chairman Dicks, Mr. Young from my home 
State of Florida, it is great to see you all, Mr. Lewis, Ms. 
Kilpatrick. Thank you very much for allowing us the opportunity 
to be here today.
    This is my second year as Chief testifying, and I would 
just like to say how proud we are to be here collectively as a 
group. I know, as you all do, we miss Chairman Jack Murtha. He 
was a staunch advocate for all of the National Guard and 
Reserves. We miss him.
    Today we have about 460,000 members of the Army and the Air 
National Guard. Our strength is good, and our retention is even 
better. We have introduced Bud Wyatt and Ray Carpenter. They 
are my staunch advocates on the Army and Air Force side, and 
they work with the services. And as you know, the National 
Guard is comprised of members from the Army and from the Air 
Force. Without General Casey and General Schwartz supporting 
us, we would not be in the state we are in today. So I commend 
both services.
    I am also accompanied today by General Tim Lowenberg, who 
is the Adjutant General of Washington State.
    And Jack, it is a pleasure to sit with you on the same 
panel. We are very close friends. All of the Reserve Component 
Chiefs are, so it is great to be here with General Stultz.
    Sir, we have submitted our statement for the record. We 
want to get right to your questions. If I can take less than a 
minute to just say one thing.
    Mr. Dicks. We really want to hear from you, so take as much 
time as you want.
    General McKinley. Thank you.
    As the United States Armed Forces continue to conduct 
operations in Iraq and Afghanistan, as you all well know from 
your visits over there, and elsewhere around the world to 
include here at home, units of the Army and the Air National 
Guard are participating as total force partners in the effort.
    The National Guard has repeatedly proven itself to be ready 
and a very accessible force. And we validated the total force 
concept by showing that the men and women in our formations are 
ready to answer the call to be mobilized, to deploy overseas, 
to return home, and then become prepared to do it all over 
again.
    The citizen soldiers and airmen of your Air National Guard 
are adding value to America every day. The capabilities they 
bring to bear would not have been possible without the strong 
support of this committee, and we thank each and every one of 
you for that support.
    The most critical part of that proven capability, however, 
is our National Guard men and women. Today's men and women 
volunteer to join and stay in the National Guard, fully 
expecting to be deployed. This shift in expectation is a 
central aspect of the National Guard shift to being a fully 
operational force and no longer merely a strategic reserve, as 
the Chairman mentioned. Indeed, the soldiers and airmen of your 
National Guard now serve with that expectation and are proud of 
it. They want to remain central players in the Nation's defense 
and would indeed be resistant to any move to return to a role 
limited to being strictly a strategic reserve.
    Overall, we can say that the budget request for fiscal year 
2011 meets the critical needs of the Army and Air National 
Guard in this era of persistent conflict overseas and ongoing 
threats to American lives and property here in the homeland. Of 
particular importance to us is the request for operations and 
maintenance funds. This money is critical. We use it to buy the 
fuel, the spare parts, building maintenance and other things 
essential to being effective Reserve components of the Army and 
the Air Force. We ask the committee to fully fund that request, 
and thank you in advance for that.
    All of us in the National Guard are highly mindful and 
deeply grateful for the strong support of the National Guard 
which this committee has shown to us in the past. And in 
return, we try to be good stewards of the funds you appropriate 
for us and use that money to make your National Guard as strong 
as it can be. We are particularly grateful for the additional 
funds which this committee has provided to the National Guard 
and Reserve Equipment Account. We have used these funds to fill 
critical shortages in the Army National Guard and to provide 
technological modernization in our Air National Guard 
capabilities. We are especially grateful for the flexibility in 
which those funds are provided to us, allowing us to apply that 
money to our most critical equipment needs.
    Funding for our Counterdrug Program is included in the 
fiscal year 2011 budget request, and we ask for your full 
support of that request. As we have seen with recent incidents 
along the Southwest border, the scourge of drugs migrating 
across our borders constitutes a real threat. Consequently, our 
National Guard Counterdrug Program fills a very vital need. We 
are well aware that last year, as it has done in previous 
years, this committee supported significant additional funds 
for that Counterdrug Program to fund capability enhancements. 
Nearly a quarter of the capability of the National Guard 
Counterdrug Program exists today because of additional funding 
provided in the past by Congress.
    In order to move quickly to your questions, I would now 
like to ask General Wyatt and General Carpenter to make a 
couple of brief remarks.

                   Summary Statement of General Wyatt

    General Wyatt. Mr. Chairman and distinguished members of 
the committee, first of all, I would like to thank you for the 
opportunity to testify before you today on behalf of the 
extraordinary men and women of the Air National Guard, some 
106,700 strong. Many of our folks have been deployed multiple 
times in recent years, yet they continue to volunteer at 
unprecedented rates, not only for worldwide contingencies, 
because they strongly believe in what they do in defense of our 
country, but also in their local communities on behalf of our 
Governors and our Adjutants General.
    They leave home, they leave their families, and in most 
cases, they leave civilian employment for months on end, so we 
greatly appreciate the continued support that this committee 
has provided to them over the years.
    During this past year, the Air National Guard has deployed 
over 18,000 service members to 62 countries and every 
continent, including Antarctica.
    Additionally, America's Air National Guard continues to 
protect our domestic skies, with more than 16,000 members 
supporting missions at 16 of the 18 Air Siren Alert sites 
across the country.
    Our men and women are also ready and capable of responding 
to all manner of natural and man-made disasters. And the 
backbone of our force, our traditional Guard members, continue 
to provide critical surge capability for the United States Air 
Force.
    Needless to say, this past year has been another busy one 
for us, so the Air National Guard remains very visible at home 
and abroad. We continue to be full partners in the Aerospace 
Expeditionary Force, and a vital part of our total Air Force.
    We have three basic priorities, and I will just outline 
those broadly: The most important one is to develop our 
adaptable airmen; secondly, modernize our warfighting 
capabilities; and lastly, secure the homefront and defend this 
nation.
    Mr. Chairman and members of the committee, I look forward 
to your questions.

                 Summary Statement of General Carpenter

    General Carpenter. Chairman Dicks, Ranking Member Young, 
distinguished members of the subcommittee, I am honored to 
represent the more than 361,000 citizen soldiers in the Air 
National Guard.
    As I speak, over 52,000 of our soldiers are mobilized, 
deployed, and on point for the Nation. These soldiers joined 
our force knowing they would deploy. They are willing to make a 
difference in the world and defend our country.
    Army National Guard soldiers are part of an operational 
reserve. Your Army National Guard is accessible, and it is 
important that we fully resource those formations and ensure 
that they maintain the highest levels of readiness. The 
sacrifices of those soldiers and families and employers is 
something we must not only acknowledge but certainly 
appreciate.
    The National Guard of today is dramatically different than 
the one I joined nearly four decades ago. The last eight years 
have seen the Guard transform from a strategic reserve to an 
operational force. The enablers for the Army National Guard, 
especially the National Guard and Reserve Equipment Account, 
have been provided and sustained by congressional initiatives. 
We thank you for your continued support.
    Today we would like to emphasize the key initiatives 
presented in our 2011 Posture Statement. In accordance with the 
theme of adding value to America, we highlighted several 
overseas and domestic operations as well as several innovative 
training and family programs. The National Guard and Reserve 
Equipment Account (NGREA), as General McKinley mentioned, has 
been especially supportive in our pursuit of equipping the 
force.
    Last year you appropriated almost $800 million for the Army 
National Guard in that account. And over the last 6 years, you 
have appropriated almost $5 billion. We now have equipment in 
our units at the rate of 83 percent of the critical dual-use 
equipment, wartime equipment that is also vital for use by our 
Governors to respond to domestic emergencies; 66 percent of 
that equipment inventory is now on hand and in the States and 
available for the Governors, should they have to use it even 
tonight.
    An important benefit of NGREA funding is transparency in 
accounting. In fact, every dollar can be tracked and accounted 
for in that process. With NGREA, we are able to show Congress 
exactly what equipment the Guard received for the money spent 
and where the equipment is located. Thanks to NGREA, we will 
retire the M-35 (many of you may know that as the venerable 
deuce and a half) this coming year. That truck has been in our 
inventory for over 40 years, and we will replace that vehicle 
with a new family of modern tactical vehicles.
    I also request your support in the budget for the growth of 
the non-dual-status technician program. As you may know, those 
technicians are the ones who do not deploy because they are not 
soldiers. They are part of the civilian workforce. They provide 
the critical support back home while soldiers are deployed. 
They maintain the pay accounts, the equipment accounts, and 
perform administrative duties in the absence of the dual-status 
technicians, the deployable soldiers. The budget request 
increases the number of those non-dual-status technicians to 
2,520.
    As General McKinley emphasized, we ask that the operations 
and maintenance accounts presented in the President's budget be 
approved intact. I appreciate the opportunity to be here today 
and look forward to your questions.
    [Clerk's note.--The National Guard Posture Statement is 
printed at the end of this hearing.]
    Mr. Dicks. Thank you.
    General Stultz.

                  Summary Statement of General Stultz

    General Stultz. Chairman Dicks, Chairman young and other 
distinguished Members, it is an honor to be here today.
    As Ray just alluded to, when I entered the Army Reserve 
back in 1979, having left active duty, it was a one-weekend-a-
month, 2-weeks-in-the-summertime--and that is all we asked--
force. It was under-resourced, under-trained, under-equipped 
and not really ever expected to be ready when they respond.
    Mr. Dicks. What year was that again?
    General Stultz. 1979, sir.
    Mr. Lewis. Where did you enter?
    General Stultz. I entered the 108 Division in Charlotte, 
North Carolina, as an infantry officer, sir.
    But today, I am happy to report that your Army Reserve is a 
national treasure. It is a tremendous return on investment for 
this Nation. Today, I am authorized 205,000 soldiers. I have 
almost 208,000 on duty; 3,000 in excess of what we are 
authorized. Each one of those soldiers has either enlisted or 
reenlisted since 9/11. They know what they got into. They know 
what they stayed in for.
    Today, we have 30,000 soldiers on active duty in the Army 
Reserve, in addition to our 16,000 full time AGRs, so we are 
giving this Nation 45,000 full-time service strength on an 
ongoing basis.
    Since January of this year, I have visited ten different 
countries around the world, visiting Army Reserve soldiers who 
are on duty in those countries providing security cooperation 
as well as fighting combatants in Iraq and Afghanistan. This is 
an operational force, not the old strategic force that I 
entered in 1979.
    Our focus in the Army Reserve is, just like the focus that 
the National Guard has already said, it is taking care of our 
soldiers to make sure that they are properly trained, to make 
sure that they are properly equipped, to make sure that they 
have everything they need before we ask them to go in harm's 
way, and to focus on taking care of their families back home 
and, to a great extent also, to make sure that we have the 
support of their employers for this Nation.
    We are still short equipment. We have come a long way, 
thanks to your support, thanks to the appropriations you have 
given us, and thanks to the National Guard and Reserve 
equipment account, as was mentioned earlier. Today we are about 
80 percent equipped, but we are only about 65 percent 
modernized. So we still have a lot of old equipment in our 
ranks that we are using.
    The other challenge we have is, as we move forward toward 
fiscal year 2016, within the Army Reserve we are reorganizing 
to create capabilities that we have realized in this war that 
the Nation needs, more military police, more civil affairs, 
more engineer capability. And we are taking down a lot of 
legacy structure to the tune of about 16,000 additional 
operational capability. That comes with a bill also for 
equipment because, as we stand up more military police or more 
engineers, I have to equip them. So we still have about $6 
billion in unfunded requirements, and if you couple that with 
the modernization, about $11 billion in total requirements to 
be fully modernized for our fiscal year 2016 structure. We ask 
for your continued support for those equipment needs and 
continued support for the NGREA funds, which give us the 
flexibility to prioritize where we spend the equipment versus 
the Army prioritizing it as one lump group.
    Sir, I look forward to your questions today. But without a 
doubt, I can say your Army Reserve is in great shape, great 
morale, and thank you for your support.
    [Clerk's note.--The United States Army Reserve Posture 
statement is printed at the end of this hearing.]

                         WORKING WITH EMPLOYERS

    Mr. Dicks. General Stultz, tell members about this program 
you worked out with employers. I think that is something I want 
everyone to hear about.
    General Stultz. Yes, sir. As some of you may know, my 
background is a traditional Reserve soldier. I worked for 28 
years for Proctor & Gamble while I was in the Army Reserve, 
being called up on a repetitive basis for Desert Storm in 1990-
1991, for Joint Endeavor in Bosnia in 1997, and this most 
recent Operation Iraqi Freedom (OIF) back in 2002.
    And so when I got into the position as chief of the 
Reserves, one of the things I said is, we have to have our 
soldiers, we have got to have our families, and we have to have 
our employers. If we don't have the employers, we can't sustain 
the operational reserve.
    I set up a series of meetings through Chambers of Commerce 
and business executives through national security and other 
groups to sit down with employers and talk about how we are 
going to do this together. How are we going to maintain this 
operational tempo and keep their support?
    What I found, however, is they wanted to talk about talent. 
They wanted to talk about meeting their needs, and it really 
kind of caught me by surprise because I had come to them to 
talk about taking employees away to be soldiers, and they 
wanted to talk about bringing soldiers to be employees because 
the employers of America recognize the challenge they have is 
to find someone, and I met with the American Truckers 
Association, they said, here is our challenge: We have to find 
somebody that is drug-free, physically capable, has the 
aptitude, that is morally fit; they don't have anything in 
their background that is going to get us in trouble; all of 
those kinds of criteria to drive our trucks through this 
Nation.
    I said, we are already doing that, because between the Army 
Reserve and the Army Guard and some of the other reserve 
components, we recruit, train experienced truck drivers and 
test them under fire. We put them in Iraq; we put them in 
Afghanistan driving trucks for us. What we need to do is come 
together and say, how do we do this? So it really turned into 
more of a human capital strategy for the Nation versus for the 
reserve components. And that is, how do we produce the 
workforce we need for tomorrow, the workforce we need in the 
Reserve, in uniform, and the workforce America needs in her 
communities?
    So we started partnering with the medical communities, 
where they are short technologists, such as x-ray, respiratory, 
ER, and surgical techs. We are recruiting them for our hospital 
units and reserve.
    We started partnering with law enforcement agencies that 
are trying to fill their needs, Customs and Border Protection, 
sheriffs' departments. We are fulfilling our MP ranks.
    Right here in D.C., Kathy Lanier, the Chief of Police, came 
to us and said, I will give them credit for the training they 
have had in the military, and I will give them credit for their 
supervisory experience as a noncommissioned officer if you will 
bring them to me to be law enforcement officers for the 
District of Columbia.
    Today we have over 1,000 employers across America that have 
partnered with us, everything from Al's Body Shop in Slidell, 
Louisiana, who probably has five or six workers but says, I 
like to hire soldiers; to companies like General Electric, Wal-
Mart, Conway Trucking, JB Hunt, Cleveland Clinic, Pittsburgh 
Medical, and a variety of others, where we are now filling the 
ranks.
    Our latest foray is with the Federal Government.
    Mr. Dicks. That will be your toughest challenge.
    General Stultz. Ray Jefferson is the Assistant Secretary of 
Labor for Veterans Affairs, and he is now bringing his people 
in to partner with us to say, how do we tap into that resource 
we call our Guard and Reserve to fill the ranks of our Federal 
workforce that we need, everything from the FAA to TSA to you 
name all of the different entities that are out there. So it is 
a great program.
    We are taking soldiers coming back from war in the Guard 
and Reserve who are saying, I left, I was flipping burgers, but 
I have been given responsibility. I have a different level of 
confidence. I want something better, and we are opening the 
doors for them and putting a better person back into the 
communities of America. It is working. We have brought the 
National Guard and the other reserve components in with us.

                           STRATEGIC RESERVE

    Mr. Dicks. I think it is a great initiative. You told us 
about it on our recent trip.
    General McKinley, you said something about an operational 
reserve or a strategic reserve. Does the country still need a 
strategic reserve?
    General McKinley. I think the debate, Mr. Chairman, will 
take place in the post-QDR world we live in. In the Pentagon, 
there are different opinions, obviously, on this subject. I am 
a believer, personally that we need a strategic reserve and we 
need an operational reserve. We don't need one of any one kind, 
but we need to have members who can float in and out of all of 
those statuses because when a member comes back from a 
deployment, everyone needs a decompression time. That is where 
strategic reserve comes in handy. But this operational reserve 
is a world treasure that this Congress has funded and the 
National Guard and Reserve have exercised.

                            HOMELAND SECRITY

    Mr. Dicks. I can remember, a few years ago, General Powell 
saying that he wasn't sure the National Guard could deploy. He 
had questions in his own mind. That certainly has been 
answered, and I think very decisively that they can and are 
doing it as we speak.
    So this question of how many forces do we have, and I 
understand everybody likes the idea of being operational and 
deploying and having real responsibility, et cetera, but I do 
think there still needs to be a debate about, should there be 
additional reserve people to create a strategic reserve?
    Let me ask you a question I have been troubled by, I was on 
Homeland Security and I mentioned this previously to you, under 
this relationship of Northern Command with the National Guard 
Bureau and with the Department of Homeland Security and whether 
there needs to be an additional effort to do planning and 
between these three entities to take care of homeland security 
issues, and we know that the Guard and the Reserve, to some 
extent, are handling these crises that come up in the country, 
the Hurricane Katrinas and the other events that we have had. 
But the role of how you work this and coordinate with the 
Department of Homeland Security and Northern Command still 
doesn't look as clear to me as it should be. And this idea of a 
planning effort between the three entities to deal with various 
contingencies, what do you think of that?
    General McKinley. Mr. Chairman, we have come a long way 
since the tragic events of 9/11. Is there room for improvement? 
Absolutely.
    I think Secretary Gates and Secretary Napolitano have met, 
and I have not been privy to their discussions, but I know that 
they want to create this atmosphere which lets us tear down 
these stovepiped bureaucracies, that lets us organize better, 
plan better, and exercise our options better. I know the 
National Guard, through the Adjutants General, through their 
Governors, have a very sound program which we in the National 
Guard fully subscribe to and fully support. But I commend your 
question in that, is there room for improvement and more 
synchronization required? I would totally agree with your 
premise.

                          CIVIL SUPPORT TEAMS

    Mr. Dicks. Also, explain the Civil Support Teams. They are 
supposed to come in, as I understand it, if there is a 
chemical, biological or nuclear event to be, I guess, with FEMA 
or whoever the lead Federal agency is. Explain how this is 
going to work in those kinds of contingencies? Would NORTHCOM 
come in to back up the Guard at some point if necessary?
    General McKinley. There is not a day that goes by in your 
States, the territories or the District, where we don't call 
out our small, 57-person Civil Support Teams. Every State, 
territory and the District has one. Florida and New York have a 
second, based on their size and population base.
    These small teams are your first responders to go in as a 
military unit to identify any kind of chemical, biological, or 
radiological incident that may need to be up-channeled to a 
higher state of response. Those were done by the National 
Guard. My predecessor, Steve Blum did that, and we took it 
basically out of hide, and with the support of committees, we 
have been able to have these small person units that are really 
the scalable first military response in a State or a territory.

CHEMICAL, BIOLOGICAL, RADIOLOGICAL NUCLEAR EXPLOSIVE ENHANCED RESPONSE 
                             FORCE PACKAGE

    That then led to our (CERFPs). These are response elements 
that would then build on top of the Civil Support Team to 
provide local, scalable support to the Governor and to the 
first responders in the cities, to build on top of that. And 
the new proposal will be through planning that has been done by 
the Department of Defense to create the Homeland Response 
Force, HRF. That will allow the Army National Guard along with 
the Air National Guard to work a package up to a larger 
response force, and then the seam line is created by which if 
the President needs to call up more forces, he can turn to the 
United States Northern Command and bring those additional 
forces on.
    So these are all new features since September 11, 2001, 
that are part of our Department of Defense response. Secretary 
Napolitano and Secretary Gates have worked this, and I am very 
comfortable with those response plans.
    Mr. Dicks. Mr. Young.
    Mr. Young. Mr. Chairman, another former chairman of this 
subcommittee has an appointment with the King of Jordan, and I 
would like to yield my time to him.
    Mr. Dicks. That is perfectly understandable.
    Mr. Lewis, former Chairman and Chairman of the full 
committee and ranking member.

                 ROLE OF GUARD AND RESERVE IN DISASTERS

    Mr. Lewis. Thank you, Mr. Chairman.
    First, I want to say that, as leaders of the Guard and 
Reserve we are more than thrilled with the cooperation and the 
work you provided for us, the security you provided over the 
years, our recent experience as observers with earthquakes in 
Haiti, the problems in Latin America that relate to control of 
our border, et cetera, suggest there is many a challenge that 
you face. I would be very interested to know what role the 
Guard and Reserve may have played in a place like Haiti and 
what that portends to potential challenges like earthquakes and 
otherwise, fires and so on, in southern California. So that 
general area is of interest to me.
    And there is one other subject. As you patrol the border, 
it takes us directly to an Air Force role. Reporting indicates 
that a very high percentage of our Air Force, formal force, 
recruits our people who are interested in UAV training and 
work, and I presume that the Guard and Reserve is interplaying 
there as well. So both of those areas, comment if you would.
    General McKinley. That is a great question, and I know 
General Stultz has some comments on Haiti because Army Reserve 
was involved there, and I will let my colleagues talk about the 
Army and the Air Force on the other parts of your question.
    The tragedy in Haiti points out to us that at any time, any 
place, we could have a major natural disaster that we all need 
to be very prepared to respond to. In California, as you know, 
sir, we are very concerned with the fault line that runs 
through the State, and I have worked with your former Adjutant 
General, Bill Wade, and now with Mary Kight to make sure that 
the National Guard forces in California are ready to respond, 
and I am very confident that they are. But sometimes the scale 
of the incident is so large, we need to have a whole of 
government approach.
    In the case of Haiti, quite frankly, the President reacted 
very quickly. Our Southern Command out of Miami, Florida, with 
General Doug Fraser as the commander, took full responsibility 
of that, to provide support to USAID as the lead Federal 
agency. And military response force fell in, as you all saw and 
observed.
    We were prepared as a National Guard to support the request 
for forces from General Fraser. We were not asked to provide a 
large-scale effort because of the international nature of the 
disaster. That certainly would be different if it was one of 
our States, our territories, or the District of Columbia.
    So I will let General Stultz talk about his Army Reserve 
contributions because they are many, and I think they are 
ongoing.
    General Stultz. I was just in Haiti a week ago visiting the 
soldiers I have there. I have the 377th Theater Sustainment 
Command, which is out of New Orleans, Louisiana. That 
headquarters actually was deployed to Kuwait in 2002 and was 
there for six years on a rotational basis, came home, is now 
remissioned against Southern Command to support them. And so 
when the situation in Haiti occurred, they were one of the 
first units that we called and said, get ready to go, since 
that is your area of operation now.
    What we have learned, though, is we do need some 
flexibility. As General McKinley indicated, it took a 
Presidential call-up for us to get access to that unit to use 
them in Haiti when in fact they were ready to go right away. 
That unit is comprised of 55 active component soldiers and 64 
full-time AGRs, in addition to the troop unit, the soliders 
there, the traditional Reserve soldiers. Yet we weren't able to 
get access to them until the President signed the Presidential 
call-up.
    Even after that occurred, it took some time through our 
bureaucracy to get the orders cut and get them in place and get 
them ready to go. It illustrated to us that we have to 
streamline this capability, and we need some new, I think, 
authority for short time call-ups without having to go to the 
President for these types of crisis situations.
    I think they are putting together a legislative proposal 
now for giving the Secretary of Defense maybe a certain level 
of authority to call up for short durations for crisis.
    That being said, I can tell you, on the ground, they are 
doing a great job. While I was there last Monday, I spent time 
on two of our Army watercraft. We have four in the theater 
operating, bringing ship-to-shore relief supplies. While I was 
there, they were moving rice around the island from one port to 
another to feed the locals. So the Reserve soldiers that are 
there feel good about what they are doing, and they are 
confident about what they are doing, but it illustrates the 
fact that we don't have the proper authorities.
    That is magnified, I think, when we talk about the homeland 
situation where in certain States, just like the State of 
Florida, for instance, I have engineers, and I have medical 
capability. I have logistics capabilities with truck units. I 
have aviation capability with medivac helicopters, yet if 
something happens in the State of Florida, without a 
Presidential call-up, those forces really are not available. We 
have to break those barriers down to serve this Nation better.
    General Carpenter. Sir, to reference a couple of your 
comments and questions, the Puerto Rico Army National Guard 
deployed three UH-60s into Haiti within two days after the 
earthquake. They spent 17 days there with those three 
helicopters, logged in almost 300 hours and are credited with 
saving 12 lives. So, inside of the Caribbean environment, 
Puerto Rico looks at Haiti kind of like my home State of South 
Dakota looks at Minnesota. And It was an emergency. They 
responded and did a great job.
    We also had about 2,500 soldiers, a task force, organized 
to deploy down into Haiti, and because of the situation that 
General Stultz just identified in terms of the authorities, we 
were unable to deploy those, but we were ready to do that.
    Beyond that, your comments on the California fires, every 
time we have a fire event in California, we in the Army 
National Guard organize, at least from the aviation 
perspective, a Rotary Wing Task Force that is set to respond if 
they are called. And luckily, to this point, most of the fires 
have been supported through California assets and Nevada 
assets.

                                 C-130J

    Mr. Dicks. Some people talked about using C-130Js for 
firefighting. What do you think of that?
    General Wyatt. We are currently exploring that possibility 
with the Department of the Interior and working with the 
Department of Defense and the United States Air Force.
    Mr. Dicks. Don't forget agriculture. That is where the 
Forest Service is.
    General Wyatt. Yes. We currently have some C-130Js in 
California that do have the mobile firefighting system 
available to those jets. And we also have some H model units 
across the country that have the mobile system.
    But there is a need in the country, as I understand it, 
from the firefighting business that the civilian fleet that 
supports the mobile firefighting system is in decline, and 
something needs to be done to recapitalize that fleet. We think 
there are some possibilities there. We continue to work with 
the Air Force.

                                  RPA

    Mr. Lewis. You need about 12; is that right?
    General Wyatt. There would be a significant need for 
additional airplanes.
    A couple of responses to your earlier questions, Mr. Lewis, 
briefly on Haiti, the Kentucky Air National Guard Contingency 
Response Group, this is a group that goes in and assesses 
damages to airfields and then opens the airfield; they were on 
the ground right after Special Operations Forces had done an 
initial assessment. They did such a good job that General 
Johns, Air Mobility Command, who is the command of that 
formation, has directed additional resources to help fully 
equip that unit. That is good news there.
    Also the Puerto Rico Air National Guard supporting the 
Coronet South Mission in Southern Command out of Puerto Rico, 
C-130s were available immediately to help with some of the 
airlift.
    Regarding your RPA question, the Air National Guard is 
heavily involved in UAS, Unmanned Aerial Systems. Now we have 
transitioned to remotely-piloted aircraft, is the term we are 
using in the Air Force. We have five units in the Air National 
Guard: Fargo, North Dakota; Syracuse, New York; a unit in 
California; a unit in Nevada; and a unit in Texas. Four of 
those units fly MQ-1s. The Syracuse unit flies MQ-9s. We fly 
nine of the 40 Combat Air Patrols for the United States Air 
Force worldwide. We see opportunity to increasing the number of 
RPA units in the Air National Guard as we climb to meet that 65 
cap build that Secretary Gates has set.
    Mr. Lewis. It sure seems to me that UAVs and their radar 
capability could be major assets in our war against not just 
terror but drugs across the border. I would look to a time when 
we have major coordination between Guard and Reserve personnel 
who are involved in these activities and local law enforcement 
as well as our homeland security people.
    General McKinley. As you know, our C-26s, which the State 
of California had and the State of Florida had equipped for 
local law enforcement to interact through our counter drug and 
counter narcotics programs, were very effective, and we are 
also now partnering with Administrator Kostelnik, who is the 
air wing director of Customs and Border Protection, to put our 
sites similarly located together so we can use the synergy of a 
guardsman working during the day possibly for Customs and 
Border Protection along the border and maybe being a member of 
the National Guard. Those are the kind of synergies we were 
talking about earlier today, and we just need to keep getting 
better every day at it.
    General Wyatt. I might add, Mr. Lewis, there was for the 
first time in the Haiti situation an RPA that was assigned to 
go down and assess and actually launched out of Port-au-Prince 
airport, a great news story there. And to kind of highlight 
your recognition of the importance of RPAs, this year, for the 
first time, the Air Force will train more pilots for RPAs than 
it will for manned aircraft.
    Mr. Lewis. Thank you, Mr. Chairman.
    Mr. Dicks. Mr. Visclosky.

                          EQUIPMENT SHORTFALL

    Mr. Visclosky. That is a fascinating statistic.
    Gentlemen, thank you very much for your service. I 
appreciate both the Reserve and Guard. We have an incredible 
Guard unit in the State of Indiana, and General Umbarger has 
just done a terrific job, and we appreciate it very much. They 
have been great to work with.
    The question I have on the Guard is if they received the 
full amount of the President's budget request as well as the 
full amount currently planned for future year defense programs, 
how much additional funding will still be needed in order to 
bring the Guard here and the Army up to 100 percent of the 
equipment requirements for domestic and operational purposes?
    General McKinley. Sir, thank you for your comment. I would 
agree that the State of Indiana has some magnificent 
facilities, and General Umbarger is doing a great job.
    I would turn to my colleagues, both Air and Army, to kind 
of give you a wrap-up summary of what their additional 
requirements would be to get to 100 percent.
    General Carpenter. Sir, I would tell you first of all that 
the success we have had in filling the accounts and the 
equipment we have on hand right now is terrific.
    As I mentioned in my opening statement, 83 percent of the 
critical dual-use equipment is now in place. We think that we 
have a shortfall right now of around $19 billion or $20 
billion. But that really is just to complete the task here in 
terms of what has been accomplished to this point.
    General McKinley. I think General Stultz brought up a great 
point earlier, that not only do we need equipment, we need the 
modernization money to make the current equipment we have 
reliable and fully functional in the capacities we need it in.
    Mr. Visclosky. General, would that be included in the $19 
billion to $20 billion estimate you gave us?
    General Carpenter. Yes, sir. This is a combination of the 
modernization piece as well as filling the shortfalls and 
filling the gaps we have inside of our formations.
    General Wyatt. We do have an air piece. This is the 
importance that NGREA plays in the Air National Guard. Our 
problem is not so much shortages of equipment, with the 
exception of ground support equipment. Our trucks are getting 
extremely old. We are looking at about $200 million for 
primarily ground support equipment. But our problem is not 
necessarily the aircraft fill rate. The problem is the status 
of those airplanes and the age of the airplane and the 
modernization that we need to do.
    The importance of the NGREA account cannot be 
overemphasized when we talk about the modernization of our 
equipment. We take a look at identifying those pieces of 
equipment that support not only the Federal war fight but the 
State mission, and we concentrate the bulk of our NGREA 
expenditures on that dual-use equipment. The particular items 
that I am talking about are brought to the attention of the Air 
National Guard through a process called we call weapons and 
tactics analysis center, where the ground level, the war 
fighters, bring their need that they have identified from their 
experiences in combat and in supporting the Governors and the 
State mission to identify those pieces of equipment and 
resources that they need to do both missions. And we 
concentrate the use of our NGREA accounts in those regard.

                                HUMVEES

    Mr. Visclosky. Gentlemen, if you have a list of your 
unfunded requirements, we would appreciate that very much.
    One last question I would have is the Department in their 
submission for 2011 has not requested any additional funding 
for the purchase of Hummers. My understanding is that, for 
2010, the Army is going to, if it has not already, is going to 
submit a reprogramming request in excess of half a billion 
dollars. In the Army National Guard, is the readiness rate of 
the equipment on hand such that additional new Humvees are not 
needed?
    General Carpenter. Sir, I would tell you two things about 
the decisions that the Army made about Humvees. First of all, 
if you look at the equipment that is being used in Iraq and 
Afghanistan right now, up-armored Humvees are no longer the 
vehicle of choice. Most of the units that are deployed and 
operating in that environment use the new MRAPs because it 
provides greater protection to the soldiers who are out there 
conducting operations.
    So when you look at that, plus you look at the fill rate 
that we have got inside the Army National Guard, we have a 
requirement for 48,000 Humvees. By the time we get what has 
been purchased delivered to our formations, we will have the 
48,000 Humvees that were required.
    Now the question is the modernization piece that has been 
talked about here earlier; 30 percent of those vehicles will be 
modernized at that point. The effort for us inside the Army 
National Guard is to recap these vehicles, nearly half a 
billion dollars you just mentioned, with the idea that we are 
going to extend the life of those older model Humvees and 
basically take them back to zero miles, zero hours.
    The great story about those Humvees is they are probably 
one of the most compatible vehicles we have got out there for 
the homeland defense, homeland security mission that we use in 
terms of emergency response.
    So the decision that was made by the Army is probably the 
right decision as far as we are concerned from the Army 
National Guard in terms of the modernization.
    Mr. Visclosky. If you on a numerical basis are going to be 
at your 48,000, if I remember your statistic, why did the Army 
ask for the 560 that now they feel they don't need? If you were 
at that, why did they ask for that money in the first place?
    General Carpenter. I would guess, you would have to direct 
that at the Army, but I think what happened is it changed in 
the way operations are being conducted overseas in terms of 
looking at MATVs, MRAP vehicles for those kinds of operations 
versus the up-armored Humvees.
    Mr. Visclosky. If they said they needed whatever the number 
is and they were added, why did they ask for the 560 in the 
first place? If you could answer for the record.

    It is my understanding that HQDA submitted a request to reprogram 
$560M of FY10 overseas contingency operations funds to Recapitalize Un-
armored Legacy HMMWVs, of which approximately 3,000 vehicles will be 
ARNG vehicles.
    Although we will achieve 100% of HMMWVs equipment on hand, by FY11, 
only 32% of our authorized fleet is currently deployable to Operation 
New Dawn or Operation Enduring Freedom. Over 20,000 of our HMMWVs have 
already passed their Useful Economical Life. The original plan was that 
these vehicles were going to be replaced through HMMWV procurement. 
However, the HMMWV Contract was terminated and we expect to receive our 
last lot of new HMMWV this Fall. Recapitalizing ARNG legacy fleet is 
the solution to overcoming the decision to terminate the HMMWV 
Contract.
    There is also a request to reprogram FY11 overseas contingency 
operations funds that would Recapitalize an additional 3,000 ARNG 
HMMWVs. The remaining 6,000 HMMWV Recap requirement is currently 
(unfunded) in the FY 12-16 Program Objective Memorandum.
    With the Joint Light Tactical Vehicle (JLTV) not likely to begin 
fielding to the ARNG units in significant quantities until at least 
FY2020, it is critical that the ARNG legacy HMMWVs be modernized 
beginning with the FYs10 & 11 overseas contingency operations 
reprogramming request.

    General Stultz. I will say, kind of along the same line as 
Ray, currently in the Army Reserve, we are short Humvees, but 
across the Army, we are in excess. So a lot of what the Army is 
trying to do is redistribute what is existing in the Army to 
get it into the right places.
    The concern I have is I have about 85 percent of the 
Humvees that I am authorized right now, but only 13 percent are 
armor capable. So they haven't been modernized. They do need to 
be recapped or reset in order to be able to accept the armor 
should we need to take them into Iraq, Afghanistan or some 
other theater where we need that armor capability.
    The Humvees that I have in my organizations are what we 
call thin-skinned. They have never had the upgrades for the 
armor.
    Mr. Visclosky. Gentlemen, thank you very much.
    Mr. Dicks. On that question, if you would yield, would they 
deploy those, or would you have Humvees in country that would 
be there that you would utilize?
    General Stultz. That is part of the challenge right now, 
sir. As we have gone through or still are in the process of 
drawing down or potentially drawing down in Iraq but surging in 
Afghanistan, we are remissioning units that we had lined up to 
go to Iraq, but now we are changing direction and saying, let's 
send them to Afghanistan. Part of the challenge is the 
equipment that those units were going to use was positioned in 
Iraq. They were the up-armored Humvees and the RG-31s for the 
engineer route clearance units, the Buffaloes and the Huskies. 
When we defer them and say, now we are going to send them to 
Afghanistan, they will tell us, well, they need to bring their 
equipment. Well, their equipment is not armor capable.
    Mr. Dicks. But we are moving a lot of equipment from Kuwait 
to Afghanistan.
    General Stultz. And that is what caused that to have to 
happen. When they started remissioning our units, we said, 
unless you bring that equipment that is positioned in Iraq and 
Kuwait, we don't have the equipment at home. We have never been 
modernized to that point.
    Mr. Dicks. Mr. Young.

                               EMPLOYMENT

    Mr. Young. Mr. Chairman, thank you very much.
    The comments one of you made, I am not sure which one, 
about the employers working with the Guard and Reserve, I had 
the privilege of attending quite a few deployment ceremonies 
for Guard and Reserve units in Florida and also welcome home 
ceremonies, and I am really impressed by the number of 
employers who actually attend those same functions to indicate 
their support for the troops who are being deployed. Of course, 
their real pleasure is the fact that they have come back home, 
at least for awhile. So that was a good comment, and I 
appreciate that, and I think working with the employers is 
really crucial to making our Guard and Reserve work so that the 
troops can actually do their job in the military without having 
to worry about where they might be when they come back home. So 
I really appreciate that effort.
    Probably no military unit ever reaches 100 percent of 
everything that it needs. We in the committee would love to 
make sure that happens, and I know Chairman Dicks would 
probably like to be 110 percent of whatever you need, and I 
would share that as well.
    Mr. Dicks. And all modernized.

                          EQUIPMENT SHORTFALL

    Mr. Young. Right. But since you do have a shortfall, and 
all of your statements indicate shortfall and not necessarily 
so much for the aircraft but for ground vehicles and ground 
equipment, what is critical? If we can only help you bring your 
numbers up, what would be the most important thing for us to do 
to bring that force to where you needed to be?
    General McKinley. I will let the Army and the Air talk for 
their respective enterprise, but I would think Congressman 
Young, as you know, in Florida, we almost have to tailor it to 
the State requirements that are needed. In your home State, 
with the number of storms you have and are projected to have 
this year, we need to have certain equipment for General 
Burnett and the Governor that will help them in case of a 
hurricane relief operation.
    I am sure General Lowenberg has similar requirements in 
Washington State for different reasons.
    Mr. Dicks. We have the potential for a huge earthquake up 
there. We could have a nine at any point.
    General McKinley. Absolutely. So each part of our country 
has certain requirements. That is why these emergency 
assistance components between our States are so important, so 
we can share equipment that may be deployed overseas or may be 
short of supply.
    Ray, would you prioritize some of the things and Bud and 
Jack for yours, too.
    General Carpenter. Sir, I think our most critical shortfall 
yet out there is modernized trucks. We saw the problem first in 
Hurricane Katrina when we had vehicles that were not high-water 
vehicles that we tried to transit into the areas where they 
needed to be to provide the support to the populations, and 
they could not do that because they were not high-water 
vehicles.
    We continue to champion the cause for modernized truck 
fleets. The industrial base, however, has not been able to 
produce them in adequate quantities for us to be able to assess 
them into our organization.

                    FAMILY MODERN TACTICAL VEHICLES

    Mr. Young. Are these different sized trucks? Are they one 
specific type of truck? Be a little more specific, if you 
could.
    General Carpenter. They are what we call FMTVs, Family 
Modern Tactical Vehicles. They replace the M-900 series trucks 
and the M-800 series trucks that we have in our inventory right 
now. The Army is in the business of buying and modernizing the 
fleets across the Army, but the industrial base has not been 
able to support the requirements that are out there at this 
point.
    Mr. Young. I remember visiting with General Schwarzkopf 
during Desert Storm, and we basically asked him that same 
question: What do you really need? And the answer was trucks, 
trucks and more trucks. The answer was trucks. How much of a 
shortfall do we have in trucks in the Army Guard?
    General Carpenter. Sir, as I mentioned earlier, we are 
going to retire the ``deuce and a half'' out of our fleet this 
year. The M-800 series trucks, which is the next oldest version 
trucks, we are going to retire out of our fleet probably by 
2013 or 2014. But the 900 series trucks, which is the newest 
one separate from the modern FMTVs that I just described, we 
are not going to retire those out of our fleet for an extended 
period of time, and we are busy recapping those trucks because 
we know we will have them for a while.
    I would like to take your question for the record in terms 
of the actual number of FMTV shortfalls. I don't have that 
right at my fingertips.
    [The information follows:]

    The current status of the wheeled vehicle fleet in the Army 
National Guard is 94% on-hand. All the trucks authorized and on-hand 
are important to potential domestic response emergencies as they 
provide capabilities for an array of missions. These trucks serve to 
transport people, equipment, or supplies. Earlier model vehicles are 
capable of serving in most roles required by domestic response; 
however, these same vehicles are generally not deployable due to a lack 
of armor protection.
    High Mobility Multi-Wheeled Vehicles (HMMWVs) make up a portion of 
less than 1% of these shortages, but are projected to be 100% on-hand 
by the end of 2010. Only 21% of our HMMWV fleet is currently armor 
capable and deployable to theater. Based on Army distribution 
projections, this number will grow to 32% by the end of FY 11. 
Termination of HMMWV production stops further improvements to 
deployability.
    The Family of Medium Tactical Vehicles contains the largest share 
of the shortages, 5,900 vehicles. We are just starting to receive the 
newest medium tactical truck, the Long Term Armor Strategy vehicle. The 
Long Term Armor Strategy is the first production of medium vehicle 
designed to accept armor. Current projections show Long Term Armor 
Strategy vehicles increasing to 15% of the ARNG medium fleet by the end 
of FY 11. We continue to divest older medium trucks as soon as 
practical, with an objective of divesting the M35 by the end of FY 11 
and the M809 series by the end of FY 12.

    Mr. Young. Would you also include in your response for the 
record a breakdown on which of the trucks are important to 
potential at-home emergencies versus deployed to a military war 
zone?
    General Carpenter. Yes, sir, I will do that.
    Mr. Young. General Stultz.
    General Stultz. Trucks, trucks, trucks. I will do the same 
as with the National Guard. I will submit for the record a 
list, and we do have it broken down.
    [The information follows:]

    As we transition into a fully modernized operational force we 
continue to encounter and successfully tackle many challenges, among 
them equipping a fully modernized Army Reserve. As a predominantly 
Combat Support (CS) and Combat Service Support (CSS) force, we must 
equip out formations with the required quantities of equipment and 
strive to equip them with the most modern and capable version available 
to effectively accomplish our mission. Among the key pieces of modern 
equipment we require to complete our transition and meet operational 
challenges are the Family of Medium Tactical Vehicles (FMTV) at 
approximately $1.3B unresourced and Heavy Expanded Mobility Tactical 
Trucks (HEMTT) at approximately $1.0B unresourced. With respect to 
which of our trucks are critical for potential Homeland Defense (HLD) 
and natural disaster related emergencies, both the FMTVs nd HEMTTs 
provide that capability and are part of the Army's critical dual use 
(CDU) inventory. Additionally, our HMMWV fleet represent another key 
enabler of HLD/HLS and disaster relief missions. Among them our HMMWV 
ambulances, currently at 80% equipment on hand (EOH), are an example of 
essential vehicles during an at-home emergency situations.

    But just to give you kind of a snapshot, the family medium 
of tactical vehicles that General Carpenter mentioned, those 
are the replacement for the deuce and a half's five ton cargos 
that you can use for troop transport. You can use them for 
carrying just about anything. You have various types of 
shelters that you can put on the back of them. I am authorized 
7,000 of those trucks in the Army Reserve. I currently have 
2,000 on hand. I am short 5,000. Now, I do have some old in-
lieu-ofs, but I actually have a requirement for about 5,000 
FMTVs in the Army Reserve.
    The HEMTT that you are familiar with, the HEMTT truck that 
has everything from fuel capability to wrecker capability, I am 
authorized about 3,500 of those in the Army Reserve. Today I 
have 1,500, so I am short about 2,000 of those vehicles. So 
that kind of gives you a magnitude of somewhere around 7,000 
trucks right on hand right now I can say I am short. That will 
grow, as I mentioned earlier, as we regenerate new structure in 
the Army Reserve with new capability, a lot of which will be 
ground-based and truck-based.
    Additionally, we have some significant needs in our 
capabilities with communication systems because just as you 
have to shoot, you have to move and communicate. We are short 
radios, and we are short communication systems, command-and-
control systems that are critical to our needs also.
    Mr. Young. You and General Carpenter both mentioned 
recapping a lot of vehicles. What is the most protective--well, 
let me rephrase that. What is the most efficient vehicle for a 
soldier on the battlefield to use, a recapped, a rebuilt 
vehicle, or a new vehicle with modern whatever technologies are 
added to the new vehicle?
    General Carpenter. Sir, the recap program, no matter what 
kind of a vehicle it is, takes it back to zero miles and zero 
hours. And it is, for the most part, a great use of taxpayer 
dollars, and it is being a good steward of the taxpayer dollars 
and so those are important.
    But it really doesn't make sense, for instance, to recap an 
older vehicle unless you can provide the same capability, read 
that, the same technology, the same, whether it is a weapons 
system or a logistical system, whatever. At some point, it 
doesn't do you any good to recap the old model because you 
don't get the capability that you need on the battlefield.
    So to the extent that it makes sense, we are recapping and 
modernizing the equipment that we have got. To the extent that 
it means a newer vehicle, like the comparison between a Humvee 
and an MRAP, you really are stuck with the modernization piece 
of it.

                                HUMVEES

    Mr. Young. I recognize that some of the Humvees, for 
example, are not necessarily used in a combat situation. Maybe 
those are the ones that General Stultz talked about that are 
the thin-skins. But can you recap a thin-skin Humvee to make it 
as capable and as secure as you would if you built a new 
Humvee?
    General Stultz. Not being a total expert in this, but in 
some of the programs they do, they can take it all the way down 
to the bare metal and start over again. And I think the 
question that you have to ask is, what does it cost to totally 
reset a Humvee, build it all the way back from scratch, to the 
capability that it has the structural capability to handle the 
armor, it has the electrical capability, it has the power 
generation, the motor, to handle all that? And then, once you 
do all that with the cost, what would it have cost to just 
build a new one and go from there?
    And I think that is part of the dilemma we face sometimes, 
is, what is the most effective? Because to get to the standard 
you are saying with some of the models we have, not with all of 
them but some of them, you literally have to tear it all the 
way down and start over.
    I was just in Oshkosh, Wisconsin, about two weeks ago, 
visiting two of the plants that are building the M-ATVs and 
building the HEMTTs. And they are resetting the HEMTTs there. 
And they showed me the line where they take the vehicle and, by 
the time they get through taking it down, all that is left are 
two metal rails. And then they bring in a new engine, they 
bring in a new transmission, they bring in new differentials, 
they bring in new whatever to reset that vehicle to the new 
standards of a HEMTT A4, is what they call it.
    And they tell me--now, I am not that expert--that they can 
do that much cheaper than manufacturing a new one. But I think 
that is the dilemma.
    The other dilemma we face is, how much are we going to 
invest, because we do have to be good stewards of our 
taxpayers' money, in refurbishing the old equipment with a new 
generation of equipment? It is kind of the same challenge we 
face in technology.
    While I was there at Oshkosh, I drove that M-ATV around 
their course, a wonderful piece of equipment that they are 
using in Afghanistan now. And you say, you know, wow, it would 
be great to put these in the hands of all of our soldiers 
instead of that recapped Humvee. But the cost of that vehicle 
compared to a newly manufactured Humvee is tremendous. And that 
is where, can you afford that?
    Mr. Young. Let me ask just one more question here. And this 
just shows that I don't know that much about it, and that is 
why I am asking the question.
    If you are going to build something new, whether it is an 
airplane or a truck or an automobile, you start down the line, 
you put new pieces in place, you add on to the new thing; at 
the end of the line, the vehicle comes out.
    In the place of recap, you don't do it that way. The first 
thing you have to do is start and tear it down before you can 
start to rebuild the process. And doesn't that take additional 
time? Doesn't it take additional workforce? Doesn't that add to 
the cost of it?
    I am like you; I am just trying to figure out what is the 
most cost-effective way to give our troops the best vehicles 
possible. So you can respond to that for the record, if you 
like.
    [The information follows:]

    Although the Army Reserve relies on and benefit from the various 
Army's Recap programs as a means to extend the Economic Useful Life 
(EUL) of older systems and long with procurement of new equipment fill 
equipment shortfalls, we need to defer answering the Recap cost benefit 
analysis question to HQDA who funds and manages these programs.

    Thank you, Mr. Chairman.
    Mr. Dicks. All right.
    Mr. Rothman.

                               STOP-LOSS

    Mr. Rothman. Thank you, Mr. Chairman.
    Generals, thank you for being here. Thank you for your 
distinguished careers and your service today.
    A question about stop-loss for the Army National Guard and 
Army Reserve. I am told that, as of January of this year, there 
are still approximately 3,400 soldiers in the Army National 
Guard and Army Reserve who remain on active duty beyond their 
scheduled separation dates as a result of stop-loss. And, in 
the fiscal year 2000 defense appropriation budget, we provided 
a special $500-per-month pay for those individuals during 
fiscal year 2010.
    But I am told, General McKinley, that the Army Guard had 
previously stated that it would end the use of stop-loss in 
September of 2009. What policies have been taken to end stop-
loss? And when will you expect there to be no longer any stop-
loss for the Guard or Reserve?
    General McKinley. Sir, if you don't mind me passing that to 
my colleague who can give you the specific Army answer, I will 
pass to both Jack and to Ray.
    General Carpenter. Sir, as you have pointed out, as of last 
September we were no longer mobilizing and stop-lossing 
soldiers that were deploying into theater. However, prior to 
that point, prior to the first of September, units that were 
mobilized for the 12-month mobilization period, stop-loss was 
in effect. So for the soldiers that were mobilized and deployed 
in August, for instance, of 2009, those soldiers are in theater 
and they are in a stop-loss status.
    Now, the 12-month mobilization, for instance, for the 
August soldiers that were mobilized is going to end in August, 
if not July, of fiscal year 2010. At that point, all the 
soldiers who were stop-lossed will be out of our ranks and out 
of the formations.
    So the process was not on the first of September to curtail 
stop-loss for everybody, because what that would have done is 
soldiers would have been in mid-tour and it would have been 
disruptive to the units.
    Mr. Rothman. General, is it fair, then, to characterize 
your answer as, by the end of August 2010, there will no longer 
be stop-loss in the Army Guard or Reserve?
    General Carpenter. Yes, exactly. Exactly.
    Mr. Rothman. That is great news.
    General Stultz. Yes, sir, one thing I would add to what Ray 
said, because you are exactly right, the other thing we did 
find in the Reserve, and I think the same thing in the Guard, 
is, of the soldiers that we had stop-lossed, traditionally 
around 75 or 80 percent of them ended up staying. They went 
into theater in a stop-loss situation in a lot of cases so they 
could reenlist and get the tax benefits that were associated 
with being deployed. And so----
    Mr. Rothman. Okay. That is good information. But for the 
other 25 percent, they were indentured servants.
    General Stultz. Yes, sir.
    Mr. Rothman. And that is a charitable name for it.
    Just two other fast questions----
    Mr. Dicks. Indentured volunteers, how about that?

                            STATE OF ECONOMY

    Mr. Rothman. Indentured volunteers. Okay, yeah, that is 
probably more accurate.
    Two other fast questions, if I may.
    Given the present state of the national economy, and 
perhaps international economy, but certainly here in America, a 
number of our Guard and Reserve are having trouble when they 
get back, no longer on active duty, finding jobs. Their jobs 
disappeared. Their businesses that they worked for have 
disappeared, not just their position within that organization.
    Is there some kind of job counseling? Is that appropriate? 
Do we have that in our Reserve and Guard situation? And if we 
don't have it, why not? And if we do have it, can we make it 
better?
    General McKinley. The unemployment statistics, sir, really 
concern me. I think our Guard is experiencing about twice the 
unemployment rate when they return from overseas as the 
statistic nationally.
    And each State, to their credit, through their Adjutant 
General and their Governor and the offices in their States, 
have worked very hard to come up with reemployment programs. I 
think that is why General Stultz's opening comments that he 
made today about some of the initiatives the Army Reserve has 
used have been very helpful for us, too. So I echo your 
concern.
    So, Jack, you may want to just summarize that real quick.
    General Stultz. Yes, sir. What we said in the early opening 
is, we recognize the problem with the employers, and we have to 
have employed soldiers if we are going to sustain the Reserve 
and Guard. And so we have initiated a lot of programs 
partnering with employers.
    The challenge you are going to have or we are having is, 
those soldiers who return to find that the job that they had, 
the industry has gone out of business or has laid off or 
whatever, we can find a new job for them, but it may not be 
where they live. And so now they are confronted with this thing 
of, I want to live in my hometown where I left; you are 
offering me a new job, but it may be two States over, in some 
cases.

                            EMPLOYER SUPPORT

    Mr. Rothman. But, General, is it the policy of our 
military, and certainly our Guard and Reserve, to find each and 
every Guard and Reserve member no longer on active duty, 
looking for a job, who has been on active duty, is it our 
policy to find each and every one of them a job? Or is that 
just anecdotal or hit-or-miss?
    General Stultz. It is not a policy, not within the Army 
Reserve, that we find soldiers jobs. It is a practice that we 
say we think we owe it to them. And if we are going to sustain 
that operational force, we are going to have to be looked upon 
as, ``I can be a member of the Reserve and I can get a good 
job.''
    Mr. Rothman. Right. But if I may, if it is not a policy, 
then it would seem to be at the discretion of the present 
leadership of the Guard and Reserve. And I am----
    Mr. Dicks. Should it be a policy, if the gentleman will 
yield?
    Mr. Rothman [continuing]. Wondering why it shouldn't be a 
policy, or why it should not be a policy.
    But I think, you know, if it is important enough to do, we 
ought to make it a policy. If it is not that important, then it 
shouldn't be. But to rely on local decision-makers, when 
perhaps this should be a national policy, is something that 
perhaps the committee can discuss.
    Or do you have an opinion on that, any of you gentlemen?
    General Carpenter. Sir, there is a program called Employer 
Support to the Guard and Reserve. And it is hugely active 
across the National Guard and across the Reserve components.
    The fact of the matter is, in the Army Guard, 70 percent of 
our soldiers are nontraditional; read that: They are not full-
time in the National Guard, and they are not students. And if 
we don't have 70 percent of those soldiers who are supported by 
employers out there, frankly, we don't have a National Guard. 
And so----
    Mr. Rothman. So we do have a policy, General? Is that what 
you are saying?
    General Carpenter. We have a program. I am not sure 
``policy'' is the right terminology to put on it.
    Mr. Rothman. Okay. The objective is to be as helpful as 
possible. The policy is not to assure that each one gets a job, 
but the policy is to be as proactive and helpful as possible. 
Is that a fair restatement?
    General Stultz. Yes, sir.

                                 MORALE

    Mr. Rothman. And, finally, if I may: Morale. There is a lot 
of anger in our country these days, for lots of reasons. And 
some say that it is--and I am wondering, do you see any morale 
issues, political, one side or the other, infiltrating itself 
into any aspect of the Guard and Reserve that you are aware of?
    General McKinley. Congressman, you know, it has been 35 
years since folks our age at this end of the table were 
subjected to conscription and the draft, and it is an all-
volunteer force. And I won't speak for Jack; he can speak for 
the Army Reserve. But from the Air National Guard and the Army 
National Guard, we are seeing nothing but strong, patriotic 
desire to serve.
    The propensity to serve is great. Young people in numbers 
are coming to our recruiters, wanting to be part of these 
organizations, for a variety of reasons. But I have not seen 
any indicators, to my knowledge--and I will let Army and Air 
speak--that talk about any kinds of morale problems.
    In my opening comments, what I sense on the horizon, 
though, is if you don't let these young people serve in a 
capacity that lets them be prepared to be part of that first 
team effort, wherever it is, if it is overseas or if it is at 
home, but if you relegate the Guard to a second-class citizen 
or put it on the shelf and don't use it and don't make it part 
of the Army and the Air Force, that is when I suspect we will 
have people say, ``We didn't sign up for this.''
    So I am actually leaning towards maintaining our Guard in 
an operational capacity enough so that young men and women feel 
that they have contributed to the overall effort of our Nation. 
And I am watching out very carefully with the Adjutants 
General, who are my board of directors, to make sure we don't 
go back to a point where we are under-used, under-utilized, 
under-equipped, not well-led. Those are my biggest concerns.
    Mr. Rothman. Thank you very much.
    Mr. Dicks. Mr. Kingston.

                                 C-130S

    Mr. Kingston. General McKinley, I want to ask--because I 
have the 165th Guard unit down in Savannah, Georgia, that has a 
very aging C-130 fleet, and I am worried as I see what is 
happening with the redistribution of some of these planes. If 
they have aging fleets and there is no plan to get them C-
130Js, are they on some kind of--should we put them on a 
watchlist?
    General McKinley. Congressman, I live down the road in 
Jacksonville. I flew the 130s in Savannah. It is a great 
organization and a great unit. When I flew them, they were new 
airplanes. We have aged our C-130 fleet dramatically over the 
last 20 years, and now Savannah has some of the oldest model C-
130s.
    I have charged our Air Director, General Wyatt, to work 
with the United States Air Force to come up with some 
strategies. And if you would allow me to let him talk to you 
about the C-130 fleet, I think it is important to hear where it 
stands. There has been some speculation that the Air Force 
wants to draw down older airplanes, and I think General Wyatt 
can give you some confidence that he is working very closely 
with United States Air Force on a modernization strategy.
    General Wyatt. You know, Congressman, if you will, an 
earlier question dealt with airplanes in the Air National 
Guard, and the question had to do with the fill rate of the 
authorized airplanes.
    The days since BRAC 2005 have changed significantly. There 
was a significant amount of organic airlift in the Air National 
Guard that was removed out of the Air National Guard as a 
result of BRAC. Since then, we have had some data points, the 
most recent one being the Mobility Capabilities Requirements 
Study (MCRS) that was filed February 1, addressing the tactical 
airlift, where the C-130 fits. And the conclusions of that 
study, which was commissioned by TRANSCOM, indicated that, 
while there are about 401 C-130s in the total force, the need 
foreseeable in the future would be only 335.
    But I would point out that that study was commissioned 
before any consideration was given to what we call the direct 
support mission. The direct support mission is a newly emerging 
mission that is in support of the Army. The Joint Requirements 
Oversight Council identified a need of 78 airplanes to handle 
the direct support mission on behalf of the United States Army. 
We have in the program 38. It used to be a 78 requirement, but 
the program has been reduced to 38 C-27s, which addresses some 
of the tactical airlift. But I would suggest to you that the 
study, because it does not consider the direct support mission, 
needs to be revised to consider that.
    We have seen in PB-'11 the difficult choices that the Air 
Force has to make with this aging C-130 fleet that you have 
mentioned. When taken in conjunction with the MCRS, the Air 
Force has determined a need to retire some of the older 
airplanes. And, in fact, they have done that with E's in PB-'11 
and some of the older H models.
    So we are in that period of time where we think there is 
probably a greater need for tactical airlift than the MCRS has 
identified, and we are working our way through that situation.
    The concern is that the direct support mission, if you take 
a look at what that really is, the Air National Guard has been 
doing the direct support mission on behalf of Governors since 
we have had airplanes, because that is how we respond to 
natural disasters. If you look at Katrina and you saw the 
numbers of airlift, organic airlift in the Air National Guard 
that responded on a moment's notice, you can see the importance 
of organic airlift.
    So my concern is, while the Army says, ``We need trucks, 
trucks, trucks,'' I am saying we need to take a look at lift, 
lift, lift. So I see an opportunity or a need here to reexamine 
the MCRS in the light of the additional needs created by the 
direct support mission and the organic homeland support/
homeland defense mission to determine whether the C-130 number 
is correct.
    Mr. Dicks. If the gentleman would just yield briefly, 
didn't Secretary Gates say that we could do this with--make up 
the difference with C-130s?
    General Wyatt. The mission can be flown with C-130s, yes, 
sir, it can.
    Mr. Dicks. Are we talking about the J model?
    General Wyatt. It can be flown with any C-130. The question 
is, if you are going to do a significant portion of the direct 
support mission with C-130s, a lot of our C-130 fleet, the E 
models are now retired out of the fleet as a result of PB-'11, 
and we have a significant number of H models, H-1s, that need 
to be retired also, just because of the MCRS lowering the 
numbers but also because of age and the expense.
    Now, we do have the Avionics Modernization Program (AMP) 
that is funded for a little over 200 of the H-2, H-2.5, and H-3 
C-130s. That will help modernize some of H model fleet. But we 
are still talking about a possible need to address, whether it 
is C-130 or C-27, that direct support mission, which also flows 
very well into the Governors' and the Adjutant's Generals 
responsibility for organic airlift for the homeland security/
homeland defense mission.

                        FORESTRY IN AFGHANISTAN

    Mr. Kingston. General, it might be helpful to committee 
members, I know it would be very helpful to me, if maybe you 
could elaborate on this in writing. Because I think a lot of us 
are going to start hearing from our Guard units around the 
country, and we want to know--because, you know, Guard units 
have been doing a lot of good things over the years, and their 
aircraft are deteriorating in age.
    General, I had a question for you. In Afghanistan, when we 
were over there, one of the things that came up is that the 
poppy industry is $200 million to $300 million, and a big issue 
in terms of trying to get the USDA over there, training them to 
look at alternative crops, wheat and so forth.
    There is this issue on forestry. And, as I understand it, 
Afghanistan has had a 50 percent deforestation since 1978. Mr. 
Chairman, I don't know if you have heard that statistic, but, 
as a former Interior chair, I know you would be alarmed by 
that. But 50 percent of their forestry gone in a 25-, 30-year 
period of time. I think that is what I read. But that the 
Taliban is letting these guys cut down the trees short-term 
because they get in with the local population, who are 
historically in the logging area in the north, and we don't 
seem to be able to do anything about it.
    As I heard you talk about citizen soldiers driving trucks 
over there, I am thinking about loggers, foresters, farmers who 
are in the Guard units being invaluable in terms of fighting 
the deforestation, because of the lumber industry and poppy. 
And I was wondering if you could tell me if you guys are 
playing a role in that.
    Mr. Dicks. If you would yield, also, we understand there 
are seven Guard units deployed to Afghanistan providing skill-
based training and advice to Afghan universities, provincial 
ministries, and local farmers. And does USDA partner with the 
Guard to develop better agribusiness alternatives for 
Afghanistan?
    I mean, this poppy thing, I think we are in an absolute no-
win position. I mean, we are kind of looking the other way. And 
I think we have to commit ourselves to an alternative crop 
strategy. Maybe eradication isn't the answer this year, but I 
don't see how we can let this continue to go the way it is 
going.
    And I would like to know about what these seven Guard units 
are doing.

                     AGRICULTURAL DEVELOPMENT TEAMS

    Mr. Kingston. And I appreciate that, Mr. Chairman.
    And I want to say this, General. When I was over there with 
the chairman about a month ago, I was briefed by our USDA 
folks. And there was no discussion of coordination with the 
Army Guard or anyone else on it. That might be taking place, 
but I am just saying it was not brought up at all.
    General Carpenter. Sir, to follow up on the chairman's 
comment, we have nine what we call Agricultural Development 
Teams in theater in Afghanistan right now as we speak. And they 
are working in 14 provinces in Afghanistan.
    An ADT is about a 60-person unit, combined between the Army 
and the Air National Guard. And inside that 60-person unit is a 
team of about 12 subject-matter experts that have an 
agricultural background. They may be engineers, they may be 
hydrologists, they may be crop specialists, they may be animal 
husbandry specialists. And those 12 people form the center of 
that team, and their whole mission is to reestablish 
agriculture inside of these provinces.
    The effort here is to get this organization, get the 
provinces and the farmers past what we call subsistence farming 
and get them into a commercial farming environment where they 
can actually produce the commodities so that they can sell them 
and make that a more viable industry, a more viable effort than 
what we see in the poppy trade right now.
    For the most part, what you see for the farmers out there 
that are raising poppies is that they are raising a crop and 
they are not getting a huge amount of money for raising that 
crop. The drug lords are the ones that are actually making the 
money. So if that farmer produces grapes or produces some sort 
of a grain commodity, it is going to be the same for him, in 
terms of the take-home or what they end up with.
    The ADT is organized to establish a long-term relationship 
between the province in Afghanistan and the land-grant college 
in Missouri, for instance, because Missouri got into this 
first, and that was the whole effort. We have worked with the 
USDA. As a matter of fact, we have gone over and briefed them. 
We have solicited their support. And they are absolutely 
interested in partnering with us in these Agricultural 
Development Teams.
    The effort for the ADT, Agricultural Development Team, was, 
when we get to what we call a permissive environment, in other 
words, when the fighting is lowered to some sort of an 
environment where we can put USDA officials, support from the 
universities into that kind of environment to support the 
growth of agriculture, then that is going to be the next step 
in terms of where we go with the development teams.
    Mr. Dicks. Thank you. A great question.
    Mr. Bishop.

                        STATISTICS GUARD/RESERVE

    Mr. Bishop. Thank you very much.
    Welcome to all four of you gentlemen.
    I am going to look at a different tack. As you know, 
General Stultz, the Army Reserve is an organization of people 
who work hard to serve the Army and the Nation, and the 
officers and soldiers make up one of the most diverse groups. 
They come from a wide variety of communities and backgrounds. 
But the minority general officers rank seems to be not very 
diverse. Looking at the statistics, it appears as if there is 
in the Reserve, for example, 17.1 percent black officers, of 
which there is only one black female general officer; zero 
Hispanic, Asian Pacific Islander, or Native American female 
general officers.
    I don't know what the stats are in the Guard, but we have 
the same concerns about that.
    The Congressional Black Caucus has been working with the 
Joint Chiefs over the last several years to try to have general 
officer ranks at least reflect the population within the 
respective services. And we have been working continuously 
trying to make that happen, with a number of efforts, including 
mentoring, including the makeup of the promotion panels, and 
the reports of performance standards being equal-opportunity-
inclusive.
    Can you tell me what the Reserve and the Guard are doing to 
try to maintain or to establish an adequate level of diversity, 
a reflective level of diversity?
    General Stultz. Yes, sir. And it is a great point, because 
we are not satisfied with where we are, obviously, by what you 
just said.
    We do have within the Army Reserve 15 female general 
officers right now in our ranks. But only one, Marcia Anderson, 
is African American, and so we are not balanced in that 
respect. We have approximately 12 percent minority general 
officers in our ranks, but, again, that does not reflect the 
rest of the troop population. So we have a ways to go there.
    We are actively, one, trying to mentor those in the ranks 
of O-5, O-6. And off of our most recent general officer board, 
which has yet to be published, we will increase our diversity 
somewhat. But, again, we are not getting there fast enough to 
satisfy us. Because what I need is I need for that young female 
soldier or that young minority soldier to be able to look to 
the top and say, ``I have an opportunity, and I have 
representation.''
    Mr. Bishop. And a mentor.
    General Stultz. And a mentor, sir, yes, sir.
    And we have some wonderful, wonderful minority and female 
general officers that are not just wonderful military leaders, 
they are wonderful leaders in their civilian communities, in 
their hospitals or in their governments or in their businesses.
    But, you are right, we aren't there yet. We are working to 
get there, but we are not there yet.
    General McKinley. I would echo General Stultz's comments 
that the National Guard is not there yet either. It is a 
journey, not a destination, in terms of managing our diversity 
programs.
    What I believe is important for us is to continue to mentor 
and nourish the young people in the States and the territories 
that make up our National Guard. And I work very closely with 
the Adjutants General in the States. We are a community-based 
organization, and if our units don't look like the community 
that they work in and live in, then we have a serious problem.
    You know, ``years of'' have created some emphasis programs, 
so we are in a ``year of diversity.'' I was told by my staff 
recently that a year just doesn't cut it. It should be a 
``decade of diversity,'' with metrics built in every year to 
see how you do. And I have asked these gentlemen who work with 
me in the Army-Air Force to do that.
    And then, finally, President Obama has commissioned a 
commission on military diversity programs. General Les Lyles 
chairs it. I have had the opportunity to speak to General 
Lyles. He is looking across our components, active Guard and 
Reserve, to see how we are doing. And I think that will bring a 
real sense of emphasis once that report is submitted to the 
President, so that we all know that we have work to do, we need 
to continue nurturing the younger people so that they can feel 
empowered to be part of this organization.
    And I thank you for that question, because it keeps us 
focused on some very important reasons for why we are in these 
chairs.
    Mr. Bishop. Thank you.
    Thank you, Mr. Chairman.
    Mr. Dicks. Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman.
    General Carpenter, I heard your comment that you are going 
to retire the Deuce and a Half. Boy, I will tell you, I spent 6 
1/2 years riding in the back of one of those things.
    General Stultz. He still has the truck.
    Mr. Rogers. And if I had known then that you were going to 
retire the Deuce and a Half, I would have worked to make you 
General of the Army. And so, it is sort of a sad time that you 
are going to retire the old ``Deuce and a Half.''
    General Carpenter. Sir, actually, you were instrumental in 
doing that. So, from riding in the back of that, you have made 
the possibility by way of funding through NGREA and all the 
rest of the support to retire that Deuce and a Half. So you 
have been more valuable in this process than riding in the 
back, sir.

                   AGRICULTURAL EFFORT IN AFGHANISTAN

    Mr. Rogers. Yeah, any kind of lift, except the Deuce and a 
Half.
    You know, on the agricultural effort in Afghanistan, I 
remember going to Pakistan and Thailand about 20 years ago, 
where we were trying to pay farmers to grow something other 
than poppy--wheat, tobacco, and the like. And they would take 
our money and then go till another crop of poppy. And I suspect 
that is exactly what is happening in Afghanistan now.
    Have we ever thought about compensating the poppy growers 
for destroying their crop and combining that with teaching the 
growing of another crop?
    General Carpenter. Sir, I am really not in a position to 
answer that question. That is probably a question that needs to 
be directed to the powers-to-be in theater and their strategy 
for how they are dealing with the war on terror in Afghanistan.
    Mr. Rogers. Well, it seems to me that might be something we 
could think about.
    The Counterdrug Program--Kentucky National Guard has had a 
great history with eradicating marijuana growing in the Daniel 
Boone National Forest, which is, I think, the second-largest 
marijuana growing patch in the U.S. In fact, I have ridden on 
the helicopters as we traversed the mountains and been unable 
to land in the helicopter in that rough terrain, soldiers 
rappelling down the rope with a large net, cutting the 
marijuana and putting it in the net, and then being picked up 
by the chopper and transported, hanging, dangling 100 feet 
under the chopper with a big bag of marijuana maybe 50 miles to 
the landing spot--a dangerous operation, all the while trying 
to dodge bullets fired at them from the marijuana growers. I 
mean, it is not an easy chore. And yet the Kentucky Guard has 
just been heroic almost in that effort over the years.
    What can you tell me about your budget request for the 
continuation of that program in the Guard? And what do you 
think about the program?
    General McKinley. Congressman, thanks for the question.
    You know, I go back a ways, and in 1989 I remember our 
Adjutant General, Ron Harrison, in Florida kicking off a 
program called Drug Demand Reduction in our high schools. And 
that was the initial stages of trying to reduce demand here at 
home. Because we know across the spectrum you can have 
interdiction, you can have eradication, but if you don't reduce 
the basic demand, you are still going to have a flow of drugs 
across the border.
    Congress authorized the Counterdrug Program for the 
National Guard. We feel it is very effective. Over time, our 
costs for sustainment of the program, quite frankly, have not 
kept up with the demands on the program. But if it wasn't for 
this committee and what you provide for the Counterdrug 
Program, we would not be able to do the eradication efforts, we 
would not be able to have the relationships we have with the 
local law enforcement agencies and really, actually, have what 
I consider one of the crown-jewel programs in the National 
Guard.
    So the moneys we have in the budget will provide for an 
adequate Counterdrug Program. Any additional moneys that 
Congress would provide would enhance it. And I am most 
concerned with the efforts along the southwest border, what I 
am seeing in the nexus of drug lords, terrorism, instability 
across the border. I am very concerned that we have now reached 
a point in this Nation where this program is a vital program 
now to the States and territories and the District, and without 
the support of this committee, we will be far less effective at 
a time when we need it the most.
    Mr. Rogers. Well, it has been a very effective way in 
Kentucky to get at that huge marijuana crop in the Boone 
National Forest, and I would hope that we could continue that. 
It has been very effective, but it needs help.
    You know, I think on the southwest border your services are 
probably going to be needed sooner than later, because it is 
growing out of hand. The drug cartels on that border now are 
spilling across into this country with violence. Every 
community represented here has an arm of the Mexican drug 
cartel there distributing drugs in huge numbers. And we have 
been unable to seal that border yet. But the most effective 
time that we were able to tackle the problem was when the Guard 
was there. And you did a great job. And I suspect that we will 
be calling on you again in that respect.
    Well, thank you, gentlemen, for your service.
    Mr. Dicks. Thank you, Mr. Rogers.
    Mr. Hinchey.

                     AIR NATIONAL GUARD DEPLOYMENTS

    Mr. Hinchey. Thank you, Mr. Chairman.
    Gentlemen, thank you very, very much for everything that 
you do and for all of this issue, which has been absolutely 
deeply interesting.
    I know that the National Guard and the Army Reserve has 
been under a lot of pressure over the course of the last 
several years. And I know that that is something that is 
unusual, and it hasn't happened in this way in, you know, quite 
some time.
    Maybe you wouldn't be, you know, prepared to give us the 
exact specific information on this, but if that is the case, 
maybe you would be kind enough to just put it in the record for 
us so that we can take a look at it and see what the kind of 
pressure has been, how the numbers have gone up and how 
dramatically your military personnel were put into Iraq, say, 
for example, primarily, in such large numbers.
    General McKinley. Sir, we would be glad to provide that 
from the National Guard perspective.
    [The information follows:]

      What Kind of Pressure Exists on National Guardsmen in Iraq?

    Army National Guardsmen and their families encounter many of the 
same pressures as their Active Duty counterparts, such as suicide, 
divorce, post trauma stress disorders among others. However, the 
pressure that is unique in the Reserve Component is employment related 
issues. As a result of mobilizations, National Guardsmen in Iraq have 
experienced a tremendous amount of pressure and, in many cases, 
worrying when it comes to the high percentage of unemployment when they 
arrive back home. For example, the 41st BCT out of Oregon Army National 
Guard returned from deployment in April 2010, and reported 969 Soldiers 
needing help finding jobs.
    According to a U.S. Department of Labor April 2010 report, young, 
unemployed veterans who have served in Iraq or Afghanistan face even 
lower odds of finding jobs in this economy than their civilian 
counterparts. The jobless rate hit 21 percent last year for the 
youngest veterans, who are 18 to 24 years old. That is compared to 16.6 
percent of non-veterans in the same age range. The annual unemployment 
rate for the youngest group of veterans from conflicts in Iraq and 
Afghanistan has been increasing during the past three years, from 12 
percent in 2007, to 14 percent in 2008, to 21 percent in 2009. That is 
compared to an overall unemployment rate of 9.7 percent nationally.
    Also, with the increase in overseas deployments, many self-employed 
Army National Guard Soldiers, Reservists and Small Business Owners are 
losing their businesses or experiencing financial losses. Many self-
employed Soldiers have filed bankruptcy because they are not protected 
under the Uniformed Services Employment and Reemployment Rights Act 
(USERRA) which provides the legal basis for the Employer Support of the 
Guard and Reserve. Self-employed business owners do not have the same 
job protection that businesses are required by federal law to extend to 
their workers.

           Army National Guard Deployments in Iraq and Kuwait

    The ARNG has deployed over 240,000 Soldiers during Operation Iraqi 
Freedom (OIF). In FY05, a total 60,356 Guardsmen were deployed in 
support of combat operations in Iraq and Kuwait, reaching the highest 
point since OIF started. During FY08 the Guard deployed 36,942 Soldiers 
and in FY09 a total of 33,937 troops. The National Guard has maintained 
a high operational tempo for more than eight years in support of OIF. 
See the attached chart depicting the level of activity of the ARNG 
operational force in Iraq and Kuwait.

 How Dramatically Have Your Military Personnel Been Affected by Being 
                  Put Into Iraq in Such Large Numbers?

    The Army National Guard and Active Duty Soldiers are exposed to the 
same stressful environment and suffer the same types of issues of post 
traumatic stress disorder, marital problems, drug and alcohol abuse, 
suicide, among others.
    A study conducted by Anderson and Lie in 2007, more Soldiers 
returning from the war in Iraq show signs of mental health problems 
such as depression and post traumatic stress disorder (PTSD) six months 
after their tour of duty versus immediately coming home. The study 
revealed that although Reserve and Active component experienced many of 
the same traumatic combat experiences and was at similar risk for 
behavioral health concerns at Post Deployment Health Assessment, by the 
Post Deployment Health Risk Assessment this gap had significantly 
widened. For example, at Post Deployment Health Assessment, the 
incidence of PTSD in the Active component was 11.8% and 12.7% in the 
Reserve Component. At the time of Post Deployment Health Risk 
Assessment, the PTSD rate for Active component was 16.7% compared with 
24.5% in the Reserve Component. Similar trends have occurred with 
depression and overall mental health risk.
    The substance abuse is highly correlated with PTSD and other 
psychological disorders that may occur after stressful and traumatic 
events, such as those associated with the war. Alcohol use and alcohol-
related problems before and after military combat deployment are other 
areas in where Soldiers showed increased risk. Reserve or National 
Guard personnel were significantly more likely to experience new-onset 
heavy weekly drinking, binge drinking and alcohol-related problems 
compared to the Active Component, as well with respect to non-deployed 
personnel. (Source: JAMA.2008; 300 (6):663-675 or www.jama.com)
    With the onset of many behavioral and substance abuse related 
issues occurring six months after a tour of duty, a key lesson has been 
the need to ensure resources are available to care for the needs of 
these Soldiers. Furthermore, for those Soldiers who have been 
identified through Post Deployment Health Reassessments and care 
established, then continuity of care is crucial to ensure the Service 
members' treatment does not lag and all services are completed. 
Analysis of suicide cases in the Army National Guard is helping to 
draft further tools for ARNG leaders and family members to use in 
support of Soldiers returning from war.
    Another enduring lesson learned from the overseas contingency 
operations is that we need to stabilize and sustain our forces 
mentally, physically, and spiritually. To provide the best support and 
transition assistance for wounded, injured, and ill Soldiers, the Army 
National Guard continues to support the Army's warrior transition units 
and community-based warrior transition units. The transition units 
provide non-clinical support, complex case management, and transition 
assistance for Soldiers of all components at medical treatment 
facilities on Active Army installations. The community-based warrior 
transition units provide high-quality health care, administrative 
processing, and transition assistance for recuperating Reserve 
Component Soldiers while allowing them to live at home and perform 
duties close to their homes and families.
    The Army National Guard remains committed to supporting the 
families of deployed Soldiers throughout the deployment cycle. Army 
National Guard families were supported in numerous ways in FY09. The 
National Guard Bureau's Family Program Office provided families with 
training via computer-based modules, centralized classes, and locally 
provided lectures to help make families self-reliant throughout the 
deployment cycle process. The Army Well-Being Program established the 
Army Families Online website, an information portal for families of 
National Guard Soldiers. The Department of Defense Military OneSource 
Program provided benefits which include counseling services, resources 
for parents, assistance with consumer credit, and online tax return 
preparation for military families.
    Another service available is the Resiliency Training Center, which 
focuses on prevention through proactive marriage workshops and stress-
relief training before, during, and after deployments. The main goal of 
the resiliency program is to create ``resilient'' service members and 
families.
    Some of our Family readiness efforts include Family Assistance 
Centers, the Yellow Ribbon Reintegration Program, the Strong Bonds 
Program, and Suicide Prevention training. The Army National Guard 
operates 369 Family Assistance Centers across all 54 States and 
Territories.
    The National Guard Yellow Ribbon Reintegration Program provides 
information services, referral, and proactive outreach opportunities 
for Soldiers, Families, employers, and youth throughout the entire 
deployment and life cycle: pre-deployment, deployment, post-deployment, 
and return to civilian life.
    The Strong Bonds Program is a Commander's program that is unit-
based and chaplain-led to help Soldiers and their Families build and 
rebuild strong relationships, especially when getting ready for or 
recovering from a deployment.
    The Army National Guard recently initiated the Job Connection 
Education Program (or JCEP). This program improves National Guard force 
stability by advancing member skills at seeking, obtaining, and 
retaining civilian employment, much like the Army Career and Alumni 
Program, but at the local level. Job Connection Education Program team 
members work closely with local employers to ensure they are aware of 
all the resources available to them in their effort to hire local Guard 
Soldiers. The Army National Guard is also partnering with the Army 
Reserve in the Employer Partnership Office.
    To help Soldiers to improve their job skills, the Army National 
Guard has started an initiative called Guard Apprenticeship Program 
Initiative (GAPI). This initiative involves partnering with the 
Department of Labor and coordinating with the Department of Veterans 
Affairs while National Guard Soldiers work in their civilian jobs and 
participate in the program. Apprenticeship is a training opportunity 
for ARNG Soldiers to earn national certification and skills in a 
specific field while earning wages.

    As you know, the Air National Guard does its deployments a 
little differently than the Army National Guard does. They 
volunteer their members, and they have a shorter rotation, but 
they have a higher frequency rate.
    So, whether it be United States Air Force through its Air 
National Guard or Ray Carpenter's Army National Guard, the 
services have used the National Guard very effectively. Most of 
our members have deployed once, twice, maybe three times. I was 
out in the field the other day; a soldier had deployed three 
times, getting ready to go on his fourth deployment. I am sure 
Jack is the same way.
    So we will provide you our exact numbers for the record.
    Jack.
    General Stultz. Yes, sir, same, we can provide those 
numbers for the record.
    [The information follows:]

    The numbers of USAR mobilizations since 9/11 for contingency 
operations follows:


------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                                       Joint                    Southern
                              FY                                   Total       Enduring      Iraqi        Joint      Guardian-   Noble Eagle     Watch-        TTAD      Air Force      Border
                                                                               Freedom      Freedom      Endeavor      Kosovo                    Kuwait                   Security     Security
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
FY01..........................................................          860  ...........  ...........           57           25          778  ...........  ...........  ...........  ...........
FY02..........................................................       14,390        2,209  ...........          348          307       11,319          174  ...........  ...........           33
FY03..........................................................       65,639       58,090          106          341          229        6,844           28  ...........            1  ...........
FY04..........................................................       35,443        9,677       22,869           45           89        2,750  ...........           10            3  ...........
FY05..........................................................       33,347        9,675       20,196           18           71        3,358  ...........           27            2  ...........
FY06..........................................................       24,917        7,338       14,341           13           55        3,165  ...........            5  ...........  ...........
FY07..........................................................       24,220       10,509       10,979           14           19        2,689  ...........           10  ...........  ...........
FY08..........................................................       27,436       14,406       12,824            1            9          189  ...........            7  ...........  ...........
FY09..........................................................       17,397        9,878        7,445  ...........           20           36  ...........           18  ...........  ...........
FY010.........................................................        2,675        1,884          788  ...........  ...........            1  ...........            2  ...........  ...........
                                                               ---------------------------------------------------------------------------------------------------------------------------------
    Totals....................................................      246,324      123,666       89,548          837          824       31,129          202           79            6           33
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

    Just for perspective, though, I mentioned earlier, I am 
authorized currently 205,000. I have mobilized over 190,000 
since 9/11. Now, that is not 190 of that 205, because they have 
obviously--some retired, some got out, and we have new 
recruits. But we keep about 30,000 soldiers mobilized ongoing 
within the Army Reserve, in addition to our full-time force 
that is there all the time.
    General Carpenter. Sir, what you refer to is what we call 
optempo and the frequency with which we are mobilizing and 
deploying soldiers.
    Because of what we do in terms of cross-leveling soldiers 
to units, right now for the soldiers that are deploying, their 
normal dwell is somewhere around 2.2 years. The units' dwell is 
somewhere around 3.3 years. And so this is probably at the top 
end of where we want to be.
    Ideally, in the Army Force Generation Model for the Reserve 
component, we would like to see 1 year deployed and 4 years at 
home.
    Mr. Hinchey. Thanks very much.
    General Wyatt. From the Air National Guard side, we do our 
deployments considerably different. We participate in Air 
Expeditionary Force rotations that are 120 days long. And we do 
have some stress career fields that, when they are mobilized, 
may go into theater a little bit longer. But we do enjoy the 
shorter mobilization periods.
    But we have been doing this since the early 1990s. I 
remember as a wing commander at Tulsa our first deployment in 
1996. And, since 1996, that particular unit has I think been in 
theater around 13 times. But they are for shorter periods of 
time.
    I measure the stress on the force a couple of ways, sir. 
One is to get out in the field, CONUS and OCONUS when I am 
allowed in theater, to see firsthand what the morale is and 
what the spirit of our airmen is. The second method is taking a 
look at our retention rates. And our retention rates are 
exceeding all of our goals and have been for a significant 
period of time. Our retention rate is over 90 percent.
    What I am seeing is a resilient force, a force that 
relishes its opportunity to be an operational force. We enjoy 
working with the United States Air Force to allow us to do 
shorter mobilizations, which addresses the needs of, not only 
predictability, but a shorter time away from those jobs and 
those families. And I think that is one of the reasons why we 
have been able to do that since the early 1990s, and I don't 
see any reason why we can't continue doing so.
    I think the key is the predictability, trying to keep the 
rotations as short as possible, at least from the Air National 
Guard side; and, secondly, making sure that the missions that 
we do are the same frontline missions that the United States 
Air Force does. We fly about 33 percent of all the United 
States Air Force missions worldwide on about 7 percent of the 
Air Force budget.
    So we think we are ready, reliable, accessible, available, 
and we can keep doing it this for an indefinite period of time.

                                  C-5A

    Mr. Hinchey. Well, thank you very much.
    And, if I may, General Wyatt, I would like to ask you 
another Air Force question, if I may, about the C-5As and the 
C-17s and how that situation is changing. Apparently, under the 
proposed fiscal year budget, it includes the retirement of 12 
of these C-5As and then the replacement of eight C-17 aircraft.
    So that situation seems to be something that may be 
concerning. How is the adjustment going to be with the 
reduction of 12 and the replacement of eight of these two 
different aircraft? How is that adjustment going to be? Is it 
going to be difficult to deal with this situation?
    General Wyatt. I think the answer to that question would 
be--I previously referenced the Mobility Capabilities 
Requirements Study that basically establishes the number of 
strat lift, as opposed to tactical airlift that I talked about 
earlier. The C-5s and C-17s fall into that strat lift category. 
And I think the issue becomes a total force issue when you 
consider that the Air National Guard, the Air Force Reserve, 
and the active-duty Air Force all fly C-5s and C-17s.
    The C-5s that are in the Air National Guard, one of them in 
your State, sir, at Stewart--we also have one in West Virginia 
and a C-5 unit in Tennessee. We have an Air National Guard C-17 
unit in Jackson, Mississippi. And then we have a couple of 
units in Alaska and Hawaii, where the Air National Guard 
associates with the active duty to fly those airplanes, the C-
17s.
    The challenge is, there are certain numbers of the larger 
C-5A that our Mobility Capabilities Requirements Study says 
that the Air Force needs to keep, and that will probably be a 
mixture of the newer B's and probably some of the A models.
    To answer your question, what the Air Force is doing right 
now, in conjunction with the Air National Guard and the Air 
Force Reserve, is taking a look at the best way to maintain the 
required force structure with the larger-body C-5 fleet and 
also try to modernize the C-5 fleet in the numbers needed, with 
the re-engining program, to convert the B's and some A's into 
what we call C-5M models.
    So I think the Air National Guard will be participating, I 
am sure we will with the Air Force and the Air Force Reserve, 
to determine the right number of those. And then I see a need 
to convert some of our existing C-5A units to C-17s. The C-17 
is a newer airplane, more reliable, higher MC rates, less to 
maintain. So it fits well with where we need to go in the Air 
National Guard.
    I think that what you will see is probably some of our 
units--and I don't know which ones because we are still working 
with the Air Force--but some of our units convert from C-5As to 
C-17s. I think some of our units may stay in the C-5 and 
convert to C-5Ms. We don't know for sure. But we are working 
those issues.
    But it will be a total force look. And I am sure the Air 
National Guard will be involved, to some degree, continuing in 
the future in strat lift, because it is a way that the Air 
National Guard can continue to be a relevant partner in all of 
the missions and provide the relief that the active-duty Air 
Force needs in the high operations tempo.
    Your unit right now is one of the four units in the Air 
National Guard that is assisting with the surge into 
Afghanistan, a huge load on the strat lift. And your folks are 
doing a fine job.

                                 C-17S

    Mr. Hinchey. Do you know where those C-17s are going to be 
located?
    General Wyatt. I don't. The process that the Air Force uses 
is called the Strategic Basing Executive Steering Group, and 
they are taking that decision under advisement right now. I am 
advised that they hope to have a decision on the bed-down of 
the C-17s in June of 2011, I think is when they predict that 
they will have the final basing decisions. But the criteria for 
the next bed-down should be coming soon.
    General McKinley. And if I could add, sir, that it is 
really important for us to have dialogue with the States 
through the Adjutant General to the Governor. So our pledge to 
this committee is to work with the Air Force to make sure we 
release as much information as soon as we know it so that there 
is an active dialogue so there are no surprises. I can't 
guarantee that, but that is our goal, and that is what we owe 
you.
    Mr. Hinchey. Thank you very much.
    Mr. Dicks. Ms. Kilpatrick, please.

                            STRYKER BRIGADES

    Ms. Kilpatrick. Thank you, Mr. Chairman.
    Generals, good afternoon. Thank you for your service, your 
testimony and commitment.
    After we ratchet out of Iraq and step in Afghanistan, the 
Stryker has been used quite effectively. The Stryker is now in 
a modernization program to increase survivability and that kind 
of thing. And the Stryker brigades that we had there are now 
moving to Afghanistan.
    Is there a need, General Carpenter, for the Stryker up-
modernization vehicle? You talked about the MRAPs. I know the 
Humvees are gone. Is there a use for the Stryker and where in 
Afghanistan?
    General Carpenter. The active Army has Stryker brigades 
deployed into Afghanistan as we speak. We have one Stryker 
brigade in the Army National Guard. That is the 56th Stryker 
Brigade, out of Pennsylvania. They deployed into Iraq, and they 
have been home now since last fall. They came home in 
September. They did a tremendous job over there. And that 
vehicle is a pretty impressive vehicle. And that unit got kudos 
across the board for their accomplishments in Iraq.
    Ms. Kilpatrick. Fine.

                                SUICIDES

    And let me mention, if I might, Mr. Chairman--I know we are 
short on time--suicides. Everything I have read, suicides are 
up, unlike the other Army, active Army, and you all too.
    The young men and women or the men and women have support 
services that they can go to when they come out. I don't think 
that is available to them in the National Guard. Is that a 
reason why suicides are up? And why are they up.
    General McKinley. Ma'am, the outcry from our Adjutants 
General in the States have brought us to the conclusion that we 
need to resource psychological counselors in each State. And I 
will let Ray cover it.
    I know, Jack, you have it, and Bud.
    But we have seen statistics that concern us greatly. And we 
had not put enough money into those programs prior to this 
spike in suicide rates and statistics. So I think all of us can 
assure you that we take this very seriously and we are throwing 
resources at it, which we think will help.
    Jack, do you want to start, and we will just go down the 
row?
    General Stultz. Yes.
    It is an area of focus. Any soldier we lose is a tragedy, 
whether it is one or whether it is 20.
    The challenge we have right now in the Army Reserve is--I 
look at it from two different perspectives. One is, I have a 
challenge, unlike the active Army where we teach a battle buddy 
system and look out for your buddy and if your buddy is having 
problems you should take care of him; my problem is that battle 
buddy only sees his battle buddy 2 days out of month. See, the 
other 28 days he is back home with his family, with his 
civilian job. He comes to drill for that one weekend.
    And so we are trying to develop a program and an approach--
just like General McKinley said, we have to put the resources 
out there, but we have to put them at the right location. We 
not only have to focus on the solder, we have to focus on the 
family, because that family is going to see that soldier the 
other 28 days of the month when he is exhibiting the concern 
that they have. And then we have to break down that stigma of 
``I can't ask for help, I am a soldier'' or ``I can't ask for 
help for my husband because I don't want to hurt his career.''
    The other thing that we are confronted with is, most of the 
suicides that I am experiencing in the Army Reserve are not 
related to deployments. Most of the suicides that I am 
experiencing in the Army Reserve are soldiers who haven't 
deployed.
    We are looking at the situation of, are we getting soldiers 
who are coming to us because they are looking for help and they 
are looking to us because they understand the camaraderie, the 
concern, the care of the military.
    And so we are trying to put a major focus on what we call 
our Sponsorship Program. When a new soldier comes to the Army 
Reserve, let's grab that soldier right away, let's find out 
what is going on in his life, let's find out what made you join 
the Army Reserve. Because he may be dealing with something 
right now that brought him to us that we can interdict and we 
can keep a good soldier, because he wants to be a soldier, and 
not just focus on the stress and strain of deployments but what 
else is going on in their lives.
    Ms. Kilpatrick. Thank you.
    General Carpenter. Ma'am, I would tell you that our 
experience is exactly the same as what Lieutenant General 
Stultz has described.
    What we have found--and we do a detailed analysis on each 
one of these suicides, because we want to know what happened in 
that individual's life that caused them to think that suicide 
was the best option in terms of their future. And so, in the 
analysis, what we find is that they have had some sort of a 
significant event inside of their life, either they have lost 
their girlfriend, they have lost their job, you name it. And 
the coping skills that these mostly young people have are 
something we need to reinforce.
    And we have inside the National Guard a resiliency program 
that is being sponsored primarily out of the State of Kansas 
with the Adjutant General there, and we are working it across 
the Army National Guard, that will build up the resiliency for 
those people who are considering that as an option and resist 
the temptation for suicide.
    And inside the Army, they are also developing a resiliency 
program with the same objective. We have State best practices 
programs across the 54 States and territories, and the Adjutant 
General on that level are dealing with the units and dealing 
with the particular issue of suicide. It is a very troubling 
statistic and something we are trying desperately to reverse.

                             PILOT PROJECT

    Mr. Dicks. You know, on that point, I would like to just 
mention something. I am aware of a group called Psychiatry 
Networks, who have been trying to work out a pilot project or 
something. These are a group of people, many of which have had 
Guard and Reserve experience, who are psychiatrists.
    You know, you think about this generation; the technology 
is something that they are involved in. And, you know, it just 
seems to me, especially for the Guard and Reserve, when these 
people come home and they are not at a base, having some way of 
going online--I know the Army is experimenting with one 
operation in Hawaii at this point. But I think this is another 
concept that should be considered, and especially by the Guard 
and Reserve.
    Ms. Kaptur.

                   READJUSTMENT FOR RETURNING TROOPS

    Ms. Kaptur. I want to support the chairman in his 
suggestions there. And, actually, there is a program that is 
being used by--invented by an Ohio psychiatrist and 
psychologist that is a little handheld device where they 
listen. I would like to get one of those into each of your 
hands, if that would help. You can listen to it; you can give 
it to your staff. It is being used in the VA; it is being used 
in different ways.
    And I found that in our region--I represent northern Ohio. 
I don't have a big base, but I have the best 180th Tactical 
Fighter Wing of F-16s in the country. And we thank you, 
General, for your leadership there. And I represent a Red Horse 
unit, a combat engineering, and also, on the Reserve side, 
983rd Combat Engineering. They are phenomenal.
    But when they come home, what we find, because the 
commanding officers with the Reserve are over in Chicago but we 
are over in Ohio, two States away, that we lose these men and 
women. In fact, the one casualty we had out of the 983rd 
actually was separated from his unit in Iraq and he wasn't with 
a buddy, and it creates a more vulnerable situation.
    When they come home, they don't want to go to the VA 
clinic; they just want to go back to whatever county they are 
from. And it doesn't work that well at the local level. So we 
are glad you are focused on that. And I would just implore you 
to--we will send you this information, and maybe you can use it 
in some way. But we are looking for better ways to readjust 
those who are coming home.

                                 ENERGY

    My major question really revolves around energy. I am 
dedicating a major portion of my career to make this country 
energy-independent. I don't know that I am succeeding very 
much, but I am sure trying.
    And I know the Marine Corps is listening. They have a great 
segment on their Web site. Army is a little--I don't know; they 
are out there somewhere. Navy is doing a lot.
    And my question to you is, to what extent has our 
commitment to energy independence as a country actually been 
operationalized inside of your commands? And both on, for 
instance, trucks. I represent all these big trucks. And are we 
working on research platforms with our local universities, with 
the Reserve, with the Guard, to use all kinds of ingenuity to 
bring up gas mileage and to get new energy systems in there, as 
well as on the bases that you command? What about getting 
energy use down there, using new technologies?
    How embedded is this in your operations, or are we still 
just at the cutting edge of all of this?
    General McKinley. Ma'am, I am in my fifth year here on this 
assignment. I was the director of the Air Guard before this. 
Both services, Air Force and Army, have put an awful lot of 
emphasis in these programs, which then translates down to the 
Army Guard and the Air Guard.
    Each director had some statistical data that I pulled up 
today, because I knew you might be interested in this issue 
because you were last year. So they will give you----
    Ms. Kaptur. Thank you for remembering.
    General McKinley. No, ma'am, I know that. And we thank you 
for that interest, because we think we have to put more 
emphasis in conserving our resources. DoD is the largest 
consumer of energy of anybody in the government.
    My charge to both the directors of the Army and the Air 
Guard is to do continuous process improvement and wring out 
every efficiency we can. Because I know that it is not going to 
be long before the budgets in the Department of Defense are 
going to start getting more constrained, and we are going to 
have to wring out every dollar that we can within the National 
Guard to sustain the programs that are most meaningful to us.
    So, that is my commitment to the Committee and to you, 
ma'am, is that we will continue to do that. But I would like, 
if you have a second----

                        PETROLEUM PRODUCT FUELS

    Ms. Kaptur. Just on the record, General, for Ohio, our 
General Yatt, our Adjutant, told us that one-third of his State 
share is spent on utilities, on facilities maintenance. And I 
said, what if we could relieve you of that burden and you could 
put it into readiness? Boy, his eyes got real big.
    General McKinley. Greg knows how this works, and he is a 
very strong advocate for this.
    But, Bud, Air; and then Army; and then, Jack, I am sure you 
have a comment.
    General Wyatt. First of all, Congresswoman Kaptur, a 
comment. Air Force-wide, you probably have been following the 
conversion from use of petroleum product fuels. We are the 
largest user of petroleum products of any----
    Ms. Kaptur. I have noticed.
    General Wyatt. And what we are doing, we have an Air Force-
wide program to take a look at biofuels conversion and testing 
biofuels in place of petroleum products. And we are making 
great progress.
    Ms. Kaptur. I would love to have someone, General, come and 
see me on that, so I can see where you are headed.
    General Wyatt. I will accommodate that, yes, ma'am.
    And, also, I think the State of the Ohio is listening to 
you. I remember early in my tenure as a director visiting the 
180th Fighter Wing, Block 42 F-16s, in Toledo----
    Ms. Kaptur. Best in the country.
    General Wyatt [continuing]. And a great, innovative solar 
energy farm that they have in place up there.
    We have in the Air National Guard several initiatives 
across the country. I took a brief this morning from the Virgin 
Island Air National Guard exploring wind tunnel and wave action 
energy to help offset some of the costs of energy consumption 
in the Virgin Islands.
    But we have done audits across all of the Air National 
Guard bases. We know where our problems are. We are now 
focusing about $25 million a year out of our particular budget 
toward now putting our money where our knowledge is, into 
solving some of our energy efficiency problems.
    Ms. Kaptur. I am going to get a little parochial here, 
General, but I would love for you to work with the Reserve and 
figure out how to run a conduit from our F-16 unit up to the 
983rd Combat Engineering Unit, and, all of a sudden, we help 
both bases.
    General Wyatt. You know, when I visited the folks at 
Toledo, there are periods of the day when they generate more 
energy than they use. So that is an option.
    Ms. Kaptur. And we would sure love that combat engineering 
unit to figure out how to store it. If we could do a fuel cell, 
whatever we need to do, to break through to new technologies, 
we are very interested in that. These are really intelligent 
people that are based out of those units, and they want to 
help.
    General Carpenter. Ma'am, a quick comment. The Army 
established a goal in 2003 to reduce the energy consumption by 
3 percent. And the Army National Guard, over that period of 
time, has reduced our consumption by 12 percent. And we are the 
only component that has met that requirement. So we are well 
aware of that particular initiative.
    But we use the vehicles that the Army produces, for the 
most part, and so we are kind of stuck with how that fuel 
consumption works. Where we can really be innovative is in the 
facility business, as you pointed out.
    And we have 15 States that are involved in different kinds 
of projects to conserve utilities. In North Carolina, we have a 
geothermal well that supports an installation there and reduces 
the utility costs. In other places we have wind farms and we 
have solar panels.
    So that is really, as you pointed out, that is really where 
the savings can be harvested inside the Army National Guard.
    Ms. Kaptur. I know we have to vote, and the chairman has 
been very generous, but just let me say that, at our Air Guard 
base, they are looking at how to convert their fleets inside 
the base to plug-in hybrids in the solar system that is up 
there.
    At the 983rd, we have the possibility to use local 
engineering talent at our university to help infuse the fuel 
systems with hydrogen in order to save on fuel and develop some 
new platforms. But we need the leadership at the national level 
to let these officers down at that level know it is okay. You 
know, we need these platforms out there at these Guard and 
Reserve bases, so anything you can do to help us on that would 
be greatly appreciated.
    Thank you, Mr. Chairman.

                            STRYKER BRIGADE

    Mr. Dicks. All right.
    Let's go back to the Stryker Brigade. What do you think of 
the double-V hull on this Stryker, the one that is being 
developed?
    General McKinley. I will let the Army comment.
    General Carpenter. Sir, it is being developed inside the 
Army Evaluation Command. They are, as I understand it, working 
to field that particular product out to the Stryker Brigades.
    I am not totally familiar with exactly what the status of 
that is, at this point. But suffice it to say, anything that 
protects soldiers is something that we absolutely are in 
support of.
    Mr. Dicks. Yes. Well, General Dynamics I think is working 
on this, and they are trying to develop it as quickly as 
possible.
    If a Stryker Brigade were added to the Army National Guard, 
where do you recommend it be located? And any answer that 
doesn't have the West Coast involved--well, I make no secret 
that I have recommended that we do it.
    And Washington, Oregon, and California, I think all the 
Governors have written a letter suggesting that it be done 
with, I think, a battalion in each State. What do you think of 
that idea?
    General McKinley. Well, General Casey is obviously aware of 
the interest of the three States on the West Coast. General 
Casey has expressed an interest to me to dialogue. Obviously, 
the Army will provide those resources to the component that 
they choose.
    I certainly think, from a strategic perspective, that the 
Stryker wheeled vehicle has applications to defense of the 
homeland. So I am interested in looking at ways to make sure 
that our single Pennsylvania Stryker Brigade has an ability to 
round out itself. We have a saying in the National Guard--Jack, 
I don't know if it is in the Army Reserve--but if you have one 
of anything, it is not a good situation. So here we are in the 
National Guard with one Stryker brigade. We cannot cross-level. 
We can't bring in people from other parts of the country to 
help.
    So, if the United States Army and if we were able to work 
an arrangement with the General Casey--the West Coast obviously 
is uncovered at this point. The southwest border, as we have 
talked about, is another area that is of concern to us. So 
those are my initial thoughts, sir.
    Mr. Dicks. So you would be interested, possibly, in more 
than just one additional unit, but possibly a third?
    General McKinley. Sir, I can't get into General Casey's 
force modernization strategy, but I will tell you that both 
Jack and Ray have expressed an interest to me that this is a 
vehicle that is being used today; it is the future. It has much 
more relevance than a tracked vehicle for a variety of reasons. 
And so, as General Casey looks at his force lay-down, I 
certainly want to be at the table, and I know Jack and Ray do, 
too, when that discussion is made.
    Mr. Dicks. Okay. The Army is talking about a new Bradley, 
right, or a follow-on to Bradley? Yeah. Has the Guard been 
involved in any of that discussion or not?
    General Carpenter. Well, sir, the only thing I am aware of 
is the new ground combat vehicle that is a replacement for the 
FCS program at this point. And it is in its initial stages 
inside the Army, at this point, sir.

                             M1 ABRAMS TANK

    Mr. Dicks. Okay. What about the M1 Abrams tank? The Army 
budget request includes procuring two variants of the M1 Abrams 
tank. One version is the M1A1 situational awareness tank, and 
the other is the M1A2 system enhancement package. What are the 
advantages of each tank, and what are the key differences?
    General Carpenter. Sir, I would have to take that question 
for the record, if I could, please.
    [The information follows:]

    The M1A2 SEP comes with the following upgrades:
          <bullet> Stabilized Commanders Weapon Station (CWS)
          <bullet> Armored Gun Shields
          <bullet> Counter Remote Control Improvised Explosive Device 
        Electronic Warfare (CREW) II A kits
          <bullet> Drivers rear Security System
          <bullet> Improved Line Replaceable Units (LRU)
          <bullet> Tank infantry phone
          <bullet> Improved voltage regulator
          <bullet> Blue Force Tracker and Force XXI Battle Command for 
        Brigades & Below (FBCB2)
    The M1A2 SEP doubles the all weather sensor capabilities to produce 
a true ``hunter-killer'' platform, while the updated computers provides 
split-second Command and Operations over the entire spectrum of 
conflict. The open architecture of the SEP is ready to accept the 
insertion of capability sets and other technology, while the built in 
testing and prognostics saves diagnosis and repair time and money. The 
upgrades to the SEP create an extraordinarily survivable and lethal 
fighting platform that provides the Soldier with an even greater 
advantage.

    Mr. Dicks. The Army justification material indicates that 
the M1A1 situational awareness tanks are for the Army National 
Guard and the M1A2 system enhancement package tanks are for the 
active Army.
    What is the rationale in providing one type of M1 tank to 
the Army National Guard and another to active units?
    General Carpenter. Sir, currently we have two variants of 
tanks inside the Army National Guard, so this is not an unusual 
situation. As we deploy these units into theater, normally they 
get the most modern equipment and the most capable equipment. 
And so we have seen, inside of the deployments we have made, 
especially in 2005 when we were deploying heavy forces, that 
the best, the most modern piece of equipment was the tank that 
we used.
    Now, as we see additional Stryker brigades fielded inside 
the Army, for instance, those newer, modern tanks will cascade 
to us inside the Army National Guard.
    Mr. Dicks. Okay.
    What about sniper detection? Are you involved in that at 
all? I assume you are.
    General Stultz. From the Army Reserve's perspective, no, 
sir.

                MISSION-ESSENTIAL EQUIPMENT LIST (MEEL)

    Mr. Dicks. Just for the record, the Army has provided 
counter-sniper equipment to units in response to operational 
need statements from units which requested devices that are 
deployed or preparing to deploy.
    Should counter-sniper equipment be standard issue for Army 
units deploying to Iraq and Afghanistan. Does the Army have a 
plan to make a soldier-worn and vehicle-mounted counter-sniper 
devices standard issue? What has been the feedback from 
soldiers who have used counter-sniper devices in combat?
    Anybody have anything on that?
    General Carpenter. Sir, the deployment process for units 
that go to Iraq and Afghanistan is they get a MEEL, a mission-
essential equipment list. And inside that MEEL, that is where 
you would find the counter-sniper capability as well as some of 
the other capabilities that you described.
    As it is recognized by the theater commander or the units 
in theater as a requirement for that mission, it becomes part 
of the MEEL. And so, that is over and above what the normal 
equipment is that goes with that unit.
    Mr. Dicks. So how do people train in that situation?
    General Carpenter. Sir, they either train----
    Mr. Dicks. In Kuwait or in country or----
    General Carpenter. That is what I was going to say. They 
either train at the mobilization station before they depart 
CONUS, or they train in Kuwait, for instance, at Camp Buehring 
before they go up into Iraq.
    Mr. Dicks. But they do have some opportunity to train on 
the equipment they are going to be using, right?
    General Carpenter. Yes, sir.

                            UH-60 SHORTFALLS

    Mr. Dicks. What are the current UH-60 shortfalls in the 
Army Reserve and the Army National Guard?
    General Carpenter. Sir, with regard to the Army National 
Guard, our biggest problem isn't the shortfall of the UH-60s. 
We actually, by the time we get the new piece of the 
modernization program here inside of fiscal year 2011, we will 
have the requisite number of UH-60s.
    Our problem is modernization. When we get completed with 
the modernization program for the UH-60--that is the A to D 
model program that we are involved in right now, and the A to A 
model--we will still have over 200 aircraft at the end of that, 
which is in 2021-2022, I believe. We will still have aircraft 
that are not modernized. So, past the POM that we are dealing 
with right now, I think the number is around 220 aircraft.
    Mr. Dicks. Right. So, in the NGREA account, there is not 
enough money there to be able to take care of these kinds of 
requirements, right?
    General Carpenter. Sir, we have not purchased any UH-60 
helicopters with the NGREA account at this point. We are 
looking at that as an option, and we are working with the 
Secretary of Defense and also with, I believe, some of the 
members of your staff on that particular issue.

                             NGREA ACCOUNT

    Mr. Dicks. Let me ask you--you just raised a very 
interesting point. Do you get advice from the Secretary of 
Defense on how to spend the NGREA money? I thought we gave it 
to the Guard and you were supposed to figure it out. But I can 
understand that the Secretary could have a role in that, but 
how does that work?
    General McKinley. Sir, we do that within the National 
Guard. The Secretary allows us to do that. We brief it up 
through the Office of the Secretary of Defense and Reserve 
Affairs so that they have full visibility. But what you send 
the money to us to do is what we do.
    Mr. Dicks. And we give you flexibility to pick out your 
highest priority items, right?
    General McKinley. Absolutely.
    Mr. Dicks. Okay.
    General Carpenter, do you have any comment on that?
    General Carpenter. Sir, we have almost solely purchased 
what we call critical dual-use equipment inside the Army 
National Guard with the NGREA account, and we will continue to 
do that. We have never, however, purchased a UH-60 aircraft, to 
this point. And we haven't been told no. And, frankly, we are 
interested.
    Mr. Dicks. General Wyatt, what are the current HH-60 
shortfalls in the Air National Guard?
    General Wyatt. Mr. Chairman, we have three HH-60 combat 
search and rescue (CSAR) units in the Air National Guard: New 
York, Alaska, and California--five aircraft at each of those 
locations. I believe there is a program of acquisition in the 
Air Force now for six HH-60s to replace aircraft lost in 
theater. I think those aircraft are scheduled to go to the 
active component.
    When the CSAR-X program was cancelled, our concern became 
replacement and/or recapitalization of our aging HH-60 fleet. 
So while we don't currently have any shortfalls in the number 
of airframes, we are looking at ways to improve the 
capabilities and make sure that those aircraft that we have are 
recapitalized and/or modernized until the next platform of 
choice comes on line with the United States Air Force.
    Mr. Dicks. Mr. Visclosky.
    Mr. Visclosky. I am fine, Mr. Chairman. Thank you.
    Mr. Dicks. Okay. I have a couple more questions, but why 
don't we go vote?
    [Recess.]

           SPIN-OUTS FOR THE BRIGADE MODERNIZATION EQUIPMENT

    Mr. Dicks. We have General Carpenter here.
    When will the Army National Guard units begin to receive 
items of equipment that are spinouts from the cancelled Future 
Combat System program? Or will you?
    General Carpenter. Sir, originally there was no plan for us 
to receive the spinouts. And subsequently there has been a plan 
now put in place for, I believe it is two brigades inside the 
Army National Guard that are going to receive those spinouts, 
probably somewhere post-2015.
    Mr. Dicks. 2015. What is your assessment of the potential 
contribution of the spinout equipment to the Army National 
Guard units?
    General Carpenter. Sir, most of those spinouts are 
technology-oriented and will improve the capability of the unit 
as they assume their mission.
    Mr. Dicks. Will they have any relevance to the State 
mission?
    General Carpenter. The spinouts that I have seen, sir, may 
have. I would like to take that one for the record.
    [The information follows:]

    The Spin-outs for the Brigade Modernization Equipment are 
tentatively scheduled to reach the Army National Guard (ARNG) late in 
FY13. The ARNG will either receive the XM 156 Class 1 Unmanned Aerial 
Vehicle or the XM1216 Small Unmanned Ground Vehicle from the Future 
Combat Systems spin out program. Both vehicles have the potential to be 
used in support of domestic operations as well as for the tactical 
mission.

    Mr. Dicks. Yeah. And you might as well do this: What do you 
expect this equipment will contribute to the tactical mission 
and for the disaster relief? So we will do that one for the 
record.
    [The information follows;]

    The ARNG will either receive the XM 156 Class 1 Unmanned Aerial 
Vehicle or the XM1216 Small Unmanned Ground Vehicle from the Future 
Combat Systems spin out program. Both vehicles have the potential to be 
used in support of domestic operations, as well as for the tactical 
mission.

    The committee understands that A-model Apaches found only 
in the Army National Guard units are not considered deployable 
for the current fights. The Army has been in the process of 
converting early-model AH-64A aircraft to the AH-64D 
configuration. What is the status of getting all of the older 
A-model Apaches converted to D-models?
    General Carpenter. Sir, we have four units, four battalions 
that have not been modernized; read that: Go from the AH-64D 
model to the Longbow model. And we are scheduled to complete 
the transformation of all those battalions by 2014.
    Mr. Dicks. Okay. Is the A to D conversion fully funded?
    General Carpenter. Sir, it is in the POM.
    Mr. Dicks. It is in the POM, okay.
    What training aids or simulators are available to train air 
crews to avoid both hostile and non-hostile losses?
    General Wyatt. Can I take that for the Air National Guard, 
Mr. Chairman?
    Mr. Dicks. Yeah. Yeah.
    General Wyatt. We do have some simulation at some of our 
units, primarily fighter units, to avoid the hostile fire.
    Mr. Dicks. But what about the Apaches? Do the Apaches have 
simulators?
    General Carpenter. Yes, sir. There is a simulation program 
at the Army Aviation Center in Rucker. And there are also some 
regional aviation training sites where there are simulators for 
that purpose.
    Mr. Dicks. All right. I think we have covered it. Thank you 
very much. We appreciate your good work.
    And the committee stands adjourned until April the 21st at 
10:00 a.m., when we will hold a hearing on the national capital 
register master plan for medical.
    Thank you, gentlemen.
    [Clerk's note.--Questions submitted by Mr. Tiahrt and the 
answers thereto follow:]

               AT-6B National Guard Demonstration Program

    Question. Last week, the RAND Corporation released a study 
recommending investing in Irregular Warfare capability, including 
purchasing 100 AT-6B-like aircraft (along with 30 additional MC-12s-ISR 
aircraft).
    Can you please explain what the current timeline is for the AT-6B 
Air National Guard Demonstration Program?
    Answer. The ANG AT-6B demo is scheduled for August/September 2010.
    Question. What do you see the future of Light Attack/Armed 
Reconnaissance aircraft in the Guard and active force?
    Answer. While the Air National Guard (ANG) cannot address how the 
active force will ultimately organize, train, and equip the Light 
Attack/Armed Reconnaissance (LAAR) force; the ANG is full partners with 
the active force in developing this much needed capability. The ANG has 
addressed the possible future of the LAAR aircraft within the ANG force 
structure as part of the ANG Flight Plan, excerpted below:
    `The ANG has a pool of highly qualified specialists that would 
bring immediate experience and expertise to Irregular Warfare (IW) 
missions in both material and non-material solutions. The work force 
maturity and experience of ANG pilots and maintainers will benefit the 
Building Partnership Capacity aspect of the LAAR mission. The ANG's 
dual federal/state missions and cross-domain expertise makes the ANG 
well-suited to perform IW-focused missions.
    In the test and training areas, the ANG has a proven record of 
achievement in fighter/attack test and training through the ANG Air 
Force Reserve Test Center (AATC) and Formal Training Units. 
Additionally, the ANG is already involved with LAAR technology 
development through the AATC/AT-6 demonstration and a formal cross-flow 
of information with the Imminent Fury Operation Test and Evaluation.
    The United States Air Force post-Base Realignment and Closure 
fighter draw down will leave many ANG fighter units without a mission, 
risking the loss of valuable fighter/attack experience and absorbable 
cockpits. These units have basing facilities and access to airspace and 
ranges that would facilitate bed-down of a LAAR force.
    As evidenced by the ANG's mature partnership efforts through the 
State Partnership Program, heavy participation in Remotely Piloted 
Aircraft operations and processing, exploitation, and dissemination the 
ANG is already involved in IW efforts. As IW-related mission areas 
mature--specifically with regards to procurement levels, organization 
constructs, and training requirements--the ANG will likely be well-
suited for proportional representation. In addition to presenting 
highly experienced personnel to the Combatant Commands, Guardsmen can 
provide the capabilities of IW platforms to the states to meet emerging 
Incident Awareness and Assessment and Defense Support of Civilian 
Authorities needs.'

                                AFRICOM

    Question. In addition, Thomas Lamont, Assistant Secretary of the 
Army for Manpower and Reserve affairs, said ``Our Reserve force can 
play a great role in U.S. Army Africa's missions, bringing with them 
military skills and also skills from their civilian lives that apply to 
emerging nations on the African continent.''
    What are your thoughts on growing the role and responsibility of 
the Army Reserve in AFRICOM? Would it make sense to have an AFRICOM 
dedicated Army Reserve Theater Support Command base in the United 
States?
    Answer. The Army Reserve has built Echelon Above Brigade (EAB) 
Combat Support (CS)/Combat Service Support (CSS) as one of its core 
competencies. Our Civil Affairs, Engineer, Medical, Logistic and 
Training capabilities fit well with AFRICOM's potential needs. To your 
specific question, today we provide 38% of the Army's EAB CSS 
capability and are well positioned to assume an additional Theater 
Support Command (TSC) if the Army's requirement system determines there 
is a need for it. Currently the Army has not made the determination if 
AFRICOM and United States Army Africa (USARAF) require a TSC. The Total 
Army Analysis 14-18 (TAA 14-18) is in progress and will validate all 
force structure requirements; this will provide the analysis to support 
the Army leadership in making resourcing decisions.

    [Clerk's note.--End of questions submitted by Mr. Tiahrt. 
Questions submitted by Mr. Dicks and the answer thereto 
follow:]

                          Civil Support Teams

    Question. As you are aware, since calendar year 2000, Congress has 
appropriated over half a billion dollars to establish, certify and 
equip the 57 Weapons of Mass Destruction--Civil Support Teams (CST) 
Teams. Recognizing the extremely perishable skills of the Teams and the 
need for a coordinated and standardized training program, in Fiscal 
Year 2007 Congress authorized and appropriated the CST Sustainment 
Training and Evaluation Program. This program directly addresses the 
Commission on the National Guard and Reserve stated concern that the 
nation ``does not have sufficient trained, ready forces available'' to 
respond to a chemical, biological or nuclear weapons incident, creating 
``an appalling gap that places the nation and its citizens at greater 
risk.''
    Since the initiation of CST STEP, over forty (40) teams have 
received collective sustainment training at the HAMMER Training and 
Education Center ensuring that a critical national asset is ready to 
respond at any time, in a coordinated fashion, to CBRNE incidents. 
Throughout the past several years Congress has worked closely with the 
National Guard Bureau (NGB) to support long-term programmatic funding 
for the CST STEP. NGB staff continue to be supportive of the CST STEP 
and the HAMMER facility, however, I am concerned with your commitment 
to make CST STEP a program of record. What are your plans for funding 
the CST STEP in the current fiscal year? What are your plans for 
funding the CST STEP in Fiscal Year 2012?
    Answer. CST STEP remains an important program to ensure readiness 
of critical CBRNE and disaster response capability within the United 
States. Although we do not have current year funds, we are working 
closely with the Services to seek FY12-17 POM funding for live agent 
training in support of our CST capability. Recently, Congress has not 
fully appropriated requested funding for the CSTs and other NG CBRNE 
capabilities. However, the NG remains committed to seeking out all 
training venues that effectively meets documented training requirements 
and are supportable within the budget appropriated by Congress.

    [Clerk's note.--End of questions submitted by Mr. Dicks.]
                                       Wednesday, April 21, 2010.  

                        NATIONAL CAPITAL REGION

                               WITNESSES

CHARLES L. RICE. M.D., PRESIDENT, UNIFORMED SERVICES UNIVERSITY OF THE 
    HEALTH SCIENCES, PERFORMING THE DUTIES FOR THE ASSISTANT SECRETARY 
    OF DEFENSE FOR HEALTH AFFAIRS
DOROTHY ROBYN, DEPUTY UNDER SECRETARY OF DEFENSE (INSTALLATIONS AND 
    ENVIRONMENT)
VADM JOHN MATECZUN, MC, USN, COMMANDER, JOINT TASK FORCE NATIONAL 
    CAPITAL REGION MEDICAL

                  Opening Statement of Chairman Dicks

    Mr. Dicks. The committee will come to order.
    Today, the Committee will receive testimony regarding the 
National Capital Region integration as a result of the 2005 
Base Realignment and Closure, known as BRAC. This hearing will 
cover the comprehensive master plan and various medical 
treatment issues pertaining to soldiers and their family 
members.
    The National Defense Authorization Act for fiscal year 
2010, with full support from this Committee, required the 
Department of Defense to develop and implement a comprehensive 
master plan to provide world-class military medical facilities 
and an integrated system of health care delivery for the NCR. 
Military medicine in the National Capital Region already 
incorporates many of the world-class attributes and 
capabilities. However, the Committee is concerned about the 
timeline for integration and ensuring that access to treatment 
is not disrupted.
    The 2005 BRAC recommendation that will realign operations 
from Walter Reed Army Medical Center to the new Walter Reed 
National Military Medical Center and Fort Belvoir Community 
Hospital is the Department's first step in the larger effort to 
transform the way it delivers health care in the NCR. This 
transition represents the most significant realignment of 
medical care, including the movement of patients, physicians, 
and facilities, in the history of the Department of Defense. 
DOD has estimated the total cost of the newly identified 
requirements associated with achieving the new standard will be 
$781 million.
    The projects, including conversion to single-patient rooms 
and replacement and renovation of older infrastructure on the 
campus, requires a mix of military construction and operation 
and maintenance funding. The plan intends to provide wounded, 
ill, and injured servicemembers with access to warrior 
transition services that will surpass the quality of current 
services. The plan will also provide a road map to continue 
improving healthcare facilities for our military families.
    The Committee understands that resolving budgetary and 
governance issues is critical to the success of this 
integration. The Committee stands ready to assist, but it is 
ultimately the responsibility of the Department to develop a 
plan to guide the way ahead. The committee would hope that the 
Department would take seriously the need to fully fund in 
future budget submissions the upgrade and/or replacement of 
military medical facilities throughout the enterprise.
    Now I will turn to Mr. Young for any comments that he would 
like to make.

                          Remarks of Mr. Young

    Mr. Young. Mr. Chairman, thank you very much. I wanted to 
join with you in welcoming our distinguished panel this 
morning.
    The condition of our medical facilities in the National 
Capital Region and throughout the country is an issue that is 
very important to me and to this subcommittee.
    Since the beginning of the war on terror, my wife and I 
have spent hundreds of days at both Bethesda and Walter Reed 
and know firsthand the challenges facing our wounded soldiers 
who receive their treatment there and their families who--at 
some point, the government leaves off, but the families still 
need a lot of help and especially the medical professionals who 
take such good care of them.
    The BRAC decision to consolidate these facilities has been 
made; and so we focus our attention to making sure that our men 
and women, our heroes, our warriors serving our country and 
their families, are provided with the world-class health care 
facilities they deserve. It is both of our jobs to make sure 
that happens, and it is a job that we on this subcommittee take 
very seriously, and I am sure that our panel does as well.
    So I look forward to our discussion this morning, Mr. 
Chairman, and I thank you for the tremendous interest that you 
have always shown in our wounded heroes and our medical 
facilities. I look forward to this hearing this morning.
    Thank you.
    Mr. Dicks. Dr. Rice, you may proceed with your statement. 
Your entire statement will be placed in the record.

                     Summary Statement of Dr. Rice

    Dr. Rice. Thank you, Mr. Chairman, distinguished members of 
the committee. Thank you for the opportunity to discuss our 
plans for fully implementing the BRAC decisions as they relate 
to military medical transformation in the National Capital 
Region. I want to offer a few brief statements today about 
where we are headed in the next 17 months, as well as over the 
longer term.
    The decision to consolidate medical functions in the 
National Capital Region is one of the single most 
transformative initiatives in the military health system, as 
you have already observed. It will change how we deliver and 
integrate health care delivery in a joint environment.
    We have 440,000 beneficiaries in this region, 80,000 of 
whom are enrolled in our military hospitals and clinics. The 
NCR also serves as the principal referral center for casualties 
aeromedically evacuated from Iraq and Afghanistan combat 
theaters, a population to whom we have profound obligations.
    The major transition activities planned for completion in 
the next 17 months include the closure of Walter Reed Army 
Medical Center and the relocation of many of the clinical 
activities to the Bethesda Naval Hospital campus to become the 
new Walter Reed National Military Medical Center; relocation of 
other Walter Reed activities to a newly built community 
hospital at Fort Belvoir; the closure of inpatient services at 
the medical center at Andrews Air Force base, with a 
comprehensive ambulatory care clinic and aeromedical staging 
facility remaining in place.
    Construction at both the Bethesda and Fort Belvoir sites is 
well under way. Our approach to medical facility design is new. 
Investments in evidence-based design concepts for our new 
facilities offer a better healing environment for patients and 
their families and other important benefits to include lower 
infection rates and shorter lengths of stay.
    The hospital at Fort Belvoir will be a showcase for this 
new approach. Admiral Mateczun, Dr. Robyn, and I recently 
visited the Fort Belvoir hospital last month, and we were all 
impressed by the design concepts being incorporated that will 
create an unmatched healing environment.
    I thank you again for this opportunity. The new approach to 
health care in the National Capital Region will set new 
standards for design, service, and quality. We believe it will 
be a model not just for military medicine, but for United 
States medicine. I appreciate the ongoing support of this 
committee and your continuing interest as we complete our 
master transition plan and finalize our governance model.
    I am pleased to respond to any questions that you may have, 
Mr. Chairman.
    [The statement of Dr. Rice follows:]

    [GRAPHIC] [TIFF OMITTED] T5009B.001
    
    [GRAPHIC] [TIFF OMITTED] T5009B.002
    
    [GRAPHIC] [TIFF OMITTED] T5009B.003
    
    [GRAPHIC] [TIFF OMITTED] T5009B.004
    
    [GRAPHIC] [TIFF OMITTED] T5009B.005
    
    [GRAPHIC] [TIFF OMITTED] T5009B.006
    
    Mr. Dicks. We will finish the witnesses and then go to 
questions.
    Dr. Robyn, Deputy Under Secretary of Defense for 
Installations and Environment.

                     Summary Statement of Dr. Robyn

    Dr. Robyn. Thank you, Chairman Dicks, Congressman Young, 
distinguished members of the subcommittee. I am honored to 
appear before you this morning.
    My office is the advocate for maintaining the investment 
necessary for our facilities to support our missions and 
personnel effectively. My office also oversees the BRAC process 
which, among other things, has been a significant engine for 
the recapitalization of our enduring facilities. The 2005 BRAC 
process is channeling a significant amount of money into our 
enduring facilities, with hospitals and medical facilities 
among the largest beneficiaries.
    The 2005 BRAC commission endorsed the Department of 
Defense's proposal to consolidate and realign medical care 
delivery in the National Capital Region. The BRAC decision 
recognized that the renovation of the aged and deteriorating 
Walter Reed facility was not the best use of our resources. By 
allowing us to channel these resources to the new 
configuration, BRAC addressed long-standing health care 
facility needs in the National Capital Region. In the 
Department's view, this restructuring will transform medical 
care delivery in the NCR.
    Now, with less than 17 months to go before the BRAC 
deadline, September 2011, we are on schedule and on track to 
provide state-of-the-art facilities under the BRAC program for 
our wounded warriors and other beneficiaries in the National 
Capital Region.
    As Dr. Rice said, we just toured the construction at 
Bethesda. It is quite remarkable, 10 years of construction 
activity going on in 2-and-a-half years' space of time on a 
very small footprint with a number of challenges.
    In the course of transforming medical care in the NCR, we 
have made positive course corrections at several points in 
response to outside independent reviews. I won't go into detail 
on those, but I will say that the enhancements that resulted 
from responding to those outside recommendations account for 
most of the increase in the cost of this BRAC process. It was 
originally estimated to cost $1 billion in the NCR and has 
ended up costing $2.6 billion. A little bit of that was 
inflation given the very high inflation we saw in the 
construction industry, but most was actual expansion of scope 
and improvements that were not initially anticipated.
    In addition, because of these course corrections, by the 
time we complete the medical BRAC construction at Bethesda and 
Belvoir, those facilities will have many of the attributes of 
the world-class standard as defined by the Defense Health 
Board.
    In addition to the improvements we have already made, we 
will be making longer-term efforts to achieve all of the world-
class attributes at Bethesda. However, those improvements 
should occur separate from BRAC and after we have completed the 
BRAC construction process. The reason is simple. We have an 
enormous amount of construction under way now at Bethesda 
linked to BRAC. As we said, the installation has a small 
footprint and the terrain and the on-base roads impose 
additional constraints. We simply cannot undertake any 
additional construction without jeopardizing the safety of 
ongoing medical operations.
    I appreciate this opportunity to highlight what we are 
doing. My colleagues and I look forward to working with the 
Congress to help make these goals a reality. Thank you.
    [The statement of Dr. Robyn follows:]

    [GRAPHIC] [TIFF OMITTED] T5009B.007
    
    [GRAPHIC] [TIFF OMITTED] T5009B.008
    
    [GRAPHIC] [TIFF OMITTED] T5009B.009
    
    [GRAPHIC] [TIFF OMITTED] T5009B.010
    
    [GRAPHIC] [TIFF OMITTED] T5009B.011
    
    [GRAPHIC] [TIFF OMITTED] T5009B.012
    
    [GRAPHIC] [TIFF OMITTED] T5009B.013
    
    [GRAPHIC] [TIFF OMITTED] T5009B.014
    
    Mr. Dicks. All right. Admiral Mateczun.

                 Summary Statement of Admiral Mateczun

    Admiral Mateczun. Thank you, Chairman Dicks, Ranking Member 
Young and other distinguished members of the subcommittee for 
inviting us here to discuss the Department's progress in 
transforming military medicine in the National Capital Region 
to improve care for our Nation's servicemembers, particularly 
those most in need of our help, the wounded warriors who are 
returning from Iraq and Afghanistan, retirees, and their 
families.
    This committee has gone to extraordinary measures to 
support these efforts in the National Capital Region. Not only 
will these efforts allow for enhanced cancer care in the 
region, the committee's support has and will continue to be 
invaluable to the Department's efforts to achieve the new 
statutory world-class medical facility standards at the new 
Walter Reed National Military Medical Center and the Fort 
Belvoir Community Hospital.
    The comprehensive master plan required in the fiscal year 
2010 NDAA is in the final stages of approval within the 
Department and is a top priority for DOD top leaders. I have 
had the opportunity to meet with Admiral Mullen, as the 
chairman; the vice chairman, General Cartwright; and the 
services chiefs in the tank on many occasions to discuss 
military medicine in the National Capital Region. Dr. Rice and 
Dr. Robyn, who are here today, Dr. Stanley and Mr. Hale and 
Secretary Lynn have been intimately involved throughout the 
development of this plan. This type of involvement from the 
Department's top leaders is an indication of our commitment to 
the issue and its inherent complexity.
    Military medicine and the National Capital Region has made 
great progress in incorporating additional attributes of world 
class as defined by the Defense Health Board and codified in 
the fiscal year 2010 NDAA. DOD has provided $65 million of 
funding in fiscal year 2010 to expand the existing operating 
rooms at Bethesda to achieve that new world-class standard. It 
has also realigned $125 million in additional fiscal year 2010 
BRAC funding for Bethesda to address many other recommendations 
of the Defense Health Board's panel, including the 
incorporation of input from clinicians and end users.
    Moreover, the Department has requested $80 million in 
fiscal year 2011 of the President's budget to expand ADA-
compliant lodging and parking on the Bethesda installation. The 
lodging design that we are now using will support warriors and 
nonmedical attendants in a two-bedroom suite concept that will 
improve on the Malone House model at use at Walter Reed today.
    We have moved into this era where we are providing 
rehabilitation to the wounded warriors who are coming back, 
particularly those with wound injuries and amputation and 
traumatic brain injury, and this rehabilitation requires a new 
model for the lodging that we use for them. It requires that we 
transition them from an inpatient status to activities of daily 
living with a nonmedical attendant, if necessary, and then move 
them on to becoming increasingly independent in those 
activities of daily living and then even off campus to make 
sure that they have achieved the independence necessary to move 
on, either back into the Department or into retirement.
    Once the BRAC renovations are finished, conversion to 
single-patient rooms, which is one of the newly established 
world-class standards, will be more than 50 percent complete on 
the Bethesda campus. When approved, the master plan will show 
how the Department will address those additional world-class 
attributes that are required, and the plan will address 
concerns expressed in letters this committee and the House 
Armed Services Committee sent to the Secretary and the Deputy 
Secretary.
    Thank you again for inviting us to discuss the progress of 
military medicine and for the critical support that this 
committee has provided. I look forward to your questions.
    [The statement of admiral Mateczun follows:]

    [GRAPHIC] [TIFF OMITTED] T5009B.015
    
    [GRAPHIC] [TIFF OMITTED] T5009B.016
    
    [GRAPHIC] [TIFF OMITTED] T5009B.017
    
    [GRAPHIC] [TIFF OMITTED] T5009B.018
    
    [GRAPHIC] [TIFF OMITTED] T5009B.019
    
    [GRAPHIC] [TIFF OMITTED] T5009B.020
    
    [GRAPHIC] [TIFF OMITTED] T5009B.021
    
    [GRAPHIC] [TIFF OMITTED] T5009B.022
    
    [GRAPHIC] [TIFF OMITTED] T5009B.023
    
                   MASTER PLAN SUBMISSION TO CONGRESS

    Mr. Dicks. All right. With the submission of the DOD's 
comprehensive master plan delayed, can Congress expect a timely 
submission regarding a construction schedule and an update on 
other portions of the comprehensive master plan by June 30, 
2010, as required by the fiscal year 2010 defense authorization 
bill?
    Admiral Mateczun. Chairman Dicks, the Department will have 
those plans that are required by the NDAA by the end of June. 
Those plans will provide significant granularity about the 
detail necessary to meet those requirements. You have mentioned 
an amount here that those reports will address very 
specifically; and, in addition, any of the questions that 
remain about authorities will also be addressed in that report.
    Mr. Dicks. Does the Department believe there will be enough 
lodging at the new Walter Reed to support wounded warriors, 
nonmedical attendants, and families?
    Admiral Mateczun. Yes, sir. The number of rooms that will 
be available on the Bethesda campus, there will be room for all 
of the wounded warriors who need nonmedical attendants. They 
will be completely ADA compliant. In addition, there will be 
rooms for the nonmedical attendants that are necessary for 
those wounded warriors and for family members.
    Mr. Dicks. What is the Department's position on 
Representative Davis' legislation that establishes JTF CAPMED 
and places Secretary Lynn in charge of running hospitals in the 
National Capital Region?
    Dr. Rice. Mr. Chairman, the Department is currently 
reviewing that legislation and has not yet come to a 
conclusion.
    Mr. Dicks. What capabilities at Walter Reed will be lost 
during the transition and after the transition is complete?
    Admiral Mateczun. Mr. Chairman, all of the capabilities 
that exist separately at Walter Reed today and at Bethesda are 
incorporated into the Walter Reed National Military Medical 
Center, so no capabilities will be lost in the end state. There 
are singular capabilities at each, singular capability for 
amputee care, for instance, at Walter Reed that will transfer 
in toto to the Bethesda campus and is included in the new 
construction and will actually be enhanced from a facility's 
perspective.
    The open traumatic brain injury capability that exists at 
Bethesda today will still exist at Bethesda in the future, and 
we will have increased inpatient capability. So that in the end 
state all of those world-class capabilities or best-in-the-
world capabilities will be included in the Walter Reed National 
Military Medical Center.
    Mr. Dicks. Does the Department still believe it can 
complete the transition of Walter Reed by the BRAC deadline, 
September 15, I think, 2011?
    Admiral Mateczun. Yes, it does, Mr. Chairman.
    Mr. Dicks. Does the Department plan to apply the new world-
class definition to other hospitals in the military health 
system?
    Dr. Rice. Mr. Chairman, the Department is planning to 
incorporate those elements of world-class design into future 
facilities.
    Mr. Dicks. How will the Department ensure that project 
requirements identified for world class at the new Walter Reed 
Bethesda will be funded?
    Dr. Rice. Mr. Chairman, the Department supports the 
President's budget and believes those requirements in the 
current fiscal year and in fiscal year 2011 are fully funded.
    Mr. Dicks. So the $80 million in the 2011 appropriation 
bill request for ADA requirements, is that all at Walter Reed?
    Admiral Mateczun. Yes, sir. That is on the Bethesda campus.
    Mr. Dicks. At the new campus.
    Will the world-class requirements at the new Walter Reed 
Bethesda be identified in time to inform the POM 2012 process?
    Dr. Rice. Yes, sir. The POM process is under way, and the 
attributes of world class are being incorporated into the 
planning as we consider future projects.
    Mr. Dicks. Mr. Young.

                      MORALE OF MEDICAL PERSONNEL

    Mr. Young. Thank you very much, Mr. Chairman.
    The last time we met, Admiral, in a hearing about a year 
ago, I guess, I asked a question about morale on the part of 
the medical personnel, because there was some confusion about 
who was in charge. If you remember, I asked that specific 
question, who was in charge, and you answered you were, which 
helped identify where we direct those questions. The morale 
problem was because doctors weren't sure where they were going 
to be and what they were going to be doing. Has that situation 
improved?
    Admiral Mateczun. Yes, sir, I believe that situation has 
improved.
    To give you an example, we just had three town hall 
meetings with the civilian workforce at Walter Reed. There are 
2,200 skilled medical civilian personnel that are there, and 
they have been wanting to know where it is that they are going 
to go, are they going to have a job, and which hospital would 
it be at.
    What we were able to tell them is that we were finishing 
the process now. We had promised them last year we would come 
back and let them know by spring of this year where it was they 
would be going. They have kept faith with us and stayed on the 
job at Walter Reed, and we will be notifying them no later than 
the first of July about where the job opportunities were going 
to be.
    There were not many questions about the morale. They were 
concerned primarily about whether they would be able to get 
into the Fort Belvoir and Bethesda hospitals, whether the 
traffic was going to be really bad, and whether there was going 
to be parking on the complex. So I think the morale has 
significantly improved.

                       AMPUTEE CARE AND TREATMENT

    Mr. Young. I agree with that, by the way. In visiting at 
Walter Reed, I see quite a lot of Navy medical personnel, and 
at Bethesda I see a lot of Army medical personnel, and 
everybody seems to be working together really well, and that 
certainly bodes well for the patient, the wounded warrior.
    The committee has invested a lot of resources building up 
Walter Reed to become a world-class center for amputee 
treatment. How is this consolidation affecting those 
capabilities and will they be adequately replicated?
    Admiral Mateczun. Yes, sir. They will be replicated and 
improved upon.
    Two particular ways they will be improved, within the MATC 
right now, that is over on the Walter Reed campus, is in 
temporary buildings. It will be incorporated into the new 
outpatient building on the Bethesda campus. It will have 
additional capabilities such as a rock climbing wall, which 
many of them use in their rehabilitation. Physical therapy and 
occupational therapy and the orthopedics capabilities are all 
going to be co-located.
    So, from a physical perspective, the care that they get as 
inpatients and during their rehabilitation will be 
extraordinary.
    The lodging is going to be I think one of the most 
significant improvements that we have. Today, at the Malone 
House, when there is maybe a person there that is undergoing 
limb salvage and they are in a wheelchair and they have a lot 
of appliances attached to them, it is not easy to get around in 
the rooms. In the new suites that are being built and in the 
administrative building that goes along with them and in the 
dining hall, we have designed very good spaces for them to be 
able to move around in. So I think they will actually be in a 
better environment than they are today.

                    CENTER FOR DEPLOYMENT PSYCHOLOGY

    Mr. Young. That is good news. Because we do have a lot of 
amputee cases at both hospitals. This war has been vicious as 
it relates to our troops losing limbs. In fact, in your 
hospital at Bethesda today, there is a young man who lost most 
of both arms and most of both legs. It is a really sad 
situation, but I tell you his morale and his attitude is really 
super. These people, these heroes are really special, their 
attitude toward their country and mission and toward the 
military, and it makes you really proud.
    Dr. Rice and I had a brief conversation as we were entering 
the room before the hearing started, and he had some comments 
that I would like to get on the record. So I want to ask Dr. 
Rice about the Center for Deployment Psychology that is 
headquartered at Bethesda and now an integral part of the 
Centers of Excellence for Psychological Health and Traumatic 
Brain Injury. Doctor, I was interested to hear what you told me 
as we were entering the room, and I would like to get those 
comments on the record, if you are willing.
    Dr. Rice. Yes, sir, Mr. Young.
    Under your leadership----
    Mr. Young. That was the part I wanted to hear.
    Dr. Rice [continuing]. You recognized that particularly 
returning guardsmen and reservists who often go back to areas 
of the country that are remote from military treatment 
facilities were seeking treatment for their psychological 
challenges from civilian psychologists who had no experience in 
the military. Thanks to your vision, we established the Center 
for Deployment Psychology at the Uniformed Services University 
expressly to provide educational opportunities for civilian 
psychologists in both one- and two-week courses to acquaint 
those psychologists with the challenges in the combat 
environment so they can provide better care for the patients 
who sought their assistance.
    I am pleased to say that program has been very successful. 
It is now incorporated into the Department's budget and is, as 
you pointed out, part of the Defense Centers of Excellence for 
Traumatic Brain Injury and Psychological Health. We are very 
proud of its accomplishments.
    Mr. Young. Dr. Rice, thank you very much. I want to thank 
all of you. Caring for our wounded warriors has a high 
priority, and this committee views it as one of the highest 
priorities. If there is something that is needed in our medical 
military system that you don't have, we would really appreciate 
you letting us know, because we want to make sure that nothing 
is left undone to care for our wounded warriors.
    I thank you all for your testimony this morning and look 
forward to the rest of the hearing.
    Mr. Chairman, thank you very much.
    Mr. Dicks. Mr. Visclosky.
    Mr. Visclosky. No questions at this time.
    Mr. Dicks. Mr. Moran.

                       INDEPENDENT DESIGN REVIEW

    Mr. Moran. I agree with the remarks by the chairman and the 
ranking member. This is hardly a confrontational hearing. We 
admire, respect, and appreciate all that you have been doing 
for the military needs of our service people.
    It was troubling, though, that the Independent Design 
Review that was required by the fiscal year 2009 defense 
authorization bill which was completed just last summer found 
that the Department's plan would not result in a world-class 
facility at Walter Reed, that it would not meet joint 
commission accreditation standards, and that it was ambiguous 
about its vision, goals and expectations of the new hospital. 
It did find that the Fort Belvoir hospital would be a world-
class facility. And some of the skeptics, it confirmed some of 
their worst fears. I thank you for turning it around.
    In that independent review, there was a comment that was 
particularly striking. It said, ``Service-specific and 
facility-centric military health care cultures and a confusing 
and redundant chain of command was a particular concern of the 
independent review.'' What do they mean by that? Obviously, 
they were deliberately obtuse there, but are you addressing 
that? Is it something we should be concerned about?
    Admiral Mateczun. Mr. Moran, there is a tremendous 
question, and it is not just a military question. As I have 
gone out and talked to people that really want to help us out 
at the Mayo Clinic, the Cleveland Clinic, Geisinger, and 
Kaiser, we grew up in a system that is built around facility 
hospitals or clinics, and it is very difficult to change that 
mind-set to integrate care for the patients all of the way 
through primary care, specialty care, including prevention and 
the other activities that we need to do. I believe that is what 
they were talking about on the facility-centric piece of it.
    I myself have commanded a medical center, hospital clinics, 
and when you are in that position you tend to focus on 
optimizing that facility, rather than optimizing the patient 
experience. It is part of the structural difficulty that we 
have to deal with. We find ourselves every day still trying to 
break out of that as we form this new region here in the 
capital region with a north hub in Bethesda and a south hub 
down in Fort Belvoir.
    The service centricity seems to be focused on the fact that 
we have three different service systems. When you have three 
different service systems, that means that all policies diverge 
in execution. Everybody executes a little bit differently. Here 
in the National Capital Region, what that means is we have to 
go back to define standard operating procedures and align those 
divisions, particularly as they relate to patient safety and 
patient centric care. These are significant challenges.
    I think we are finding a way ahead to be able to do those 
things, but I don't want to underrepresent the challenges that 
are presented in doing that.

                         CENTERS OF EXCELLENCE

    Mr. Moran. I can understand there are different approaches 
to mental health issues, but generally the practice of medicine 
is pretty consistent, at least in terms of its objective.
    Dr. Rice seems to be pregnant with a comment that you want 
to make, but let me raise something else, and then you can 
address this, too, if you would like.
    Chairman Murtha and I think Mr. Young and Mr. Dicks and 
probably all of the committee, we commended the Department of 
Defense particularly for including the Centers of Excellence in 
the construction plans for the new Walter Reed medical center 
and providing the funding that was needed to operate the 
centers. They nationally recognized naval military medicine to 
be in the forefront in the advancement of modern medical care, 
breast care, gynecologic care, prostate pain, neuroscience, 
integrated cardiac. They are really impressing the whole--you 
talked about Mayo and Cleveland clinics. They are impressing 
the entire country's medical establishments with what has been 
achieved.
    But the reason I raise it is the amount of space that you 
have planned is less than is currently available at Walter 
Reed. I question even whether the amount of money being 
provided is consistent with what we thought was going to be an 
expansion of these Centers of Excellence. Can you address that 
as well?
    Dr. Rice. Yes, sir. Mr. Moran, on the subject of the 
Centers of Excellence, I think one of the challenges that any 
Center of Excellence in an academic environment faces is it is 
a new model and it takes awhile for the appropriate 
organizational effort to be brought together. We anticipate 
that there will be efficiencies of both space and of funding as 
a result of the way these are being designed.
    I would point to the cancer center that Admiral Mateczun 
spoke about earlier. What we have learned from the civilian 
academic world is that, rather than have the hematology 
oncology clinic located in one area and the surgical oncologist 
in another and the radiation oncologist in yet another, and the 
diagnostic radiologist, bringing them all together to better 
focus on the cancer patient's needs does result in efficiencies 
of operation and, therefore, by implication, by a lower funding 
requirement. And the space can be better utilized because for a 
substantial part of the day the surgeons, for example, are in 
the operating room and therefore the clinic facilities that 
they would be using are available to the radiation oncologist 
or to the hematologist oncologist.
    Mr. Moran. So there is no reduction in prioritization or 
focus on the diagnosis?
    Admiral Mateczun. No, sir. Actually, we have an 
implementation team led by Dr. Craig Shriver, who is the head 
of one of those centers, and they will identify to us what they 
believe are the requirements, and then we will bring back those 
and incorporate them.
    Since we have never done it within the DOD before, this is 
the first time, and we need to understand it. There is no need 
to reduce the space that they need.

            FT. BELVOIR BARRACKS AND SUPPORT INFRASTRUCTURE

    Mr. Moran. One last question. There are some things that 
have seemed to have slipped through the cracks in this 
planning, and we hate for them to be identified when it is too 
late. For example, I had to ask for an additional $34 million 
for barracks to house the new facilities staff at Fort Belvoir. 
That hadn't been handled. As you know about the infrastructure, 
and I won't get into that because that is just too sticky a 
wicket to deal with right now in this context, but both at Fort 
Belvoir and Bethesda there are real questions about being able 
to handle the staff, patients, families, even the population 
around the facilities.
    But it just came to my attention that there is only one 
dining facility that is open after 6 p.m. At Bethesda, and it 
is a Subway. Think about that. Only Subway is open after 6 when 
you have thousands of people there? We have an NGO that has to 
provide once-a-month weekend meals at that facility to the 
families of wounded warriors because of the current lack of 
dining facilities.
    It seems like a mundane issue, but it is not mundane if you 
haven't eaten all day, and it is 6, and there is nothing open 
on the entire campus. Have you thought about that?
    Admiral Mateczun. Yes, sir. The lodging complex that is 
going up now, Building 62, includes a dining facility 
incorporated in it, particularly for the wounded warriors 
themselves. That dining hall will operate independently for 
them.
    We are looking at how to bring in the food courts or other 
things that we need to into current operations, but we will 
specifically address it in achieving the rest of those world-
class standards. As we have gone out to the other places, what 
they tell us is the experience for patients is significantly 
enhanced with opportunities to eat other than dining facility 
types of food. We will make sure that those are incorporated.
    Mr. Moran. Thank you, Chairman Dicks.
    Mr. Dicks. Mr. Frelinghuysen.

                   INTEGRATION OF MEDICAL FACILITIES

    Mr. Frelinghuysen. Thank you all for the remarkable job you 
do on behalf of some remarkable people who serve our country so 
well, those who have been injured both physically and mentally.
    Committee members here have been witness to a lot of 
transformations. We saw some I think major progress with our VA 
system, which I think is still the world's largest medical care 
system, and we obviously take a look at the transformation of 
our nuclear facilities and modernization.
    I just want to focus where Congressman Moran initially 
focused his remarks, on the command and governance plan. And I 
refer perhaps, Dr. Rice, to your remarks where you say 
``implementing the 2005 BRAC commission recommendation has 
required a careful choreography.'' That is not exactly a 
military term, but I am interested in what in fact you are 
doing in terms of literally a command and governance plan? Can 
you put some meat on the bones here?
    Mr. Moran put his finger on it. You have each of the 
services which is proud of their history. I made the mistake a 
few years ago of complimenting the Marines for what they do to 
wrap their arms around their fellow Marines. When they are down 
from my state, New Jersey, they go in to look at all 
facilities, but they give special attention. I am just 
wondering, how you are putting this all together? Is there 
actually a plan here? And I ask the question because, when 
something goes south, people start pointing their fingers at 
others around them.
    Dr. Rice. Yes, sir. Congressman Frelinghuysen, I think 
President Kennedy summed it up well when he said, victory has 
many fathers; defeat is an orphan.
    The integration of medical facilities is a very complex 
undertaking. In the civilian world, which is where I spent much 
of my career, in the civilian academic world, there are a 
number of examples of mergers or attempted mergers between 
large facilities: Penn State Geisinger comes to mind, the 
University of California at San Francisco and Stanford, Beth 
Israel and Deaconess in Boston are just a couple that come to 
mind. They are very complex undertakings and frequently end up 
becoming unstuck, as Stanford and the University of California 
San Francisco and Penn State Geisinger did.
    Layered on top of that are the three military services, 
because we do deliver care through the services. So this 
integration has required significant strategic and operational 
decision making in coordination at the senior leadership levels 
to reach consensus on key issues.
    Admiral Mateczun has met a number of times with the Joint 
Chiefs to discuss both the facility design as well as the 
operational characteristics. I think it is important to 
underscore that, throughout those discussions on what the 
ultimate governance and leadership will look like, we have not 
lost focus on our primary responsibility, which is the care of 
our beneficiaries.
    Mr. Frelinghuysen. So how would you gauge your success so 
far working with the different services, being mindful and 
respectful and, obviously, being aware of what has happened in 
the private sector when these sort of combinations and mergers 
occur? We are interested, obviously, in the end product here.
    Dr. Rice. As are we.
    Admiral Mateczun has done an astonishingly good job. I 
point out regularly that he was an explosive ordnance disposal 
man early in his career, so it is pretty hard to startle him. 
And he has a background as a psychiatrist, which seems to be 
entirely appropriate for this undertaking. He has done a 
terrific job I think of bringing together the various elements 
that have to be considered, from patient care delivery to 
logistics to finance to construction. It is a very complex 
undertaking. To sum up, it is a work in progress, but I think 
we ultimately see where it is headed.
    Admiral Mateczun. The comprehensive master plan will 
address those operational control issues.
    Mr. Dicks. May I just add on here, this is the first joint 
operation, right, of a joint hospital? We are going to have the 
Army, the Navy, and the Air Force there all at the same time?
    Admiral Mateczun. Yes, sir. And ``joint'' is a term that 
gets used in many different ways, but this is the first joint 
hospital. Joint means under a joint command. We have hospitals 
where we have people from three services working or tri-service 
staffing, but this is the first joint hospital.
    Mr. Dicks. Who is sorting this out? You are the one that is 
in charge. Do you meet with the Surgeon General of the Air 
Force, the Surgeon General of the Army and you all work out a 
plan for how we are going to do this?
    Admiral Mateczun. Yes, sir. I get to meet with the Surgeon 
Generals of all of the services, and we come to agreement on 
many issues. On those that we were not able to come to 
agreement on, we go to the tank with the service chiefs. When 
we are not able to go to agreement there, we start working our 
way through the OSD side of the Department up to the Deputy 
Secretary, who tells us which way it is going to be.
    Mr. Frelinghuysen. I thank you for the time, Mr. Chairman. 
This is a nut that needs to be cracked here, and we need to be 
successful. Thank you, Mr. Chairman.
    Mr. Dicks. Mr. Bishop.

           RELOCATION NOTIFICATIONS TO NCR MEDICAL COMMUNITY

    Mr. Bishop. Thank you very much.
    Approximately 1,900 of the personnel at the Walter Reed 
Army Medical Center are supposed to go to the new Walter Reed, 
and 2,000 are supposed to go to Fort Belvoir. Have those 
individuals been notified of where they are going? If not, when 
will the medical staff at Walter Reed be notified of their 
future employment? And equipment, how much of the equipment at 
the old Walter Reed will be utilized at the new facility and/or 
Fort Belvoir? And for the committee, if you could, if you need 
to provide that information for the record, as well as give us 
some indication to this subcommittee what additional equipment 
will be required for the move.
    And the other thing is, what are the plans for the 
disposition of the old Walter Reed facility and how much 
funding is expected for the cleanup after that disposition?
    Admiral Mateczun. Congressman Bishop, thank you for that 
question.
    The people at Walter Reed, I talked briefly about the 
civilian personnel, 2,200 of them that we will notify. 
Actually, we have 4,000 civilians working within the National 
Capital Region, and we will tell all of them where it is that 
they are going to be. Those that are the most impacted are the 
2,200 that are at Walter Reed. We will let them know by the 
first of July.
    On the active duty personnel, we have talked to the service 
chiefs and, because of the detailing cycles, we are going to 
probably be notifying all of those folks in the summer.
    We have already selected integrated department chairs, so 
we have leadership that is working across both of those 
hospitals. They know the people that they are working with, and 
they have to make sure that we are able to staff both of them 
adequately and well and able to keep the training programs 
going.
    Today, we have training programs at both Walter Reed, or 
they train at both Walter Reed and Bethesda. In the future, 
they will be training on both the Bethesda campus and on the 
Fort Belvoir campus, because there is going to be 120 beds 
there and a lot of patients to work with. After that, we will 
work through the contractors, who are also an integral part of 
the workforce.
    We expect by the end of summer we will have at least 
notified the services. It is up to the services to notify the 
active duty folks where they are going to be going. Some will 
be detailed in as they come into the area. Some will have to be 
detailed into those billets out of Walter Reed.
    In terms of the reuse equipment, we have identified $50 
million in reuse equipment that we will move from Walter Reed 
into either Bethesda or the Fort Belvoir campus. That is the 
major equipment. We are now going back and taking a look at the 
other equipment to see if we can find additional amounts of 
equipment that we can reuse as well.
    We are trying to standardize equipment as we go, and so we 
want to make sure in terms of those patient safety items that 
we standardize them across the two hospitals. Right now, in our 
outfitting and transition budget, we have enough money to do 
the procurements that we need and to incorporate this reuse 
equipment.
    Dr. Robyn. In terms of the disposition, that will go to 
GSA.
    Mr. Bishop. What about the cleanup?
    Dr. Robyn. Can I take that for the record? I am not sure if 
we have estimated what the cleanup cost will be yet. I will get 
back to you.
    Mr. Bishop. Thank you.
    [The information follows:]

    The costs to clean up Walter Reed and Forest Glen are primarily 
related to radiological decommissioning. The total cost is 
approximately $15.14M. The Army has spent $1.6M in FY06-FY09, has $3.7M 
programmed in FY10, and has requested $9.0M in the FY 11 budget. The 
Army will fund the remaining cost of $841K in FY 12. The Walter Reed 
garrison expects cleanup to be completed by March 2013. Based on its 
environmental surveys, the Army also expects that the boiler plant 
(bldg 15) to require environmental restoration. The garrison does not 
expect this to be a major undertaking. The Army will not know the cost 
of this restoration effort until it completes a Corrective Action Plan 
and the District of Columbia's Department of Environment approves the 
plan.

                         MEETING BRAC DEADLINES

    Mr. Bishop. Dr. Robyn, you testified at the MILCON hearing 
that the September 15, 2011, BRAC deadline was not going to be 
met.
    Dr. Robyn. No, sir, I did not testify to that.
    Mr. Bishop. What did you say?
    Dr. Robyn. No. I testified that we believe we will meet the 
deadline of September 15 for all of our BRAC actions. We have 
six actions that we are watching very closely, and some of them 
are part of the National Capital Region BRAC process. But we 
believe we can make the BRAC deadline for all of our BRAC 
actions.
    Mr. Bishop. Is there going to be any resulting additional 
costs? For some reason, I thought you said there was going to 
be $169 million additional costs because of the weather delays?
    Dr. Robyn. I did not testify to that. I think we met 
privately with appropriations staff to brief them on the six 
ones that we are watching closely. We indicated that in order 
to meet the BRAC deadline, which we view as important for a lot 
of reasons, and I can go into that, that we are planning to 
spend some additional money at these facilities. House 
appropriations staff came up with the $169 million calculation.
    Mr. Bishop. Is that a reasonable figure?
    Dr. Robyn. That is a reasonable figure, yes.
    Mr. Dicks. When will medical services be rendered at Fort 
Belvoir Community Hospital?
    Admiral Mateczun. Sir, there is an existing community 
hospital that will actually move into those facilities and be 
able to start providing care early in 2011 or late in 2010, 
depending on the support that is in that central tower that we 
have got. Those buildings will actually be ready early, and the 
existing hospital staff out there will move into that facility 
as soon as they can to start delivering services. They will 
probably deliver outpatient services first, and then we will 
finish the inpatient tower and be able to deliver inpatient 
services there in the summer of 2011.
    Mr. Dicks. When will services end at Walter Reed?
    Admiral Mateczun. The industry standard across the country 
is to move over a very short period of time. We have a war game 
exercise that we are doing to see exactly how short that period 
is. But probably sometime around August of 2011 we will move 
all of the patients and then the staff.
    Mr. Dicks. Mr. Kingston.

                     INCREASING BRAC COST ESTIMATES

    Mr. Kingston. Thank you, Mr. Chairman.
    Dr. Robyn, I want to find out a little bit of background. 
As I understand it from BRAC, this was supposed to save $724 
million, and the cost was $988 million to integrate Walter Reed 
Army Medical Center to Walter Reed National Military Medical 
Center and Fort Belvoir Community Hospital with a savings of 
$124 million; is that correct? With annual recurrent savings of 
$99 million?
    Dr. Robyn. Yes.
    Mr. Kingston. That was the BRAC numbers from 2005; correct?
    Dr. Robyn. Yes.
    Mr. Kingston. Where are those numbers now?
    Dr. Robyn. I believe before you got here I testified that 
the BRAC estimate for the realignment in the National Capital 
Region would cost about a billion dollars. The actual number is 
closer to $2.6 billion. The reason for that has a little bit to 
do with inflation in the construction industry. It has mostly 
to do with expansion in scope, and enhancements that we made to 
the original plan, largely in response to an outside 
independent review chaired by Togo West and Jack Marsh. So we 
added a number of facilities and other improvements to the 
original plan.
    Mr. Kingston. Okay, so the cost went from $988 million to 
$2.6 billion?
    Dr. Robyn. Right.
    Mr. Kingston. Did the savings also change? What does that 
do on----
    Dr. Robyn. Those are roughly the same.
    Mr. Kingston. So we are still talking about a reduction, 
but the $724 million comes off $2.6 billion, rather than off 
$988 million?
    Dr. Robyn. The cost of BRAC overall is significantly more 
than the original estimate. The original estimate is based on a 
model, COBRA, which is not really designed to tell you--it is 
designed to compare alternatives in the context of the 
decisions that a BRAC commission makes. It is not really 
designed to tell you the full cost of BRAC actions. So it is a 
little bit misleading.
    But with BRAC overall, as with BRAC in the National Capital 
Region, the increase in cost is largely due to expansions in 
scope. We have used BRAC as an opportunity to build new where 
we had planned to renovate, to do substantial renovation and 
improvement. It has been a driver.
    Mr. Kingston. Let me ask you this. If that is the case, why 
didn't BRAC anticipate that expansion? And when you talk about 
inflation, you know, that would be something that BRAC should 
take in mind; and I would find it hard to believe during this 
period of time you would have that much inflation when people 
are desperate for work. If there is inflation, that is BRAC's 
idea to anticipate it, and I don't think the case is there to 
say there was inflation.
    Dr. Robyn. I was not involved in this at the time, but my 
understanding is there was extraordinary inflation in the 
construction industry in parts of 2007, 2008, when most of the 
major construction activity on BRAC occurred. So that is not 
the major factor, but it is a factor. I suppose if we could 
have anticipated it, we would have, but we didn't.
    Mr. Kingston. All right. In terms of the expansion, how is 
it that that wasn't foreseen by BRAC? Okay, hey, listen, if we 
start moving these pieces of the puzzle around, there are some 
opportunities that we should look at and there should have been 
a footnote to Congress on this proposal, and maybe there was.
    Dr. Robyn. There are some of you who know this history far 
better than I do. My understanding is, in the context of the 
National Capital Region, that the story about conditions in 
lodging at Walter Reed prompted these outside independent 
reviews. It was in response to those reviews and the desire to 
apply to new facilities, the recommendations that these 
facilities be made world class overall that these enhancements 
were included in the plan. So it was a bit of a moving target, 
and it was a response to new information and outside 
independent reviews as we went through this process.
    Mr. Kingston. It would appear to me some of that should 
have facilitated additional savings, but it did not? It was 
just all on the high end?
    Dr. Robyn. Apparently so, yes.
    Mr. Kingston. So a little Capitol Hill hysteria, is that 
what caused this?
    Dr. Robyn. I wouldn't put it that way, no. I think there 
were genuine issues that were raised.
    Mr. Kingston. On BRAC, how much of this happens when BRAC 
comes out with, okay, here is the savings, and how often do 
those savings get implemented as proposed by BRAC? Because what 
Congress tends to do I think is vote on BRAC, have the victory, 
have the agony, and move on and assume that BRAC is consistent.
    Dr. Robyn. Right.

                              BRAC SAVINGS

    Mr. Kingston. But how much of it really does come out to be 
like this where there is really no savings at all?
    Dr. Robyn. I think we do anticipate savings from BRAC 
overall, and we have had savings historically. It is why the 
Department is so concerned with meeting the BRAC deadline.
    BRAC is kind of sacred to us. It has achieved enormous 
savings. It is very politically difficult for the Congress and 
others, but it has been absolutely essential to our ability to 
save money.
    And I should point out probably that, in the case of prior 
BRACs, the focus was largely on getting rid of excess capacity. 
This BRAC had a different focus, and the focus was on enhancing 
our warfighting capabilities. So it was a different focus, less 
on reducing excess capacity and more on improving our ability 
to carry out our mission.
    Mr. Kingston. Do you come back to Congress with a report on 
BRAC periodically that says we are on track and here is what 
the savings are? Are there some good news stories out there?
    Dr. Robyn. Yes. I am sorry that I don't have them at the 
tip of my tongue. I testified last month before the HAC-MILCON 
subcommittee and had those numbers at hand. But we have 
historically achieved significant savings, in the billions of 
dollars a year.
    Mr. Kingston. Okay.
    Mr. Young. If the gentleman will yield, can you provide 
those numbers for us for our record?
    Dr. Robyn. Yes. Absolutely.
    Mr. Young. There might be some debate about that.
    [The information follows:]

    Overall, DoD is projecting that BRAC 2005 will save approximately 
$4B annually beginning in FY 2012. The annual savings for the Walter 
Reed closure is approximately $172M.

    Mr. Kingston. Thank you, Mr. Chairman.
    Mr. Dicks. Mr. Hinchey.

                  ARMED FORCES INSTITUTE OF PATHOLOGY

    Mr. Hinchey. Thank you very much, Mr. Chairman; and thank 
you for all of you do in this particularly challenging time.
    I wanted to ask you a question about the Armed Forces 
Institute of Pathology, which is something that was 
historically significant in this country and which had served 
the military and veterans' communities since the Civil War. It 
was abolished in 2005. I think, frankly, it would be 
interesting to look into this. I don't know if anyone has, but 
the rise in the inadequate attention to the growing number of 
people who are seriously wounded had something to do with the 
elimination of that Armed Forces Institute of Pathology. But 3 
years later, the National Defense Authorization Act created the 
Joint Pathology Center and that was designed to ensure the key 
functions of the Armed Forces Institute of Pathology, that they 
wouldn't disappear and they would come back into play, and 
those functions included education, consultation, research, as 
well maintenance and modernization of the tissue repository to 
try to make sure that all of those were preserved.
    Since that Armed Forces Institute of Pathology is currently 
operating under a fiscal year 2010 budget of $76 million and a 
proposed fiscal year 2011 budget of $67 million, $9 million 
less, how does the Department of Defense anticipate that the 
Joint Pathology Center will be retaining its mission of serving 
as a world-class pathology entity? Can you tell us in detail 
the Department of Defense's funding expectations and the plans 
to ensure a smooth transition to this JPC?
    Dr. Rice. Thank you for that question, Mr. Hinchey.
    The Armed Forces Institute of Pathology, as you correctly 
identify, was a world renowned center and consisted of a number 
of elements, including the Armed Forces Medical Examiner's 
Office, a Legal Review Office, the tissue repository, which had 
been, has been in existence for almost 100 years in the 
consultation and education portion of AFIP's mission.
    What has happened over the last 20 years or so in the world 
of pathology, and my comments here are particularly focused on 
the area of consultation and evaluation of tissue, that world 
has changed a good deal and has moved into a much more 
molecular focus as opposed to the traditional looking through a 
microscope at tissue and recognize the morphology. The result 
of that molecular focus is that pathologists around the country 
now have expertise in technologies available that allow rapid 
diagnosis without so much of an investment in morphologic 
recognition.
    What the BRAC did was to dis-establish the AFIP, as it then 
existed, to move the Office of the Armed Forces Medical 
Examiner up to Dover Air Force Base, where, as you know, the 
casualties return. And subsequently, the Joint Pathology Center 
was established as an element reporting to Admiral Mateczun at 
the Joint Task Force.
    As I understand it, Admiral Mateczun, correct me if I am 
wrong, the initial operating capability for the Joint Pathology 
Center is anticipated for this summer, and it will be a full 
spectrum pathology consultation service for the Federal 
Government in support of clinical care. The pathology education 
will take place in partnership with the Department of Pathology 
at the Uniformed Services University, and it will be an 
integrated component of the Walter Reed National Military 
Medical Center and the Department's Pathology Residency 
Fellowship Programs.
    We undertook an evaluation of the tissue repository to 
determine whether or not the samples there were still in good 
condition and usable for research and have discovered that 
approximately 90 percent of the samples are in fact usable for 
that purpose. How we proceed, subsequently, is still open to 
question because there are both legal and ethical 
considerations that have to be factored in. These were not 
samples that were collected originally for research or 
education purposes; therefore, to use them for that has some 
ethical and legal dimensions to it. And we expect to undertake 
an outside study probably in collaboration with the Institute 
of Medicine to pursue them.
    Admiral Mateczun. In terms of the budget, sir, we are 
standing up the initial operating capability. We know that 
there is going to be approximately 118 staff that move over 
with those functions. We are hiring right now against that. Of 
course, most of the--and we are working through the transfer-
of-function, transfer-of-work questions associated with the 
BRAC. Most of the pathologists that are there today will be 
coming over, but we have to matrix at the start. And we are 
finalizing the budget now.

                         JOINT PATHOLOGY CENTER

    Mr. Hinchey. I thank you very much for that.
    Do you think that you could provide us with a detailed 
summary basically of the facility and the staffing needs of the 
Joint Pathology Center and all of that which takes into account 
the vision of the JPC as a world class facility, something that 
is really going to be exemplary and do all the things that 
really need to be done for these people who need it so much? 
And if you can also, recent Defense Health Board 
Recommendations, if that is possible?
    Dr. Rice. Yes, sir, we would be glad to provide those for 
you.
    [The information follows:]

    The Joint Pathology Center (JPC) will provide world-class 
diagnostic subspecialty consultation, education, training, research and 
maintenance/modernization of the tissue repository in support of the 
mission of the DoD and other federal agencies. A Concept of Operations 
has been developed and was approved by the Commander, Joint Task Force 
National Capital Region Medical on 31 March 2010.
    Capabilities: The core group of functions of the Joint Pathology 
Center includes a robust pathology Consultative Service with associated 
state-of-the-art technologic support, the Tissue Repository, Education 
and Research, and the Veterinary Pathology Service. Each function has 
defined missions that collectively will meet the requirements of the 
law and will meet the defined mission of the Joint Pathology Center. 
Leveraging of existing capabilities and expertise within the Joint Area 
of Operations and the development of strategic partnerships with other 
military and federal agencies and organizations will enhance and 
augment the core functions of the Joint Pathology Center.
    Governance: The JPC will be a subordinate organization within the 
Joint Task Force National Capital Region Medical (JTF CAPMED).
    Facilities: The tissue repository buildings on Forest Glen 
(buildings 510 and 606) will house the Tissue Repository, Consultative 
Service, Office of the Director, and Telepathology. Histology, 
immunohistochemistry, special stains, specimen accessioning, and 
transcription will be performed at the new Walter Reed National 
Military Medical Center, Bethesda in the Department of Pathology. 
Adequate room for these services was planned into the space and 
processes of the histology laboratory and administrative areas.
    Staff: The JPC will require 135 Active Duty and civilian staff.
    Defense Health Board Recommendations: The Defense Health Board 
(DHB), in its advisory role to the DoD, reviewed the initial Joint 
Pathology Center (JPC) Concept of Operations (CONOPS), which was not a 
detailed implementation plan. Among its comments were recommendations 
on workflow considerations, physical location of capabilities for 
consultative services, ratio of professional staff to administrative 
staff, civilian collaboration and alignment of the Joint Pathology 
Center (JPC) under the Joint Task Force National Capital Region Medical 
(JTF CAPMED). The implementation plan and detailed and revised CONOPS 
that was approved on 31 March 2010 addresses the concerns of the DHB 
and will meet the recommendations of the DHB review with the exception 
of JPC oversight being provided by a Board of Governors. Based on the 
JPC's mission set, DoD recommends a Federal Board of Advisors comprised 
of primary stakeholders. The JPC continues to work very closely with 
the DHB as details are finalized.

    Mr. Hinchey. Thank you very much.
    Thank you, Mr. Chairman.

                     ENDURING MISSIONS BEYOND BRAC

    Mr. Dicks. Does the JTF CAPMED have missions that go beyond 
the NCR Base Realignment and Closure Coordination, Admiral?
    Admiral Mateczun. Yes, sir. In our charter, we have a BRAC 
mission. I have responsibility for BRAC oversight of the 
medical BRAC projects. In addition, I am responsible for the 
health care that is delivered within the National Capital 
Region. So that goes beyond the BRAC project significantly, 
particularly when it comes to contingency operations. So we are 
able to plan now with JTF NCR, which stands up in case of an 
emergency here within the Capital Region. They coordinate the 
military districts, and I become a medical functional component 
of the commander of that Joint Task Force. So I am responsible 
for coordinating all of the emergency response that goes on.
    Just as an example, we just finished up the Nuclear 
Security Summit and the medical support from the Department 
that went into that. So there are significant other missions. 
The Joint Pathology Center is another mission not related to 
the BRAC and certainly an enduring mission. So, yes, we do have 
other missions besides BRAC.
    Mr. Dicks. Will medical personnel in the new hospitals 
still deploy to Iraq and Afghanistan?
    Admiral Mateczun. Yes, sir, absolutely. And on the Comfort 
and all the other places that they need to deploy. In fact, 
what we will be able to do is to protect these assets in case 
of deployments.
    Today, if a large-scale mobilization occurs, it leaves an 
individual hospital potentially vulnerable. If the Comfort goes 
out, then a lot of the Bethesda staff goes with it. As we 
distribute the active duty force across both of those 
hospitals, we mitigate the risk to any one deployment that goes 
on.
    My job as the JTF commander is to make sure that we 
maintain the ability to receive casualties here in the National 
Capital Region as our country's primary casualty reception 
site. And so, as people mobilize and go off to their missions, 
we have to make sure that when they send the patients back, 
that they have somewhere to go.
    The change that has really occurred over the last 5 years 
is with the Critical Care Transport Teams. I was a Joint Staff 
Surgeon when we sent all of the capabilities into Operation 
Iraqi Freedom. We sent a huge medical footprint, including some 
64 hospitals and 41,000 medical personnel there to be ready to 
take care of casualties. At that time, we weren't able to move 
them back in critical care status. Now that we are, we don't 
have to have that footprint in theater, but we do have to 
maintain that footprint back here. And so we haven't relieved 
the need for beds; we have just moved it out of theater back 
here. So part of the mission that we have is making sure that 
we have those beds and the capability to receive casualties 
here.
    Mr. Dicks. Why does it make sense to regionalize health 
care delivery in the National Capital Area?
    Admiral Mateczun. The National Capital Region is the 
largest collection of both the military beneficiaries and 
military forces to provide care. And so putting together an 
Integrated Regional System allows us to address, for instance, 
things like primary care; where are we putting our clinics?
    Without coordination today, we are reliant upon each of the 
services to decide where it is that they want to invest in 
primary care, rather than examining the total needs of the 
population and rationally putting primary care there, just as 
an example.
    Dr. Rice. May I add to that?
    Mr. Dicks. Sure.
    Dr. Rice. I think another very important reason to 
regionalize care in the National Capital Area is to take 
advantage of the education and research capabilities that are 
unique to this region. The new Walter Reed National Military 
Medical Center sits right across Wisconsin Avenue from the 
world's largest biomedical research complex, the National 
Institutes of Health. And on the campus at Bethesda is the 
Uniformed Services University. So we simultaneously have the 
ability to answer the unsolved questions in both military 
medicine and in health care generally, as well as to educate 
the next generation of military medical leadership.

                  MAINTAINING CAPABILITIES UNDER BRAC

    Mr. Dicks. Are all capabilities being planned for the new 
Walter Reed National Military Medical Center inclusive of all 
care that is currently being provided to service members and 
their family members?
    Admiral Mateczun. Yes, sir. The BRAC requires that the 
capabilities that existed at the time of the BRAC are 
maintained, and that is the basic rationale for the 
distribution of the resources that are there, so nothing goes 
away. In fact, there has been a new mission that has been added 
particularly for casualty care over the last couple of years, 
and so that enhancement will also be maintained, but there will 
be no diminishment in the capability for medical care here in 
the National Capital Region.
    Mr. Dicks. With each service medical component employing 
different concepts of care, delivery and processes, how will 
you develop common practices? Well, I think you have answered 
that. Anything else you would like to add on that?
    Admiral Mateczun. No, sir. Common processes are important. 
And this is something that really relates directly and 
specifically to patient safety. And we are working on that. In 
something just as simple as conscious sedation, where somebody 
comes in for a minor procedure, we have to be able to have a 
standard procedure that all of our nurses and technicians know 
and support, no matter where it is that they happen to be 
working in the Capital Region. And so we view that 
standardization as a patient safety imperative.
    Mr. Dicks. Do we have a list on the $781 million of what we 
are talking about, what kind of projects are we talking about?
    Admiral Mateczun. Yes, sir. At the broad sort of upper 
level, but not at a level of specificity yet. We don't have a 
level yet that has been approved by the Department.
    Mr. Dicks. That is a better answer. Well, whatever you got, 
send it up here, will you, so at least we will be able to take 
a look at it?
    [The information follows:]

    Below is a list of projects that comprise the $781M. Additional 
detail has been provided in the Department's Comprehensive Master Plan 
for the National Capital Region Medial, which was provided to Congress 
in response to section 2714(b) of the National Defense Authorization 
Act for Fiscal Year 2010.

----------------------------------------------------------------------------------------------------------------
                                                                                                  Estimated Cost
                 Project                          Description                Funding Type              ($M)
----------------------------------------------------------------------------------------------------------------
Comprehensive Clinical Expansion........  New Construction,           MILCON/O&M................     $651M ($567
                                           Renovation, Demolition,                                    MILCON $84
                                           Parking Garage, Temporary                                        O&M)
                                           Facilities, Outfitting
                                           and Transition,
                                           Commissioning, AT/FP,
                                           Enhanced Building
                                           Information Systems.
Installation Upgrades...................  Pedestrian Ways, Vehicular  MILCON....................             $85
                                           Access, Plazas,
                                           Childcare, Utility
                                           Infrastructure, Etc.
Medical Center Technology...............  Smart Technology, RTLS,     O&M.......................             $30
                                           External SONET.
Installation and Medical Center           Campus Way finding and      O&M.......................             $15
 Environment.                              Master Planning.
                                         -----------------------------------------------------------------------
    Total...............................  ..........................  ..........................            $781
----------------------------------------------------------------------------------------------------------------

    Admiral Mateczun. Yes, sir.
    Mr. Dicks. Mr. Young.

                     TEMPORARY BYPASS OF LANDSTUHL

    Mr. Young. Thank you, Mr. Chairman.
    The policy and the practice has been, a soldier is wounded 
on the battlefield and treated immediately with the closest 
medical facility and then transported to Landstuhl in Germany. 
And then, from there, back here to either Walter Reed or 
Bethesda. I understand now the decision has been made to bypass 
Landstuhl and come directly from the area directly to 
Washington to the National Capital Area. What is the reason for 
that?
    Dr. Rice. Sir, I think it primarily has to do with the 
concern about flying through the ash of the volcano whose name 
I cannot pronounce. But as I understand it, the air space is 
now beginning to open up over Europe, so my expectation is that 
we would resume the use of Landstuhl. I might point out that, 
in the past, it has been the practice when the patient's 
circumstances warrant it to bypass Landstuhl and fly directly 
back to the United States. In the case of--in a few instances 
of severe neurologic injury and certainly in the case of a 
severe burn, where the unique capability exists at Brooke Army 
Medical Center in San Antonio, patients have been flown 
directly back from the theater to San Antonio.
    Mr. Young. Thank you for that answer. I wasn't sure when I 
read that decision whether it was a permanent decision or 
whether it was temporary because of the volcanic ash, which I 
can't pronounce either.
    Dr. Rice. No, sir. It had purely to do with concern for the 
aircraft and the safety of the crews.

                       BUILDING 18 AT WALTER REED

    Mr. Young. On another subject, just one more question, Mr. 
Chairman. A couple of years ago, the Washington Post did a 
number of articles really blasting the Army at Walter Reed for 
conditions at Building 18. What is the status of Building 18 
today?
    Admiral Mateczun. Sir, it is not being used for any patient 
care activities.
    Mr. Young. Well, actually, at the time that the stories 
were written, it was used for med-hold patients rather than 
patients that were being treated.
    Admiral Mateczun. Yes, sir. There are no medical-hold 
patients in Building 18 today.
    Mr. Young. Is Building 18 empty then?
    Admiral Mateczun. Yes, sir. It is being refurbished, as I 
understand it, but I am not sure what the ultimate plan for it 
is. But there are no patients in that building.
    Mr. Young. Thank you.
    Thank you, Mr. Chairman.
    Mr. Dicks. Mr. Frelinghuysen.

                       ELECTRONIC MEDICAL RECORDS

    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    As part of this undertaking, I understand there are efforts 
underway to develop world class simulation labs, the latest and 
state-of-the-art information technology, smart beds, smart 
rooms, things of that nature; been a lot of focus in the public 
domain on electronic medical records. Sometimes we give the VA 
more credit for, shall we say, a seamless system in the 
military. God only knows what you have. The issue of medical 
equipment, we talked earlier about, you know, the private 
sector, the race to get the best equipment. And obviously, this 
committee is prepared to give you whatever you need and I think 
historically has been very supportive of that. Of all the stuff 
we are setting up here, the technology, can you assure us you 
will be using--you will get the best of what there is? And most 
important, this is still a military installation. Will you 
assure us that whatever you set up is hardened in a way that 
somebody could not attack it and bring the whole damn thing 
down? I wonder if that is in your overall review. This is what 
plans and governance are all about. Before we fill the new 
building and provide the infrastructure, what are we doing in 
some of these areas?
    Admiral Mateczun. Yes, sir. In the realm of technology, in 
particular maybe kind of taking a look at the plan that the 
Department is using for the data storage that we have. And it 
is really key. The data storage is key because what we are 
doing in the National Capital Region is making sure that all of 
the medical data that is available, including images, can be 
available to anybody at any one of our----
    Mr. Frelinghuysen. Instantaneously?
    Admiral Mateczun. Instantaneously, yes, sir, which is not 
happening today. It is hard to move images between Walter Reed 
and Fort Belvoir today, for instance, in some instances. So we 
are putting together that technology.
    What we will have are data centers that will be mirrored in 
the future. And so the Health Affairs is working on a plan that 
will actually have regional data repositories that will be 
mirrored, so that if something happens, and those are actually 
not inside the Capital Region, they are placed outside of the 
Capital Region, so that if something happens, that data would 
still be available for patient care. It is mirrored so that it 
is always available. If it goes down, it is still available on 
the mirror site, the mirror servers. And so we are thinking 
about I think each of those areas as we try to move forward.
    Mr. Dicks. Would the gentleman yield? Have you built any of 
those data centers yet?
    Dr. Rice. No, sir. That is all in design. We are pretty far 
along in understanding how that will all come together, but 
they are not actually built as yet.
    Mr. Dicks. But have you decided on locations?
    Dr. Rice. No sir.
    Mr. Dicks. Who is in charge of this, who is in charge of 
the data centers?
    Dr. Rice. Well, the----
    Mr. Dicks. Mateczun just pointed the finger at you. Are you 
the guy?
    Dr. Rice. There is a process under way in the Department 
right now for the way ahead on the electronic health record. 
And it involves network integration in the Department, as well 
as other components of the Department that are responsible for 
information technology. This is a very hot area of discussion, 
and we realize that it is a critical element for us to be able 
to accomplish our mission.
    Mr. Frelinghuysen. I won't reclaim my time from the 
chairman because it is his time.
    Mr. Dicks. Go ahead.
    Mr. Frelinghuysen. Who is in charge? You are in charge of 
this?
    Dr. Rice. Well, I wouldn't go that far, no, sir.
    Mr. Frelinghuysen. No, I say I think we are interested in 
making sure we get this right.
    Mr. Dicks. We are interested in data centers, and we are 
working with the intelligence community. I mean, this is 
happening with Google, with all the major companies are having 
to come up with these data. Sometimes they are leased; 
sometimes they are bought. We are just interested in this. I 
mean, we would like to know, who is going to make the decisions 
about location?
    Dr. Rice. That will be a Department level decision because 
it involves not just the health record, but involves a number 
of business processes in the Department as well as the secure 
transmittal of sensitive information.
    Admiral Mateczun. Sir, the device chairman, General 
Cartwright, heads up technology panels, and he is working very 
closely with all of the information systems people within the 
Department and all of the wickets that you have to go through 
with not only the intelligence community but with the health 
community as well. And so----
    Mr. Frelinghuysen. Just so I understand, the panels that 
you put together, you know, for these purposes, they are going 
to trump the services in terms of what they historically have 
done collecting data and information on their own?
    Dr. Rice. Well, I think the----
    Mr. Frelinghuysen. I know, once people enter the system, 
you sort of own them. But I am just wondering here.
    Dr. Rice. Well, there are certainly requirements that each 
of the services has to manage its particular operational 
requirements. Then there is a collective set of information 
that has to be used across the entire Department. The 
electronic health record would be one example of that. The 
system that defines eligibility for commissary or health care 
privileges would be another such system.
    Mr. Frelinghuysen. You have got a lot of systems now. It is 
apparent you are going to have a lot of systems in the future. 
And you are obviously going to be able to marry them because we 
are in a world of technology where these things are possible. 
Sometimes maybe you don't want to have them too married, 
because then you endanger probably somebody bringing perhaps 
the whole damn system down.
    Dr. Rice. Yes, sir. To go back to your earlier question, 
how the network architecture is laid out is under, that is 
General Cartwright's area of responsibility. Defining what the 
applications look like in the health care environment, that is, 
how does a nurse collect vital sign information, how does a 
physician write electronic orders, that comes under Health 
Affairs.
    Mr. Frelinghuysen. So you are giving us a high level of 
assurance we are going to get this right?
    Dr. Rice. Yes, sir. We have to get it right.
    Mr. Frelinghuysen. Thank you, Mr. Chairman.
    Mr. Dicks. Mr. Kingston.

               LATEST MEDICAL TECHNOLOGIES AND EQUIPMENT

    Mr. Kingston. Thank you, Mr. Chairman.
    Dr. Rice, I am interested in this situation that Mr. 
Frelinghuysen mentioned about medical equipment. Whenever I go 
to the hospital, and I have been on the operating table and 
visited lots of friends and have doctor friends, I am just 
amazed at the advancement and development of medical 
technology. And you know, I think doctors are really smart 
people, but the people who design this equipment must be 
geniuses. It is incredible the evolution of these things. And 
you think back to your own BlackBerry, you would never use a 
BlackBerry that is 3 years old. And can you imagine what we 
will be using 3 years from now. Yet, at the same time, the 
military, you know, is known for its red tape. And getting that 
equipment in and deciding which ones are good and which ones 
are bad, I have seen, for example, in education, they finally 
get smart boards, and we haven't seen any real results on it. 
It is a fun play toy, and it gives teachers a novelty factor, 
and they get enthusiastic about it, but 2 years later, they 
realize they haven't really done much. And that happens with--I 
think it is right and proper to do things, but some of these 
are just gee-whiz gadgets, and they are only gee-whiz. Some of 
them really do work, and some of them don't. And I know, for 
example, MRIs really haven't wiped out the use of a CAT scan, 
that you can still go back, and you need the balance. But how 
do you manage that picking and choosing the equipment, getting 
it in there, getting rid of the bad stuff, embracing the good 
and moving on quickly?
    Dr. Rice. You have put your finger on a very complex 
problem that confronts all of health care; certainly, I can 
only speak with any knowledge about that. Having been 
responsible for a large university health care system before I 
came to the Department of Defense, I regularly had a parade of 
various physician advocates who would come into my office 
assuring me that this latest gadget was exactly what we needed 
to take better care of patients with not much evidence 
frequently. We have to establish a better evaluation process 
for comparing new technologies against existing technologies. 
And where existing technologies really have been supplanted, 
then get rid of them, because the newer one is better. Or 
alternatively, the newer one may look fancier, may have more 
dials and lights and whistles on it, but in fact does not do a 
better job than what we have now. It is an enormously complex 
problem. The Department exists only as a microcosm of that 
within the larger picture of American health care.
    Mr. Kingston. You know, getting back to Mr. Frelinghuysen's 
statement, I think this committee wants to be supportive of you 
getting the good equipment but I think would also be very 
supportive of whatever red tape reforms you need in order to 
flow. And it is not just money. And I think often at the VA 
system, you know, no one--it is unpatriotic to suggest the VA 
system isn't efficient, but let's all be honest with ourselves, 
the emperor is naked in many cases, and we don't want to admit 
it. But the VA system is very bureaucratic. I know, in my own 
district, we have been trying to get a VA clinic open now for 3 
years that was supposed to be operating in July of 2008, and we 
still don't even have a location. It is just absurd how 
inefficient it is.
    So I think what we would like to see from testimonies like 
yours is not always, you know, and you are not asking for 
money, but you know, what are some of the reforms that we can 
give you to allow you to get the stuff in and out?
    Dr. Rice. Yes, sir. I don't think this is primarily a red 
tape problem. I think it is more of a conceptual problem of how 
we undertake an honest evaluation of new technologies against 
existing technologies. And as I said, this is something that 
the entire country, in fact the entire world, grapples with.

                        Remarks of Mr. Kingston

    Mr. Kingston. Mr. Chairman, I need to take one other 
second. I know Dr. Rice had a proper education at America's 
finest University of Georgia. Are you an Athenian or are you 
from Atlanta?
    Dr. Rice. No, sir, I am an Athenian. In fact, your father 
and my father were on the faculty together.
    Mr. Kingston. That is what I thought. I used to read to 
your little brother Will when my parents would go over to your 
house, and you were already in the Navy at the time. And your 
sister Ida and I were the same age, but my job was to read to 
Will so that the parents could carry on in the next room and I 
think sip their Brandy uninterrupted by your little brother.
    Mr. Dicks. Sounds good.
    Mr. Kingston. Yeah. It should stay on the record. But we 
have known the Rice family for many, many years.
    Dr. Rice. Yes, sir.

                          FINAL PERSONNEL PLAN

    Mr. Dicks. All right. Going back to the employment issue, 
is it true that there is no final personnel plan yet? Is that 
true, or are you close to one?
    Admiral Mateczun. Sir, what I have learned is that there is 
a vast difference between the manpower and the personnel 
communities. And one is about spaces, and the other one is 
about faces. And you know, the spaces have to have resources 
attached to them. And we are working out the final MOU with the 
services for those manning documents that have--the spaces are 
there. We are figuring out how many of them have money attached 
to them, and then we match the spaces to the faces after that. 
So I believe that the answer would be, it is not final and it 
may never, never completely be. We do have an internal, an 
intermediate manning document that we are constructing. We will 
get to memoranda of agreement with the services on what they 
resource those memoranda to.
    Mr. Dicks. All right.
    Any other questions? The committee will stand adjourned 
until 10:00 a.m. tomorrow in H-140, when we will hold a hearing 
on the Defense Health Program and Wounded Warrior Programs. 
Thank you very much.
    [Clerks Note.--Questions submitted by Mr. Young and the 
answers thereto follow:]

    Question. Dr. Rice, I understand that JTF CAPMED has been given 
command responsibilty for the new Joint Pathology Center in Bethesda, 
and the National Tissue Repository developed and currently maintained 
by the Armed Forces Institute of Pathology. Can you provide us with a 
summary of your plans for the center, its leadership, and how you will 
assure that it develops its operations at ``world class'' standards?
    Answer. The plan for the Joint Pathology Center (JCP) is to allow 
for the provision of diagnostic subspecialty consultation, education, 
training, research and maintenance, and moderization of the tissue 
repository in support of the Department and other federal agencies. To 
lead this effort, an interim director of the JPC was appointed in 
December 2009. We will assure that it develops according to ``world-
class'' standards by applying the best technology and expertise to the 
Center.
    Question. Dr. Rice, the Secretary's Defense Health Board (DHB) has 
provided a series of recommendations that it believes are necessary for 
optimal development of the Joint Pathology Center. Have those 
recommendations been fully incorporated in your planning? Please 
provide for the record, each recommendation and its disposition in your 
planning.
    Answer. Yes. The Joint Task Force is very appreciative of the input 
provided by the Defense Health Board and has utilized it extensively in 
refining the plan for the Joint Pathology Center (JPC). We fully 
assessed the DHB recommendations and vast majority were incorporated 
into the plan. The recommendations and their responses are as follows:
                       clinical scope of service
    1. Define the scope of subspecialty services provided by the JPC.
    Subspecialty services provided to the federal agencies will 
include: dermatopathology, neuropathology and ophthalmic pathology, 
urologic pathology, nephropathology, cardiovascular pathology, 
gastroenterologic and hepatic pathology, gynecologic and breast 
pathology, infectious disease pathology, pulmonary pathology, 
environmental pathology, full-service state-of-the-art molecular 
pathology laboratory, oral and neuroendocrine pathology, 
hematopathology, and soft tissue and bone pathology. Additionally, the 
JPC will provide muscle biopsy interpretation and Environmental and 
Biophysical Toxicology laboratory services. Radiology-Pathology 
consultation and correlation will be provided by the Department of 
Radiology at Walter Reed National Military Medical Center (WRNMMC).
    2. Define In-theater support provided by the JPC.
    There are four tiers of support in the continuum of care when 
considering in-theater support and support of the combat mission. 
Additionally, there is support of the Armed Forces Medical Examiner 
mission.
    a. Provided support to the deployed pathologist through 
telepathology and surgical pathology consultation and the rapid 
diagnosis of such infectious agents such as Leishmaniasis. Recognizing 
that the deployed pathologist has limited access to continuing medical 
education opportunities, one focus of the JPC mission will be to 
provide robust on-line education in order to help meet those needs. 
Additionally, the Veterinary Pathology Service will provide pathology 
consultative support for working animals in-theater.
    b. Provision of services to Medical Treatment Facilities (MTF) 
providing direct support to in-theater operations. The JPC will provide 
consultation, and telepathology support to those MTFs with an emphasis 
on quality and turn-around-time. Additionally, imbedded fragment and 
Environmental/Biophysical Toxicology analysis and muscle biopsy 
interpretation are available to support those services.
    c. Provision of services to stateside MTFs providing care to the 
wounded warrior. In addition to the services described in item 2b, the 
JPC will provide support to clinical and research initiatives centered 
on warrior care such as the Combat Wound Initiative and the Traumatic 
Brain Injury program.
    d. Provision of services to the Veterans Administration in support 
of long term care of wounded warriors. In addition to provided the full 
spectrum of consultative services and support as described above, the 
JPC will support VA clinical and research initiatives such as the VA 
Depleted Uranium Follow-up Program.
    3. Define the scope of service for telepathology provided by the 
JPC.
    The mission of telepathology is to provide surgical pathology 
consultation to distant military medical treatment facilities with an 
emphasis on provision of support for pathology in-theater and remote 
locations throughout the contiguous United States and outside 
continental United States. At full operating capability (FOC), the JPC 
will continue the Armed Forces Institute of Pathology (AFIP) mission of 
providing consultation by telepathology to the DoD and VA. In 
consultation with its' federal government stakeholders, the JPC will 
develop a detailed ``enterprise-wide'' solution to providing 
appropriate telepathology services including formal consultation, 
quality assurance, and primary consultation for smaller facilities. 
Telepathology will also be utilized for video teleconferences in 
support of the education mission.
    4. Define level of support provided to the Armed Forces Medical 
Examiner System.
    The JPC will provide full-service support to the critical Office of 
Armed Forces Medical Examiner (OAFME) mission. This includes full-
spectrum pathology subspecialty consultation, including gross brain and 
heart dissection and neuropathology and cardiovascular consultation, 
support of the OAFME Forensic Toxicology mission by the Environmental/
Biophysical Toxicology Laboratory, and immunohistochemical/ special 
stain support. The JPC will support the OAFME live courses and 
collaborate and support ongoing research initiatives. The level of 
support for the OAFME mission has been discussed and carefully 
coordinated with the Armed Forces Medical Examiner.
    5. Identify the process of handling individual cases, including 
accession, triage, disposition, flow, reporting, and quality assurance.
    This process is evolving as we review and evaluate options for 
laboratory information systems and appropriate tracking mechanisms as 
well as work on developing a comprehensive Quality Management System 
for the JPC. The JPC will accession specimens at WRNMMC (utilizing a 
dedicated area and staffing) that will ensure the integrity of the 
specimen/case submitted and identify and provide all reports for 
previous specimens accessioned to the specific patient. The JPC will 
have a robust courier system from WRNMMC to the JPC that will transport 
cases to the JPC. Dedicated administrative personnel at the JPC will 
distribute the cases to the appropriate subspecialty for assignment to 
a specific pathologist.
    6. Recommend that the Department pursue funding sources with other 
federal agency stakeholders.
    Upon delegation of the JPC mission to the JTF, the JTF began work 
on refining the funding requirements for the JPC and is working with 
Health Affairs to secure funding for FY2011. The funding of the JPC 
will be programmed funding handled in a manner similar to other 
organizations within the JTF. As the major federal stakeholder in the 
JPC, the VA has expressed support for funding of the JPC as the level 
currently provided to the AFIP. We are working closely with the VA to 
refine the funding requirements necessary to support the services 
provided to the VA. As we bring other federal stakeholders on board, 
the JPC will seek similar agreements for funding.
    7. Recommend positioning of JPC directly under JTF CapMed 
leadership rather than as a component of hospital-based pathology 
department.
    As delineated in the final Concept of Operations, the Joint 
Pathology Center is situated within the headquarters of the Joint Task 
Force National Capital Region Medical (JTF CAPMED) as an organization 
distinct for the Medical Treatment Facilities and the Centers of 
Excellence.
    8. Recommend establishment of a governance board of federal agency 
stakeholders.
    9. Recommend that the governance structure ensures that stakeholder 
interests receiving significant support.
    (Answer to 8 and 9): The Joint Task Force established a Board of 
Advisors, consistent with other similar organizations. The Board of 
Advisors will be comprised of key stakeholders in the JPC will advise 
the Director of the Joint Pathology Center on matters such as services 
provided, organizational structure, function, and responsibilities. The 
Board of Advisors will be comprised of a senior pathologist nominated 
by each of the military services and other nonmilitary governmental key 
stakeholder organizations. Representation from key stakeholders will 
ensure that stakeholder interests and needs will be appropriately 
addressed by the JPC.
    10. Ensure periodic assessment of resources in order to meet 
mission.
    The JPC will utilize input from stakeholders, the Board of 
Advisors, and from the JPC pathology staff in determining additional 
services provided by the JPC. The placement of the JPC within the 
headquarters of the JTF will allow for a streamlined and expeditious 
review and resourcing for such new requirements.
    11. Apply business principles such as LEAN design to make JPC as 
cost efficient as possible.
    The JTF and JPC has applied appropriate business principles in the 
development of the plan for the JPC including utilizing nationally 
recognized Task Force recommendations for histology and 
immunohistochemistry laboratory testing.
    12. Performance metrics should be developed in order to ensure 
success.
    The Quality Management Plan will define the specific requirements 
for turn-around-time and other quality indicators (performance metrics) 
and will include a process for monitoring critical indicators and 
appropriately addressing issues. Expectations of the JPC include a 
`case-received-by-WRNMMC to assignment-to-responsible-pathologist' of 
only a few hours, next shift turn-around of all special stains and 
recuts (i.e special stains are with the responsible pathologist by next 
shift), appropriate timeliness of consultation, communication of 
unexpected results with submitting pathologist, and timely faxing of 
reports. Additionally, quality indicators and metrics will be 
established for other ancillary studies such as molecular studies, 
biophysical toxicology studies, and electron microscopy.
    13. Organizational structure sufficiently flexible for 
collaborative relationships with non-Federal entities to provide 
education component.
    The JPC envisions opportunity for collaborative relationships with 
non-Federal entities to provide continuing medical education.
    14. Recommend appropriate technical staffing be included to provide 
the necessary support of the specialty pathology personnel.
    15. Staffing needs to address levels of experience among 
pathologists (i.e. staffing with relatively junior pathologists vs. 
senior more experience pathologists).
    (Answers to Recommendations 14 and 15) Additional pathology and 
support and administrative staff in histology, molecular services, 
education and research, tissue repository, Automated Central Tumor 
Registry (ACTUR), and logistical support. The addition of more 
pathologists will allow for senior and experienced pathology oversight 
of consultation and other services and will allow for mentoring and 
development of more junior staff while ensuring quality of consultative 
services provided by the JPC. The addition of additional support and 
administrative staff will allow for better and timely workflow, 
enhanced services, and better support the pathologists in consultation, 
education, and research.
    16. Recommend that JTF CapMed conduct a full man-power allocation 
review.
    The Commander, Joint Task Force National Capital Region Medical 
appointed an Implementation Team and, later, a Transition Team 
consisting of pathologists from all three services, the VA, Uniformed 
Services University of the Health Services (USUHS), AFIP, as well as 
technical personnel from the JTF, Health Affairs, and Army Executive 
Agent. The teams reviewed the Concept of Operations in detail, identify 
any gaps in services, personnel, and resources and made recommendations 
that were ultimately included in the final Concept of Operations. 
Additionally, reviews of technical and administrative support 
(personnel, space, and resourcing) of the JPC were provided by the 
administrative shops of the JTF and were incorporated into the staffing 
plan and the final Concept of Operations.
    17. The JPC should conduct a survey of other federal agencies to 
determine their current and future pathology needs.
    18. Federal agencies should identify areas of subspecialty support 
needed.
    19. Plan should ensure that the equity of all Federal agencies is 
considered in the services provided by JPC.
    (Answer to 17-19): The Joint Pathology Center utilized the workload 
data from the AFIP in helping to construct the Concept of Operations. 
Additionally, we have engaged our major federal government stakeholders 
(VA and NIH) in this process. The VA has expressed the need for 
extensive pathology consultative support, an established quality 
assurance review mechanism for their pathology cases, support of the 
Depleted Uranium Follow-up Program, and continuing medical education 
support for their pathologists. The NIH has expressed an interest in 
limited use of the consultative services as well as opportunity to 
partner or utilize the Tissue Repository in support of clinical 
research initiatives. These were all considered and incorporated into 
our Concept of Operations.
    20. Consider legal issues when non-DoD entities have access to 
tissue.
    21. Delineate access and usage limits of resources.
    22. Define route of access to specimens for civilian sector.
    23. Consider funding streams from collaborative agencies with 
industry.
    (Answer to 20-23). The JTF is fully and carefully utilized the 
repository in such a manner that ensures sustainability and allows for 
support of critical clinical research within the federal government and 
with civilian academic institutions. Given the limited utilization of 
the Tissue Repository specimens in the past, the JTF also strongly 
believes that a careful and considered approach that engages our 
stakeholders and encourages strategic partnerships is necessary to 
fully develop a plan for utilization of the Tissue Repository for 
research. The findings and recommendations of the Tissue Repository 
Consensus Conference (2005) and the Asterand Corporation will be 
utilized. Additionally, the JPC will include a way to more fully 
utilize the assets of the Tissue Repository for clinical care and 
education. The JTF is currently working with Health Affairs to contract 
for the required expertise necessary to help develop a strategic vision 
and plan for the modernization and utilization of the Tissue 
Repository.
    24. Research agenda should not be developed autonomously but rather 
through DoD health research management process.
    25. Process for criteria, inclusion, and prioritization for 
protocol approval must be clearly defined in strategic plan.
    (Answer for recommendations 24 and 25). The JPC will provide 
opportunity for pathology research through established IRB approval 
processes and funding mechanisms with the JTF. The JPC will provide 
opportunity for collaborative research with Uniformed Services 
University of the Health Services (USUHS), military and VA Medical 
Treatment Facilities, and civilian organizations through established 
processes within the JTF. The JPC will support clinical research 
initiatives such as the Traumatic Brain Injury and will utilize the 
Environmental/ Biophysical Toxicology laboratory to support current and 
future research initiatives. The JPC will expand the opportunity for 
utilization of ACTUR and Cohort Registry Data to be used for 
collaborative research efforts. A careful plan will be developed to 
allow for appropriate utilization of the Tissue Repository in research 
efforts throughout the federal government and civilian organizations.
    26. Define contributions provided by USUHS.
    The JPC is working with USUHS to provide continuing medical 
education credit for its online courses. Initially, we envisioned that 
USUHS would provide the administrative support for the online course 
material but have since incorporated that into the JPC as an intrinsic 
function. The JPC will also actively engage USUHS staff in helping to 
identify and develop course content for its online education and will 
support USUHS live courses.
    27. Define the level of Graduate Medical Education support that 
will be provided by JPC.
    The final Concept of Operations better delineates the scope of 
graduate educational opportunities to be provided by the JPC including 
support of graduate medical education within the federal government 
through onsite rotations with subspecialists, extensive support of the 
National Capital Consortium Dermatopathology Fellowship and the Navy 
Oral Pathology Residency Program, and provision within the JPC of the 
Veterinary Pathology Residency Training Program.
    28. Recommend opportunities for collaboration and development with 
other professional organizations.
    Through strategic partnerships, the JPC envisions ample opportunity 
to collaborate with other professional organizations in the development 
and offering of educational activities.
    29. Incorporate a method for adopting educational programs.
    30. Consideration of broad spectrum of interest areas when 
determining the continuing education provided by the JPC:
    (Answer to Recommendations 29 and 30): As delineated in the final 
Concept of Operations, refinement of the continuing medical education 
resources to be provided by the JPC including teleconferences, 
webinars, on-line courses, and a digital slide repository to support 
Maintenance of Certification requirements and those of low volume and 
deployed providers. The JPC will also expand the scope of educational 
resources to actively involve stakeholders in its educational offerings 
such as cytology and clinical pathology. The JPC will develop and 
update its' educational curriculum based on input from stakeholders and 
end-users as well as based on the needs identified through the 
Specialty consultants.
    31. Strategic plan should include measures to procure equipment.
    The Joint Pathology Center is utilizing established procurement 
processes with the Joint Task Force to procure equipment.
    32. Advises workflow considerations and physical location that 
would allow consolidation of all consultative services.
    Consultative Services are largely consolidated in one location with 
collocation with critical functions such as Electron Microscopy, 
Telemedicine, as well as administrative support and access to the vast 
Tissue Repository.
    33. Advises satisfactory assurance of adequate resourcing.
    The placement of the JPC within the headquarters of the JTF will 
allow for a streamlined and expeditious review and resourcing for such 
new requirements. The JPC recognizes that consultative services need to 
be flexible in terms of support provided to our stakeholders and that 
new missions, additional missions, and emerging technologies will 
arise.
    34. DHB welcomes opportunity to participate in design/review of the 
strategic plan.
    The Joint Pathology Center has engaged the Defense Health Board and 
looks forward to their help in establishing the organization.
    Question. Dr. Rice, what provisions are you making for managing and 
modernizing the National Tissue Repository, and for ensuring continued 
tissue accessions for this valuable resource? How will this resource be 
made available for study to military and civilian medical researchers 
in the future?
    Answer. By policy, the Joint Pathology Center (JPC) is required to 
maintain and modernize the National Tissue Repository and utilize the 
repository, as necessary, in the support of consultation, education, 
and research. The goal of the JPC is to establish itself as the tissue 
repository for the Federal Government. The tissue repository will also 
be used in support of research and education for governmental and 
civilian collaborative efforts. In order to make the repository 
available for medical researchers, JTF CAPMED is working closely with 
the Office of the Assistant Secretary of Defense for Health Affairs to 
find an appropriate reviewer, such as the Institute of Medicine or 
similar organization, to help develop a strategic vision for the JPC 
and a detailed plan.
    Question. Dr. Rice, adequate and appropriate facilities are 
certainly a necessity for this important new medical research entity. 
Since the current labs at AFIP have recently undergone a $60 million 
renovation, have you considered leasing these labs back from GSA to 
allow the two renovated lab floors on the WRAMC campus to be used as 
Joint Pathology Center space until an adequate permanent facility can 
be provided?
    Answer. Yes, the Department considered a leaseback of the Armed 
Forces Institute of Pathology (AFIP) building, but this raised 
significant issues concerning adequacy of force protection requirements 
and base support of post-BRAC use of buildings on the WRAMC campus. The 
Joint Pathology Center will have adequate and appropriate permanent 
space on the Forest Glen and Bethesda Campuses without the AFIP 
building.
    Question. Dr. Rice, I understand that your recent planning assumes 
an FY 2011 budget request of around $22 million for the JPC. This is 
considerably less that the current budget $76 million budget for AFIP. 
Can you explain how you could attempt to cover the assigned mission 
responsibilities at that level while providing a world class center?
    Answer. The Joint Pathology Center (JPC) is not intended to 
replicate all capabilities of the Armed Forces Institute of Pathology 
(AFIP) since many of the functions of the AFIP will be realigned 
elsewhere. The JPC budget was determined largely utilizing AFIP 
workload, identifying efficiencies gained through a new organizational 
structure and function as well as the current budget requirements for 
the specific functions of the AFIP that will be assumed by the JPC. The 
Armed Forces Medical Examiner System and other functions (e.g. Legal 
Medicine) that will be realigned elsewhere account for approximately 
two thirds of the AFIP budget.

    [Clerk's note.--End of questions submitted by Mr. Young. 
Questions submitted by Mr. Rothman and the answers thereto 
follow:]

    Question. Dr. Rice, what actions have been taken by the Department 
to preserve the AFIP capabilities until the new Joint Pathology Center 
is fully operational?
    Answer. The Department has approved a detailed concept of 
operations for the Joint Pathology Center (JPC) on March 31, 2010. With 
the help of AFIP, the JPC will establish its Office of the Director by 
October 1, 2010, and officially assume its mission from AFIP on April 
1, 2011, with the goal of ensuring continuity of clinical care and 
support during the transition. The JPC will achieve full operating 
capabilities by September 2011.
    Question. Dr. Rice, what actions have been taken by the Department 
to establish a Joint Pathology Center? Where will the Center be located 
and when will it be fully operational?
    Answer. The Department approved a detailed concept of operations 
and implementation plan for the Joint Pathology Center (JPC) on March 
31, 2010. The Joint Task Force National Capital Region Medical has been 
working with the Armed Forces Institute of Pathology (AFIP) and the 
Office of Assistant Secretary of Defense for Health Affairs to develop 
personnel, budget, logistics, and information technology plans in order 
to establish the JPC, which will be located on Forest Glen and the 
Bethesda Campus. The JPC is expected to achieve full operating 
capabilities by September 2011.
    Question. Dr. Rice, in order for the Defense Subcommittee to ensure 
it provides adequate funding, please provide a summary of the facility 
and staffing needs of the Joint Pathology Center (JPC) that takes into 
account the vision of the JPC as a world-class facility and recent 
Defense Health Board recommendations.
    Answer. The Joint Pathology Center will require 135 Active Duty and 
civilian staff, approximately $2 million in initial start up costs, and 
approximately $22.5 million in annual operating costs.
    Question.  Dr. Rice, please provide an update on the status of the 
creation of the JPC and its accompanying duties as outlined in Public 
Law No: 110-181 (H.R. 4986, the National Defense Authorization Act) and 
Public Law 111-32 (Supplemental Appropriations Act, 2009).
    Answer. A detailed concept of operations for the Joint Pathology 
Center (JPC) was approved on 31 March 2010 that incorporates these 
statutory requirements as part of the JPC's establishment. JPC will 
establish its Office of the Director by October 1, 2010 and officially 
assume its mission from the Armed Forces Institute of Pathology (AFIP) 
on April 1, 2011, with the goal of ensuring continuity of clinical care 
and support during the transition. The JPC will achieve full operating 
capabilities no later than September 2011.
    As section 722 of the National Defense Authorization Act 2008 
required, the JPC shall function as the reference center in pathology 
for the Federal Government. The law requires the JPC to provide, at a 
minimum, the following services:
    1. Diagnostic pathology consultation services in medicine, 
dentistry, and veterinary sciences.
    2. Pathology education, to include graduate medical education 
(residency and fellowship programs), and continuing medical education.
    3. Diagnostic pathology research.
    4. Maintenance and continued modernization of the Tissue Repository 
and, as appropriate, utilization of the Repository in conducting the 
activities described in paragraphs (1) through (3).

    [Clerk's note.--End of questions submitted by Mr. Rothman. 
Questions submitted by Mr. Dicks and the answers thereto 
follow:]

    Question. Dr. Rice, an integrated delivery system must be operated 
and managed as a single entity with a regional, unified view of 
acquiring materials, procuring training personnel and coordinating 
administrative tasks. To accomplish this unified medical mission, the 
medical services of the Army, Navy, and Air Force in the National 
Capital Region (NCR) will integrate to ensure the best utilization of 
resources available which will eliminate redundancies, enhance clinical 
care, promote health professions education and joint training, and 
enhance military medical research opportunities. This integration will 
also further the growth of transformative efforts with government, 
community and private sector partners.
    Please describe for the Committee the importance of realizing an 
integrated health care delivery system as the Department implements the 
Base Realignment and Closure (BRAC) Act of 2005 in the NCR and moves 
toward achieving world-class medical care.
    Answer. The Department recognizes the importance of realizing an 
integrated delivery system (IDS) as this will achieve a synergy among 
military health care delivery systems. As the IDS is refined, it will 
continue to promote efficiency through regional consolidation and 
collaboration and enhance the quality of health care by reducing 
variance. The new Walter Reed National Military Medical Center and Fort 
Belvoir Community Hospital will be established as joint hospitals that 
will operate from an integrated regional perspective. This will enhance 
patient care in many ways to include common models for primary care, 
specialty care and referrals.
    Question. Dr. Rice, has the Department taken the steps to ensure 
this is going to occur?
    Answer. Yes. The Department is tracking the development of the 
integrated health care delivery system in the National Capital Region 
closely.
    Question. Dr. Rice, has a joint business development plan been 
developed?
    Answer. Yes. The Commander, Joint Task Force National Capital 
Region Medical issued Fiscal Year (FY) 2011-2013 Business Planning 
Guidance to ensure medical readiness, provide quality health care, and 
execute Base Realignment and Closure requirements across the Joint 
Operations Area in the National Capital Region.
    Question. Dr. Rice, please describe current funding 
responsibilities for National Capital Region Medical and how these 
responsibilities will change during the transition?
    Answer. Currently, funding responsibilities for the Joint Task 
Force National Capital Region Medical (JTF CAPMED) as well as the 
Military Treatment Facilities (MTFs) within the National Capital Region 
(NCR) are managed through the Service Medical Departments with either 
BRAC funds or Defense Health Program funds for on-going operating 
expenses.
    JTF CAPMED has visibility of both the Army and Navy financial 
systems to ensure funds are appropriately received, obligated and 
executed. TRICARE Management Activity (TMA) and JTF CAPMED reconcile 
the obligations and execution data regularly and conduct semi-annual 
reviews to ensure the program remains as planned.
    The Department is currently reviewing the most effective authority 
for JTF CAPMED to manage resources for its assigned forces during the 
transition and post-BRAC. It will provide details on this in its 
submission required under section 2714(c) of the National Defense 
Authorization Act (NDAA) for Fiscal Year 2010 that is due to Congress 
by 30 June 2010.
    Question. Dr. Rice, has the hospital and/or JTF CAPMED formed a 
relationship with the installation, i.e. Navy Installations Command?
    Answer. Yes. The relationship has been formed and the issue of 
authority has been refined. Those services and buildings that are not 
directly a part of the Walter Reed National Military Medical Center 
will be operated in direct support of the Medical Center's missions.
    Question. Dr. Rice, the current NCR medical BRAC projects are 
scheduled to be completed by September 15, 2011. The Department 
ecognizes that the NCR medical BRAC construction, initial outfitting 
and transition and relocation timeline for the transition from Walter 
Reed to Walter Reed National Military Medical and Fort Belvoir 
Community Hospital must be accomplished in the next 18 months. The 
integration of the Army and the Navy's two biggest and most prominent 
hospitals: Walter Reed Army Medical Center (WRAMC), and the National 
Naval Medical Center (NNMC) makes it evident that military medicine in 
the National Capital Region (NCR) would never be quite the same, and 
the integration of these two military medical giants would be the model 
for the future of military medicine.
    How will the Department mitigate the risk of possibly serious 
disruptions of medical care during the transition?
    Answer. To mitigate any risk to patient care and safety, the 
Department has hired leading industry experts in hospital transitions 
through a contract with General Dynamics Information Technology (GDIT). 
GDIT has developed plans for key activities, to include the development 
a patient move plan, publication of a move manual, staff training on 
patient movement, and day in the life exercises for operating the new 
facilities and scheduling mock patient move exercises prior to each of 
the internal moves. Additionally, the patient census will be adjusted 
at Walter Reed Army Medical Center (WRAMC) through controlled medical 
regulation of warriors, temporary limitation of elective surgeries and 
procedures at WRAMC, and temporary transferring of services to other 
military treatment facilities in the Joint Operations Area. Inpatient 
and intensive care capability will be maintained at Malcolm Grow 
Medical Center until the end of Base Realignment and Closure.
    Question. How is the Department refining the current risk and issue 
management process to ensure confidence and uniformity in risk and 
issue management at all levels?
    Answer. The Department has refined its approach in the NCR Medical 
to effectively deal with risk and issues collectively. The program's 
risk/issue management objectives are to:
          <bullet> Effectively manage risks through risk 
        identification, assessment, planning, monitoring, and control
          <bullet> Reduce the likelihood that a risk event will occur
          <bullet> Minimize the impact of an issue or risk event
          <bullet> Develop awareness, understanding, and adoption of a 
        structured and standardized JTF-wide risk management process
          <bullet> Refine the risk and issue management process (toward 
        a planned, systematic, complete, objective, repeatable, 
        defined, managed, preventative, qualitative, and quantitative 
        process) to achieve confidence and uniformity in risk and issue 
        management at all levels.
    The Joint Task Force National Capital Region Medical reviews risks 
and issues at every level of command and participates with the Office 
of the Assistant Secretary of Defense for Health Affairs, the Office of 
the Deputy Under Secretary of Defense for Installations and 
Environment, and other DoD staff in regular reviews of the program.
    Question. Dr. Rice, what types of risks or delays has the 
Department been anticipating if any at all?
    Answer. The Department has identified four possible risks or delay 
areas: Facility Construction Timeline and Funding, Accreditation, 
Patient Safety and Human Capital Risk. A further explanation and 
planned response is listed below.
    Facility Construction Timeline and Funding Risk: Intense management 
of construction agencies and the scheduling process of space 
availability to Initial Outfitting & Transition have and will continue 
to mitigate this risk and identify potential shortfalls in time for 
adjustment decisions and/or allocation of resources.
    Accreditation Risk: Maintaining accreditation, patient safety and 
quality of care is also vital to success during transition. A 
combination of JTF CAPMED proactively coordinating with the Joint 
Commission headquarters prior to Initial Operation Capability (IOC) to 
obtain advice, guidance and recommendations, along with a unity of 
effort for joint governance of Walter Reed National Military Medical 
Center (WRNMMC) and Fort Belvoir Community Hospital (FBCH) during the 
BRAC transition, will significantly mitigate the risks to patient 
safety and accreditation lapse.
    Patient Safety Risk: Patient safety is the Department's number one 
priority during the transition. There are inherent risks associated 
with conducting extensive renovations and construction within and 
around an operating medical center. The Department also will mitigate 
risk through deferral of elective care and referral to private sector 
care. During the actual movement of patients from Walter Reed Army 
Medical Center (WRAMC) to the new WRNMMC and FBCH a small percentage of 
routine direct care system patients may temporarily be referred to 
private sector facilities or other military hospitals. Inpatient and 
intensive care capability will be maintained at Malcolm Grow Medical 
Center (MGMC) until the end of BRAC to provide NCR capacity for wounded 
warrior or other critical care during the transition period.
    Human Capital Risk: The loss of skilled and experienced human 
capital affects the ability to sustain world-class care and is 
therefore a significant risk. Utilizing a workforce mapping model to 
execute the Guaranteed Placement Program (GPP), the Department will be 
able to place the vast majority of WRAMC permanent government civilians 
at their desired work locations performing the work they want to do and 
will provide reassignment opportunities and career progression 
opportunities that do not exist today.
    Question. Dr. Rice, please describe the scope of the transition in 
terms of beneficiaries and physicians and other personnel.
    Answer. The transition will entail the movement or realignment of 
approximately 19,000 direct care enrollees, 4,300 Active Duty Service 
members, and 2,100 government civilian employees currently at Walter 
Reed Army Medical Center (WRAMC), National Naval Medical Center, and 
DeWitt Army Community Hospital.
    Question. Dr. Rice, the Department estimates the total cost of 
newly identified requirements associated with achieving a world-class 
standard of care at Bethesda is $781 million. The projects, to include 
converting to single-patient rooms and replacing and renovation of 
older infrastructure on the campus, require a mix of Military 
Construction and Operation and Maintenance funding. The fiscal year 
2011 budget request does not include funding to support the additional 
requirements that have been identified by the Master Plan.
    Can you provide for the Committee a listing of the types of 
projects that the $781 million the funds would accomplish?
    Answer. The table below depicts the projects that comprise the $781 
million:


----------------------------------------------------------------------------------------------------------------
                                                                                                     Estimated
                 Project                          Description                Funding Type            Cost ($M)
----------------------------------------------------------------------------------------------------------------
Comprehensive Clinical Expansion........  New Construction,           MILCON/O&M................     $651M ($567
                                           Renovation, Demolition,                                    MILCON $84
                                           Parking Garage, Temporary                                        O&M)
                                           Facilities, Outfitting
                                           and Transition,
                                           Commissioning, AT/FP,
                                           Enhanced Building
                                           Information Systems..
Installation Upgrades...................  Pedestrian Ways, Vehicular  MILCON....................             $85
                                           Access, Plazas,
                                           Childcare, Utility
                                           Infrastructure, Etc.
Medical Center Technology...............  Smart Technology, RTLS,     O&M.......................             $30
                                           External SONET.
Installation and Medical Center           Campus Way finding and      O&M.......................             $15
 Environment.                              Master Planning.
                                         -----------------------------------------------------------------------
    Total...............................  ..........................  ..........................            $781
----------------------------------------------------------------------------------------------------------------

    Question. Dr. Rice, how will the already world-class amputee care, 
prosthetics care, and rehabilitation centers be established in the new 
facility?
    Answer. The world-class centers will be established by the 
following: most of one whole floor in the new WRNMMC outpatient clinic 
addition (Building A) will be dedicated to physical medicine modalities 
with additional services and diagnostic support provided on two other 
floors. Over 115,000 sq. ft. is dedicated to Physical Therapy, Physical 
Medicine and Rehabilitation, Occupational Therapy, Amputee Center, 
Orthotics, Prosthetics, Chiropractic Services, Orthopedics, Podiatry, 
and a satellite Laboratory, Radiology, and Pharmacy on the first three 
floors of the new outpatient clinic. This represents the largest 
physical medicine footprint in all of the Department of Defense and 
will continue to provide WRAMC's current capabilities in the care of 
amputees and the manufacture and adjustment of state-of-the-art upper 
and lower extremity prosthetics.
    Physical therapy plays a major role in the rehabilitation of 
amputees, traumatic brain injured and psychologically injured patients. 
Clinical space in the new clinical building outlined above and in the 
inpatient areas have been designed to offer the best medical care to 
these injured patients. Appropriate personnel have been designated on 
the current manpower document to complete the mission in these areas.
    Question. Will this require additional funding as well?
    Answer. No, we do not require any additional funding at this time.
    Question. Dr. Rice, what other projects beyond the ones outlined in 
the Master Plan may be needed in the Nation Capital Region to provide 
world-class care?
    Answer. At this time, no other projects beyond the Master Plan are 
needed. The current Military Construction (MILCON) funding projections 
complete the known requirements to achieve those attributes of the new, 
statutory world-class medical facility standard at Walter Reed National 
Military Medical Center. These are based upon the best available 
planning information, and, specifically, the Medical MILCON components 
are based upon the latest Department of Defense cost guidance.

    [Clerk's note.--End of questions submitted by Mr. Dicks.]


                           W I T N E S S E S

                              ----------                              
                                                                   Page
Carpenter, Major General R. W....................................   153
Flynn, Lieutenant General G. J...................................    75
Gates, Hon. Robert...............................................     1
Hale, Robert.....................................................     1
Mateczun, Vice Admiral John......................................   201
McKinley, General C. R...........................................   153
Mullen, Admiral Michael..........................................     1
Phillips, Lieutenant General W. N................................    75
Rice, C. L.......................................................   201
Robyn, Dorothy...................................................   201
Stultz, Lieutenant General J. C..................................   153
Wyatt, Lieutenant General H. M., III.............................   153

</pre></body></html>
